           Pakistan and Afghanistan




               AFGHANISTAN



                                PAKISTAN




              Arabian Sea


                      September 30, 2011


                  WASHINGTON, DC 20523
1300 PENNSYLVANIA AVENUE NW, SUITE 6.6.101, WASHINGTON, DC 20523
                            Pakistan and Afghanistan

                                                       Contents
Tab                                                                                                                            Page

1. Executive Summary ............................................................................................................... 1

2. Office of Inspector General—Overview ................................................................................. 5

                                                            Pakistan
3. Pakistan—Introduction .......................................................................................................... 7

4. Pakistan Performance Audit Findings and Recommendations .......................................... 11

5. Pakistan Financial Audit Findings ...................................................................................... 17

6. Planned Performance Audits of USAID/Pakistan-Funded
   Activities—Fiscal Year 2012 ................................................................................................. 23


                                             Pakistan Performance Audits

7. Pakistan Performance Audits—Fiscal Year 2011

          USAID/Pakistan’s Community Rehabilitation Infrastructure (August 2011) ..................... 27

          USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under the Quick Impact
          Projects in South Waziristan (June 2011) ......................................................................... 31

          USAID/Pakistan’s Management of Preaward Assessments (May 2011) ............................. 34

          USAID/Pakistan’s Flood Relief Efforts as Administered by Local
          Nongovernmental Organizations (January 2011) ............................................................. 37

          USAID/Pakistan’s Livelihood Development Program for the Upper Region of the
          Federally Administered Tribal Areas (December 2010) ....................................................... 39

          USAID/Pakistan’s Livelihood Development Program for the Lower Region of the
          Federally Administered Tribal Areas (December 2010) ...................................................... 42
 8. Pakistan Performance Audits—Fiscal Year 2010

           USAID/Pakistan’s Family Advancement for Life and Health Program
           (August 2010) ............................................................................................................... 45

           USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
           Decentralization in Earthquake-Affected Areas Project (June 2010) .................................... 47

           USAID’s Internally Displaced Persons Programs in Pakistan (June 2010) ............................ 49

           USAID/Pakistan’s Capacity Building Program for the Federally Administered
           Tribal Areas Development Program (January 2010) ........................................................... 52

 9. Pakistan Performance Audits—Fiscal Year 2009

           USAID/Pakistan’s Earthquake Reconstruction Activities (November 2008) ......................... 55

10. Pakistan Performance Audits—Fiscal Year 2008

           USAID/Pakistan’s Education Sector Reform Assistance Program
           (March 2008) .................................................................................................................. 57

11. Pakistan Performance Audits—Fiscal Year 2007

           Selected Activities Under USAID/Pakistan’s Basic Health Program
           (May 2007) ..................................................................................................................... 59

12. Pakistan Performance Audits—Fiscal Year 2004

           Risk Assessment of Major Activities Managed by USAID/Pakistan
           (October 2003) ................................................................................................................ 61

13. Pakistan Performance Audits—Fiscal Year 2003

           USAID’s Bureau for Asia and the Near East Monitoring of the
           Government of Pakistan’s Compliance with the Provisions of
           USAID Grant No. 391-K-005 (January 2003) .................................................................. 63

                                               Pakistan Investigative Activity

14. Pakistan Investigative Case Work and Fraud Prevention Briefings .................................... 65

15. Pakistan Investigative Summaries ........................................................................................69




                                                                       ii
                                                            Afghanistan

16. Afghanistan—Introduction ................................................................................................... 73

17. Afghanistan Performance Audit Findings and Recommendations ..................................... 77

18. Afghanistan Financial Audit Findings ................................................................................. 93

19. Planned Performance Audits of USAID/Afghanistan-Funded
    Activities—Fiscal Year 2012 .................................................................................................99

                                             Afghanistan Performance Audits

 20.      Afghanistan Performance Audits—Fiscal Year 2011

           USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health in Support
           of the Partnership Contracts for Health Services Program (September 2011) … ..................... 105

           USAID/Afghanistan’s Afghanistan Civilian Assistance Program (August 2011) … ............. 109

           USAID/Afghanistan’s Support to The Electoral Process (STEP) and Support for Increased
           Electoral Participation in Afghanistan (IEP) Programs (June 2011) … ................................ 112

           USAID/Afghanistan’s Portion of the Embassy Air Program (June 2011) …......................... 115

           USAID/Afghanistan’s Construction of
           Health and Education Facilities Program (March 2011) … ................................................ 118

           USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis (March
           2011) ............................................................................................................................. 122

           Cash Disbursement Practices Employed by Selected
           USAID/Afghanistan Contractors and Grantees (March 2011) .......................................... 125

           USAID/Afghanistan’s Agriculture, Water, and Technology Transfer
           Program (February 2011) ................................................................................................. 127

           USAID/Afghanistan’s Ministerial Assessment Process
           (November 2010) ............................................................................................................. 130

           USAID/Afghanistan’s Support to American University of Afghanistan (November 2010) ..... 132

           USAID/Afghanistan’s Partnership for Advancing Community-Based
           Education in Afghanistan (October 2010) ........................................................................ 137



                                                                        iii
  21.      Afghanistan Performance Audits—Fiscal Year 2010

            Security Costs Charged to USAID Projects in Afghanistan
             (September 2010) ............................................................................................................ 141

            USAID/Afghanistan’s Alternative Development Program Expansion—
            South West (July 2010) ................................................................................................... 144

            School and Health Clinic Buildings Completed Under the Schools and
            Clinics Construction and Refurbishment Program (June 2010) ............................................ 146

            USAID/Afghanistan’s Oversight of Private Security Contractors in
            Afghanistan (May 2010) .................................................................................................. 148

            USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA)
            Program (April 2010) ....................................................................................................... 151

           USAID/Afghanistan’s Human Resources and Logistical Support
           Program (March 2010) ..................................................................................................... 153

           USAID/Afghanistan’s Building Education Support Systems for
           Teachers Project (January 2010) ........................................................................................ 158

            USAID/Afghanistan’s Civilian Assistance Program (December 2009) ................................. 161

            USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan Infrastructure Rehabilitation
            Program (November 2009) ................................................................................................ 165

22.     Afghanistan Performance Audits—Fiscal Year 2009

            USAID/Afghanistan’s Land Titling and Economic Restructuring in Afghanistan
            Project (June 2009) .......................................................................................................... 169

            USAID/Afghanistan’s Local Governance and Community Development Project
            in Southern and Eastern Regions of Afghanistan (May 2009) .............................................. 171

            USAID/Afghanistan’s Higher Education Project (December 2008) ..................................... 174

23. Afghanistan Performance Audits—Fiscal Year 2008

            USAID/Afghanistan’s Capacity Development Program (September 2008) ........................... 177




                                                                      iv
         USAID/Afghanistan’s Accelerating Sustainable Agriculture Program
         (August 2008) ................................................................................................................. 179

         USAID/Afghanistan’s Small and Medium Enterprise Development Activity
         (June 2008) ..................................................................................................................... 183

         USAID/Afghanistan’s Alternative Development Program—Southern Region
         (March 2008) ................................................................................................................. 185

         USAID/Afghanistan’s Agriculture, Rural Investment, and Enterprise
         Strengthening Program (January 2008) .............................................................................. 186

24. Afghanistan Performance Audits—Fiscal Year 2007

         Selected Follow-On Activities Under USAID/Afghanistan’s
         Economic Program (August 2007) ..................................................................................... 189

         USAID/Afghanistan’s Urban Water and Sanitation Program (June 2007) .......................... 191

         Critical Power Sector Activities Under USAID/Afghanistan’s REFS Program
         (May 2007) ..................................................................................................................... 193

         USAID/Afghanistan’s Alternative Livelihoods Program—Eastern Region
         (February 2007) ............................................................................................................... 195

25.   Afghanistan Performance Audits—Fiscal Year 2006

         USAID/Afghanistan’s School and Health Clinic Reconstruction
         Activities (August 2006) ................................................................................................... 197

         USAID/Afghanistan’s Rural Expansion of Community-Based Healthcare
         (REACH) Program (August 2006) .................................................................................... 199

         USAID/Afghanistan’s Reconstruction of the Kandahar–Herat
         Highway Under the REFS Program (May 2006) ................................................................ 200

         USAID/Afghanistan’s Rebuilding Agricultural Markets Program (March 2006) .................. 201

         USAID/Afghanistan’s Cashiering Operations (January 2006) ............................................ 203

         Funds Earmarked by Congress to Provide Assistance for Displaced Persons
         in Afghanistan (December 2005)....................................................................................... 205

26.   Afghanistan Performance Audits—Fiscal Year 2005



                                                                     v
            USAID/Afghanistan’s Primary Education Program (April 2005) ........................................ 207

            USAID/Afghanistan’s School and Clinic Reconstruction Program
            (March 2005) .................................................................................................................. 209

27.     Afghanistan Performance Audits—Fiscal Year 2004

            Kabul to Kandahar Highway Reconstruction Activities
            Financed by USAID/Afghanistan’s REFS Program (September 2004) ................................. 211

            Sustainable Economic Policy and Institutional Reform
            Support (SEPIRS) Program at USAID/Afghanistan (August 2004) ..................................... 213

            Second Review of the Road Project Financed by USAID/Afghanistan’s REFS
            Program (March 2004) ..................................................................................................... 214

            Review of the Road Project Financed by USAID/Afghanistan’s
            REFS Program (November 2003) ...................................................................................... 216

28. Afghanistan Performance Audits—Fiscal Year 2003

            Risk Assessment of Major Activities Managed by
            USAID/Afghanistan (March 2003).................................................................................. 219

                                            Afghanistan Investigative Activity

29. Afghanistan Investigative Case Work and Fraud Prevention Briefings ................................ 221

30. Afghanistan Investigative Summaries .................................................................................... 229




                                                                       vi
                                   Executive Summary
Overview

This     summary      document         provides         USAID obligations in Afghanistan for FY
information about Office of Inspector                   2002 through fourth quarter FY 2011 totaled
General (OIG) oversight activities in Pakistan          more than $13.2 billion. Since FY 2003, OIG
and Afghanistan since fiscal year (FY) 2003.            has expended nearly $14.8 million in base
                                                        appropriations and supplemental funding to
OIG has strengthened its focus in Pakistan              oversee USAID’s activities in that country.
since the U.S. Agency for International                 From FY 2002 through fourth quarter FY
Development (USAID) reopened its mission                2011, USAID has provided more than $5.2
in 2002. OIG has been providing oversight of            billion to address priority programs in
USAID activities in Afghanistan since 2002 as           Pakistan.     OIG has spent approximately
well. Our oversight activities cover a wide             $6.7 million to provide in-country oversight
spectrum of USAID programs in these two                 through fourth quarter FY 2011. In both
countries, including such areas as relief and           countries, we have adjusted our approach to
stabilization,   reconstruction,     sustainable        ensure the maximum possible oversight of the
development, education, and health care.                increasing levels of assistance provided to local
Our activities help USAID make sure that tax            nongovernmental organizations and host
dollars are being spent wisely and effectively.         governments in the form of project assistance
                                                        and direct budget support.

Results—Fiscal Years 2003 Through Fiscal Year 2011


                      Activities                         Pakistan             Afghanistan
            Performance audits/reviews                       15                     47
            Recommendations made1                            57                    223
            Recommendations closed                           45                    171
            Recommendations open                             12                     52
            Financial audits conducted                       45                    40
            Questioned costs                            $6.2 million          $113.7 million
            Sustained costs                             $3.1 million          $99.7 million
            Investigations opened                            75                    155
            Investigations closed                            51                    93
            Investigations pending                           24                    62
            Referrals for prosecution                         2                    35
            Indictments                                       0                     13
            Convictions                                       0                     9
            Arrests                                          0                     10
            Administrative actions                           18                    87
            Recoveries and savings                     $101.6 million          $163 million
            Fraud awareness briefings                        31                    90
            Attendees at briefings                          760                   1,779




1
    Performance audits only.



                                                   1
Highlights—FY 2011 Third/Fourth Quarter

Audit of USAID/Pakistan’s Management of Preaward Assessments

The Enhanced Partnership with Pakistan Act            mission’s management of the preaward
of 2009 authorized $7.5 billion in U.S.               process. The mission did not prioritize or
government assistance over 5 years to promote         follow up on significant vulnerabilities
an enhanced strategic partnership with                identified in assessments.        Of the 28
Pakistan and its people. In authorizing these         assessment reports completed during fiscal
funds, the act encourages the U.S. President,         year 2010, the 8 selected for testing noted
as appropriate to utilize Pakistani firms and         over 250 weaknesses in the potential
nongovernmental organizations to work with            recipients’ ability to properly manage funds.
local leaders to build local capacity. To             The mission included 55 of the reported
facilitate this strategy, USAID estimated that        weaknesses in the recipients’ agreements and
approximately 50 percent of fiscal year 2010          stipulated that the weaknesses should be
funding, or $750 million, would go through            adequately addressed before or after the initial
Pakistani federal and provincial agencies and         disbursement of funds. The mission did not
local organizations.                                  include or otherwise address the remaining
                                                      195 weaknesses because it did not have a
With the implementation of the strategy to            comprehensive plan for prioritizing and
build Pakistani capacity, concerns have been          determining which of the 250 weaknesses
raised in the media and the U.S. Government           should or should not be prioritized.
that providing too much money to Pakistani
recipients too quickly could jeopardize U.S.          Many weaknesses    resulted from the mission
funds.     USAID Pakistan recognized the              not including in   the recipients’ agreements
challenges and took proactive steps to address        information on      the recipients’ payment
the risks. A key step taken by the mission was        mechanisms and     systems for procurement,
to contract with international and local              accounting and      overall monitoring and
accounting firms to conduct preaward                  assessment.
assessments of potential first-time recipients.
The intent of these assessments is to                 The OIG made four recommendations to
determine whether the recipients can                  help the mission improve various aspects of
effectively manage and account for these              the program. Subsequently, the mission has
funds.                                                fully addressed three recommendations, and is
                                                      taking steps to address the fourth
USAID Office of Inspector issued an audit             recommendation.
report on USAID Pakistan’s management of
pre-award assessments. The audit found that
mission’s preaward process did provide a
reasonable basis for identifying significant
financial    management       vulnerabilities;
however, the audit noted weaknesses in the




                                                  2
Audit of USAID/Afghanistan’s Afghanistan Civilian Assistance Program
The Afghan Civilian Assistance Program was                   open dozens of food bags, and auditors noted
designed to assist Afghan families and                       feces inside and around the bags. Further,
communities that have suffered losses as a                   expired and contaminated food items were
result of military operations against insurgents             mixed together with food that was fit for use.
and the Taliban. The program is implemented                  Other items such as wheelbarrows and shovels
through a $76 million, 4½–year cooperative                   were stored in disorganized piles or even kept
agreement        with     the      International             outside. IOM covered a number of the piles
Organization for Migration (IOM).                            in plastic tarp prior to OIG’s visit; however, it
                                                             was evident the items were badly rusted and
Beneficiaries under the program are generally                not suitable for distribution.
given in–kind assistance, often in the form of
kits that include food, household items,                     In addition to problems with the
school supplies, or tools and equipment for                  commodities, there were also difficulties with
agriculture or small business activities. So far             verifying the beneficiaries.         A report
as OIG could determine, IOM did not adopt                    commissioned by IOM to confirm assistance
any specific criteria or guidelines for                      concluded that at least 34 percent of the
commodity management under the program,                      beneficiaries could not be verified, most likely
and as a result, multiple problems were found.               because of fraud. Moreover, the report’s
For example, because of a lack of inventory                  authors believed that program personnel were
records, IOM staff members were never able                   actively working to undermine the results of
to quantify what materials were in the                       their investigation. Additionally, other funds
warehouses.                                                  were misspent when IOM used more than
                                                             $3.6 million in program funds to purchase
As for the quality of products provided, at                  cars for beneficiaries without USAID’s
various warehouses auditors found large                      approval. Furthermore, OIG determined that
quantities of flour, beans, rice, tomato sauce,              $180,000 embezzled by field staff has not
and cooking oil that had expired, some with                  been properly reimbursed to USAID.
dates as far back as 2004. Rats had gnawed




Wheelbarrows heaped against a wall at IOM’s Lashkar Gah warehouse before the audit visit (left) are later
stacked and covered (right). (Photos by Lashkar Gah security team and OIG, April 2011)




                                                       3
4
                   Office of Inspector General
                                          Overview
The mission of the Office of Inspector                 technology systems.         OIG’s criminal
General (OIG) is to protect and enhance the            investigators are special agents who work
integrity of the U.S. Government’s                     diligently to ensure that those who would
approximately $30 billion annual foreign               illegally divert U.S. Government funds are
assistance program administered in over 100            detected. Our special agents are sworn law
countries by the U.S. Agency for International         enforcement officers who have authority to
Development (USAID), the United States                 carry firearms, execute search warrants, and
African Development Foundation (USADF),                make arrests. Investigations of criminal, civil,
the Inter-American Foundation (IAF), and the           and administrative violations cover all facets
Millennium Challenge Corporation (MCC).                of these worldwide operations.

Who We Are                                             OIG Priorities

OIG is an independent oversight organization           Some of OIG’s work is mandated by statute or
within USAID that derives its primary                  regulation. Other work is performed at our
authorities and independence from the                  discretion after considering the risks
Inspector General Act of 1978 (IG Act),                associated with the agencies’ programs and
Public Law 95-452, as amended.                         assessing potential vulnerabilities in internal
                                                       controls. OIG’s top oversight priorities are:
OIG’s staff of approximately 200 employees—
both Foreign Service and Civil Service—                •     Pakistan
includes      auditors,      certified    public       •     Afghanistan
accountants, investigators, and program                •     HIV/AIDS, malaria, and
analysts, as well as specialists in management,
                                                             tuberculosis
budget,     information       technology,   and
personnel operations. Our fiscal year 2011             •     Iraq
appropriation was $45 million.                         •     Haiti

What We Do                                             Joint Work and Partners

OIG is responsible for conducting and                  Interagency coordination is an important
supervising audits and investigations involving        element of the oversight process. OIG is a key
the programs and operations of USAID,                  participant in the Southwest Asia Joint
USADF, IAF, and MCC. Auditors, certified               Planning Group, led by the Department of
public accountants, and program analysts join          Defense Office of Inspector General. Other
forces to design and conduct audits and                members of the group include representatives
reviews to determine whether agency                    from the Office of Inspector General for the
programs and operations are working as                 Department of State, the Defense Contract
envisioned.                                            Audit      Agency,       the      Government
                                                       Accountability Office (GAO), the Special
Audit activities include performance audits of         Inspector     General      for    Afghanistan
programs, financial statement audits required          Reconstruction, and the Special Inspector
under the Chief Financial Officers Act of              General for Iraq Reconstruction.
1990, Public Law 101-576, as amended, audits
related to financial accountability of grantees        USAID/OIG also chairs the Afghanistan-
and contractors, and audits of information             Pakistan Subgroup, which coordinates
                                                       oversight specifically in those two countries


                                                   5
and issues joint audit plans. This subgroup is       Where We Work
comprised of representatives of the Offices of
Inspector General for USAID and the                  Approximately 70 direct-hire auditor, analyst,
Departments of State and Defense, the                and special agent positions are based overseas,
Government Accountability Office, and the            and the remaining workforce is stationed in
Special Inspector General for Afghanistan            Washington, DC.
Reconstruction.
                                                     OIG has overseas offices in Baghdad, Cairo,
The subgroup acts as the central point for           Dakar, Kabul, Islamabad, Manila, Pretoria,
sharing information and coordinating                 West Bank, San Salvador, Tel Aviv, and Port-
planned audits, reviews, and inspections.            au-Prince.

USAID/OIG also works closely with the                OIG General Information
Office of the Special Representative for
Afghanistan and Pakistan (SRAP).                     To learn more about USAID/OIG and its
                                                     work, visit our Web site at www.usaid.gov/oig
As a member of the National Procurement              or contact us at 202-712-1150.
Fraud Task Force, OIG assists the
Department of Justice in addressing
procurement and grant fraud—especially in
Iraq, Afghanistan, and Pakistan.




                                                 6
                                        Pakistan
                                    Introduction

Background. The primary goals of U.S.                USAID provided more than $5.2 billion
assistance to Pakistan are to tangibly improve       (including emergency economic assistance) to
the lives of the poor and to build support for       address needs in education, health, economic
the Government of Pakistan’s decision to join        growth, and good governance, as well as in
international efforts to thwart terrorism and        earthquake reconstruction assistance. OIG
reduce terrorist recruiting from within the          has historically provided oversight of Pakistan
country.                                             from its regional office in Manila, but it now
                                                     has 12 staff members located in Islamabad.
The U.S. Government reopened the USAID               OIG spent approximately $6.7 million to
mission in Islamabad in 2002. From FY 2002           provide in-country oversight for Pakistan in
through the fourth quarter of FY 2011,               through the fourth quarter of FY 2011.




Results—Fiscal Year 2003 Through Fiscal Year 2011


                             Activities                          Pakistan
                    Performance audits/reviews                       15
                    Recommendations made                             57
                    Recommendations closed                           45
                    Recommendations open                             12
                    Financial audits conducted                       45
                    Questioned costs                            $6.2 million
                    Sustained costs                             $3.1 million
                    Investigations opened                            75
                    Investigations closed                            51
                    Investigations pending                           24
                    Referrals for prosecution                        2
                    Indictments                                       0
                    Convictions                                       0
                    Arrests                                          0
                    Administrative actions                           18
                    Recoveries and savings                     $101.6 million
                    Fraud awareness briefings                        31
                    Attendees at briefings                          760




                                                 7
Performance Audits.             The chart               The agency-contracted audit (ACA) program is
beginning on page 11 depicts the findings of            implemented by USAID on its implementing
the 15 audits we have completed and the                 partners. Financial audits conducted under
status of each of the 57 associated                     this program accomplish numerous goals,
recommendations. Starting on page 27 are                such as improving accountability and internal
narrative summaries of the audits, arranged             control over funds and commodities and
by fiscal year.                                         ensuring compliance with agreements and
                                                        applicable laws and regulations. USAID
OIG’s performance audit work in Pakistan                normally requests an ACA to provide needed
has shown that security conditions have                 audit coverage or to address real or perceived
either hindered program accomplishment or               problems in financial management.
had the potential to create implementation
problems. Fifty-three percent raised concerns           ACAs are usually performed by independent
about security conditions. Our audits also              public accounting firms located in the United
identified trends in inadequate contract                States, but which have overseas affiliates.
oversight or activities management (60                  USAID contracts to have ACA audits
percent) and data integrity or quality issues           conducted, but OIG approves the statement
(27 percent).                                           of work used to procure the audit services,
                                                        monitors the audits, reviews the audit reports,
                                                        summarizes        the       findings      and
Financial Audits. By federal law (31 U.S.C.             recommendations, and performs quality-
Chapter 75), nonfederal entities that expend            control reviews on a limited basis.
$500,000 or more in federal awards annually
are required to have audits conducted in                OIG may also initiate an ACA to address
accordance with Office of Management and                problems concerning a contract, grant, or
Budget (OMB) Circular A-133.          OMB’s             cooperative agreement, and it may enlist the
requirement applies to audits of States, local          services of the Defense Contract Audit Agency
governments, and nonprofit organizations                (DCAA) to conduct incurred cost audits on
based in the United States. Audits conducted            for-profit entities that are not based in the
pursuant to Circular A-133 are sometimes                United States. However, DCAA performs all
referred to as “nonfederal audits.”                     financial audits on U.S.-based, for-profit
                                                        entities.2
USAID        requires      foreign     nonprofit
organizations who expend $300,000 or more               Financial audits performed on USAID’s
in federal funds per year to undergo an annual          implementing partners in Pakistan are
financial audit. These audits follow the rules          reflected in the chart on page 17. Questioned
and procedures contained in the USAID-                  costs are those costs determined by an audit to
produced Guidelines for Financial Audits                not be allowable (e.g., liquor charges billed to
Contracted by Foreign Recipients. These audits          USAID), allocable (e.g., charges that cannot
are generally called recipient-contracted audits.       be tied to a specific contract, grant, or
Firms selected to perform nonfederal audits             cooperative agreement), or reasonable (e.g.,
and recipient-contracted audits must be                 charges       for     25     computers       for
approved by OIG, which then reviews the                 agreement/contracting a staff of 10). The
audits, summarizes the findings and                     USAID agreement officer makes a final
recommendations, and performs quality-
control reviews on a limited basis.                     2
                                                         DCAA may also be called upon to conduct audits
                                                        on nonprofit entities to address concerns over
                                                        noncompliance or problems with financial
                                                        management.




                                                    8
determination on the questioned costs and             When our investigators uncover evidence of
seeks reimbursement from the implementing             probable cause to believe a criminal or civil
partner for any costs sustained.                      crime has occurred, they consult with the
                                                      Department of Justice to determine its interest
OIG has developed relationships with local            in pursuing the matter.
institutions, such as the Auditor General of
Pakistan, to help strengthen the accountability       Investigative findings on administrative
environment.      OIG has entered into a              matters are referred to Agency management
memorandum of understanding with the                  for action. OIG investigators also conduct
Auditor General that will permit the Auditor          fraud awareness briefings to alert participants
General’s audits to be accepted as meeting the        (employees, contractors, and grantees) to
requirement for annual audits of Pakistani            fraudulent practices and schemes and to
Government entities implementing USAID-               provide guidance on how to report fraud if it
funded programs. OIG recently provided a              is encountered. The chart on page 65
financial audit training session, which               summarizes      OIG’s    investigative    work
included a segment of fraud awareness to the          involving Pakistan.
Auditor General’s staff.
                                                      OIG and USAID/Pakistan collaborated to
OIG also uses local accounting firms to               establish an antifraud hotline in Pakistan. The
conduct financial audits in Pakistan. Before          antifraud hotline, was fully operational in
using any local accounting firms for this type        early February, however it was formally
of work, OIG first conducts an assessment of          launched during a fraud-awareness conference
their capabilities to perform the work.               held in Islamabad on February 17, 2011.

Investigations. OIG’s investigative goals are         This 5-year project is funded by a cooperative
to eliminate fraud in contracts, grants, and          agreement between USAID/Pakistan and
cooperative agreements and to prevent serious         Transparency International Pakistan in
misconduct by USAID employees.             To         partnership with the Office of the Inspector
accomplish these goals, special agents conduct        General, although OIG is solely responsible
investigations into possible violations of            for handling complaints received through the
federal laws, rules, and regulations.                 hotline. During the fourth quarter, the
                                                      hotline had received 549 complaints related
In a number of criminal and civil case matters,       to projects funded by USAID and other
OIG has worked closely with local authorities.        organizations through various channels.
We work with the Government of Pakistan’s
Office of Accountability, for example, to
pursue allegations of wrongdoing by local
nationals.




                                                  9
10
                                                          Pakistan Performance Audit Findings and Recommendations
                                                                                                                                                     Total # of    Total #
          No.                    Report Title                   Report Date                      Summary of Findings                                                         Open Recommendations   USAID Response
                                                                                                                                                 Recommendations   Closed
                                                                              The audit found that USAID did not effectively monitor the
                                                                              Government of Pakistan’s compliance with certain provisions
                 Audit of USAID’s Bureau for Asia and the                     of the grant agreement, which was to be used as
FY 2003




                Near East Monitoring of the Government of                     reimbursement of debt paid and service of debt, to the United
           1    Pakistan’s Compliance with the Provisions        7-Jan-03     States, World Bank, Asian Development Bank, or                            3            3              None.
                      of USAID Grant No. 391-K-005                            International Monetary Fund. USAID officials had no
                             (0-000-03-001-F)                                 assurance that the grant funds were used in accordance with
                                                                              the terms of the grant agreement until after the Government
                                                                              of Pakistan had expended the funds.
                                                                          OIG conducted a risk assessment of education and
                                                                          governance programs, which identified several areas where
                                                                          vulnerability for risk was high: Two education programs were
                                                                          designated as high risk because of the lack of prior
FY 2004




                    Risk Assessment of Major Activities
                                                                          experience with USAID grants and because of having
           2           Managed by USAID/Pakistan                30-Oct-03                                                                               0            0              None.
                                                                          numerous U.S. and Pakistani partners to implement the
                             (5-391-04-001-S)                             programs. One local governance program was deemed high
                                                                          risk because there were problems with the participating
                                                                          nongovernmental organizations and with the legislative
                                                                          orientation component of the program.
                                                                          Overall, the selected activities under USAID/Pakistan’s Basic
                                                                          Health Program generally did not achieve its intended
FY 2007




                    Audit of Selected Activities Under                    program results. Areas where it fell short were in the
           3      USAID/Pakistan’s Basic Health Program         23-May-07 distribution of family planning products, the promotion of                    4            4              None.
                             (5-391-07-005-P)                             program activities, the percentage of health facilities
                                                                          upgraded, the number of health care providers trained, and
                                                                          the number of grants awarded.
                                                                              The audit found that USAID/Pakistan did not monitor the
FY 2008




                Audit of USAID/Pakistan’s Education Sector           Education Sector Reform Assistance Program effectively, nor
           4            Reform Assistance Program          28-Mar-08 did it approve revisions to the program’s scope and budget.                        1            1              None.
                             (5-391-08-004-P)                        OIG also found a lack of documentation of a potential conflict
                                                                              of interest.
                                                                              The audit found that construction and livelihood activities were
FY 2009




                    Audit of Critical USAID/Pakistan’s
                                                                              experiencing delays, contractor performance reviews were not
           5       Earthquake Reconstruction Activities         25-Nov-08                                                                               4            4              None.
                                                                              conducted, performance management plans were not
                             (5-391-09-001-P)                                 approved, and a data quality assessment was needed.

                                                                      OIG’s audit found that, although the program had provided
                                                                      training, taken initial steps to automate institutions in the
                                                                      Federally Administered Tribal Areas (FATA), and completed
                Audit of USAID/Pakistan's Capacity Building           some media activities, little had yet been achieved to build the
FY 2010




                                                                      capacity of FATA governmental institutions and
                  Program for the Federally Administered
           6                                                28-Jan-10 nongovernmental organizations (NGOs) responsible for                              4            4              None.
                    Tribal Areas Development Program                  providing services. The program had been in place for nearly
                              (5-391-10-005-P)                        2 years of its 3-year planned lifespan, and it had not made
                                                                      significant progress with two of the program’s main goals:
                                                                      improving institutions’ capacity to govern and improving the
                                                                      capacity of NGOs to promote good governance.




                                                                                                                                            11
                                                                                                                                                  Total # of    Total #
          No.                   Report Title                   Report Date                     Summary of Findings                                                                     Open Recommendations                                       USAID Response
                                                                                                                                              Recommendations   Closed
                                                                          USAID implemented third-party monitoring in only one of its
                                                                          six internally displaced persons (IDP) programs.
                                                                          Consequently, without an instrument to easily employ third-
                                                                          party monitoring in high-threat environments in Pakistan,
                                                                          USAID did not verify program performance or consistently
                                                                          validate results first hand for its IDP program activities. The
                  Review of USAID’s Internally Displaced                  grant agreement for the $44 million cash transfer for IDP
           7          Persons Programs in Pakistan              28-Jun-10 families identified four controls to be implemented by the                 4            4                               None.
                             (5-391-10-001-S)                             mission and the GOP. However, 6 months after the cash
                                                                          transfer was made to the Government of Pakistan (GOP),
                                                                          neither the mission nor the GOP had implemented any of the
                                                                          controls that were meant to provide reasonable assurance
                                                                          that the funds had actually reached IDPs. Thus, USAID has
                                                                          little assurance that cash transfers actually reached displaced
                                                                          families.

                                                                          In response to the intent of the project's cooperative
                                                                          agreement to establish appropriate patient referral
                                                                          mechanism, the implementer's work plan for 2008 identified
                                                                          five activities to be completed in fiscal year 2008 that were
                    Audit of USAID/Pakistan’s Primary                     meant to strengthen the referral system. As of September
                                                                          2009, 1 year later than planned, the implementer had
                 Healthcare Revitalization, Integration and
           8                                                    28-Jun-10 completed four of five activities. The activities were delayed in          1            1                               None.
                 Decentralization in Earthquake-Affected
                                                                          part because GOP staff scheduled to work with the
                      Areas Project (5-391-10-010-P)                      implementer were not available when needed. As a result, at
                                                                          the time of the audit, the new approach for the referral system
                                                                          was working in only 7 of 126 health facilities in the Mansehra
                                                                          and Bagh Districts, representing only a minimal improvement
                                                                          in access to health care.

                                                                         OIG's audit found that the Family Advancement for Life and
                                                                         Health Program was achieving its main goals. Among its
                    Audit of USAID/Pakistan's Family                     accomplishments were (1) an increased demand for family
           9     Advancement for Life and Health Program       31-Aug-10 planning services, (2) improved family planning services in the             1            1                               None.
                             (5-391-10-012-P)                            public sector, and (3) improved family planning services in the
                                                                         private sector. Overall, the audit found that participants were
                                                                         very satisfied with the program.

                                                                                                                                                                          (5) USAID/Pakistan make a management decision            The mission agreed with the recommendation
                    Audit of USAID/Pakistan’s Livelihood              The audit found that USAID/Pakistan had made little progress
                                                                                                                                                                          regarding the allowability of and recover, as            and indicated it planned to examine the
FY 2011




                                                                      in reaching annual targets. Although the hostile situation
                Development Program for the Lower Region                                                                                                                  appropriate, questioned costs of $767,841 ($432,482      allowability of the $767,841 in questioned costs
          10                                                10-Dec-10 contributed to the program’s limited results, the mission did                  7            6
                 of the Federally Administered Tribal Areas                                                                                                               ineligible and $335,359 unsupported) identified in the   by February 2011. A management decision can
                                                                      not ensure adequate monitoring and oversight to achieve
                              (G-391-11-001-P)                                                                                                                            financial review and recover those costs determined to   be reached after this is clarified. Therefore, this
                                                                      program goals.
                                                                                                                                                                          be unallowable.                                          recommendation remains open.




                                                                                                                                        12
                                                                                                                                     Total # of    Total #
No.                    Report Title                   Report Date                   Summary of Findings                                                      Open Recommendations   USAID Response
                                                                                                                                 Recommendations   Closed

                                                            We found that USAID/Pakistan staff overrode management
                                                            controls by conducting work reserved for the agreement
                                                            officer, such as administering and making determinations
                                                            regarding a cooperative agreement, and taking action without
                                                            authorized approval. For example, in August 2008, shortly
                                                            after starting work in upper FATA, USAID/Pakistan directed
                                                            the implementer to provide disaster response and emergency
                                                            relief services that were not part of the Livelihood
                                                            Development Program (LDP) scope of work or budget. The
          Audit of USAID/Pakistan’s Livelihood              services included response to the flood victims in Khyber
      Development Program for the Upper Region              Agency and response to internally displaced persons coming
11                                                10-Dec-10                                                                             5            5              None.
       of the Federally Administered Tribal Areas           into the Peshawar region as a result of conflict. At that time,
                    (G-391-11-002-P)                        no other U.S. Government response was available in the
                                                            area, and the mission determined that LDP resources should
                                                            be used for this work. However, the mission made no
                                                            revisions to the program to reflect this change in program
                                                            focus. The work, which spun off into infrastructure activities
                                                            that extended into the second year of implementation,
                                                            diverted resources from program activities, changed the
                                                            scope of work, and affected LDP’s budget. The implementer
                                                            attributed $7.9 million to the disaster and relief work from
                                                            August 2008 to March 2010.




                                                                The audit focused on two Pakistani NGOs: Pakistan Poverty
                                                                Alleviation Fund (PPAF), which received $2.7 million, and
        Audit of USAID/Pakistan’s Flood Relief                  Rural Support Programmes Network (RSPN), which received
                                                                $2.3 million. The two agreements were to provide relief in the
          Efforts as Administered by Local
12                                                    24-Jan-11 provinces of Balochistan, Punjab, Sindh, and Khyber                     0            0              None.
          Nongovernmental Organizations
                                                                Pakhtunkhwa—immediate relief to 80,100 households in the
                   (G-391-11-003-P)                             form of food hampers and supplies to an affected population
                                                                of 190,058 people. The audit determined that the program
                                                                goals were met.




                                                                                                                             13
                                                                                                                                     Total # of    Total #
No.                    Report Title                   Report Date                    Summary of Findings                                                                  Open Recommendations                                       USAID Response
                                                                                                                                 Recommendations   Closed

                                                                 With the implementation of the strategy to build Pakistani
                                                                 capacity, concerns have been raised in the media and within
                                                                 the U.S. Government that providing too much money to
                                                                 Pakistani recipients too quickly could jeopardize U.S. funds.
                                                                 USAID/Pakistan recognized the challenges and took
                                                                 proactive steps to address the risks. One key step taken by
                                                                 the mission was to contract with international and local
       Audit of USAID/Pakistan’s Management of
                                                                 accounting firms to conduct pre-award assessments (also
13              Pre-award Assessments                   6-May-11                                                                        4            4                               None.
                                                                 referred to as pre-award surveys) of potential first-time
                    (G-391-11-004-P)                             recipients of USAID funds. The intent of these assessments is
                                                                 to determine whether the recipients can effectively manage
                                                                 and account for these funds. The accounting firms identify
                                                                 vulnerabilities and recommend actions to address the
                                                                 vulnerabilities. For fiscal year 2010, USAID/Pakistan
                                                                 expended approximately $657,000 on the 28 pre-award
                                                                 assessments conducted and the resultant reports.

                                                                                                                                                                                                                      A management decision can be reached upon
                                                                                                                                                                                                                      report issuance. The mission agreed with the
                                                                                                                                                             (5) USAID/Pakistan provide implementers with copies
                                                                                                                                                                                                                      recommendation. The mission will circulate to
                                                                                                                                                             of USAID's policies on ethics and conflicts of interest,
                                                                                                                                                                                                                      implementers USAID guidance on ethics and
                                                                                                                                                             and with written explanations and examples of potential
                                                                                                                                                                                                                      conflicts of interest as relevant to USAID award
                                                                                                                                                             conflicts.
                                                             OIG conducted this audit to determine whether                                                                                                            recipients by December 31, 2011. This
                                                             USAID/Pakistan’s road rehabilitation and reconstruction                                                                                                  recommendation remains open.
                                                             activities under the Quick Impact Projects in South Waziristan
                                                             were rebuilding selected roads. Despite some difficulties
                                                                                                                                                                                                                      A management decision can be reached upon
                                                             noted with mission operations, we determined that the road
                                                                                                                                                                                                                      report issuance. The mission agreed with the
                                                             rebuilding efforts were on track. Two sections of road totaling
                                                                                                                                                             (8) USAID/Pakistan develop and implement a plan to       recommendation. A new monitoring and
                                                             215 kilometers were completed that met all specifications and
                                                                                                                                                             monitor and document the status of branding and          evaluation contract will be in place by July 2011.
           Audit of USAID/Pakistan’s Road                    approvals required for reimbursement by USAID. Although
                                                                                                                                                             marking plans of contractors working on the Quick        This contract will monitor the compliance of
                                                             security issues caused some delays, work progressed on
      Rehabilitation and Reconstruction Activities                                                                                                           Impact Projects in South Waziristan, and provide         implementers with the full terms of their
                                                             schedule. The FATA Secretariat hired Frontier Works
14     under the Quick Impact Projects in South    20-Jun-11                                                                            9            6       training as necessary for compliance with Automated      agreement with USAID. This includes compliance
                                                             Organization (Frontier Works) of Pakistan to carry out road
                       Waziristan                                                                                                                            Directives System 320.                                   with USAID branding and marking requirements
                                                             activities. For additional support, Frontier Works
                    (G-391-11-005-P)                                                                                                                                                                                  as identified in their agreement and agency
                                                             subcontracted with the Pakistani engineering firm National
                                                                                                                                                                                                                      guidance. This recommendation remains open.
                                                             Engineering Services Pakistan Limited (NESPAK). Both
                                                             Frontier Works and NESPAK have extensive experience in
                                                             building roads and other infrastructure projects, and both will                                                                                          A management decision was reached upon
                                                             work on all the Quick Impact Projects in South Waziristan,                                                                                               report issuance. The mission agreed with the
                                                             including the water infrastructure and power systems. We                                        (9) USAID/Pakistan provide additional details to the     recommendation. USAID/Pakistan will engage a
                                                             found that these two entities contributed to the initial success                                Federally Administrated Tribal Areas Secretariat         media support contractor to ensure wider
                                                             of the road activities.                                                                         concerning publicizing and marking USAID's               dissemination of information about the range and
                                                                                                                                                             contribution to the Quick Impact Projects in South       impact of our assistance programs.
                                                                                                                                                             Waziristan as specified in the implementation letter     USAID/Pakistan will assist the FATA Secretariat
                                                                                                                                                             dated December 31, 2009.                                 in publicizing and marking USAID’s contribution
                                                                                                                                                                                                                      to programs in FATA by December 31, 2011. This
                                                                                                                                                                                                                      recommendation remains open.




                                                                                                                            14
                                                                                                                                 Total # of    Total #
No.              Report Title               Report Date                     Summary of Findings                                                                        Open Recommendations                                            USAID Response
                                                                                                                             Recommendations   Closed
                                                                                                                                                                                                                       The mission will develop and implement an action
                                                                                                                                                         (3) USAID/Pakistan develop and implement an action            plan to determine the best use for the equipment
                                                                                                                                                         plan to determine the best use for the equipment and          and furniture at the Khyber Institute of Child Health
                                                                                                                                                         furniture at the Khyber Institute of Child Health.            by October 31, 2011. This recommendation
                                                                                                                                                                                                                       remains open.
                                                                                                                                                                                                                       The mission will revise the CRISP activity approval
                                                                                                                                                         (4) USAID/Pakistan revise the activity approval process       process to include a sustainability analysis/plan for
                                                                                                                                                         to include a sustainability analysis for all infrastructure   all infrastructure activities implemented under this
                                                                                                                                                         activities implemented under this program, regardless of      program, regardless of the funding level, by
                                                                                                                                                         the funding level.                                            October 31, 2011. This recommendation remains
                                                                                                                                                                                                                       open.
                                                                                                                                                                                                                The mission is obtaining further details on all
                                                                                                                                                                                                                educational institutions receiving assistance with
                                                                                                                                                         (5) USAID/Pakistan review the list of all educational  construction supervision under the Infrastructure
                                                                                                                                                         institutions receiving assistance with construction    Support and Capacity Development Project. This
                                                                                                                                                         supervision under the program's Infrastructure Support information will be analyzed to determine whether
                                                                                                                                                         and Capacity Development Project to determine whether any adjustments to programs, or recovery of
                                                                                                                                                         any are religious institutions, and recover any costs  unallowable costs, are warranted. The mission will
                                                                                                                                                         deemed unallowable.                                    convey these results to OIG/Pakistan under a
                                                      USAID/Pakistan exercised a substantial degree of control                                                                                                  separate memorandum on or before September
                                                      over the program that would have been more appropriate for                                                                                                15, 2011. This recommendation remains open.
                                                      a contract rather than a cooperative agreement. For example,                                                                                                     USAID/Pakistan, in coordination with the
                                                      work plans had to be prepared by the implementer and                                                                                                             USAID/Washington Office of General Council, will
                                                      approved by the mission quarterly. Also, all proposed                                                                                                            develop and conduct training sessions for
                                                      activities had to be approved by the mission before                                                                                                              contracting and agreement officers' technical
                                                      implementation. Although the program was awarded under a                                                                                                         representatives regarding legal prohibitions
                                                                                                                                                         (6) USAID/Pakistan develop and implement a plan to
                                                      cooperative agreement, both USAID/Pakistan officials and the                                                                                                     including funding of religious activities. The mission
                                                                                                                                                         increase awareness among mission and implementing
                                                      implementing partner agreed that the program has been                                                                                                            will also instruct implementing partners to contact
                                                                                                                                                         partner staff of USAID's policy prohibiting the funding of
                                                      implemented more like a contract. Mission officials                                                                                                              USAID for guidance if they suspect that a potential
                                                                                                                                                         religious activities.
                                                      commented that the nature of the work assigned to the                                                                                                            problem with funding religious institutions may
      Audit of USAID/Pakistan's Community
                                                      program has changed drastically since the program's                                                                                                              arise. The mission's training sessions will be
15        Rehabilitation Infrastructure     29-Aug-11                                                                              10            2                                                                     developed and ready for implementation on or
                                                      inception. According to mission officials, the variety, large
                (G-391-11-006-P)                      value, and complexity of current construction activities require                                                                                                 before October 31, 2011. This recommendation
                                                      the mission to give daily technical directions to the                                                                                                            remains open.
                                                                                                                                                                                                                       The mission agreed with the recommendation.
                                                      implementer to ensure the quality and timeliness of facilities
                                                                                                                                                                                                                       Because funding is approved in the Activity
                                                      constructed through the program. USAID/Pakistan officials
                                                                                                                                                         (7) USAID/Pakistan determine whether to amend or              Approval Document, the mission has decided to
                                                      agreed that continuing to use the cooperative agreement to
                                                                                                                                                         follow the program's internal control procedure requiring     delete the procedure requiring the mission
                                                      implement this program will lead to further delays and                                             the mission director's approval for all activities that       director's approval for all activities exceeding
                                                      inefficiencies, particularly on large infrastructure activities that                               exceed $500,000.                                              $500,000 and will formalize this change in an
                                                      are ongoing or in the program’s work plan. Mission officials do                                                                                                  action memo by October 31, 2011. This
                                                      not believe that the award recipient has demonstrated the                                                                                                        recommendation remains open.
                                                      technical capacity to provide the required monitoring and
                                                                                                                                                                                                                  USAID/Pakistan has obtained a revised marking
                                                      oversight on the activities listed in the table.
                                                                                                                                                                                                                  plan from the implementing partner and expects to
                                                                                                                                                                                                                  finalize the plan by October 31, 2011. Moreover, a
                                                                                                                                                         (8) The mission obtain an updated marking plan from the mission-wide monitoring and evaluation contract
                                                                                                                                                         implementing partner within 90 days, and implement a     was recently awarded. This contract includes
                                                                                                                                                         plan to monitor the status of the implementing partner's responsibilities for the contractor to monitor the
                                                                                                                                                         marking plan.                                            compliance of all implementers with the full terms
                                                                                                                                                                                                                  of their agreement with USAID. This includes
                                                                                                                                                                                                                  compliance with USAID branding and marking
                                                                                                                                                                                                                  requirements. This recommendation remains open.

                                                                                                                                                                                                                        The mission will modify the cooperative agreement
                                                                                                                                                         (9) USAID/Pakistan modify the cooperative agreement to to allow cost-sharing contributions on a flexible,
                                                                                                                                                         require that cost-sharing contributions for all activities be case-by-case basis and expects the modification to
                                                                                                                                                         calculated on a flexible, case-by-case basis.                 be issued by October 31, 2011. This
                                                                                                                                                                                                                       recommendation remains open.
                                                                                                                                                                                                                       The mission will modify the cooperative agreement
                                                                                                                                                         (10) USAID/Pakistan notify the program's implementing
                                                                                                                                                                                                                       to allow cost-sharing contributions on a flexible,
                                                                                                                                                         partner that the previously submitted cost-sharing
                                                                                                                                                                                                                       case-by-case basis and expects the modification to
                                                                                                                                                         contributions totaling $4.7 million are ineligible, and
                                                                                                                                                                                                                       be issued by October 31, 2011. This
                                                                                                                                                         amend the program's financial reports.
                                                                                                                                                                                                                       recommendation remains open.
                                                                                                                                                                        Total Recommendations                                                   57
           Performance Audits Issued            15
                                                                                                                                                                    Total Closed Recommendations                                                45



                                                                                                                        15
 


 




    16
 
                                                 Pakistan Financial Audit Findings
                                                                                                                               Details for
                                                       Report                        Total Costs   Questioned   Sustained      Questioned
No.                   Audit Title                                     Report Date
                                                       Number                        Audited ($)    Costs ($)   Costs ($)      Costs Over
                                                                                                                                $1 Million
      Financial Audit of USAID/Pakistan's Rupee

 1
      Trust Fund for Operating                       5-391-06-003-N    10-Jan-2006     432,270
      Expenses, for Fiscal Years Ended
      September 30, 2002, 2003, and 2004
      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
 2    391-A-00-03-01016-00, Managed by the           5-391-06-020-R   11-May-2006     1,805,257       830
      Greenstar Social Marketing
      Pakistan (Guarantee) Limited, for the
      Period from November 7, 2003, to June 30,
      2004
      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by Ford Rhodes Sidat
      Hyder & Co., Pakistan, of the Program titled
      'Improved Pakistani Family Planning and
 3    Reproductive Health Services',                 5-391-06-003-Q   26-Sep-2006
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited, for the Period from
      November 7, 2003, to June 30, 2004
      Financial Audit of the Rural
                         Support
      Programmes Network—USAID Grant
 4    Rewarding Innovations at the District Level,   5-391-06-031-R   13-Sep-2006      471,255
      Agreement No. 391-A-00-03-01015-00, for
      the Nine Month Period Ended June 30, 2004
      Financial Audit of the Rural
                         Support
      Programmes Network—USAID Grant
 5    Rewarding Innovations at the District Level,   5-391-06-032-R   26-Sep-2006      997,500
      Agreement No. 391-A-00-03-01015-00, for
      the Period Ended June 30, 2005
      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Project, USAID/Pakistan Cooperative
 6    Agreement No. 391-A-00-03-01011-00,            5-391-06-033-R   27-Sep-2006     1,853,591
      Managed by Khushhali Bank, for the
      Period from October 1, 2003, to December
      31, 2004
      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by KPMG Taseer Hadi &
      Co., of the Aga Khan University -
 7                                                   5-391-07-001-Q    6-Oct-2006
      Examination Board (AKU-EB),
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01003-00, for the Period from
      July 1, 2003, to December 31, 2004
      Financial Audit of the Four Year Bachelor's
      Degree Program, USAID/Pakistan Grant
      Agreement No. 391-G-00-04-01036-00,
 8                                                   5-391-07-006-R    12-Jan-2007     764,472
      Managed by Forman Christian
      College, Lahore, for the Period from
      August 23, 2004, to June 30, 2005
      Financial Audit of the Enterprise
      Development Facility Program, Cooperative                                                                              Questioned costs
      Agreement No. 391-A-00-03-01010-00,                                                                                    were related to
 9                                                   5-391-07-007-R    12-Jan-2007    3,194,633     1,999,553    1,639,230
      Managed by the Pakistan Poverty                                                                                        ineligible loans by
      Alleviation Fund (PPAF) for the Period                                                                                 the recipient.
      from October 1, 2003, to June 30, 2005




                                                                                17
                                                                                                                           Details for
                                                      Report                        Total Costs   Questioned   Sustained   Questioned
No.                   Audit Title                                    Report Date
                                                      Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                            $1 Million
      Financial Audit of the Fulbright-USAID
      Scholarship Program, Grant Agreement No.
      391-G-00-04-01035-00, Managed by the
10                                           5-391-07-010-R          22-Feb-2007      234,757
      United States Educational
      Foundation in Pakistan, for the Period
      from September 1, 2004, to August 31, 2005
      Financial Audit of the Aga Khan
      University Examination Board,
11    USAID/Pakistan Cooperative Agreement No.      5-391-07-014-R    3-May-2007      771,546
      391-A-00-03-01003-00, for the Period from
      July 1, 2003, to December 31, 2004
      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
12    391-A-00-03-01016-00, Managed by the          5-391-07-020-R    25-Jul-2007    1,805,257      34,804
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited, for the Period from
      November 7, 2003, to June 30, 2004
      Financial Audit of the Enterprise
      Development Facility Program, Cooperative
      Agreement No. 391-A-00-03-01010-00,
13                                                  5-391-07-023-R   22-Aug-2007     1,160,768      951,400     921,512
      Managed by the Pakistan Poverty
      Alleviation Fund for the Period from July
      1, 2005, to June 30, 2006
      Financial Audit of the Four Year Bachelor's
      Degree Program, USAID/Pakistan Grant
      Agreement No. 391-G-00-04-01036-00,
14                                                  5-391-07-024-R   28-Sep-2007      769,134
      Managed by Forman Christian
      College, Lahore, for the Period from July
      1, 2005, to June 30, 2006
      Financial Audit of the Project Titled
      "Technical Assistance and Training to
      Improve Project and Financial Management
      of Provincial and District Health and
      Population Welfare Services in Pakistan,"
      USAID/Pakistan Limited Scope Grant
15    Agreement No. 391-G-00-04-01020-00,           5-391-08-005-N   20-Aug-2008      697,058
      Managed by the Options Consultancy
      Services Limited (Options) -
      Technical Assistance Management
      Agency (TAMA), for the Period from
      January 1, 2004, to March 31, 2006
      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
16    Agreement No. 391-A-00-03-01011-00,           5-391-08-017-R    15-Apr-2008    2,662,527      82,126       66,916
      Managed by Khushhali Bank, for the
      Period from January 1, 2005, to December
      31, 2006
   Financial Audit of the Aga Khan
   University - Examination Board
17 (AKU-EB), USAID/Pakistan Cooperative             5-391-08-027-R    2-Jul-2008      902,755
      Agreement No. 391-A-00-03-01003-00, for
      the Period from January 1, 2005, to
      December 31, 2005

      Closeout Audit of the Enterprise
      Development Facility Program, Cooperative
      Agreement No. 391-A-00-03-01010-00,
18                                                  5-391-08-029-R   15-Aug-2008      734,597
      Managed by the Pakistan Poverty
      Alleviation Fund (PPAF) for the Period
      from July 1, 2006, to September 30, 2007




                                                                               18
                                                                                                                           Details for
                                                      Report                        Total Costs   Questioned   Sustained   Questioned
No.                  Audit Title                                     Report Date
                                                      Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                            $1 Million
      Closeout Audit of the Programs Titled
      "Rewarding Innovation at the District Level,"
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01015-00 for the Period from
      July 1, 2005 to March 31, 2006, and
19    "Establishing Tent Schools and Cash for       5-391-08-030-R   27-Aug-2008     2,847,871      222,294     222,294
      Work Program," Grant Agreement No. 391-G-
      00-06-0169-00 for the Period from December
      9, 2005, to June 15, 2006; Managed by
      Rural Support Programmes
      Network (RSPN)
      Financial Audit of the Program Title
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
20    391-A-00-03-01016-00, Managed by the          5-391-08-032-R   19-Sep-2008     5,707,948
      Greenstar Social Marketing
      Pakistan (Guarantee) Limited, for
      the Period From July 1, 2004, to June 30,
      2005

      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
21    391-A-00-03-01016-00, Managed by the          5-391-08-034-R   25-Sep-2008     5,399,408
      Greenstar Social Marketing
      Pakistan (Guarantee) Limited, for the
      Period From July 1, 2005, to June 30, 2006


      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
22    391-A-00-03-01016-00, Managed by the          5-391-08-035-R   26-Sep-2008     4,295,177
      Greenstar Social Marketing
      Pakistan (Guarantee) Limited, for the
      Period From July 1, 2006, to June 30, 2007

      Financial Audit of the Interactive Teaching
      and Learning Program in Pakistan,
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-06-01075-00, Managed by the
23    Children's Resources International 5-391-09-006-R              15-Dec-2008     1,557,736      763,449       158
      Pakistan (G) Limited (CRI
      Pakistan), for the Period from March 1,
      2006, to June 30, 2007

   Financial Audit of the Aga Khan
   University -Examination Board
24 (AKU-EB), USAID/Pakistan Cooperative             5-391-09-007-R    29-Apr-2009     979,040
      Agreement No. 391-A-00-03-01003-00, for
      the Period from January 1, 2006, to
      December 31, 2006




                                                                               19
                                                                                                                            Details for
                                                       Report                        Total Costs   Questioned   Sustained   Questioned
No.                  Audit Title                                      Report Date
                                                       Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                             $1 Million

      Financial Audit of the College Improvement
      Program, USAID/Pakistan Grant Agreement
      No. 391-G-00-04-01036-00, Managed by
25                                                   5-391-09-008-R    30-Apr-2009    2,631,254     1,163,564     56,008
      Forman Christian College, Lahore,
      for the Period from August 23, 2004, to June
      30, 2007

      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by A.F. Ferguson & Co. of
      the College Improvement Program,
26    USAID/Pakistan Grant Agreement No. 391-G- 5-391-09-001-Q         30-Apr-2009
      00-04-01036-00, Managed by Forman
      Christian College, Lahore, for the
      Period from August 23, 2004, to June 30,
      2007
      Financial Audit of USAID/Pakistan's Rupee
26    Trust Fund for Operating Expenses, for         5-391-09-002-N   11-May-2009      979,028
      Fiscal Years Ended September 30, 2005,
      and 2006

      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
28    Agreement No. 391-A-00-03-01011-00,            5-391-09-013-R    25-Jun-2009     1,776,113

      Managed by Khushhali Bank, for the
      Period from January 1 to December 31, 2007
      Financial Audit of the Budgetary Support,
      USAID/Pakistan Program Assistance
      Agreement Nos. 391-005-ES-05 and 391-005
29    ES-06, Managed by the Ministry of         5-391-09-006-N        13-Aug-2009    400,000,000
      Finance, Government of Pakistan,
      for the Years Ended June 30, 2006, and
      2007
      Financial Audit of USAID Funds Managed by
   Children's Global Network
30 Pakistan (G) Limited (formerly                    5-391-10-012-R   22-Dec-2009     1,863,786      376,942       242
      Children's Resources International Pakistan
      (G) Limited), for the year ended June 30,
      2008
   Closeout Financial Audit of the Aga Khan
   University - Examination Board
31 (AKU-EB), USAID/Pakistan Cooperative              5-391-10-020-R   10-Feb-2010     1,853,975      63,367       63,367
      Agreement No. 391-A-00-03-01003-00, for
      the Period from January 1, 2007 to
      December 31, 2007




                                                                                20
                                                                                                                            Details for
                                                       Report                        Total Costs   Questioned   Sustained   Questioned
No.                  Audit Title                                      Report Date
                                                       Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                             $1 Million
      Closeout Financial Audit of the Program
      Entitled "Improved Pakistani Family Planning
      and Reproductive Health Services:"
      USAID/Pakistan Cooperative Agreement No.
32    391-A-00-03-01016-00, Managed by               5-391-10-026-R   24-Mar-2010     2,146,908
      Greenstar Social Marketing
      Pakistan (Guarantee) Limited, for the
      Period from July 1, 2007 to December 31,
      2007
      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
33    Agreement No. 391-A-00-03-01011-00,            5-391-10-029-R    30-Apr-2010    1,653,377      89,934       65,652
      Managed by Khushhali Bank, for the
      Year Ended December 31, 2008
      Financial Audit of the College Improvement
      Program, USAID/Pakistan Grant Agreement
      No. 391-G-00-04-01036-00, Managed by
34                                                   5-391-10-033-R   18-May-2010      394,255
      Forman Christian College, Lahore,
      for the Period from July 1, 2007 to June 30,
      2009
      Financial Audit of the Pakistan
      Competitiveness Support Fund,
      USAID/Pakistan Grant Agreement No. 391-G-
35    00-06-01073-00, Managed by                     G-391-10-001-R    4-Aug-2010     5,637,011      355,471
      Competitiveness Support Fund (CSF),
      for the Period from
      February 3, 2006 to June 30, 2009
      Audit of Costs Incurred under School
      Enhancement Program Component of the
      Pakistan Education Sector Reform
      Assistance Program, USAID/Pakistan
36    Cooperative Agreement No. 391-A-00-03-         G-391-11-001-D    8-Nov-2010     14,432,228
      01000-00, Managed by the RTI
      International (RTI), for the Period from
      December 4, 2002 to December 31, 2007
      Closeout Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
37    Agreement No. 391-A-00-03-01011-00,            G-391-11-001-R   30-Dec-2010      450,607
      Managed by Khushhali Bank, for the
      Period from January 1, 2009 to September
      30, 2009
      Closeout Audit of the Program “Interactive
      Teaching & Learning Project,
      ”USAID/Pakistan Cooperative Agreement
      No. 391-A-00-06-01075-00, and Financial
      Audit of Program “Links to Learning
38    Education Support to Pakistan,” Sub-Award      G-391-11-002-R    8-Apr-2011     1,315,348      12,669
      under USAID/Pakistan Cooperative
      Agreement No. 391-A-00-08-01100-00,
      Managed by Children’s Global Network
      Pakistan Limited , for the Period from July
      1, 2008 to February 26, 2010




                                                                                21
                                                                                                                                                     Details for
                                                         Report                            Total Costs          Questioned          Sustained        Questioned
No.                   Audit Title                                       Report Date
                                                         Number                            Audited ($)           Costs ($)          Costs ($)        Costs Over
                                                                                                                                                      $1 Million
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audits
      Conducted by Khalid Majid Rahman Sarfraz
      Rahim Iqbal Rafiq of the “Interactive
      Teaching & Learning Project,” Managed by
39                                                    G-391-11-001-Q      8-Apr-2011
      Children’s Global Network
      Pakistan Limited, under
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-06-01075-00 for the Period from
      July 1, 2008 to February 26, 2010
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audit
      Conducted by Nasir Javaid Maqsood Imran,
      of Pakistan Competitiveness Support Fund,
40    USAID/Pakistan Grant Agreement No. 391-G- G-391-11-002-Q           10-May-2011
      00-06-10730, Managed by
      Competitiveness Support Fund
      (CSF), for the Period from July 1, 2009 to
      June 30, 2010
      Financial Audit of the Pakistan
      Competitiveness Support Fund,
      USAID/Pakistan Grant Agreement No. 391-G-
41    00-06- 1073-00, Managed by                G-391-11-003-R           10-May-2011         2,184,844               2,822
      Competitiveness Support Fund
      (CSF), for the Period from July 1, 2009 to
      June 30, 2010
      Financial Audit of USAID/Pakistan’s Rupee
42    Trust Fund, for the Period from October 1, G-391-11-001-N          26-May-2011         1,511,547
      2006 to September 30, 2009
      Closeout Financial Audit of the Forman
      Christian College, USAID/Pakistan
43    Grant Agreement No. 391-G-00-04-01036-         G-391-11-004-R      23-Jun-2011         1,974,491              122,515           90,655
      00, Managed by Forman Christian College
      (FCC), for the Period from July 1, 2009 to
      March 31, 2010
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audit
      Conducted by A.F. Ferguson, of the
      Forman Christian College, USAID/Pakistan
44                                                   G-391-11-003-Q      23-Jun-2011
      Grant Agreement No. 391-G-00-04-01036-
      00, Managed by Forman Christian College
      (FCC), for the Period from July 1, 2009 to
      March 31, 2010
      Financial Audit of the Business Revitalization
      Program, USAID/Pakistan Cooperative
      Agreement No. 391-A-00-10-01145-00,
45                                                   G-391-11-005-R      21-Sep-2011         8,443,128
      Managed by Khushhali Bank, for the
      Period from February 6, 2010 to December
      31, 2010
45    Financial Audits Issued                                                             $489,292,457           $6,241,740         $3,126,034
      Percentage of Costs Audited                                                                                  1.28%              0.64%

                                                     R = Recipient-     Q = Quality
      Alpha designation in report number                                                  D = Defense Contract Audit Agency Audit        N = Nonfederal audit
                                                     contracted Audit   control review




                                                                                     22
             Planned Performance Audits of
            USAID/Pakistan-Funded Activities
                                 Fiscal Year 2012
         Audit of USAID/Pakistan’s Design for Sustainability in the
                 Jamshoro Thermal Power Station Repair
                       and Maintenance Activity
USAID/Pakistan awarded an $18 million agreement to the Government of Pakistan to repair the
Jamshoro Thermal Power Station. This activity was scheduled to be completed by June 2011. One
of the principal goals of U.S. development cooperation is to promote conditions enabling
developing countries to achieve self-sustaining economic growth with equitable distribution of
benefits.

This audit will determine whether USAID/Pakistan built sustainability into the Jamshoro Thermal
Power Station Repair and Maintenance Activity.

Status: Planned.



     Follow-up Audit of USAID/Pakistan’s Livelihood Development
            Program for the Lower Region of the Federally
                      Administered Tribal Areas
In February 2008, USAID/Pakistan signed a five-year $150 million agreement with CHF
International to implement this program. In December 2010, the Office of Inspector General
issued an audit report entitled “Audit of USAID/Pakistan’s Livelihood Development Program for
the Lower Region of the Federally Administered Tribal Areas” (Audit Report No. G-391-11-001-P).

This audit will focus on six of seven recommendations in that report (excluding a recommendation
with questioned costs). Although none of the recommendations had been closed at the time of
report issuance, the mission stated in its management comments that all recommendations would
be closed by August 2011.

This audit will determine if USAID/Pakistan implemented the recommendations from Audit
Report No. G-391-11-001, dated December 10, 2010, and whether those actions were effective.

Status: Planned




                                              23
        Audit of USAID/Pakistan’s Assessment and Strengthening
           Program for Local Organizations and Government
                         of Pakistan Entities

In October 2010, USAID/Pakistan signed a $19.5 million cooperative agreement with Rural
Support Programme Network to implement USAID/Pakistan’s Assessment and Strengthening
Program for local organizations and Government of Pakistan entities. To provide assistance to the
primary implementer, USAID/Pakistan signed cooperative agreements with Lahore University of
Management Sciences for $3.8 million and Associates in Development for $8.9 million.

The primary objective of this program is to establish a mechanism that will enable USAID/Pakistan
to work with more local implementing partners and host government institutions in providing
technical assistance required to build the institutional capacity up to USAID standards.

This audit will determine whether USAID/Pakistan’s Assessment and Strengthening Program
improved the capacity of local organizations and Government of Pakistan entities to responsibly
manage USAID funds.

Status: Planned


   Audit of USAID/Pakistan’s Benazir Income Support Program

 In 2008, the Government of Pakistan launched the Benazir Income Support Program to provide a
permanent cash support mechanism for families in poverty. This program provides participating
families about $12 per month and to be delivered only to the senior female member of the family.
In February 2010, USAID/Pakistan disbursed $85 million to provide budgetary support to the
Government of Pakistan. A second disbursement of $75 million was made in July 2010 to support
this program for a total of $160 million.

This audit will determine whether USAID/Pakistan’s cash transfer provided to the Benazir Income
Support Program reached the intended beneficiaries.

Status: Planned



       Audit of Selected Infrastructure Activities under
  USAID/Pakistan’s Punjab Municipal Services Delivery Program

In September 2010, USAID/Pakistan signed a $76 million agreement with the provincial
Government of Punjab to implement the Punjab Municipal Services Delivery Program. The overall
goal of the program is to improve public service delivery to better address Pakistanis' basic needs in
vulnerable areas and to help mitigate the factors of extremism.

Activities of the program include improving infrastructure upgrades such as cleaner drinking
water, better solid waste collection and disposal, sewerage and water treatment systems, and
upgraded streets and street lighting.


                                                 24
This audit will determine whether USAID/Pakistan’s Punjab Municipal Services Delivery Program
is achieving its goal to upgrade selected infrastructure.

Status: Planned


                  Audit of USAID/Pakistan’s Lady Willingdon
                         Hospital Renovation Project

In October 2010, U.S. Secretary of State Hillary Clinton announced the first phase of a three-year
signature health program for Pakistan. Under this program, the U.S. will undertake three projects
for the renovation and construction of medical facilities which includes the city of Lahore’s Lady
Willingdon Hospital. With an estimated cost of $18 million, the project is scheduled to be
completed by June 2012.

This audit will determine whether USAID/Pakistan’s Lady Willingdon Hospital Renovation
Project is on track to meet its budget and timelines.

Status: Planned


                     Audit of USAID/Pakistan’s Gomal Zam
                           Multipurpose Dam Project

In 2010, the Government of Pakistan requested USAID to support the Gomal Zam Dam Project
that was reportedly 88 percent completed. Consequently, in January 2011, USAID signed a $40
million agreement with the Government of Pakistan’s Water and Power Development Authority to
provide funds to finish the project.

Once completed, the dam is projected to provide electricity to 25,000 households or 200,000
people, control flooding, and generate economic activity. Also after the irrigation component is
completed, USAID expects about 191,000 acres will be served benefitting about 30,000 families.

This audit will determine whether USAID/Pakistan’s Gomal Zam Multipurpose Dam Project is on
track to meet its budget and timelines.

Status: Planned



   Audit of USAID/Pakistan’s Monitoring and Evaluation Program
In June 2011, USAID/Pakistan signed a five-year $71 million contract to handle its independent
monitoring and evaluation program. Operating in high-threat locations such as Pakistan imposes
unique constraints on USAID’s normal mode of operations. Among these constraints has been the
inability of USAID officials to adequately monitor program activities in the field.



                                               25
This program will monitor project effectiveness by collecting data through conducting site visits,
and by producing performance reports.

This audit will determine whether USAID/Pakistan is using results from its monitoring and
evaluation program to manage its portfolio.

Status: Planned


                       Audit of USAID/Pakistan’s Empower
                        Pakistan-Entrepreneurs Program

In June 2009, USAID/Pakistan signed a $30 million cooperative agreement with the Mennonite
Economic Development Associates to implement the Empower Pakistan-Entrepreneurs Program.

This program is designed to increase the incomes of at least 75,000 small enterprise owners, the
majority of whom will be women, covering 20 districts in Pakistan.

This audit will determine whether USAID/Pakistan’s Empower Pakistan-Entrepreneurs program is
increasing the incomes of at least 75,000 micro-entrepreneurs and small enterprise owners.

Status: Planned


         Audit of USAID/Pakistan’s Reconstruction Activities of
            Schools and a Hospital in Flood Affected Areas

In October 2006, USAID/Pakistan signed a $120 million contract with CDM Constructors, Inc. to
provide services that support the implementation of USAID’s Earthquake Program. Consequently
in July 2010, after the heavy rainfall in multiple regions of Pakistan that led to devastating flooding,
USAID expanded the contractor’s activities to include reconstruction of 20 schools and a hospital
in the flood affected areas.

This audit will determine whether USAID/Pakistan’s reconstruction activities of schools and a
hospital in the flood affected areas are being implemented effectively.

Status: Planned




                                                  26
               Pakistan Performance Audits
                                 Fiscal Year
                                             2011
                                                     
         Audit of USAID/Pakistan’s Community Rehabilitation
                   Infrastructure (G-391-11-006-P)


Date:                             August 29, 2011

Implementing Partner:             Winrock International

Audit Period:                     February 2009 through March 31, 2011

Funding:                          As of March 31, 2011, USAID/Pakistan had obligated $41.9
                                  million and expended approximately $16.9 million on the
                                  program.

Background—Summary of Findings

One of the many problems facing Pakistan is             Part of the program’s lack of progress was
poor infrastructure for delivering basic                due to poor program design. Although
human services such as education, health                Winrock is the main implementer, 70
care, water supply, sanitation, electricity, and        percent of the award’s budget was
transportation. To address these issues,                implemented by subcontractors, who in turn
USAID/Pakistan signed a 5–year, $150                    also employed subcontractors. Employing
million cooperative agreement with Winrock              multiple subcontractors led to duplicate
International to implement the Community                layers of construction oversight. According to
Rehabilitation     Infrastructure       Support         the mission, Winrock did not have the staff
Program (CRISP).                                        or     technical    expertise    to     monitor
                                                        subcontractors’ management of the projects
OIG found that the mission and CRISP                    effectively. In the few cases where projects
made very little progress toward achieving              were completed, the mission often did not
any of the main goals of the project.                   consider whether the project could be
Although tasked with rebuilding or                      sustained. For instance, $900,000 worth of
renovating up to 2,000 schools and                      furniture and equipment was delivered to the
constructing up to 350 small– to medium–                Khyber Institute of Child Health in
sized infrastructure projects, the program was          Peshawar, but a year after its delivery, most of
far behind schedule. Specifically, more than            the material remained in storage unused. The
2 years after signing the agreement, the                institute’s director said that the institute did
mission had completed only four minor                   not have the funding to support the
renovations of universities, six career centers,        operations of the facility, adding he could
two design projects, and conducted two                  not even pay the monthly electric bill. By not
feasibility studies and the procurement of              ensuring that the institute was viable, the
furniture and equipment for a children’s                mission spent more than $900,000 that
health institute.                                       could have been put to better use.




                                                   27
Moreover, an internal control was often                  mission established an unwritten policy to
bypassed in order to approve projects above              bypass this step and approved nearly $13
$500,000, which according to the project’s               million in projects that did not follow the
activity approval document, required written             program’s objectives. Furthermore, the
consent. When the new mission director did               mission approved cost–sharing contributions
not want to authorize the projects, the                  from the project that cannot be supported.

Recommendations—Management Decisions

The audit report made 10 recommendations:

1.     Evaluate the implementing mechanism for the program and determine how to restructure
       it to realize efficiencies in program implementation.

       On May 17, 2011, the mission notified the program’s implementing partner that USAID would be
       restructuring the program to prevent further program delays and inefficiencies. USAID believes that
       excluding large-scale construction projects from the program will allow the cooperative agreement to
       function within the capabilities and capacity of the program staff and will ensure that small-scale
       construction and other activities are undertaken effectively. The mission has taken steps to address
       this deficiency. Thus this recommendation is closed.

2.     Establish performance indicators and targets for each activity implemented by CRISP, and
       document that the results of these activities are included in the mission’s performance
       management plan.

       Mission officials informed us that they are revising the CRISP performance management plan, which
       will include targets for measuring results. As part of a mission-wide exercise to report on results
       generated by implementing partners, program resource management has worked closely with the
       CRISP team and the mission’s technical teams to incorporate results in the mission’s performance
       management plan. Thus this recommendation has been closed.

3.     Develop and implement an action plan to determine the best use for the equipment and
       furniture at the Khyber Institute of Child Health.

       The mission agreed with the recommendation. The mission will develop and implement an action
       plan to determine the best use for the equipment and furniture at the Khyber Institute of Child
       Health by October 31, 2011. This recommendation remains open.

4.     Revise the activity approval process to include a sustainability analysis for all infrastructure
       activities implemented under this program, regardless of the funding level.

       The mission will revise the CRISP activity approval process to include a sustainability analysis/plan
       for all infrastructure activities implemented under this program, regardless of the funding level, by
       October 31, 2011. This recommendation remains open.

5.     Review the list of all educational institutions receiving assistance with construction
       supervision under the program’s Infrastructure Support and Capacity Development Project




                                                   28
      to determine whether any are religious institutions, and recover any costs deemed
      unallowable.

      The mission is obtaining further details on all educational institutions receiving assistance with
      construction supervision under the Infrastructure Support and Capacity Development Project. This
      information will be analyzed to determine whether any adjustments to programs, or recovery of
      unallowable costs, are warranted. The mission will convey these results to OIG/Pakistan under a
      separate memorandum on or before September 15, 2011. This recommendation remains open.

6.    Develop and implement a plan to increase awareness among mission and implementing
      partner staff of USAID’s policy prohibiting the funding of religious activities.

      The mission, in coordination with the USAID/Washington Office of General Council, will develop
      and conduct training sessions for contracting and agreement officers’ technical representatives
      regarding legal prohibitions including funding of religious activities. The mission will also instruct
      implementing partners to contact USAID for guidance if they suspect that a potential problem with
      funding religious institutions may arise. The mission’s training sessions will be developed and ready for
      implementation on or before October 31, 2011. This recommendation remains open.

7.    Determine whether to amend or follow the program’s internal control procedure requiring
      the mission director’s approval for all activities exceeding $500,000.

      Because funding is approved in the Activity Approval Document, the mission has decided to delete the
      procedure requiring the mission director’s approval for all activities exceeding $500,000 and will
      formalize this change in an action memo by October 31, 2011. This recommendation remains open.

8.    Obtain an updated marking plan from the implementing partner within 90 days, and
      implement a plan to monitor the status of the implementing partner’s marking plan.

      The mission has obtained a revised marking plan from the implementing partner and expects to
      finalize the plan by October 31, 2011. Moreover, a mission-wide monitoring and evaluation contract
      was recently awarded. This contract includes responsibilities for the contractor to monitor the
      compliance of all implementers with the full terms of their agreement with USAID. This includes
      compliance with USAID branding and marking requirements. This recommendation remains open.

9.    Modify the cooperative agreement to require that cost-sharing contributions for all
      activities be calculated on a flexible, case-by-case basis.

      The mission will modify the cooperative agreement to allow cost-sharing contributions on a flexible,
      case-by-case basis. The mission expects the modification to be issued by October 31, 2011. This
      recommendation remains open.

10.   Notify the program’s implementing partner that the previously submitted cost-sharing
      contributions totaling $4.7 million are ineligible, and amend the program’s financial
      reports.




                                                    29
The mission will issue a modification to the cooperative agreement by October 31, 2011, removing
the rigid cost-sharing contribution requirement. The program’s financial reports shall also be amended.
This recommendation remains open.




                                             30
         Audit of USAID/Pakistan’s Road Rehabilitation and
      Reconstruction Activities Under
                                    the Quick Impact Projects
                         in South Waziristan
                          (G-391-11-005-P)

Date:                             June 20, 2011

Implementing Partner:             Government of Pakistan

Audit Period:                     December 31, 2009, to February 2011

Funding:                          As of December 2009, USAID had committed $55 million.


Background—Summary of Findings

In 2009, the Governments of Pakistan and                Pakistan to carry out road activities. For
the United States signed a strategic                    additional     support,    Frontier     Works
agreement that provided a commitment to                 subcontracted with the Pakistani engineering
help generate broad-based economic growth               firm National Engineering Services Pakistan
through        infrastructure   development.            Limited (NESPAK). Both Frontier Works
According to the agreement, USAID is                    and NESPAK have extensive experience in
providing $55 million directly to the                   building roads and other infrastructure
Federally Administered Tribal Areas (FATA)              projects, and both will work on all the Quick
Secretariat to implement Quick Impact                   Impact Projects in South Waziristan,
Projects (i.e., rebuilmd roads, develop water           including the water infrastructure and power
infrastructure, and improve power systems).             systems. OIG found that these two entities
                                                        contributed to the initial success of the road
The OIG conducted an audit of these                     activities.
activities in South Waziristan, part of FATA.
Despite some difficulties OIG noted with                Despite early successes, however, OIG found
mission operations, auditors determined that            room for improvement: The scope of work
the road rebuilding efforts were on track.              for the contractor to build the capacity of the
Two sections of road totaling 215 kilometers            FATA secretariat was too broad, and
were completed to specifications and had met            subsequent changes caused deliverables to be
all requirements for reimbursement by                   far behind schedule. Contract files were
USAID. Although security issues caused                  missing critical documentation such as
some delays, work progressed on schedule.               branding and marking plans, site visit
Multiple site visits by officials from the local        reports, meeting notes, and correspondence
satellite office in Peshawar have strengthened          with contractors, including documentation
the management of the road activities, and              related to extensions and justifications.
the use of fixed-amount reimbursement                   Environmental assessments did not meet
agreements has reduced financial risk to the            regulations and caused delays of up to 5
program.                                                months. In addition, although no ethical
                                                        problems arose; neither the mission nor the
The FATA Secretariat hired the Frontier                 contractor had ethics procedures or policies
Works Organization (Frontier Works) of                  in place, in accordance with federal


                                                   31
regulations, to ensure that employees                    USAID’s ethical standards and its position
working on projects were aware of the                    on conflicts of interest.

Recommendations—Management Decisions

The audit report made nine recommendations:

1.      Designate one person in each technical office who has received training to oversee
       environmental compliance for projects and activities.

       The mission now has four individuals whose primary roles include environmental review
       responsibilities. The Mission Environmental Officer has also provided direct training to mission staff
       who manages programs to improve their monitoring environmental compliance for projects and
       activities. This recommendation is closed.

2.     Identify projects planned for the next three years to determine whether the mission has a
       sufficient level of support and technical expertise for environmental compliance.

       With a new re-focused sectoral strategy, the mission stated it is ready to plan programs over the next
       three years. The mission stated that this, along with a management unit reduction exercise which was
       completed in March 2011, has increased its awareness of the environmental compliance issues related
       to its portfolio. This recommendation is closed.

3.     Revise the scope of work and reduce the contract amount for financial and management
       support for the Quick Impact Projects.

       The mission stated that the task of capacity building has been handed over to the Assessment &
       Strengthening Program (ASP). Associates in Development (AiD), a partner in the ASP Program is
       working on the mapping report that was initially produced by Ernest & Young with a reduced scope
       of capacity building which has been agreed by the Director General-Directorate of Project, FATA
       Secretariat and USAID technical team at Peshawar. This recommendation is closed.

4.     Verify that the USAID contractor, Associates in Development, has a code of business
       ethics and conduct that meets USAID standards and regulations.

       The mission stated that the contract with Associates in Development was modified to incorporate the
       standard clause for code of business ethics and conduct that meets USAID standards and regulations.
       This recommendation is closed.

5.     Provide implementers with copies of USAID’s policies on ethics and conflicts of interest
       and with written explanations and examples of potential conflicts.

       The mission agreed with the recommendation. The mission will circulate to implementers USAID
       guidance on ethics and conflicts of interest as relevant to USAID award recipients by December 31,
       2011. This recommendation remains open.

6.     Designate personnel to provide guidance on conflicts of interest and to monitor
       implementers’ compliance with ethics policies and procedures.


                                                   32
     The mission stated that the OAA Director in Pakistan, in cooperation with the Compliance and
     Oversight Division for Partner Performance in Washington, will be the designated person to provide
     guidance and monitor compliance of conflicts of interest and ethics policies and procedures with
     implementers. Similarly, RLA would be the focal person for all issues pertaining to monitoring and
     compliance of conflicts of interest and ethics in G2G arrangements. This recommendation is closed.

7.   Develop and implement a plan for periodic internal review of contract files for compliance.

     The mission has developed a plan for quarterly internal review of contract files. This document
     provides guidelines for reviewing the Contracting Officer’s Technical Representative
     (COTR)/Agreement Officer’s Technical Representative (AOTR) files on a quarterly basis. The
     Acquisition & Assistance Specialist is responsible for reviewing the files in accordance with the
     responsibilities in the COTR/AOTR appointment letter. This recommendation is closed.

8.   Develop and implement a plan to monitor and document the status of contractors’
     branding and marking plans and provide training as necessary.

     The mission agreed with the recommendation. A new monitoring and evaluation contract will be in
     place by July 2011. This contract will monitor the compliance of implementers with the full terms of
     their agreement with USAID. This includes compliance with USAID branding and marking
     requirements as identified in their agreement and agency guidance. This recommendation remains
     open.

9.   Provide additional details to the FATA Secretariat concerning publicizing and marking
     USAID’s contribution to the Quick Impact Projects.

     The mission agreed with the recommendation. The mission will engage a media support contractor to
     ensure wider dissemination of information about the range and impact of our assistance programs.
     The mission will assist the FATA Secretariat in publicizing and marking USAID’s contribution to
     programs in FATA by December 31, 2011. This recommendation remains open.




                                                 33
                 Audit of USAID/Pakistan’s Management of
                           Preaward Assessments
                              (G-391-11-004-P)
                                                   
Date:                            May 6, 2011

Implementing Partner:            Pakistan’s Higher Education Commission; Health Services
                                 Academy; Ministry of Finance; Provincial Relief,
                                 Rehabilitation and Settlement Authority; United Bank
                                 Limited; Benazir Income Support; Rafi Peer Theater
                                 Workshop; Aga Khan University, Associates in
                                 Development; Children’s Global Network; Dosti Welfare
                                 Organization; Foreman Christian College; Rural Support
                                 Programmes Network; Sebcon Ltd; United States
                                 Educational Foundation; Habib Rafiq International
                                 Limited; Transparency International Pakistan; Anjum Asim
                                 Shahid Associates; Khushhali Bank; Pakistan Poverty
                                 Alleviation Fund; GreenStar Social Marketing; KPMG; Ages
                                 Consultants

Audit Period:                    November 8, 2010, to January 28, 2011

Funding:                         For fiscal years 2009 and 2010, USAID/Pakistan signed
                                 agreements with various Pakistani recipients, under which it
                                 obligated nearly $588 million and disbursed approximately
                                 $448 million.

Background—Summary of Findings

The Enhanced Partnership with Pakistan Act            to Pakistani recipients too quickly could
of 2009 authorized $7.5 billion in U.S.               jeopardize U.S. funds. USAID Pakistan
government assistance over 5 years to                 recognized the challenges and took proactive
promote an enhanced strategic partnership             steps to address the risks. A key step taken by
with Pakistan and its people. In authorizing          the mission was to contract with
these funds, the act encourages the U.S.              international and local accounting firms to
President, as appropriate to utilize Pakistani        conduct preaward assessments of potential
firms and nongovernmental organizations to            first-time recipients. The intent of these
work with local leaders to build local                assessments is to determine whether the
capacity. To facilitate this strategy, USAID          recipients can effectively manage and account
estimated that approximately 50 percent of            for these funds.
fiscal year 2010 funding, or $750 million,
would go through Pakistani federal and                USAID Office of Inspector General issued
provincial agencies and local organizations.          an audit report on USAID Pakistan’s
                                                      management of pre-award assessments. The
With the implementation of the strategy to            audit found that mission’s preaward process
build Pakistani capacity, concerns have been          did provide a reasonable basis for identifying
raised in the media and the U.S.                      significant      financial       management
Government that providing too much money              vulnerabilities; however, the audit noted


                                                 34
weaknesses in the mission’s management of                   did not include or otherwise address the
the preaward process. The mission did not                   remaining 195 weaknesses because it did not
prioritize or follow up on significant                      have a comprehensive plan for prioritizing
vulnerabilities identified in assessments. Of               and determining which of the 250
the 28 assessment reports completed during                  weaknesses should or should not be
fiscal year 2010, the 8 selected for testing                prioritized.
noted over 250 weaknesses in the potential
recipients’ ability to properly manage funds.               Many weaknesses       resulted from the mission
The mission included 55 of the reported                     not including in      the recipients’ agreements
weaknesses in the recipients’ agreements and                information on         the recipients’ payment
stipulated that the weaknesses should be                    mechanisms and        systems for procurement,
adequately addressed before or after the                    accounting and         overall monitoring and
initial disbursement of funds. The mission                  assessment.

Recommendations—Management Decisions

The audit report made four recommendations:

1.      Develop and implement a risk-assessment model to use in determining which of the
        weaknesses identified in the preaward assessments should be addressed before or after the
        disbursement of funds.

        The mission concurs with this recommendation. The following corrective actions have been started to
        address the recommendation: The mission has developed a Risk Mitigation Framework (RMF), to
        outline and determine actions to be taken based on the conditions/risks identified in the pre-award
        assessment report.

        A template of RMF has been developed and implemented missionwide. The Mission is in the process
        of formalizing a standard template of the memo requesting approval from the Deputy Mission
        Director for the implementation of RMF actions. Corrective actions on this recommendation have
        been taken. Thus, this recommendation is closed.

2.      Develop and implement a comprehensive tracking system with benchmarks and time
        frames for measuring progress on resolving weaknesses that are identified in the pre-award
        assessment reports.

        The mission concurs with this recommendation. The Risk Mitigation Framework has benchmarks and
        time frames for measuring the progress on resolving weaknesses that are identified in the pre-award
        assessment reports. The technical officer is responsible to keep track of progress on resolving weaknesses
        within agreed timeframe. Corrective actions on this recommendation have been taken. Thus, this
        recommendation is closed.

3.      Develop and implement written guidelines to follow when determining whether pre-
        disbursement recommendations have been adequately addressed.

        The mission concurs with this recommendation. The Risk Mitigation Framework provides for the
        deliverables along with timelines and indicates the responsible person/office to address the pre-award
        recommendations that Mission management considers important. The technical officer does actively
        follow-up on the status of open conditions up to their closure and keep the involved offices updated as


                                                      35
     to the status and the related action items. Corrective actions on this recommendation have been
     taken. Thus, this recommendation is closed.

4.   Develop and implement written procedures for reviewing the pre-award assessments
     reports, including guidelines for testing the supporting documentation.

     USAID/Pakistan’s Office of Financial Management developed a plan and procedure for reviewing
     the preaward assessment reports and conducting tests of supporting documentation on a random
     sample of reports. The target date to develop and implement written procedures was July 1, 2011.
     This recommendation is closed.




                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 
                                                 


                                               36
                                                    
 Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by
                                 
             Local Nongovernmental    Organizations
                                 
                        (G-391-11-003-P)


Date:                             January 24, 2011

Implementing Partner:             Pakistan Poverty Alleviation Fund (PPAF) and Rural
                                  Support Programmes Network (RSPN)

Audit Period:                     August 13, 2010, to November 15, 2010

Funding:                          As of November 30, 2010, USAID had obligated
                                  approximately $5 million and expended $3.7 million.



Background—Summary of Findings

Heavy rainfall in multiple regions of Pakistan         documentation related to managing and
led to devastating flooding in July 2010. The          monitoring    the    program,    including
flooding affected 82 of Pakistan’s 122                 implementation plans, implementing partner
districts and displaced 12 million people, half        agreements, performance measures, and
of whom required humanitarian assistance.              performance results.

USAID/Pakistan committed $10 million for               Auditors found that USAID/Pakistan’s
emergency flood relief efforts through                 implementing partners delivered food
cooperative agreements. Five million dollars           hampers, hygiene kits, and medical supplies
was      awarded     to     two    Pakistani           to meet the immediate needs of the flood
nongovernmental organizations (NGOs).                  victims. As of November 15, 2010, the two
Pakistani NGOs are: Pakistan Poverty                   implementers reported distributing food and
Alleviation Fund (PPAF) and Rural Support              hygiene kits to 80,098 households and
Programmes Network (RSPN). The two                     administering    medical     supplies   and
NGOs were to provide immediate relief in               treatment to an affected population of
the provinces of Balochistan, Punjab, Sindh,           159,620 people and 307,116 livestock.
and Khyber Pakhtunkhwa—to 80,100
households in the form of food hampers and             Auditors observed that PPAF issued food
hygiene kits, and medical supplies to an               hampers and hygiene kit tokens to each
affected population of 190,058 people.                 household. PPAF established separate teams
                                                       for token registration, token distribution,
OIG conducted this audit to determine                  and distribution of the relief items. In
whether USAID/Pakistan’s flood relief                  establishing a distribution policy, PPAF gave
efforts were meeting the immediate needs of            priority to households that had not received
the flood victims. To answer the audit                 any aid from other donors.           Auditors
objective,    we       reviewed     mission            observed that PPAF teams followed the



                                                  37
organization’s distribution policy. First, the          Second, the team directed recipients to a
team responsible for distribution of the relief         counter where they exchanged their tokens
items matched recipients’ tokens and                    for food hampers and hygiene kits. Lastly, the
Pakistani national identity cards to recipients’        team collected recipients’ signatures or
names on the master token distribution list.            thumb impressions to record the transaction.

Recommendations—Management Decisions

The audit report made no recommendations. Therefore, no additional action was required by
USAID/Pakistan to address the results of this audit report.
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     

                                                   38
                                 
                                 
                                 
  Audit of USAID/Pakistan’s Livelihood Development Program for
                                 
   the Upper Region of the Federally Administered Tribal Areas
                                 
                        (G-391-11-002-P)
                                                  

Date:                           December 10, 2010

Implementing Partner:           Academy for Educational Development

Audit Period:                           April 2008, to June 2010

Funding:                        As of June 2010, USAID had obligated approximately
                                $60 million and expended approximately $46.8 million.

Background—Summary of Findings

The Federally Administered Tribal Areas              not achieved its main goal of social and
(FATA) of Pakistan had high unemployment,            economic stabilization to counter the
widespread poverty, and separate legal               growing influence of extremist and terrorist
structures.     Located in northwestern              groups in upper FATA. The mission had no
Pakistan, FATA shares its rugged and                 baseline data to determine progress toward
mountainous border with Afghanistan.                 countering the influence of these groups. In
Extremist and terrorist groups take advantage        addition, the program had executed only 53
of the geographic and social isolation and           percent of planned activities, and program
lack of governing systems to exert their             outcomes were weak.
influence on the people of this region.
Development in FATA has become vital to              Security issues were the main cause of the
Pakistan’s progress in fighting insurgents.          delays and poor performance.          Specific
                                                     incidents included the assassination of the
The main goal of the Livelihood                      chief of party for lower FATA’s implementer,
Development Program is to provide social             the kidnapping of an aid worker, and threats
and economic stabilization in FATA to                to monitoring teams.          Allegations of
counter the growing influence of extremist           wrongdoing also impeded progress. The
groups. The program has three components:            implementer stated that program activities
1) creating jobs, increasing incomes, and            were delayed because the implementer had to
teaching employable skills with a focus on           counter these allegations and because of
unemployed youth, 2) revitalizing community          additional tiers of oversight put in place to
infrastructure and essential services and 3)         ensure greater accountability. Moreover,
supporting established businesses and                program activities stopped for six months
developing new sustainable businesses.               until security measures were improved and a
                                                     new chief of party was appointed.
After a review of the first two years of
activities, OIG found that the program has



                                                39
Two additional factors contributed to                       address the following problems that are
program delays. First, USAID/Pakistan used                  within its control. USAID/Pakistan staff did
program resources to provide humanitarian                   not follow management controls. Technical
and disaster assistance to flood victims and                staff in the mission addressed contractual
internally displaced persons fleeing conflict               matters that should be handled only by the
areas of FATA. The assistance began in                      agreement officer or took action without
August 2008, only months after the upper                    proper approvals.
FATA program started, and continued until
the implementer’s termination. Mission                      Additionally, USAID/Pakistan relied on
officials acknowledged that the work diverted               contractors to perform services closely related
time and resources from LDP activities.                     to inherently governmental functions.          A
Second, in September 2009 the U.S.                          third-party contractor’s conflict of interest in
Department of State (State Department)                      overseeing another contractor’s work created
initiated a shift in strategy toward using more             risks when the mission did not address the
Pakistani institutions to implement USAID                   gap in services created by the conflict.
programs.          During this time, all
USAID/Pakistan          incremental     funding             The auditors did not suggest terminating the
requests went through the State Department                  program. Their audit shows that performance
for approval. The delays in incremental                     deteriorated when USAID/Pakistan staff
funding created more budgetary problems for                 overrode management controls and bypassed
the program.                                                organizational structures. Much time and
                                                            funding went toward disaster response and
Despite some successes, overall progress for                emergency relief efforts, draining resources
program activities was slow, largely because of             from the planned LDP activities. In addition,
the intervening factors already mentioned.                  allowing outside pressures to take precedence
Although some factors were beyond the                       over important management controls led to
mission’s control, USAID/Pakistan needs to                  poor results in work

Recommendations—Management Decisions

The audit report made five recommendations:

1.      Develop and implement a periodic training program for mission staff that clearly defines
        the authority, responsibility, and accountability of agreement officers, technical
        representatives, and program staff.

        Mission management concurred with this recommendation. The Office of Acquisition and Assistance
        at USAID/Pakistan has already issued three Acquisition and Assistance Notices subsequent to
        issuance of this audit report that establishes clear policies for mission staff on these matters. A notice
        regarding conflict of interest was issued, a notice on out of scope changes was issued, and finally a
        notice on Continuing Education for Contracting and Assistance Officer Technical Representatives
        (COTR/AOTR) was issued. A management decision was reached and the recommendation was
        closed.

2.      Develop a plan, in compliance with Federal Acquisition Regulation 37.114 and the Office
        of Management and Budget (OMB) guidance to provide proper oversight and management
        of contractors that support contract and agreement administration.




                                                      40
     The mission planned to develop a matrix to assist with the mission’s oversight and management of
     contractors, including supervisors of technical representatives. The mission compiled the matrix and
     vetted it among mission offices. The matrix was implemented as a tool to determine whether or not
     each contractor has an acceptable level of adequate oversight. The target date was June 30, 2011.
     This recommendation is closed.

3.   Analyze the mission’s internal capability for control and management of contractors
     working on the Livelihood Development Program, taking into account the goals of the
     program, the complexity of the work, the need for specialized skills, and the effect of
     contactor default on the program performance.

     The mission agreed with the recommendation and planned to complete its analysis by June 30, 2011.
     This recommendation is closed.

4.   Develop and implement a mission workforce plan with guidelines for the consideration of
     using more U.S. federal personnel (known as U.S. direct hires) for positions involved in
     services closely associated with inherently governmental functions.

     The mission scheduled a review of the mission’s staffing levels in December 2010. This team planned
     to suggest changes as necessary to the mission director on staffing levels, with the goal of optimizing
     overall programmatic and support staff levels based on the current workload and other relevant issues.
     The target date to complete this review was March 31, 2011. This recommendation is closed.

5.   Develop and implement definitive plans for the Livelihood Development Program
     regarding the shift toward more direct funding to Pakistani institutions, including
     incremental funding, budgets, transition plans, and any other information that requires
     modifications of relevant agreements and contracts.

     The mission concurred with this recommendation. Cooperative Agreement No. 391-A-00-08-01107
     for FATA Livelihood Development Programs was terminated on June 4, 2010. A deputy mission
     director has since been assigned to the Peshawar Consulate to communicate changes to
     implementation plans as a representative of USAID/Pakistan. Therefore, a management decision
     was reached and the recommendation was closed.




                                                  41
                                                   
   Audit of USAID/Pakistan’s Livelihood Development Program for
                                 
    the Lower Region of the Federally Administered Tribal Areas
                         (G-391-11-001-P)
                                 
                                                   
Date:                            December 10, 2010

Implementing Partner:            CHF International

Audit Period:                    March 2008, to March 2010

Funding:                         As of March 31, 2010, USAID had obligated approximately
                                 $30 million and expended approximately $48 million.

Background—Summary of Findings

Pakistan’s mountains Federally Administered           social and economic stabilization in the lower
Tribal Areas (FATA) is located on the border          FATA region.
with Afghanistan. FATA is one of the most
underdeveloped regions in Pakistan, where             The audit found that USAID/Pakistan had
only 17 percent of the overall population is          made little progress in reaching annual
literate. FATA’s weak economy, widespread             targets. It must be emphasized that the main
unemployment, lack of social services, and            cause for the program achieving so little was
ineffective government make it susceptible to         the hostile environment in FATA. The
the spread of extremism. According to                 implementing         partner     experienced
USAID/Pakistan,      countering     extremist         kidnappings, harassments, and the tragic
influences in FATA will require a robust              assassination of its chief of party in
economic development program.              In         November 2008; consequently, program
response to this need, USAID/Pakistan                 activities stopped for 6 months until security
established     the    FATA       Livelihood          measures were improved and a new chief of
Development Program.                                  party took office. During this time, the
                                                      implementing partner relocated its country
The main goal of the program is to provide            office from Peshawar to Islamabad.
social and economic stabilization in FATA to
counter the growing influence of extremist            Although the hostile situation contributed to
groups. To measure progress in attaining this         the program’s limited results, the mission did
goal, the mission established outcome                 not ensure adequate monitoring and
measures and targets for each measure.                oversight to achieve program goals. In
Targets for the program include creating              addition, the program’s ability to achieve
29,375 long-term jobs and reaching a goal of          planned results was hindered by a strategic
55 percent of FATA citizens expressing                shift in U.S. Government strategy and the
satisfaction with the basic public services by        mission’s request to provide humanitarian
March 2013.                                           assistance activities.
                                                      In September 2009, the U.S. Government’s
OIG audited the program to determine                  strategy shifted toward greater involvement of
whether it was achieving its main goal of             Pakistani organizations in implementing U.S.


                                                 42
assistance programs. As a result, the mission              direct program activities, $2.7 million of that
began to rethink its strategy of providing the             going to humanitarian assistance activities.
bulk of its program assistance through                     To improve program implementation, we
U.S.-based implementers.                                   recommend that the mission revisit the
                                                           program’s measures and targets to ensure
As a result of the setbacks and shifts in                  they are in line with overall program goals
implementation, program funds were not                     and that progress can be measured; improve
used efficiently. For example, according to                monitoring of the program; and collaborate
the implementing partner, it expended $29.2                more closely with implementing partners
million in the first 2 years of the program;               regarding security in FATA.
however, only $7.6 million was spent on


Recommendations—Management Decisions

The audit report made seven recommendations:

1.      Revise the implementer’s third-year implementation plan to establish ambitious, yet
        achievable, targets, outcomes, and goals, and modify the cooperative agreement to reflect
        these changes.

        The mission agreed with the recommendation and issued two letters to the implementer regarding Year
        3 implementation. The revised third-year implementation plan directs the implementer to focus on
        new work activities in agriculture, agribusiness development, and minerals and mining. The mission’s
        target date to modify the program agreement was June 30, 2011. Thus, this recommendation is
        closed.

2.      Develop and implement a plan to collect baseline data so that progress in achieving the
        program’s outcomes and goals can be measured throughout the remainder of the program.

        The mission agreed with the recommendation and it made plans to develop and implement a
        missionwide baseline data tracking system to measure program results. The mission’s target date was
        July 1, 2011. Thus, this recommendation is closed.

3.      Develop written procedures to document, track, and take corrective action on all
        deficiencies identified in reports by independent monitoring reviewers.

        The mission planned to develop written procedures for documenting, tracking, and taking action on
        deficiencies identified in independent reports. The agreement officer’s technical representative planned
        to continue to take the lead on tracking deficiencies.

        The mission’s target date was June 30, 2011. This recommendation is closed.

4.      Verify that material internal control weaknesses identified in the financial review are
        corrected, and document the results.

        The mission planned to correct the material internal control weaknesses identified in the financial
        review. The target date to complete this plan was June 30, 2011. This recommendation is closed.



                                                     43
5.   Make a management decision regarding the allowability of and recover, as appropriate,
     questioned costs of $767,841 ($432,482 ineligible and $335,359 unsupported) identified
     in the financial review and recover those costs determined to be unallowable.

     The mission determined that of the $767,841 in questioned costs, $17,111 ineligible and $335,359
     unsupported costs are sustained. USAID/Pakistan will issue a bill of collection for $352,470. The
     target date to collect these funds is July 26, 2011. Therefore, a management decision can be reached
     and the recommendation remains open.

6.   Issue a mission order that establishes security standards to be used when reviewing
     implementing partners’ security plans and when collaborating with these partners
     throughout implementation

     The mission planned to establish a new mission order to review security plans of implementing
     partners. The mission order will also establish guidance on security procedures. The target date to
     issue the mission order is June 30, 2011. This recommendation is closed.

7.   Revisit the implementing partner’s approved request for additional security funding,
     document any adjustment needed, and make a written determination regarding the
     provision of funding.

     The mission agreed with the recommendation, and the request for additional security funding was
     reviewed in accordance with the new mission order established in Recommendation 6.

     Then the mission documented adjustments needed. The target date to complete this action was June
     30, 2011. Thus, this recommendation is closed.




                                                 44
                 Pakistan Performance Audits
                                  Fiscal Year 2010
             Audit of USAID/Pakistan’s Family Advancement for
                 Life and Health Program (5-391-10-012-P)

Date:                           August 31, 2010

Implementing Partner:           The Population Council

Audit Period:                   June 1, 2007, through April 28, 2010

Funding:                        As of April 28, 2010, $48.4 million had been obligated and
                                $26.8 million expended.

Background—Summary of Findings

In 2007, USAID/Pakistan signed a                          28,000 commercials were aired
cooperative agreement with the Population                 during November and December
Council, a U.S.-based nongovernmental                     2009 alone.
organization,      to    implement      Family
Advancement for Life and Health (FALAH).              •   Improved family planning services in
FALAH is a 5-year, $60.4 million program                  the public sector.             Program
intended to increase demand for and use of                implementers have placed a team of
birth spacing and family planning services in             master trainers in each of the 26
26 districts in Pakistan. The country has a               program districts. The trainers are
relatively high rate of population growth, and            expected to support group meetings
in 2009 the estimated Pakistani population                in the community and help public
was about 181 million—the sixth largest in the            health care providers better serve
world.                                                    their clients. Fifty-nine percent of all
                                                          public service delivery points in the
OIG’s audit found that FALAH was achieving                FALAH districts have trained
its main goals. Among its accomplishments                 providers for family planning
were:                                                     counseling and services in their
                                                          facilities. Furthermore, FALAH plans
    •   An increased demand for family                    to equip 80 percent of public service
        planning     services.     Program                delivery points in program districts to
        implementers      provided    family              provide appropriate family planning
        planning information to more than 2               services by the end of the program.
        million men and women.            In
        addition, program messages on birth           •   Improved family planning services in
        spacing and family planning services              the private sector. Improved family
        have blanketed the media. Almost                  planning services in the private sector



                                                 45
        were being led by Greenstar Social                        and completed training for more than
        Marketing,         a        Pakistani                     4,000 health care providers overall.
        nongovernmental organization. The                         Greenstar also conducted meetings at
        program hopes to expand the number                        factories and other workplaces to
        of Greenstar health care providers to                     discuss the benefits of birth spacing
        1,000 in the program’s rural areas.                       and is operating a national hotline
        As of December 31, 2009, Greenstar                        serviced by its physicians.
        had established 557 new providers

Recommendations—Management Decisions

The audit report made one recommendation:

That USAID/Pakistan require the Population Council to prepare and implement a plan of action
for completing all required financial audits for non-U.S. nonprofit organizations that received
funding under the Family Advancement for Life and Health Program.

USAID asked Population Council to develop and implement the detailed plan of action for completing all the
required financial audits for non-U.S. nonprofit organizations that received funding under the Family
Advancement for Life and Health Program. Thus this recommendation is closed.




                                                   46
     Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
    Integration and Decentralization in Earthquake-Affected Areas
                      Project (5-391-10-010-P)

Date:                             June 28, 2010

Implementing Partner:             International Rescue Committee, Management Sciences for
                                  Health, Jhpiego (an affiliate of Johns Hopkins University),
                                  and the Population Council

Audit Period:                     October 2006 to October 2009

Funding:                          As of October 31, 2009, USAID had obligated approximately
                                  $19.7 million and expended approximately $15.5 million.

Background—Summary of Findings

On October 8, 2005, a magnitude 7.6                      performance, (2) increase access to primary
earthquake in northern Pakistan claimed                  health care services, and (3) promote healthier
more than 74,000 lives and left 3.5 million              behaviors and community participation in
people homeless. More than half of the                   health services.
deaths occurred in the Mansehra District in
the North-West Frontier Province and the                 The audit found that the project had
Bagh Districts of Azad Jammu and Kashmir.                contributed to improving the quality of
Thousands of teachers, health care providers,            primary health care services, but much work
and civil servants were among those killed or            needed to be done to improve access to these
badly injured.     Public systems that had               services—particularly with regard to referring
supported essential services, including logistics        patients to facilities that offer a higher level of
and administration for health care, no longer            health care when patients’ conditions could
existed.     In response to this disaster,               not be treated at primary health care facilities.
USAID/Pakistan designed the Primary
Healthcare Revitalization, Integration, and              To promote wider access to such services, the
Decentralization in Earthquake-Affected                  project had planned to strengthen the patient
Areas (PRIDE) Project and awarded a $28.5                referral system. However, the preliminary
million cooperative agreement to the                     planning for improving the referral system was
International Rescue Committee (IRC), a                  completed a year later than anticipated, and—
U.S.-based nongovernmental organization, to              at the time of the audit—an improved system
provide technical support to the public sector           had not yet been implemented. Delays were
health system in the earthquake-affected                 attributed to the lack of availability of
districts of Mansehra and Bagh through a                 Government of Pakistan staff that was
consortium of implementers including                     scheduled to work with the project
Management Sciences for Health, Jhpiego,                 implementer.         Moreover, other project
and the Population Council. The project’s                activities took precedence over revamping the
three main goals were to (1) improve public              patient referral system.
health service and management system


                                                    47
OIG recommended that USAID implement                           outcome. Communication costs are funded
an action plan to improve the patient referral                 by facility users’ fees and verified by the
system in both project districts, including                    district health officer personally. Regular
provisions     to      (1)     establish   proper              meetings are held with health care facilities to
communication procedures between primary                       discuss referrals made and challenges and
health care centers and higher-level facilities                improvements necessary.
(2) disseminate improved procedures to
participating facilities and provide training as               Moreover, referral registers have been printed
necessary,     and       (3) establish   effective             and distributed to all facilities in the two
supervisory review of referral cases.                          districts, and clinic staff members have been
                                                               trained to maintain the registers, as well as
The project has since established a                            enter data into a Health Management
communications system for all referrals,                       Information System.
including an initial contact with the facility of
referral and a followup call to record the

Recommendations—Management Decisions

The audit report made one recommendation:

That USAID/Pakistan develop and implement an action plan to improve the patient referral system
in both project districts. This plan should include provisions to establish proper communication
procedures between primary health care centers and higher level facilities, disseminate improved
procedures to participating facilities and provide training as necessary, and establish effective
supervisory review of referral cases.

Project managers prepared and implemented a plan to address the audit recommendation on improving the
patient referral system in both project districts. The project established a communications system for all referrals
including an initial phone call to the facility of referral and a followup call after the referral to record the
outcome. Communications costs are funded by facility users’ fees and verified personally by the district health
officer. Quarterly subdistrict meetings are held with the facility in charge of the referral to discuss referrals made
during the month and challenges and improvements required. Referral registers have been printed and distributed
to all facilities in the two districts. Referral registers are completed by health facility staff, and entries are
reported monthly basis. Health workers are trained to refer clients through referrals forms from the community
level to the health facility level, and referral cases are reviewed and monitored regularly. This recommendation is
closed.




                                                         48
      Review of USAID’s Internally Displaced Persons Programs
                    in Pakistan (5-391-10-001-S)

Date:                             June 28, 2010

Implementing Partner:             Agency for Technical Cooperation and Development,
                                  American Refugee Committee, Concern, Catholic Relief
                                  Services, the Government of Pakistan, International Medical
                                  Corps,     International  Organization     for   Migration,
                                  International Rescue Committee, International Relief and
                                  Development, Internews, Merlin, Mercy Corps, Oxfam, Relief
                                  International, Save the Children, Samaritan’s Purse, United
                                  Nations (U.N.) Settlements Programme, U.N. Children’s
                                  Fund, U.N. Office for the Coordination of Humanitarian
                                  Affairs, U.N. World Food Programme, U.N. World Health
                                  Organization, World Vision.

Audit Period:                     October 2008 to December 2009

Funding:                          As of December 31, 2009, USAID had                        obligated
                                  $285.7 million and had disbursed $203.7 million.

Background—Summary of Findings

Between August 2008 and September 2009,                 organizations, a contractor, and the
conflict between the Government of Pakistan             Government of Pakistan. USAID’s programs
and militant groups in the North-West                   consisted of support for the immediate needs
Frontier Province (NWFP, recently renamed               of people who were displaced and for people
Khyber Pakhtunkhwa) and the Federally                   returning to their areas of origin after the
Administered Tribal Areas (FATA) displaced              conflict in their home areas had diminished.
over 400,000 Pakistani households. While
many displaced persons took shelter with host           Although USAID has carried out numerous
families, the remaining families took shelter           displaced persons programs in Pakistan, OIG
in official Pakistani Government-run camps.             found that monitoring and evaluation
As the internally displaced persons (IDP) crisis        methods needed improvement. Specifically,
escalated in May 2009, USAID and other                  USAID’s “alternative monitoring” methods—
U.S. Government agencies responded quickly              used to monitor activities in dangerous and
by providing humanitarian assistance to                 insecure areas, such as NWFP and FATA—
Pakistani IDPs. USAID obligated more than               needed to be strengthened. In addition,
$285 million in humanitarian assistance for             USAID had not implemented monitoring
the crisis, of which more than half was for             controls that were meant to provide
food aid.                                               reasonable assurance that $44 million in cash-
                                                        transfer funds had actually reached 140,000
Despite the deteriorating security situation in         IDP families as intended. Specifically, the
Pakistan, USAID responded immediately to                mission did not:
provide rapid assistance through 21
nongovernmental organizations, 5 U.N.


                                                   49
1.   Require the Government of Pakistan to                  3.    Verify the use of funds provided to
     provide quarterly expenditure reports.                       140,000 families to help ensure that
                                                                  funding reached IDP families.
2.   Require the Government of Pakistan to
     provide a list of the 140,000 IDP                      4.    Conduct spot checks and evaluations on
     families that received funds.                                the effectiveness of the cash transfer.


Recommendations—Management Decisions

The audit report made four recommendations:

1.   That USAID/Pakistan develop and award a procurement instrument to provide third-party
     monitoring and evaluation services to assist mission technical offices in implementing
     internally displaced persons programs, other mission programs, and in-country Washington-
     based programs such as those carried out by the Offices of Foreign Disaster Assistance and
     Food for Peace.

     A Foreign Service National has been designated as a monitoring and evaluation adviser, and USAID has
     approved a new personal services contractor senior program advisor position for monitoring and evaluation,
     which it is in the process of advertising. USAID consulted with technical teams and drafted a statement
     of work for a missionwide monitoring and evaluation contract. A new mission strategy was developed in
     December 2009 and incorporated as the basis for the report to Congress on the implementation of the
     Kerry-Lugar-Berman legislation, and it will also serve as the basis for finalizing measures and performance
     indicators. USAID prepared a results framework to provide the basis for the development of performance
     management plans. Thus this recommendation is closed.

2.   That USAID/Pakistan require the Government of Pakistan to provide quarterly expenditure
     reports for internally displaced persons disbursements and a list of payments totaling $44
     million made to internally displaced persons.

     USAID required the Government of Pakistan in its assistance agreement to provide quarterly reports and a
     list of beneficiaries to the Agency. USAID hand-carried an implementation letter addressing these
     requirements to the Economics Affairs Division on June 10, 2010, and has sent e-mail reminders.
     USAID will continue to follow up on these issues until the required reports are provided. This
     recommendation is closed.

3.   That USAID/Pakistan verify the use of funds from the quarterly expenditure reports and the
     list of internally displaced persons and confirm that the Government of Pakistan provided
     funds to at least 140,000 families as a result of this cash-transfer program.

     The use of the funds were verified and confirmed with the receipt of the required reports from the
     Government of Pakistan. USAID received a completion report in the form of a list of approximately
     140,000 beneficiaries for USAID's full contribution and verified this completion report by performing
     checks on a sample of beneficiaries. USAID has also prepared a statement of work for the audit of the
     cash-transfer program to be done by the Supreme Audit Institution of Pakistan and has drafted the
     statement of work for the verification of the funds disbursed to IDPs using the existing blanket purchase




                                                     50
     agreement mechanism with OIG-approved certified public accounting firms. This recommendation is
     closed.

4.   That USAID/Pakistan conduct spot checks on and evaluations of the effectiveness of the cash-
     transfer program.

     USAID hired a consultant to examine the operations and impact of the cash-transfer program and to
     determine the extent to which the funds had reached the intended beneficiaries. The contractor examined
     how the Government of Pakistan used the USAID funds it had received, described the beneficiary
     population, gathered information on how funds affected beneficiaries, profiled individuals who did not
     benefit from the program, and examined overall public perceptions of the assistance effort. In June 2010,
     the contractor delivered a report to USAID describing these and other features of the program and
     evaluating its impact. This recommendation is closed.




                                                     51
   USAID/Pakistan’s Capacity Building Program for the Federally
       Administered Tribal Areas Development Program
                        (5-391-10-005-P)
Date:                           January 28, 2010

Implementing Partner:           Development Alternatives, Inc.

Audit Period:                   January 2008 to October 2009

Funding:                        As of October 31, 2009, USAID had obligated approximately
                                $19.7 million and expended approximately $15.5 million

Background—Summary of Findings

This audit pointed to several implementation          of its 3-year planned lifespan, and it had not
difficulties in USAID’s capacity building             made significant progress with two of the
programs in the Federally Administered                program’s main goals: improving institutions’
Tribal Areas (FATA) of Pakistan. The FATA             capacity to govern and improving the capacity
region, which is the most economically                of NGOs to promote good governance.
depressed area of the country, has a
population with a literacy rate estimated at          Some of the problems could be attributed to
only 17 percent, and 66 percent of people live        the fact that the program had gotten off to a
below the national poverty line.                      slow start. During the first year, the
                                                      contractor focused its resources on working
Local Pakistani institutions responsible for          out best approaches to designing and
overall governance, health care, education,           implementing      activities,   building   up
and public works projects lack the capacity to        relationships with FATA institutions, and
effectively manage services and development           developing     work      plans.   Also,   the
resources. In an attempt to remedy this               deteriorating security situation in Peshawar
problem, in 2008 USAID awarded a 3-year,              and the November 2008 assassination of the
$46 million contract to Development                   chief of party of another USAID program
Alternatives, Inc. (DAI), to increase the             delayed progress in the FATA capacity
capacity of these institutions.                       building program.

OIG’s audit found that, although the program          Moreover, although the program had
had provided training, taken initial steps to         implemented a few activities to address FATA
automate FATA institutions, and completed             NGO weaknesses, the few FATA-based NGOs
some media activities, little had yet been            that exist lack the human and financial
achieved to build the capacity of FATA                resources to promote good governance
governmental         institutions        and          effectively. In most instances, FATA NGOs
nongovernmental organizations (NGOs)                  needed to strengthen their proposal
responsible for providing services. The               preparation skills, financial management
program had been in place for nearly 2 years          practices, and monitoring and evaluation



                                                 52
capabilities before they could start to promote          termination or, if terminated, what program
good governance.                                         implementation mechanisms would replace
                                                         the U.S.-based contractor.
Because of a high-level change of emphasis in
U.S. Government strategy toward greater                  In addition to the difficulties associated with
involvement of Pakistani organizations in                the transition to a new implementation
implementing assistance programs, the                    strategy, the audit found that overall capacity
mission began to rethink its strategy of                 building in automation had achieved little
providing the bulk of its program assistance             success, and most of the computer hardware
through U.S.-based implementers such as                  purchased for the program remained boxed
DAI. As a result, in June 2009 the mission               up and unused. Furthermore, monitoring
refrained from fully funding a DAI                       and reporting systems for managing
incremental funding request of $15.3 million             development projects—such as a geographic
and, 4 months later, approved only $4.7                  information system that enables project
million in additional funds. In October 2009,            information to be represented on maps and a
the mission asked DAI to consider preparing              database system to document the life cycle of
a 90-day demobilization plan. However, as of             development      projects—have     not     been
mid-November 2009, no final decision had                 completed, and they may not be completed
been made as to whether the DAI contract                 until June 2010.
would undertake early demobilization and

Recommendations—Management Decisions

The audit report made four recommendations:

1.    That USAID/Pakistan provide immediate written guidance to the contractor and to the
      Federally Administered Tribal Areas governmental institutions to identify what contractual
      arrangements may be in force to implement the Capacity Building for the Federally
      Administered Tribal Areas Development Program as the mission transitions to USAID’s new
      implementation strategy.

      USAID received approval to proceed with DAI, as an international contractor, in early December and
      provided guidance to continue with implementation of certain activities through December 2010. This
      recommendation is closed.

2.    That USAID/Pakistan develop and issue implementation plans following best practices for (1)
      the 260 computers (and related equipment) to be assigned to the Federally Administered
      Tribal Areas governmental institutions and for (2) the 140 laptop computers to be transferred
      to the North-West Frontier Province to ensure that the computer equipment will be used for
      intended purposes and that maximum benefits will be derived from this equipment.

      The contractor has prepared implementation plans for the computers assigned to FATA government
      agencies and has received FATA Secretariat and FATA Development Authority approval and
      acceptance of the implementation plan. USAID also plans to correct protocols and procedures for using
      the laptops for their intended purpose. This recommendation is closed.




                                                   53
3.   That USAID/Pakistan take immediate steps to confirm the existence of 72 laptop computers.
     If laptop computers cannot be produced, the mission should issue a bill of collection to the
     contractor for $1,400 for each laptop unaccounted for.

     All the computers have been accounted for and physically verified by an independent CPA firm. One
     computer was stolen and an internal inquiry by the FATA Secretariat is currently in process. DAI is
     following up to ensure that the inquiry is completed and appropriate action is taken. This
     recommendation is closed.

4.   That USAID/Pakistan require the contractor to develop and put into use detailed
     implementation plans for both the geographic information system and the planning
     commission database under development for use by the Federally Administered Tribal Areas
     Secretariat. The plans should identify roles and responsibilities to be carried out by the
     contractor and others and should contain best practices of systems development, such as
     obtaining approval by stakeholders, establishing target dates for completing user manuals,
     training users and administrators, and preparing for the final handover of day-to-day
     operations and maintenance to the Secretariat.

     The contractor has completed the implementation plan for the Planning Commission Pro-Forma 1 (PC-1)
     database. A draft implementation plan for the geographic information system was prepared and received
     approval from the FATA Secretariat. This recommendation is closed.




                                                  54
                 Pakistan Performance Audits
                                  Fiscal Year 2009

         USAID/Pakistan’s Earthquake Reconstruction Activities
                         (No. 5-391-09-001-P)

Date:                             November 25, 2008

Implementing Partners: Camp Dresser and McKee International, Inc., and
                       Citizens Network for Foreign Affairs

Audit Period:                     January 21, 2006, through April 30, 2008

Funding:                          As of May 2008, USAID had committed $202 million to
                                  reconstruction activities, obligated $80 million, and disbursed
                                  $43 million since the program’s inception.

Background—Summary of Findings

On October 8, 2005, residents of northern               signing of a $200 million special objective
Pakistan were shaken by a 7.6 magnitude                 grant agreement.
earthquake that claimed more than 74,000
lives, leveled 272,000 buildings (including 585         Among the goals of the project were
health care facilities and 15,000 educational           construction of education and health care
buildings), and left more than 3.5 million              facilities and activities intended to help
people homeless. The earthquake zone is                 households, industries, and markets recover
located in a mountainous region that includes           and expand. The mission met many of its
parts of Pakistan’s North-West Frontier                 goals and contributed to increasing rural
Province and Azad Jammu and Kashmir                     incomes by 38.5 percent. However, at the
Province. The Islamic Republic of Pakistan              time of the audit, the mission had not yet
(Pakistan) established the Earthquake                   completed any of the school or health facility
Reconstruction and Rehabilitation Authority             construction activities.
to coordinate and oversee all reconstruction
activities. To help Pakistan recover and to             The audit identified five issues affecting the
provide immediate access to earthquake-                 program: a delay in the construction of
affected areas, on January 21, 2006, the U.S.           schools and health clinics, delays in the
Government (acting through USAID) and the               implementation of livelihoods activities, lack
Pakistani Government formalized U.S.                    of a contractor performance review, lack of
Government         support    for     Pakistan’s        approved performance management plans,
earthquake reconstruction program with the              and lack of a data quality assessment to
                                                        validate the accuracy of reported results.



                                                   55
Recommendations—Management Decisions

The audit report made four recommendations:

1. That USAID/Pakistan’s contracting office identify and document critical contracting
   processes and provide training to mission personnel responsible for these processes.

   The mission agreed with the recommendation. To address the concerns, USAID Pakistan’s Office
   of Acquisition and Assistance, along with the Controller’s Office, has designed and implemented
   steps and procedures that will ensure that funding information is routed to the correct disbursing
   office. Along with the procedures, training was provided to the acquisitions staff and to the
   technical offices to clarify roles and responsibilities. This recommendation is closed.

2. That USAID/Pakistan perform a contractor evaluation of Camp Dresser and McKee
   International, Inc., in accordance with Agency procedures.

   The mission has performed a contractor evaluation of Camp Dresser and McKee International,
   Inc. This recommendation is closed.

3. That USAID/Pakistan modify Mission Order 203.1 to specify that CTOs are responsible
   for approving implementing partner and contractor performance management plans.

   The mission modified Mission Order 203.1 to specify that CTOs are responsible for approving
   implementing partner and contractor performance management plans. This recommendation is
   closed.

4. That USAID/Pakistan perform a data quality assessment for the mission’s earthquake
   reconstruction activities by December 31, 2008.

   The mission performed a data quality assessment for its earthquake reconstruction activities. This
   recommendation is closed.




                                                56
                 Pakistan Performance Audits
                                  Fiscal Year 2008

                         USAID/Pakistan’s Education Sector
                           Reform Assistance Program
                              (No. 5-391-08-004-P)


Date:                             March 28, 2008


Implementing Partner:             Research Triangle Institute


Audit Period:                     August 28 through September 27, 2007

Funding:                          As of September 30, 2007, USAID/Pakistan had obligated
                                  and disbursed $83 million and $76 million, respectively,
                                  toward the activities under the ESRA Program.

Background—Summary of Findings

USAID/Pakistan         designed    the    5-year        This audit could not determine whether
Education Sector Reform Assistance (ESRA)               USAID/Pakistan’s ESRA Program had
Program in support of the Government of                 achieved intended results because the audit
Pakistan’s education sector reform action               team could not rely on the mission’s
plan. USAID/Pakistan implemented this                   monitoring of the program or on RTI’s
program through its cooperative agreement               reporting of the program’s achievements. The
with Research Triangle Institute (RTI). The             mission did not support its approval of RTI’s
objective of the ESRA Program was to provide            monitoring and evaluation plans and work
knowledge, training, and infrastructure to              plans and did not adequately oversee the
help officials and citizens develop high-quality        program through site visits and maintenance
education programs for children throughout              of work files. In addition, the mission did not
Pakistan.       Specifically, the program’s             take appropriate followup actions stemming
initiatives focused on strengthening the                from program evaluations and did not require
education sector’s policy and planning,                 RTI to adhere to reporting requirements
establishing       comprehensive         school         critical to monitoring the program
improvement programs, training teachers and             performance. Therefore, the mission could
school administrators, increasing youth and             not demonstrate the ESRA Program’s
adult literacy, and fostering public-private            accomplishments and attainment of targets.
partnerships.                                           As a result, the audit team could not make an




                                                   57
independent assessment of the              overall         were only a handful of examples of tasks
program results and overall impact.                        completed under the $83 million program.

Although the audit could not confirm the                   OIG found that the mission needed to
validity of the reported achievements, auditors            strengthen monitoring and management of its
observed that some tasks had been completed.               ongoing programs, including increasing its
For example, the audit team observed that                  level of involvement in the implementation of
furniture, computers, books, and other                     programs and its approval processes for
teaching aids had been provided to two                     substantive changes to the program. The
different ESRA-funded resource centers. The                audit also identified lack of documentation
team also reviewed memorandums of                          on a potential conflict of interest situation
understanding that supported the formation                 that was brought to the mission’s attention.
of public-private partnerships. However, these

Recommendations—Management Decisions

OIG recommended that USAID/Pakistan instruct RTI to provide detailed supporting evidence of
how the $16 million programmed for the ESRA School Enhancement Program was used, to
determine whether the funds were used as intended.

USAID took the steps outlined in the original management decision but could not determine whether the funds
had been used as intended because RTI did not provide adequate programmatic evidence of the questioned costs.
To better address the intent of the audit recommendation, the mission, in coordination with OIG, decided to
revise the original management decision to obtain the services of the Defense Contract Audit Agency (DCAA) to
conduct an audit of the $16 million programmed for the school enhancement program.

An interagency agreement between USAID and DCAA was established in August 2009 so that DCAA could
perform the audit of RTI.

The initial recommendation is closed; however, OIG will continue to monitor the status of any followup action.
Additional recommendations may be forthcoming from the secondary audit.




                                                     58
                Pakistan Performance Audits
                                 Fiscal Year 2007
                         Selected Activities Under
                    USAID/Pakistan’s Basic Health Program
                            (No. 5-391-07-005-P)

Date:                           May 23, 2007

Implementing Partners:          Government of Pakistan, Greenstar, and JSI Research and Training
                                Institute, Inc.

Audit Period:                   October 1, 2005, through September 30, 2006

Funding:                        Total program funding for basic health activities was $168 million.
                                The audit covered two subprograms—the Key Social Marketing
                                (KSM) Program and the Pakistan Initiative for Mothers and
                                Newborns (PAIMAN) Program. As of September 30, 2006,
                                USAID/Pakistan had obligated $15 million and disbursed $11
                                million for the KSM Program and obligated $23 million and
                                disbursed $7 million for the PAIMAN Program.

Background—Summary of Findings

As part of its annual audit plan, the Regional        Program achieved all their planned targets for
Inspector General/Manila conducted an audit           fiscal year 2006, nor were the programs as
to determine whether selected activities under        effective as planned in delivering the intended
USAID/Pakistan’s Basic Health Program had             services to the citizens of Pakistan.
achieved planned targets for FY 2006. The
audit covered two key programs under                  Activities that did not achieve targets faced
USAID/Pakistan’s umbrella Basic Health                difficulties that included a shortage of oral
Program—the Key Social Marketing (KSM)                contraceptives, a program design that did not
Program and the Pakistan Initiative for               work as planned, changes in the mission’s
Mothers and Newborns (PAIMAN) Program.                program direction, inability to procure
For these two programs, OIG selected 13               medical equipment, and complications as a
performance indicators that the mission was           result of the October 2005 earthquake.
using to measure whether activities under the
programs were achieving planned targets,              Additionally, the audit found that
which included distribution of family                 USAID/Pakistan could have better monitored
planning products, training for newborn and           the KSM and PAIMAN programs by updating
maternal care, and upgrading of referral              performance targets, ensuring that reported
facilities.                                           performance data were accurate and reliable,
                                                      and maintaining work files of cognizant
Neither of the two programs reviewed under            technical officers (CTOs).
USAID/Pakistan’s umbrella Basic Health



                                                 59
Recommendations—Management Decisions

OIG made four recommendations:

1. That USAID/Pakistan develop and implement procedures that require its CTOs to periodically
   verify that the targets of its Basic Health Program performance indicators are updated to reflect
   any significant program changes.

   The mission agreed with the recommendation. The mission updated guidelines for CTOs and provided
   training and refresher courses for CTO personnel. This recommendation is closed.

2. That USAID/Pakistan develop and implement procedures that require its CTOs to periodically
   verify the reliability of performance data submitted by implementing partners.

   The mission agreed with the recommendation. The mission updated guidelines and training for CTOs in
   data quality assessment and better communication of requirements with implementing partners. This
   recommendation is closed.

3. That USAID/Pakistan conduct data quality assessments of its Basic Health Program
   performance indicators as required by USAID’s Automated Directives System.

   The mission agreed with this recommendation, and an external data quality assessment was completed in
   September 2007. This recommendation is closed.

4. That USAID/Pakistan develop and implement procedures to retain and safeguard CTO work
   files.

   The mission agreed with this recommendation and provided additional guidance and training on
   safeguarding records. This recommendation is closed.




                                                  60
                Pakistan Performance Audits
                                  Fiscal Year 2004

                        Risk Assessment of Major Activities
                           Managed by USAID/Pakistan
                               (No. 5-391-04-001-S)

Date:                             October 30, 2003

Implementing Partners: N/A

Audit Period:                     N/A

Funding:                          N/A

Background—Summary of Findings

Since Pakistan became independent in 1947,              Consequently, the USAID/Pakistan Mission
the United States has contributed billions of           reopened in July 2002 to enable the rapid
dollars in foreign assistance to the country,           implementation of development assistance
touching every development sector. However,             programs in four sectors: education, health,
in 1995, USAID closed its USAID/Pakistan                governance, and economic growth. Bilateral
Mission under congressional sanctions                   strategic objective agreements were signed
resulting from Pakistan’s nuclear weapons               with the Government of Pakistan for each of
program. From 1997 to 2002, USAID’s                     these sectors. Total life-of-project funding and
assistance to Pakistan consisted of grants to           obligations at the time of the risk assessment
                                                        amounted to $306 million and $66.5 million.
nongovernmental organizations to strengthen
civil society and improve the delivery of basic
                                                        To prioritize OIG workload and determine
social services. These grants focused primarily
                                                        what type of audit coverage is appropriate for
on education, health, and community                     individual activities being funded and
development as Pakistan remained a USAID                managed by the mission, OIG performed risk
“nonpresence” country.                                  assessments of USAID/Pakistan’s operations
                                                        as a whole and of planned activities.
However, as a result of the terrorist attacks in
the United States on September 11, 2001,                Auditors assessed the overall risk related to
and subsequent negotiations with the U.S.               USAID/Pakistan’s        ability   to     manage
Government, the Government of Pakistan                  assistance activities and considered several key
committed to resolving a host of longstanding           factors, including the significance and
problems and to forge a partnership with the            sensitivity involved with the mission’s
United States to fight terrorism. In response           program, the management support and
to Pakistan’s initiatives, the United States            control environment, relevant internal
waived its sanctions and resumed a long-term            controls, and susceptibility to failure to attain
assistance program.                                     program goals, to noncompliance, and to


                                                   61
other irregularities.        The assessment             •    Signing four strategic objective grant
concluded that because of the precarious                     agreements, totaling $306 million, with
security situation in Pakistan, staffing                     the host government and developing
constraints and challenges, and restrictions on              multiyear strategic plans to achieve
the travel of official Americans outside of the              objectives.
capital city, the overall risk is high that             •    Planning for the implementation of new
program goals may not be attained.                           assistance programs with increased
Nevertheless, the mission has taken steps to                 funding.
address this risk:
                                                        Despite the steps the mission has taken,
•    Building a program that can be managed             overall risk remains high. This high risk is
     largely by Pakistani professionals, both           amplified by (1) the magnitude of the funding
     with regard to its own staff as well as the        being provided to Pakistan, (2) the pressure to
     staff of its partner organizations.                design and implement activities in short time
•    Outsourcing some of its financial review           frames, (3) the potential for terror strikes and
     and analysis functions to a local                  more evacuations from post, and (4) the risks
     accounting firm and considering local              associated with high reliance on indigenous
     Pakistani organizations to monitor and             organizations and management.
     evaluate USAID program activities.
•    Hiring experienced staff within a short
     time frame.

Recommendations—Management Decisions

OIG made no recommendations.




                                                   62
                Pakistan Performance Audits
                                 Fiscal Year 2003
              USAID’s Bureau for Asia and the Near East
        Monitoring of the Government of Pakistan’s Compliance
         With the Provisions of USAID Grant No. 391-K-005
                          (No. 0-000-03-001-F)

Date:                           January 7, 2003

Implementing Partners: Government of Pakistan

Audit Period:                   November 15, 2001, to June 30, 2002

Funding:                        $600 million

Background—Summary of Findings

OIG conducted this audit to determine                    •   USAID/ANE officials did not obtain
whether USAID’s Bureau for Asia and the                      timely required reports from the
Near East (ANE) had monitored the grant                      Government of Pakistan on the use
activity of the Government of Pakistan to                    of the separate dollar funds and the
ensure its compliance with the terms of Grant                status of the Separate Dollar Account,
No. 391-K-005 (the grant) to be used as                      as required by the agreement.
reimbursement of debt paid, and service of
debt, to the United States, World Bank, Asian            •   USAID transferred grant funds into
Development Bank, or the International                       an interest-bearing account at the
Monetary Fund.                                               Federal Reserve Bank of New York,
                                                             although Article V, Section 5.1 of the
                                                             agreement requires grant funds to be
The audit determined that USAID/ANE did
                                                             deposited into a non-interest-bearing
not design the grant to allow for effective
                                                             account. ANE also did not establish
oversight and did not effectively monitor the
                                                             procedures to ensure that interest
Government of Pakistan’s compliance with                     earned was returned to USAID.
certain provisions of the grant. Specifically,
OIG has determined that:                              These conditions existed largely because ANE
                                                      did not fully consider its monitoring
    •   USAID/ANE officials did not secure            requirements prior to the grant award or
        authorizations from the Government            during the Government of Pakistan’s use of
        of Pakistan to have loan records
                                                      the award. As a result, ANE officials had no
        released by each of the Government
                                                      assurance that the grant funds were used in
        of Pakistan’s creditors to corroborate
                                                      accordance with the terms of the grant
        loan payment data provided by the
        Government of Pakistan.                       agreement until after the Government of
                                                      Pakistan had expended the funds.




                                                 63
ANE had not monitored, in a timely way, the                the grant funds) on these sectors during the
Government of Pakistan’s compliance with                   fiscal year that ended June 2002.
Section 5.2(a) of the grant agreement. Section
5.2(a) requires the Government of Pakistan to              Despite these issues, OIG found no evidence
transfer budget resources to the poverty                   that grant funds had not been used for debt
reduction and social development program in                relief, and the Government of Pakistan was
an amount commensurate to the amount of                    very     cooperative    in    responding     to
the grant during the fiscal year ended June                USAID/ANE’s varied requests for access to
2002. According to the Government of                       its loan payment information at each of its
Pakistan’s own records, submitted to ANE in                creditors and to its banking records related to
April 2002, the Government of Pakistan                     the grant account at the Federal Reserve Bank
                                                           of New York.
budgeted only about 14 billion rupees
(approximately $230 million, or 38 percent of

Recommendations—Management Decisions

OIG made three recommendations:

1. That USAID/ANE implement procedures to obtain third-party authorizations necessary to
    monitor its cash-transfer grant awards to the Government of Pakistan and all other foreign
    government grantees.

    USAID/ANE agreed to include provisions in future agreements to require grantees to seek the timely
    submission of information from third parties that may be necessary for the Agency to monitor grant awards
    to the Government of Pakistan and other foreign government grantees, as appropriate to U.S. foreign policy
    considerations. This recommendation is closed.

2. That USAID/ANE implement procedures to monitor its grant agreements on an ongoing basis.

    USAID/ANE agreed with the recommendation and stated that it would implement procedures to enforce
    its cash-transfer grant requirements on an ongoing basis. These procedures were issued to Bureau office
    directors on January 6, 2003. This recommendation is closed.

3. That USAID/ANE identify and collect the difference between interest remitted by the
    Government of Pakistan and total interest earned in the Separate Dollar Account associated with
    USAID Grant No. 391-K-005.

    The mission agreed with the recommendation and collected more than $600,000 from the Government of
    Pakistan. This recommendation is closed.




                                                     64
                              Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                               Department of
          Criminal Law                                                               Program Integrity (PI)     Savings
 Case                                                                                                                             Justice
          Enforcement             Allegations                 Source          Status          or                  and                                              Results
Number                                                                                                                         Civil/Criminal
         Records System                                                              Employee Integrity (EI)   Recoveries
                                                                                                                                  Actions
L07059                         Procurement fraud          USAID employee      Closed            PI                                                              Audit recovery

                                                                                                                                                        Other administrative sanctions;
L07058                             Conspiracy             USAID employee      Closed            PI                                                    disqualified from future contract bid
                                                                                                                                                                (not a debarment)
                                                                                                                                                         Administrative action: verbal
A06054                         Procurement fraud             Contractor       Closed            PI
                                                                                                                                                               admonishment

A05080                             False claim            USAID employee      Closed            PI                            1 criminal referral               DOJ declination

         LA-H0-08-0172-R       Procurement fraud           Private citizen    Closed            PI

         LA-H0-08-0180-R    Conflict of interest/ethics    Private citizen    Closed            EI

         LA-H0-09-0064-G    Conflict of interest/ethics      OIG audit        Closed            PI

         LA-H0-09-0103-R    Conflict of interest/ethics    Private citizen    Closed            PI

         LA-HO-10-0084-G      Obstruction of justice       Private citizen    Closed            PI

         LA-HO-10-0180-R    Bribery/gratuity/kickback      Private citizen    Closed            PI

         LA-IS-09-0042-I           Conspiracy             USAID employee      Open              PI                                                  Bill for collection; Management advisory

                                                                                                                                                       Removal (4), retired, suspension,
         LA-IS-09-0119-I    Bribery/gratuity/kickback     USAID employee      Open              PI             $101,598,705   1 criminal referral
                                                                                                                                                       contract termination, debarment

         LA-IS-09-0133-I        Computer crimes            Private citizen    Open              PI

         LA-IS-09-0146-I    Bribery/gratuity/kickback     USAID employee      Closed            PI

         LA-IS-09-0147-I    Bribery/gratuity/kickback     USAID employee      Closed            PI

         LA-IS-09-0148-I    Bribery/gratuity/kickback     USAID employee      Closed            PI

         LA-IS-10-0055-G   False claim/false statement    USAID employee      Closed            PI

         LA-IS-10-0081-G    Conflict of interest/ethics     Anonymous         Closed            EI

                                    Conflict of
         LA-IS-10-0088-I                                  Former contractor   Closed            PI
                            interest/ethics/conspiracy

         LA-IS-10-0128-I    Bribery/gratuity/kickback      Private citizen    Open              PI

         LA-IS-10-0129-G        False statement             Anonymous         Closed            EI

         LA-IS-10-0147-G    Bribery/gratuity/kickback      Private citizen    Closed            EI



                                                                                   65
                            Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                          Department of
          Criminal Law                                                             Program Integrity (PI)     Savings
 Case                                                                                                                        Justice
          Enforcement            Allegations                 Source         Status          or                  and                                        Results
Number                                                                                                                    Civil/Criminal
         Records System                                                            Employee Integrity (EI)   Recoveries
                                                                                                                             Actions
                           Conflict of interest/false
         LA-IS-10-0157-I                                   Anonymous        Open              PI
                            claim/false statement

         LA-IS-10-0199-G      Procurement fraud           Private citizen   Closed            PI

         LA-IS-10-0254-I   Bribery/gratuity/kickback       Anonymous        Open              PI

         LA-MA-08-0040-I       False statement           USAID employee     Closed            EI

         LA-MA-09-0105-G   Conflict of interest/ethics   USAID employee     Closed            EI

         LA-H0-10-0267-I        Program fraud             Private citizen   Open              PI

         LA-IS-11-0002-I        Program fraud             Private citizen   Open              PI

         LA-H0-11-0033-G        Program fraud             Private citizen   Closed            EI                                            Will be worked under LA-H0-11-0028-I

         LA-IS-11-0028-I   Bribery/gratuity/kickback      Private citizen   Closed            EI                                               Payments to contractor released

                                                                                                                                           Allegation submitted to the Transparency
         LA-IS-11-0060-G        Program fraud             Private citizen   Closed            PI
                                                                                                                                                      International Hotline
                                                                                                                                                 Consideration for debarment;
         LA-IS-11-0059-I          False claim            USAID employee     Open              PI
                                                                                                                                                    administrative referral
                                                                                                                                           Original plan against which the allegation
         LA-H0-11-0021-I   Bribery/gratuity/kickback     USAID employee     Closed            EI
                                                                                                                                                  was issued was cancelled
                                                                                                                                             Referral to U.N./Food and Agriculture
         LA-H0-11-0260-R        Program fraud              Anonymous        Closed            PI
                                                                                                                                                          Organization
         LA-IS-11-0037-I   Bribery/gratuity/kickback     USAID employee     Open              PI

         LA-IS-11-0041-G   Bribery/gratuity/kickback      Private citizen   Closed            PI
                                                                                                                                               Case will be combined with case
         LA-IS-11-0095-G        Program fraud             Private citizen   Closed            PI
                                                                                                                                                      LA-IS-10-0088-I

         LA-IS-11-0038-G        Program fraud             Private citizen   Closed            PI                                                Entered as a hotline complaint

                                                                                                                                           Allegation was unsubstantiated. Pertinent
         LA-IS-11-0092-G             Theft                Private citizen   Closed            PI
                                                                                                                                                program is not funded by USAID

                                                                                                                                           Requested proof of corruption activity not
         LA-IS-11-0123-G        Program fraud             Private citizen   Closed            PI
                                                                                                                                                  provided by complainant
         LA-IS-11-0136-I   Bribery/gratuity/kickback      Private citizen   Closed            PI

         LA-IS-11-0154-G             Theft                 Anonymous        Closed            PI

         LA-IS-11-0158-R        Program fraud             Private citizen   Open              PI



                                                                                 66
                             Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                           Department of
          Criminal Law                                                              Program Integrity (PI)     Savings
 Case                                                                                                                         Justice
          Enforcement             Allegations                 Source         Status          or                  and                                       Results
Number                                                                                                                     Civil/Criminal
         Records System                                                             Employee Integrity (EI)   Recoveries
                                                                                                                              Actions

         LA-IS-11-0162-R         Program fraud             Private citizen   Open              PI

          LA-IS-11-0168-I       Collusive bidding           Anonymous        Open              PI

          LA-IS-11-0136-I   Bribery/gratuity/kickback      Private citizen   Open              PI

         LA-IS-11-0145-G         Program fraud             Private citizen   Closed            PI

          LA-IS-11-0155-I             Theft               USAID employee     Closed            PI

                                                                                                                                            Administrative referral to Rural Support
          LA-IS-11-0157-I             Theft                Private citizen   Open              PI
                                                                                                                                                    Programmes Network

         LA-IS-11-0186-G    Conflict of Interest/ethics    Private citizen   Closed            EI

         LA-IS-11-0188-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0202-G    Bribery/gratuity/kickback      Private citizen   Closed            EI

         LA-IS-11-0203-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0206-G         Program fraud              Contractor       Open              PI
                                                                                                                                            Referral to United Nations/World Food
         LA-IS-11-0207-R         Program fraud             Private citizen   Open              EI
                                                                                                                                                           Program

         LA-IS-11-0208-G         Program fraud             Private citizen   Open              PI

          LA-IS-11-0198-I   Bribery/gratuity/kickback       Anonymous        Open              EI

          LA-IS-11-0178-I   Bribery/gratuity/kickback      Private citizen   Open              PI

         HQ-HQ-11-0213-G         Program fraud              Contractor       Closed            PI

         LA-IS-11-0214-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0222-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0226-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0229-G         Program fraud             Private citizen   Closed            PI

         LA-IS-11-0248-G         Program fraud             Private citizen   Closed            PI

          LA-IS-11-0265-I   Bribery/gratuity/kickback      Private citizen   Open              PI

         LA-IS-11-0268-G    Bribery/gratuity/kickback      Private citizen   Closed            EI




                                                                                  67
                               Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                                                  Department of
          Criminal Law                                                                               Program Integrity (PI)      Savings
 Case                                                                                                                                                Justice
          Enforcement              Allegations                        Source                  Status          or                   and                                                 Results
Number                                                                                                                                            Civil/Criminal
         Records System                                                                              Employee Integrity (EI)    Recoveries
                                                                                                                                                     Actions

         LA-IS-11-0272-G               Theft                        Anonymous                 Closed              PI

          LA-IS-11-0310-I        Collusive bidding                USAID employee              Open                EI

         HQ-HQ-11-0313-G     Conflict of Interest/ethics           Private citizen            Closed              PI

         LA-IS-11-0320-G     Conflict of Interest/ethics           Private citizen            Closed              PI

         LA-IS-11-0329-G          Program fraud                    Private citizen            Closed              PI

          LA-IS-11-0333-I   False claim/false statement             Anonymous                 Open                EI

         LA-IS-11-0335-P     Bribery/gratuity/kickback            USAID employee              Open                EI

         LA-IS-11-0336-G     Bribery/gratuity/kickback            USAID employee              Closed              PI
                                                                                                                                $101,598,705



                                                           FY 2011 Fourth Quarter Results                 Cumulative Results*
                                                                            Cases opened        12                75
                                                                            Cases closed        15                51
                                                                           Cases pending        24                24
                                                           Department of Justice referrals      0                 2
                                                                                    Arrests     0                 0
                                                                               Indictments      0                 0
                                                                              Convictions       0                 0
                                                                  Administrative actions**      1                18                            * 2003 through September 2011
                                                               Fraud awareness briefings        1                31
                                                   Attendees at fraud awareness briefings       16               760                           ** Terminations, suspensions, bills for collection, etc.




                                                                                                     68
                              Pakistan
                      Investigative Summaries
                              Fiscal Years 2005–11
           Civil Settlement Related to Fraud in USAID-Funded
                   Programs in Afghanistan and Pakistan

Allegation

In June 2011, the Academy for Educational Development (AED)1 agreed to settle allegations that
the company submitted false claims to USAID in connection with two cooperative agreements
under which AED provided foreign assistance in Afghanistan and Pakistan.

Status

Although certain terms of the settlement with the Department of Justice are contingent on future
events, AED has already paid $5,635,000 towards these claims and potentially could pay a total of
more than $15 million over the next three years. In the settlement agreement, the government
alleged that AED failed to ensure that its actions under these two cooperative agreements complied
with applicable regulations concerning competition in procurements, adherence to contract
specifications, and supervision of its subcontractors. The government further alleged that AED
failed to inform USAID that it had discovered defects in its internal control systems and that certain
AED subcontractors may have been involved in corruption and wrongful activities.


               Personnel Terminations Related to Corruption
                    in Pakistan Disaster Relief Projects

Allegation

During spring and summer 2011, the USAID OIG Pakistan Anti-Fraud Hotline received over 200
complaints regarding problems with service delivery or criminal misconduct by employees of the
Sindh Rural Support Organization (SRSO). SRSO is a recipient of subcontracts from USAID
implementing partners executing flood relief efforts for USAID’s mission in Pakistan, Office of
Foreign Disaster Assistance, and Office of Food for Peace.

Status

To date, the OIG investigation has revealed significant issues with internal controls for the
distribution of cash and relief goods as well as the distribution of food and non-food items to
undesignated areas. As a result of the investigation, the NGO has terminated 21 employees to date.
Forensic audits of the NGO are now underway.

3
 AED effectively no longer exists after FHI 360, a newly formed government contractor, took over virtually all
of AED’s programs in June of 2011.


                                                     69
    4 Pakistani Nationals Enter Guilty Pleas in Bid-Rigging Case
Allegation

On July 13, 2011, the Director General of the Pakistan National Accountability Bureau (NAB),
Khyber Pakhtunkhwa office, announced that four men have entered voluntary pleas for their roles
in a bid-rigging scheme related to the USAID-funded Federally Administered Tribal Areas
Livelihood Development Program (FATA-LDP). The goal of the FATA Livelihood Development
Program was to provide social and economic stabilization in FATA.

The $150 million FATA-LDP cooperative agreement with the Academy for Educational
Development (AED) was terminated for cause by USAID in June 2010 after an ongoing
investigation by the Office of the Inspector General (OIG) and the Federal Bureau of Investigation
revealed indications of widespread fraud.

Status

Under Article 25(A) of NAB’s Ordinance (1999), the four men returned approximately $140,000 as
part of their agreement. The recovered funds were returned to USAID. The NAB will ask USAID to
use these funds for education and health projects in Khyber Pakhtunkhwa.

This latest development is a continuation of USAID/OIG’s investigation of AED. In
December 2010, USAID suspended AED from doing additional business with the federal
government based on information that was shared by the USAID/OIG.


         OIG Cohosts Fraud Awareness Conference in Pakistan
On February 17, 2011, OIG—along with USAID Pakistan, Transparency International Pakistan, the
Auditor General of Pakistan, the Pakistan Public Procurement Regulatory Authority, and the
National Accountability Bureau—cosponsored a fraud awareness conference for USAID
implementing partners in Islamabad, Pakistan. The event was attended by 118 participants,
including representatives of American and Pakistani NGOs, international public organizations, and
representatives of both USAID and Pakistani Government ministries. The OIG Pakistan Hotline
was formally launched during the conference.



                   OIG Pakistan Hotline Fully Operational

The OIG Pakistan hotline became fully operational in February 2011. This 5-year project is funded
by a cooperative agreement between USAID Pakistan and Transparency International Pakistan;
however, OIG is solely responsible for addressing referrals and complaints, which can be submitted
through telephone operators who speak English, Sindi, Urdu, and Pashto. They can also be
transmitted by e-mail, Internet, facsimile, postal mail, or in person. The hotline is advertised on



                                                70
television, the radio, the newspaper, and on billboards located throughout Pakistan. As of June
2011, the hotline has received 1,303 complaints related to projects funded by USAID and other
organizations. This information will be referred to USAID or the implementing partner responsible
for the project in question. To date, OIG has initiated a number of investigations based on hotline
allegations.



                   USAID Suspends Contractor for Serious
                          Corporate Misconduct

Allegation

USAID suspended the Academy for Educational Development (AED) from receiving new
government awards after initial findings by OIG revealed evidence of serious corporate misconduct,
mismanagement, and a lack of internal controls. As reported in our previous semiannual report in
March 2011, OIG found evidence of fraud related to various aspects of a $150 million cooperative
agreement, which was subsequently terminated by USAID Pakistan. The OIG investigation later
uncovered evidence that certain members of AED’s senior headquarters staff became aware of
potentially millions of dollars of disallowable costs because of collusion and overcharging by vendors
on the Pakistan project but repeatedly failed to disclose this information to USAID. AED
announced the retirement of its chief executive officer and required the departure of four other
senior executives to address the inadequate reporting and management deficiencies uncovered by
the investigation. In addition to issues related to collusion and overcharging by vendors, the OIG
investigation revealed several infrastructure projects managed by AED in Pakistan that failed to meet
required USAID specifications. An OIG investigation of another AED project in Afghanistan
revealed significant internal control issues resulting in the use of a purchasing process that violated
both AED and USAID competitive procurement standards. While some of these issues were
identified during a 2008 internal audit conducted by AED, they persisted until the end of the
project in late 2010.

Status

As the result of the ongoing investigation, USAID Afghanistan cancelled a planned $9,900,000
extension of the project with AED in December 2010. Subsequently in June, FHI, a global health
and development organization, purchased the programs and assets of AED.


                    USAID Personal Services Contractor
                  Terminated for Misuse of Official Position

Allegation

USAID OIG received information that staff of a USAID implementing partner in the Federally
Administered Tribal Areas (FATA) in Pakistan may have been involved in false claims, fraud,
kickback schemes, and mismanagement regarding the awarding and oversight of construction




                                                  71
contracts for rehabilitation of homes and buildings following the recent floods. The matter had
been brought to the attention of the FATA Secretariat.

Status

Investigations by USAID OIG, with the assistance of the Pakistan National Accountability Bureau
(NAB), revealed that a USAID personal services contractor who was serving as the agreement
officer’s technical representative for a livelihoods program misused his official position for the
personal gain of relatives and solicited favors from a prohibited source. The subject took advantage
of his official position to obtain employment for two of his relatives, including requesting that a
USAID implementing partner create a new position for one of them. The subject was terminated
and was subsequently debarred from government contracts based on an OIG referral.



      USAID Terminates $150 Million Livelihood Development
        Program Contract Because of Allegations of Fraud

Allegation

OIG received allegations of false claims, fraud, kickback schemes, and mismanagement related to an
implementing partner of one of its multimillion-dollar cooperative agreements for a livelihood
development program in FATA.

Status

A joint investigation between USAID OIG and the Pakistan NAB revealed evidence of collusion
between vendors and staff of the implementing partner that resulted in overpayment for certain
goods. Because of the investigation, USAID/Pakistan terminated a 5-year, $150 million
procurement of household kits for internally displaced persons. To date, the implementing partner
has returned $992,206 to USAID related to this investigation. Additionally, USAID/Pakistan
terminated a personal services contractor on which the mission relied to perform important contract
management functions for the $300 million program.




                                                72
                                    Afghanistan
                                    Introduction
Background. When the Taliban was forced               the human capital base needed to eliminate
out of power in 2001, half of Afghanistan’s 31        the conditions that breed extremism.
million people were left in absolute poverty.
To rebuild the country and combat terrorism,          USAID obligations in Afghanistan for FY
USAID is working to create economic growth,           2002 through the fourth quarter of FY 2011
effective and representative governance, and          totaled approximately $13.2 billion, and OIG
has provided oversight of these funds since           supplemental funding to oversee USAID’s
2002. Since FY 2003, OIG has expended over            activities in Afghanistan.
$14.8 million in base appropriations and

Results— Fiscal Year 2003 Through Fiscal Year 2011




                           Activities                            Afghanistan
                Performance audits/reviews                            47
                Recommendations made                                 223
                Recommendations closed                               171
                Recommendations open                                  52
                Financial audits conducted                            40
                Questioned costs                                $113.7 million
                Sustained costs                                  $99.7 million
                Investigations opened                                155
                Investigations closed                                 93
                Investigations pending                                62
                Referrals for prosecution                             35
                Indictments                                           13
                Convictions                                            9
                Arrests                                               10
                Administrative actions                                87
                Recoveries and savings                           $163 million
                Fraud awareness briefings                             90
                Attendees at briefings                              1,779




                                                 73
Performance Audits. OIG’s performance                   USAID requires nonprofit organizations not
audit work in Afghanistan has shown that                based in the United States who expend
security conditions have been a primary                 $300,000 or more in federal funds per year to
concern and have hindered program                       undergo an annual financial audit. These
implementation. Of the 47 audits conducted              audits follow the rules and procedures
to date, 51 percent cited security conditions           contained in the USAID-produced Guidelines
as a concern.      Our performance audit                for Financial Audits Contracted by Foreign
recommendations have also identified                    Recipients. These audits are generally called
inadequacies in the following areas:                    recipient-contracted audits.

    • Contract oversight or activities                  Firms selected to perform nonfederal audits
      management (65 percent)                           and recipient-contracted audits must be
    • Data integrity or quality (26                     approved by OIG, which then reviews the
       percent)                                         audits, summarizes the findings and
    • Contractor performance (16                        recommendations, and performs quality-
       percent)                                         control reviews on a limited basis.

In several instances, USAID/Afghanistan’s               The agency-contracted audit (ACA) program
agricultural programs have demonstrated                 is implemented by USAID on its for-profit
positive results.      In its first year of             implementing partners.       Financial audits
implementation, the Agriculture, Rural                  conducted under this program accomplish
Investment and Enterprise Strengthening                 many goals, such as improving accountability
Program met or exceeded most of its goals. In           and internal control over funds and
addition, USAID/Afghanistan’s Alternative               commodities and ensuring compliance with
Livelihoods Program in the Eastern Region               agreements and applicable laws and
achieved significant results for the majority of        regulations. USAID normally requests an
its performance indicators.                             ACA to provide needed audit coverage or to
                                                        address real or perceived problems in financial
See page 77 for a chart listing each of our 47          management.
Afghanistan performance audits’ findings
and recommendations. This chart shows the               ACAs are usually performed by independent
status of all of our 223 recommendations.               public accounting firms located in the United
Narrative summaries of the audits, arranged             States but which have overseas affiliates.
by fiscal year, are provided beginning on page          USAID contracts to have ACAs conducted,
105.                                                    but OIG approves the statement of work used
                                                        to procure the audit services, monitors the
Financial Audits. By federal law (31 U.S.C.             audits, reviews the audit reports, summarizes
Chapter 75), nonfederal entities that expend            the findings and recommendations, and
$500,000 or more in federal awards annually             performs quality-control reviews on a limited
are required to have audits conducted in                basis. OIG may also initiate an ACA to
accordance with Office of Management and                address problems concerning a contract,
Budget (OMB) Circular A-133.          OMB’s             grant, or cooperative agreement, and it may
requirement applies to audits of states, local          enlist the services of the Defense Contract
governments, and nonprofit organizations                Audit Agency (DCAA) to conduct incurred
based in the United States. Audits conducted            audits on for-profit entities that are not based
pursuant to Circular A-133 are sometimes                in the United States. However, DCAA
referred to as “nonfederal audits.”




                                                   74
performs all financial audits on for-profit             In a number of criminal and civil case
entities based in the United States. 4 1                matters, OIG has worked closely with local
                                                        authorities. When our investigators uncover
Financial audits performed on USAID’s                   probable cause to believe a criminal or civil
implementing partners in Afghanistan are                crime has occurred, they consult with the
reflected in the chart beginning on page 93.            Department of Justice to determine its
Questioned costs are costs determined by an             interest in pursuing the matter. Investigative
audit to be not allowable (e.g., liquor charges         findings on administrative matters are
billed to USAID), allocable (e.g., charges that         referred to Agency management for action.
cannot be tied to a specific contract, grant, or        OIG investigators also conduct fraud
cooperative agreement), or reasonable (e.g.,            awareness briefings to alert participants
charges for 25 computers for a staff of 10).            (employees, contractors, and grantees) to
USAID and the implementer work to resolve               fraudulent practices and schemes and to
questioned costs, but when resolutions are              provide guidance on how to report fraud if it
unattainable the costs become sustained (by             is encountered. See page 221 for data on
the audit), and USAID seeks reimbursement               investigative case work and fraud prevention
from the implementer.                                   briefings and page 229 for summaries of
                                                        investigations.
Investigations.          OIG’s investigative
activities seek to eliminate fraud in contracts,
grants, and cooperative agreements and to
prevent serious misconduct by USAID
employees. To accomplish these goals, special
agents conduct investigations into possible
violations of federal laws, rules, and
regulations.




41
  DCAA may also be called upon to conduct
audits on nonprofit entities to address concerns
over noncompliance or problems with financial
management.

                                                   75
76
                                                                Afghanistan Performance Audit Findings and Recommendations
                                                               Report                                                                                   Total # of    Total #
          No.                  Report Title                                                      Summary of Findings                                                            Open Recommendations   USAID Response
                                                                Date                                                                                Recommendations   Closed
FY 2003




                   Risk Assessment of Major Activities                 The report identified the need for concurrent financial audits of the
           1         Managed by USAID/Afghanistan            11-Mar-03 infrastructure rehabilitation project and a performance audit of the                0            0               None
                            (5-306-03-001-S)                           economic governance project.

                                                                       As of November 1, 2003, 222 km of the 389 km Kabul–Kandahar
                Review of the Road Project Financed by
FY 2004




                                                                       Highway had been paved. USAID believed it was on schedule to lay
                 USAID/Afghanistan's Rehabilitation of
           2                                                 13-Nov-03 321 km of new asphalt and repair 68 km of existing road by December                 1            1               None
                Economic Facilities and Services (REFS)
                                                                       31, 2003. However, the mission needed to have the contractor
                     Program (RIG Memo 04-002)
                                                                       prepare an implementation plan as required by the contract.
                  Second Review of the Road Project                    The contractor had paved or patched 389 km of the Kabul-Kandahar
                   Financed by USAID/Afghanistan's                     Highway. USAID believed it was on schedule to lay 321 km of new
           3    Rehabilitation of Economic Facilities and    31-Mar-04 asphalt and repair 68 km of existing road by December 31, 2003.                     0            0               None
                       Services (REFS) Program                         However, the mission needed to have the contract prepare an
                           (RIG Memo 04-003)                           implementation plan as required by the contract.
                                                                         The report noted (1) progress was made in addressing vulnerabilities
                   Risk Assessment of Major Activities
                                                                         identified in the mission’s Federal Managers' Financial Management
           4         Managed by USAID/Afghanistan            15-Apr-04                                                                                     0            0               None
                                                                         Integrity Act report and (2) certain high-profile, high-risk projects
                            (5-306-04-002-S)
                                                                         needed to be audited in fiscal year (FY) 2005.

                                                                         The audit concluded that the mission had managed its cashiering
                Audit of USAID/Afghanistan’s Cashiering
                                                                         operations efficiently, economically, and in accordance with Agency
           5                  Operations                     11-May-04                                                                                     3            3               None
                                                                         policies and procedures except that certain internal controls needed to
                           (5-306-04-001-F)
                                                                         be improved.
                                                                    The mission had not approved a work plan for the contractor, and
                Audit of the Sustainable Economic Policy            quarterly work plans with expected accomplishments and milestones
                and Institutional Reform Support (SEPIRS)           (required by the contract) had not been done. Without such work
           6                                              17-Aug-04                                                                                        1            1               None
                      Program at USAID/Afghanistan                  plans, OIG could not assess whether the program was on schedule to
                              (5-306-04-005-P)                      achieve planned outputs. As a result, the report disclaimed an opinion
                                                                    but acknowledged that some progress had been made.
                 Audit of the Kabul to Kandahar Highway
                                                                   The mission (1) generally checked the timeliness of reconstruction
                  Reconstruction Activities Financed by
                                                                   activities but did not fully monitor the quality of the road
           7      USAID/Afghanistan’s Rehabilitation of  21-Sep-04                                                                                         2            2               None
                                                                   reconstruction, in part because of security restrictions, and (2) did not
                Economic Facilities and Services Program
                                                                   verify whether the contractor’s performance conformed to its contract.
                             (5-306-04-006-P)
                                                                       The audit concluded that the school and clinic reconstruction program
FY 2005




                Audit of USAID/Afghanistan’s School and                was not on schedule for a number of reasons, including insufficient
           8         Clinic Reconstruction Program           14-Mar-05 oversight and monitoring. Specifically, no more than 328 (62 percent)               3            3               None
                             (5-306-05-003-P)                          of the 533 buildings planned to be completed by December 2004 were
                                                                       completed or on schedule to be completed.
                                                                       The audit found that (1) the Primary Education Program activities had
                                                                       achieved key planned outputs in all but three activities and that (2) the
                                                                       mission had not done contractor performance evaluations.
                  Audit of USAID/Afghanistan’s Primary                 Specifically, textbook distribution was delayed, grade equivalents for
           9                                                 14-Apr-05                                                                                     4            4               None
                  Education Program (5-306-05-005-P)                   accelerated learning students were also delayed, and the female
                                                                       student enrollment target was not achieved. These three activities did
                                                                       not achieve their planned outputs for a number of reasons, including a
                                                                       delay in receiving funding for the program.
                                                                   As of September 30, 2005, only $600,000 of the $10 million
                                                                   appropriated for FY 2004 had been used to provide shelter materials
                                                                   and basic necessities for displaced persons in Kabul. Additionally, as
                                                                   of September 30, 2005, although Congress had been notified that the
FY 2006




                Audit of Funds Earmarked by Congress to
                                                                   funds would be transferred to the Department of State’s Bureau of
          10    Provide Assistance for Displaced Persons 21-Dec-05                                                                                         3            3               None
                                                                   Population, Refugees, and Migration, none of the $5 million
                     in Afghanistan (9-306-06-004-P)
                                                                   appropriated for FY 2005 had been transferred or spent by the
                                                                   mission. The report included three recommendations to ensure that
                                                                   the remaining balance of approximately $14.4 million in unspent
                                                                   earmarked funds is used for its intended purpose.

                Audit of USAID/Afghanistan’s Cashiering
          11                                                 10-Jan-06 The cashiers properly accounted for their imprest funds.                            0            0               None
                      Operations (5-306-06-001-P)




                                                                                                                                               77
                                                              Report                                                                                 Total # of    Total #
          No.                  Report Title                                                     Summary of Findings                                                          Open Recommendations   USAID Response
                                                               Date                                                                              Recommendations   Closed
                                                                      The audit found that five of six activities were on schedule to achieve
                                                                      planned outputs. The sixth activity’s planned output—rehabilitating
                Audit of USAID/Afghanistan’s Rebuilding
                                                                      555 km of farm-to-market roads—was not achieved for a number of
          12         Agricultural Markets Program           28-Mar-06                                                                                   3            3               None
                                                                      reasons, including poor security and poor subcontractor performance.
                           (5-306-06-002-P)
                                                                      Additionally, USAID/Afghanistan did not properly administer its
                                                                      Rebuilding Agricultural Markets Program (RAMP) contract.

                     Audit of USAID/Afghanistan’s                     Kandahar–Herat Highway reconstruction activities were on schedule
                 Reconstruction of the Kandahar–Herat                 to achieve planned outputs, except for 24 km of roadwork. The
          13      Highway Under the Rehabilitation of       18-May-06 remaining 24 km were not completed by December 31, 2005, because                  1            1               None
                Economic Facilities and Services (REFS)               of funding shortages, which the mission could have addressed
                      Program (5-306-06-005-P)                        sooner.
                                                                      Nineteen of twenty selected activities achieved planned outputs.
                   Audit of USAID/Afghanistan's Rural                 REACH awarded $56.2 million to 28 grantees who were providing
                      Expansion of Afghanistan's                      basic health care in 14 provinces. The program distributed $4.7 million
          14                                                16-Aug-06                                                                                   0            0               None
                 Community–Based Healthcare (REACH)                   of essential drugs and trained 568 midwives and completed a number
                       Program (5-306-06-007-P)                       of activities to help improve capacity in the Afghan Public Health
                                                                      Ministry.
                                                                      The mission and its implementing partners were on schedule to
                                                                      complete 705 of 776 school and clinics to be constructed or
                Audit of USAID/Afghanistan's School and               refurbished under the Schools and Clinics Construction and
          15     Health Clinic Reconstruction Activities    18-Aug-06 Refurbishment Program, and 511 of the 705 buildings had been                      2            2               None
                            (5-306-06-008-P)                          turned over to the Afghan Government. However, completion has
                                                                      taken longer than anticipated because the mission did not take timely
                                                                      action to resolve issues on program implementation.

                                                                      In fiscal year 2006, the Alternative Livelihoods Program–Eastern
                                                                      Region (ALP/E) achieved significant results for 13 of 15 performance
                                                                      indicators used by USAID/Afghanistan to measure whether the
                                                                      program was achieving planned results. Achievements that supported
                                                                      ALP/E’s objective of accelerating licit economic growth and business
FY 2007




                Audit of USAID/Afghanistan’s Alternative              activity included 27,534 ha devoted to licit agricultural production and
          16     Livelihoods Program–Eastern Region         13-Feb-07 98,154 farmers trained in agricultural practices. Achievements that               4            4               None
                           (5-306-07-002-P)                           supported ALP/E’s objective of providing an immediate alternative
                                                                      source of income to those who depend on the opium economy
                                                                      included 19,698 Afghans paid $4,209,670 through cash-for-work
                                                                      projects. Two performance indicators could not be evaluated because
                                                                      sufficient information on actual accomplishments was not available or
                                                                      the related program activities were not fully implemented.

                                                                     Under the REFS Program, one critical activity had been achieved,
                                                                     whereas two similar activities were significantly behind schedule
                 Audit of Critical Power Sector Activities
                                                                     because of security problems. Although the activity that was achieved
                Under USAID/Afghanistan's Rehabilitation
          17                                               21-May-07 delivered 16.5 MW of reliable hydroelectric power, delays in the other             0            0               None
                  of Economic Facilities and Services
                                                                     two activities have delayed the delivery of 35 MW of reliable
                    (REFS) Program (5-306-07-004-P)
                                                                     hydroelectric power to about 2 million Afghan people in southern
                                                                     Afghanistan.
                                                                     Planned contract deliverables were generally being achieved under
                                                                     USAID/Afghanistan's Urban Water and Sanitation Project. However,
                Audit of USAID/Afghanistan's Urban Water             long-term sustainability of the overall project was questionable and
          18                                                7-Jun-07                                                                                    5            5               None
                and Sanitation Program (5-306-07-006-P)              contract administration problems were found between the mission and
                                                                     Camp Dresser Mckee, Inc., the contractor hired to implement the
                                                                     project.
                                                                      Selected follow-on activities, agreed to between USAID and the
                                                                      Government of Afghanistan under USAID/Afghanistan's economic
                  Audit of Selected Follow-on Activities
                                                                      program, were achieving results. However, USAID/Afghanistan had
          19      under USAID/Afghanistan's Economic        31-Aug-07                                                                                   2            2               None
                                                                      not established approved indicators or targets to measure its progress
                       Program (5-306-07-009-P)
                                                                      against. Therefore, the audit could not measure the activity
                                                                      accomplishments against planned interim goals or targets.
                                                                       In its first year, the Agriculture, Rural Investment and Enterprise
                                                                       Strengthening (ARIES) program achieved or exceeded most of its
                                                                       goals and helped make a significant impact in expanding
FY 2008




                Audit of USAID/Afghanistan's Agriculture,              Afghanistan's licit rural economy by creating 62,674 jobs. Despite its
          20        Rural Investment and Enterprise          22-Jan-08 achievements, ARIES could have been more successful with                         6            6               None
                Strengthening Program (5-306-08-001-P)                 implementing small and medium enterprise (SME) loan segment
                                                                       activities and investment and finance cooperatives (IFCs).
                                                                       Additionally, the mission could improve the implementation and
                                                                       management of the ARIES program in four areas.




                                                                                                                                            78
                                                             Report                                                                                     Total # of    Total #
          No.                 Report Title                                                      Summary of Findings                                                             Open Recommendations   USAID Response
                                                              Date                                                                                  Recommendations   Closed
                                                                      USAID/Afghanistan's Alternative Development Program/South
                                                                      (ADP/S) achieved some, but not all, of its planned results. However,
                                                                      despite its progress, opium production in the southern provinces
                Audit of USAID/Afghanistan's Alternative              continued to rise, diminishing the intended overall impact of the
          21    Development Program--Southern Region        17-Mar-08 ADP/S program. This increase resulted from a rise in insurgency                      1            1               None
                           (5-306-08-003-P)                           activities preventing the mission from delivering alternative livelihoods
                                                                      to key poppy-growing areas, the ineffectiveness and corruption in the
                                                                      eradication process, and the lack of rule of law and criminal penalties
                                                                      for growing poppies.
                                                                      It could not be determined whether 11 of the 18 performance
                                                                      indicators used to measure the progress of the project met planned
                                                                      results during the first year of implementation. The audit determined
                Audit of USAID/Afghanistan's Small and                that the contractor's performance data for these 11 performance
          22    Medium Enterprise Development Activity      23-Jun-08 indicators were not reliable and therefore not useful in managing for                4            4               None
                           (5-306-08-006-P)                           results or credible for reporting. For the remaining seven indicators,
                                                                      the audit determined that the project partially met five indicators'
                                                                      regional performance targets, exceeded one indicator's nationwide
                                                                      target, and partially met one indicator's nationwide target.
                                                                        Chemonics International, Inc., reported results for all eight indicators
                                                                        for the first year of the program. However, the audit identified that for
                                                                        two of the eight indicators, reported results fell considerably short of
                                                                        intended results. Targets had not been established for the other six
                                                                        indicators, making it difficult to tell how well the project was
                                                                        proceeding. In addition, Chemonics did not have documentation to
                                                                        adequately support reported results for six indicators. In two of the six
                Audit of USAID/Afghanistan's Accelerating
                                                                        cases, the support was inadequate, while in four cases there was no
          23        Sustainable Agriculture Program         8-Aug-08                                                                                      15            15              None
                                                                        support at all. For example, Chemonics had inadequate support for
                            (5-306-08-009-P)
                                                                        the reported result that more than 1,700 individuals had received short-
                                                                        term agricultural training, and no support for the reported result that
                                                                        project activities had generated an economic value in excess of $59
                                                                        million. In addition, the audit found that a major program activity—the
                                                                        Mazar foods initiative—was behind schedule. This $40 million initiative
                                                                        to cultivate 10,000 hectares for a commercial farm was not finalized in
                                                                        time to take advantage of the summer planting season as planned.
                                                                      There was a lack of evidence to demonstrate that this program was on
                                                                      track to achieve planned results. The program lacked key deliverables
                                                                      necessary for effective implementation, monitoring, and reporting of
                                                                      program activities and results. Detailed work plans outlining what the
                 Audit of USAID/Afghanistan's Capacity                contractor planned to accomplish and results monitoring plans with
          24                                                30-Sep-08                                                                                      4            4               None
                Development Program (5-306-08-012-P)                  performance indicators, targets, and periodic reporting against these
                                                                      targets were not in place. Given these shortcomings and considering
                                                                      that the contract with BearingPoint, Inc. (contractor), was signed only
                                                                      in February 2007, the audit found that it was too early to assess the
                                                                      overall impact of this program.

                                                                        The project partially achieved planned results toward (1) transforming
                                                                        the instruction of teaching and learning in faculties and departments
                                                                        of education and (2) institutionalizing structures and systems to
                                                                        support and sustain high quality instruction and professionalism. The
                                                                        implementer measured its progress against nine objectives for which it
FY 2009




                                                                        met its target objectives for three, partially met the targets for four,
                   Audit of USAID/Afghanistan's Higher
          25                                                4-Dec-08    and did not meet the targets for two. From an impact standpoint,                   4            4               None
                   Education Project (5-306-09-002-P)
                                                                        faculty members who participated in the project’s different activities
                                                                        were exposed to new and more effective teaching methodologies
                                                                        being used in their classes. Also, faculty members advanced their
                                                                        English-language skills through the English courses provided and had
                                                                        greater opportunities to access training and educational materials not
                                                                        available in their local language.

                                                                  The audit disclosed that the project suffered from severe delays. In
                                                                  addition, the project was hindered by a need for improvements in the
                   Audit of USAID/Afghanistan’s Local
                                                                  contractor’s monitoring and evaluation system, refinements in the
                Governance and Community Development
          26                                            11-May-09 mission’s operational plan indicators, and timely approval of annual                    12            12              None
                Project in Southern and Eastern Regions
                                                                  contractor work plans. Furthermore, the contractor did not properly
                    of Afghanistan (5-306-09-003-P)
                                                                  establish performance targets for the 14 key indicators in its
                                                                  performance monitoring plan for fiscal year 2008.




                                                                                                                                              79
                                                             Report                                                                                   Total # of    Total #
          No.                 Report Title                                                      Summary of Findings                                                           Open Recommendations   USAID Response
                                                              Date                                                                                Recommendations   Closed

                                                                        The audit found that, as a whole, the project achieved positive results
                                                                        under both components. Under the first component, the project laid a
                                                                        foundation that could benefit the Government of Afghanistan’s land
                                                                        administration system. Under the second component, in the first 3
                                                                        years the project provided technical assistance toward liquidating 23
                Audit of USAID/Afghanistan’s Land Titling               state-owned enterprises, 3 state-owned banks, and 1 state-owned
          27         and Economic Restructuring in          8-Jun-09    corporation. As a result, state-owned assets valued at $10.6 million             4            4               None
                 Afghanistan Project (5-306-09-004-P)                   have been auctioned to successful bidders. The audit did find that the
                                                                        liquidation process took longer than expected and that the State-
                                                                        Owned Enterprise Department lacked the capacity to manage the
                                                                        liquidation process. Furthermore, USAID investment in privatization
                                                                        was not always successful, more collaboration could strengthen the
                                                                        project’s impact, and there were problems in reductions of scope.


                                                                      The audit concluded that, because of construction delays, USAID had
                                                                      not provided increased reliable power to these two areas within the
                                                                      planned timeframes. For the Kabul power plant, the delays were
                  Audit of USAID/Afghanistan's Power                  caused by an initial inability to obtain adequate title to land for the
FY 2010




                 Sector Activities Under Its Afghanistan              power plant, an ambiguous statement of work resulting in poor
          28                                                10-Nov-09                                                                                    8            8               None
                 Infrastructure Rehabilitation Program                planning and implementation, subcontractor performance problems,
                            (5-306-10-002-P)                          lack of onsite quality assurance, and problems in clearing equipment
                                                                      and material through customs. For the Kajakai Dam project,
                                                                      deteriorating security in southern Afghanistan and inconsistent
                                                                      contractor performance contributed to the delay.

                                                                      USAID/Afghanistan’s Afghan Civilian Assistance Program (the
                                                                      program) is not on target to achieve its main goal of assisting families
                                                                      and communities that have suffered losses as a result of military
                                                                      operations against insurgents and the Taliban. The International
                                                                      Organization for Migration (the implementer) reported that as of
                  Audit of USAID/Afghanistan's Afghan                 September 1, 2008, close to the midpoint of the program, only 803 of
          29         Civilian Assistance Program            15-Dec-09 the more than 6,000 eligible families under the program--about 13                  7            7               None
                            (5-306-10-004-P)                          percent--were receiving assistance. Under an October 2008 recovery
                                                                      plan to get the program back on track, the implementer hoped to
                                                                      assist 5,102 of the estimated 6,378 eligible families by April 30, 2009.
                                                                      However, as of January 22, 2009, the implementer reported that it had
                                                                      actually serviced about 40 percent of the intended families, or 2,025
                                                                      of the estimated target number of 5,102.
                                                                      OIG's audit of a $94 million, 5-year contract with Creative Associates
                                                                      International, Inc. to implement USAID’s Building Education Support
                                                                      Systems for Teachers (BESST) project found that the project is
                                                                      making progress in helping to improve the quality of education in
                                                                      Afghanistan but has not achieved its two main goals: improving
                USAID/Afghanistan's Building Education                teaching through teacher training and institutionalizing ministry
          30     Support Systems for Teachers Project       29-Jan-10 structures and systems that support high-quality teaching. The audit               4            4               None
                           (5-306-10-006-P)                           found that much of the training of teachers had been completed and
                                                                      that district teacher training teams had been established to help
                                                                      conduct training in all 11 provinces. However, notwithstanding these
                                                                      accomplishments, the audit found that, almost 4 years into the 5-year
                                                                      project, some significant tasks and activities included in the project’s
                                                                      contract and work plan had not been completed.




                                                                                                                                             80
                                                   Report                                                                                    Total # of    Total #
No.                 Report Title                                                      Summary of Findings                                                            Open Recommendations   USAID Response
                                                    Date                                                                                 Recommendations   Closed
                                                            OIG found that the program had made progress in capacity building
                                                            within selected Afghan ministries, identified defective USAID-built
                                                            structures, and provided engineering oversight for mission
                                                            construction projects. The audit also pointed to several areas that
                                                            were problematic. The most critical issue is to identify the many
                                                            defective structures that likely remain among the estimated 1,474
        Audit of USAID/Afghanistan's Human
                                                            mission-built structures. The total number of defective structures will
         Resources and Logistical Support
31                                                31-Mar-10 be determined when the remainder of the preliminary assessments                    12            12              None
                      Program
                                                            and any subsequent detailed seismic evaluations are completed. The
                  (5-306-10-007-P)
                                                            mission anticipates that the contractor will complete 200 seismic
                                                            evaluations by the end of the contract. In addition, significant defects
                                                            in five buildings reported in a prior Office of Inspector General audit
                                                            report (Audit of USAID/Afghanistan’s Accelerating Sustainable
                                                            Agriculture Program,” Audit Report No. 5-306-08-009-P, August 8,
                                                            2008) have yet to be corrected.

                                                              The AVIPA program was designed to provide wheat seed and
                                                              fertilizer to drought-affected subsistence farmers to help them
                                                              increase wheat production. The audit found that the program had
                                                              contributed to the country’s increase in wheat production; however,
                                                              the extent of the program’s role in this increase was unclear, since the
                                                              audit determined some reported results were not reliable. In addition,
                                                              the program’s stabilization activities in the country’s southern region
      Audit of USAID/Afghanistan's Afghanistan
                                                              were not being implemented as widely as planned. The audit
        Vouchers for Increased Productive
32                                             20-Apr-10      identified several other problems: In addition to the lack of reliable            3            3               None
            Agriculture (AVIPA) Program
                                                              data to measure program results, the program suffered from
                  (5-306-10-008-P)
                                                              insufficient oversight. The implementer, International Relief and
                                                              Development (IRD) could not retain staff, in part because of death
                                                              threats, and project staff members were overburdened by requests for
                                                              information and briefings from non-USAID Government officials. In
                                                              some cases, materials did not reach beneficiaries. Moreover, the audit
                                                              noted that up to $50 million in unspent program funds could be
                                                              reprogrammed for other activities.

                                                          OIG’s audit, which reviewed private security contractor (PSC)
                                                          operations between October 2006 and June 2009, examined the
                                                          reporting of serious security incidents, whether USAID implementing
                                                          partners had subcontracted with responsible firms, the costs of these
                                                          services, and the oversight of those costs. We found that detailed
                                                          statutory oversight requirements intended to cover both non-DOD and
                                                          DOD PSCs in Afghanistan had not been implemented by USAID,
      Audit of USAID/Afghanistan's Oversight of
                                                          because the Chief of Mission had not issued Mission-wide instructions
33           Private Security Contractors       21-May-10                                                                                       8            8               None
                                                          in accordance with DOD implementing regulation. As a result, USAID
                   (5-306-10-009-P)
                                                          PSCs did not report certain serious security incidents—in particular
                                                          persons killed or injured as a result of their conduct—that they
                                                          otherwise would have been required to report had Mission-wide
                                                          instructions implementing the statutory requirements been issued. The
                                                          Mission-wide instructions would have also incorporated statutorily-
                                                          mandated procedures to ensure PSCs in Afghanistan are qualified
                                                          and responsible. The report found such procedures were not in place.

                                                            In October 2004, OIG audited USAID's the school and health clinic
                                                            reconstruction activities. The audit found that the program was behind
                                                            schedule, and it recommended that the mission develop a new
                                                            implementation plan. This review was prompted by OIG's inability to
        Review of School and Health Clinic                  visit program sites due to the precarious security situation where many
      Buildings Completed Under the Schools                 schools and clinics are located. OIG contracted with KPMG
34         and Clinics Construction and           24-Jun-10 Afghanistan, whose staff could travel more easily within Afghanistan.               2            2               None
              Refurbishment Program                         To conduct site visits, OIG provided KPMG a statistical sample of 50
                 (5-306-10-002-O)                           buildings from the 776 schools and clinics completed across
                                                            Afghanistan under the program. KPMG noted numerous deficiencies
                                                            with regard to the physical condition of the school and health clinic
                                                            buildings. These deficiencies included physical problems, poor
                                                            hardware, lack of electrical supply, and deficient water service.




                                                                                                                                   81
                                                  Report                                                                                     Total # of    Total #
No.                Report Title                                                      Summary of Findings                                                                     Open Recommendations                                     USAID Response
                                                   Date                                                                                  Recommendations   Closed
                                                             OIG's audit found that a 32-percent decrease in poppy production
                                                             between 2008 and 2009 is attributable to strong antipoppy messages
                                                             from provincial governors, increased interdiction activities, an
                                                             overproduction of poppy in prior years that suppressed market prices,
                                                             and provision of alternative economic opportunities in targeted
                                                             districts within each province. However , continued reductions in
      Audit of USAID/Afghanistan’s Alternative               poppy cultivation may not be sustainable because no follow-on
35    Development Program Expansion, South       29-Jul-10   alternative development program has been approved beyond March                     3            3                           None
             West     (5-306-10-011-P)                       2011, and a critical southern province is not included in the current
                                                             program. Second, the program has experienced delays in
                                                             implementation partially because of security issues. Also, a new,
                                                             Embassy-led annual program review process, the restructuring of the
                                                             regional commands, and the mission’s plan to implement regional
                                                             platforms present future challenges that could hamper program
                                                             implementation if not properly managed.
                                                           This review of Edinburgh International's security costs charged to the
                                                           following three USAID-funded projects in Afghanistan implemented by
                                                           Development Alternatives, Inc. (DAI): Afghanistan Small and Medium
                                                           Enterprises Development (ASMED); Incentives Driving Economic
                                                           Alternatives for the North, East, and West (IDEA-NEW); Local
                                                           Governance and Community Development (LGCD). The review found
                                                           no indication that Edinburgh International had misused USAID funds
        Review of Security Costs Charged to                to pay the Taliban or others in exchange for protection. However,
36        USAID Projects in Afghanistan          29-Sep-10 there were indications that Afghan subcontractors working on the                     4            4                           None
                  (5-306-10-002-S)                         LGCD project had paid insurgents for protection in remote and
                                                           insecure areas of Afghanistan. The payments were allegedly made as
                                                           part of a security arrangement with local communities that very likely
                                                           included the Taliban or groups that support them. The auditors found
                                                           also indications of pervasive fraud in DAI's LGCD office in Jalalabad
                                                           and indications of endemic corruption in Nangarhar Province, where
                                                           Jalalabad is located. The auditors referred these findings to
                                                           OIG/Investigations for further investigation.

                                                                                                                                                                     (1) That USAID/Afghanistan direct CARE          The mission directed CARE International to develop
                                                                                                                                                                     International to (1) develop clear standards    and produce a standard teaching package. To
                                                                                                                                                                     on teacher training, to be followed by all      accomplish this, the program will incorporate the five
                                                                                                                                                                     four partners, which define the requisite       core modules into a PACE-A training package with a
                                                             OIG Audit found that PACE-A has not been fully achieving all of its                                     training workshops that each teacher must       teacher trainers’ guide by June 2011. The program
                                                             core objectives. One area in which program efforts have fallen short                                    receive to be considered fully prepared to      will also update the PACE-A monitoring and
                                                             has been teacher training, which is the primary means of ensuring that                                  teach his or her students; and (2) develop      evaluation database management system, by
                                                             PACE-A supported students receive a quality education. A review of                                      and implement a plan to ensure that all         December 2010, to effectively capture each
      Audit of USAID/Afghanistan’s Partnership               the training records maintained by each of the four PACE-A partners                                     supported teachers receive the requisite        teacher’s progress toward completion of the entire
         for Advancing Community-Based                       revealed that, in most cases, teachers had not received the minimum                                     training in its entirety.                       package. A management decision was reached and
37                                               28-Oct-10                                                                                      4            2
        Education in Afghanistan (PACE-A)                    basic training required to teach their classes. Specifically, the results                                                                               the recommendation remains open.
                  (5-306-11-001-P)                           of this review disclosed that, of the total primary education teachers
                                                             supported (3,052), only 3 percent had received the full range of basic                                                                                  The mission stated that the Agreement Officer’s
                                                             training―consisting of five workshops―that all newly hired teachers                                     (3) That USAID/Afghanistan conduct a data       Technical Representative (AOTR) will organize and
                                                             were expected to receive, and 21 percent had received none of the                                       quality assessment in accordance with           participate in a data quality assessment by August
                                                             requisite training.                                                                                     USAID’s Automated Directives System to          31, 2011. Additionally for future visits, the AOTR will
                                                                                                                                                                     provide assurance on the quality and            conduct limited testing on reported results by
                                                                                                                                                                     reliability of the program’s reported results   observing the computation of figures from supporting
                                                                                                                                                                     data.                                           records. A management decision was reached and
                                                                                                                                                                                                                     the recommendation remains open.




                                                                                                                                   82
                                                          Report                                                                                       Total # of    Total #
          No.                Report Title                                                     Summary of Findings                                                                      Open Recommendations                                    USAID Response
                                                           Date                                                                                    Recommendations   Closed
                                                                                                                                                                                                                             The mission agreed, and stated, however, that the
                                                                                                                                                                                                                             required actions under the recommendation have
                                                                                                                                                                               (1) Continue to withhold incremental
                                                                                                                                                                                                                             been overtaken by developments subsequent to the
                                                                                                                                                                               funding until all required documents are
                                                                                                                                                                                                                             audit field work and findings. A management
                                                                                                                                                                               submitted by the university.
                                                                                                                                                                                                                             decision has been reached and that that the
                                                                                                                                                                                                                             recommendation remains open.
                                                                                                                                                                                                                             The university will undertake a five-year strategic
                                                                                                                                                                               (6) We recommend that
                                                                                                                                                                                                                             planning process, which will include the issue of the
                                                                                                                                                                               USAID/Afghanistan prepare a sustainability
                                                                                                                                                                                                                             university’s sustainability. The mission will review
                                                                                                                                                                               plan so that the university will not be
                                                                                                                                                                                                                             the five-year strategic plan and determine whether
                                                                                                                                                                               dependent on mission funding after the end
                                                                                                                                                                                                                             funding might be extended beyond the original
                                                                                                                                                                               of the program.
                                                                                                                                                                                                                             agreement. This recommendation remains open.

                                                                                                                                                                                                                             The mission stated that the university has
                                                                                                                                                                                                                             reformulated its degree programs to include a
                                                                                                                                                                               (8) Work with the university to complete a    bachelor of arts in business administration, bachelor
                                                                                                                                                                               four-year curriculum for the three            of science in computer science, and bachelor of arts
                                                                                                                                                                               undergraduate degrees identified in the       in political science and public administration.
                                                                                                                                                                               agreement.                                    Curricula have been developed for these degrees
                                                                                                                                                                                                                             and incorporated into the 2010–11 university course
                                                                                                                                                                                                                             catalog. This recommendation remains open.
FY 2011




                                                                                                                                                                                                                             The mission stated that the university is in the
                                                                                                                                                                                                                             process of preparing a strategic plan for 2011–16.
                                                                     The university is behind schedule in reforming its undergraduate
                                                                                                                                                                               (9) Require the university to develop a       This strategic plan includes a business plan for the
                                                                     program. While the university has developed additional courses and a
                                                                                                                                                                               business plan for the Professional            Professional Development Institute. The university
                                                                     bachelor’s degree with concentrations in business, information
                                                                                                                                                                               Development Institute Program.                planned to submit a plan for mission review by
                                                                     technology, and social sciences, it has not developed the curricula for
                                                                                                                                                                                                                             January 31, 2011. This recommendation remains
                                                                     three individual bachelor’s degrees, as required under the agreement.
                                                                                                                                                                                                                             open.
                                                                     The audit found other problems as well. The university was not in
                                                                     compliance with agreement terms—as it had not submitted its                                                                                             The mission stated that the university will revise its
                                                                     required Year 2 budget, Year 2 work plan, and performance                                                 (11) Develop an implementation plan for       performance management plan to include learning
                Audit of USAID/Afghanistan’s Support to              management plan—and as a result, the mission was withholding                                              the Professional Development Institute that achievement measurements as well as other quality
          38    the American University of Afghanistan    5-Nov-10   incremental funding. The university’s Professional Development                      18            9       will address deficiencies in program quality. standards for the Professional Development
                           (5-306-11-002-P)                          Institute will not meet its financial contribution goal. The university may                                                                             Institute. This recommendation remains open.
                                                                     not meet its goal of increasing enrollment of women to 30 percent.
                                                                                                                                                                                                                             The mission stated that the university has prepared
                                                                     The undergraduate preparatory program was not preparing students
                                                                                                                                                                                                                             a draft work plan for 2010–11, which incorporates
                                                                     adequately to become undergraduates. University contracting was                                           (12) Require that the action plan developed   plans for increased recruitment of female students.
                                                                     deficient and did not consistently document its competitive bidding                                       to increase the proportion of women           The mission anticipated that this work plan will be
                                                                     process. Items funded by USAID were not marked as having been                                             enrolled at the university be incorporated    approved by October 31, 2010. This
                                                                     provided by the U.S. taxpayer. Finally, environmental procedures were                                     into key program planning documents.          recommendation remains open.
                                                                     not followed construction of the new campus or in renovations of
                                                                     existing facilities.
                                                                                                                                                                                                                             The mission stated that the university is finalizing the
                                                                                                                                                                                                                             implementation of a new Foundation Studies
                                                                                                                                                                                                                             Program curriculum, and additional quality standards
                                                                                                                                                                               (13) Develop a plan to improve the
                                                                                                                                                                                                                             have been put in place to measure the program
                                                                                                                                                                               university’s undergraduate preparatory
                                                                                                                                                                                                                             graduates’ abilities to succeed in the undergraduate
                                                                                                                                                                               program.
                                                                                                                                                                                                                             program. The university plans to have the redesign
                                                                                                                                                                                                                             completed by November 15, 2010. This
                                                                                                                                                                                                                             recommendation remains open.
                                                                                                                                                                                                                             The mission’s Office of Acquisition and Assistance
                                                                                                                                                                                                                             has prepared a plan regarding the steps it will take in
                                                                                                                                                                               (14) Review the university’s procurement
                                                                                                                                                                                                                             performing the review of the university’s
                                                                                                                                                                               system, as required by the agreement.
                                                                                                                                                                                                                             procurement system. This recommendation remains
                                                                                                                                                                                                                             open.
                                                                                                                                                                                                                             The mission has proposed a process by which all
                                                                                                                                                                                                                             subcontractor construction procurements will be
                                                                                                                                                                                                                             reviewed and approved by the mission prior to the
                                                                                                                                                                               (15) Review procurement files before          commencement of work. This plan includes the
                                                                                                                                                                               approving construction subcontracts in        review of any procurements that are funded in whole
                                                                                                                                                                               order to verify that adequate competition     or part with USAID funds totaling more than
                                                                                                                                                                               existed during the bidding process.           $100,000 as well as all cost-reimbursement
                                                                                                                                                                                                                             contracts. The review is expected to take place by
                                                                                                                                                                                                                             September 30, 2010. This recommendation remains
                                                                                                                                                                                                                             open.




                                                                                                                                             83
                                                    Report                                                                                  Total # of    Total #
No.                  Report Title                                                    Summary of Findings                                                                    Open Recommendations                                     USAID Response
                                                     Date                                                                               Recommendations   Closed
                                                              The U.S. Government expects to deliver 50 percent of its
                                                              development aid to Afghanistan through the Government of the
                                                              Islamic Republic of Afghanistan’s (GIRoA’s) core budget by the end of
                                                              calendar year 2011. With this expectation, USAID/Afghanistan is
                                                              conducting a series of pre-award assessments of GIRoA ministries to
                                                              see whether the ministries can responsibly manage U.S. Government
                                                              resources. In a pre-award assessment (sometimes called a pre-award
                                                              survey or pre-award audit) the assessment team normally conducts
                                                              inquiries, observations, and tests to see whether the assessed entity
                                                              has the requisite procedures, internal controls, experienced
                                                              personnel, and other resources needed to responsibly manage U.S.
      Review of USAID/Afghanistan’s Ministerial               Government funds. The review focused on assessments already
39                                                 6-Nov-10                                                                                    3            3                          None
       Assessment Process (F-306-11-001-S)                    performed by USAID/Afghanistan as well as on draft scopes of work
                                                              for future assessments. Most of the assessments completed to date
                                                              were based mainly on reviews of written procedures, inquiries of
                                                              ministry officials, and inspection of a limited number of transactions.
                                                              More testing of controls would have provided greater assurance of
                                                              detecting vulnerabilities that could result in waste or misuse of U.S.
                                                              Government funds. The draft scopes of work for future assessments
                                                              can be strengthened by telling reviewers what program(s) ministries
                                                              may be asked to manage, assessing the control environment,
                                                              expanding coverage of controls over human resources and fixed
                                                              assets, and providing more detailed guidance to reviewers on how to
                                                              assess compliance with applicable laws.
                                                         The objective of this audit was to determine whether the program was
                                                         achieving its main goals, which dealt with irrigation water
                                                         management, agricultural technology transfer, and institution building.
                                                         Two and one-half years into the 3-year program, New Mexico State
                                                         University (NMSU) had achieved a number of successes in
                                                         introducing new agricultural and water technologies, and many
                                                         farmers were participating in on-farm demonstrations of these                                              (1) USAID/Afghanistan instruct New Mexico      The mission instructed NMSU to conduct follow-up
                                                         technologies. Auditors found some evidence of demand for these new                                         State University to conduct appropriate        activities to determine the effectiveness of the
                                                         technologies—laser land leveling being the clearest example—but                                            follow-up activities to determine the          technical assistance and training it provided to MAIL
      Audit of USAID/Afghanistan’s Agriculture,
                                                         adoption of the technologies lies in the future. However, the audit                                        effectiveness of its technical assistance      and instructed NMSU to include the progress of
40    Water, and Technology Transfer Program 13-Feb-11                                                                                         6            5
                                                         noted several implementation issues. Moreover, financial records for                                       and training activities with the Ministry of   these activities in all future quarterly reports for the
                  (F-306-11-001-P)
                                                         the program showed that about 61 percent of spending was in                                                Agriculture, Irrigation and Livestock and      program. Final action is expected by April 30, 2011,
                                                         Afghanistan, while the other 39 percent was in the United States.                                          verify that appropriate follow-up has been     pending review of the March 2011 quarterly report.
                                                         Officials connected with the program raised concerns that the high                                         performed.                                     This recommendation remains open.
                                                         proportion of expenditures in the United States left fewer resources
                                                         available for activities in Afghanistan and raised other questions about
                                                         the financial management of the program. To address these issues,
                                                         the OIG contracted with an audit firm to conduct financial audits of
                                                         NMSU and its partner universities in the United States. OIG will issue
                                                         a separate report on the results of that audit.
                                                         The review found that the cash disbursement practices of the ten
                                                         selected USAID/Afghanistan implementing partners reasonably
                                                         ensured that their cash expenditures were reasonable, allocable, and
                                                         allowable. The OIG recommended that the mission disseminate the
       Review of Cash Disbursement Practices
                                                         best practices described in this report to its implementing partners to
      Employed by Selected USAID/Afghanistan
41                                              7-Mar-11 minimize cash transactions. The mission agreed with the                               1            1                          None
              Contractors and Grantees
                                                         recommendation and issued a letter making all implementing partners
                  (F-306-11-002-S)
                                                         aware of the best practices described in this report. The mission
                                                         stated that by implementing these best practices, partners would be
                                                         adequately safeguarding USAID-funded resources.




                                                                                                                                   84
                                                   Report                                                                              Total # of    Total #
No.                 Report Title                                                    Summary of Findings                                                                Open Recommendations                                     USAID Response
                                                    Date                                                                           Recommendations   Closed
                                                                                                                                                                                                          USAID/Afghanistan address the performance issues
                                                                                                                                                                                                          with the bank supervision and examination
                                                                                                                                                                                                          assistance provided to the Afghanistan Central Bank
                                                                                                                                                                                                          by Deloitte, the Office of Afghanistan and Pakistan
                                                                                                                                                                                                          Affairs indicated that USAID/Afghanistan has
                                                                                                                                                                                                          decided to terminate the bank supervision
                                                                                                                                                                                                          component of the task order with Deloitte. In
                                                                                                                                                                                                          addition, for any ongoing or future activities with the
                                                                                                                                                                (1) Develop and implement an action plan Central Bank, USAID/Afghanistan will strengthen
                                                                                                                                                               to address the performance issues with the contractor oversight and ensure that USAID
                                                                                                                                                               bank supervision and examination           contractors working with the Central Bank (1) adopt
                                                                                                                                                               assistance provided to the Afghanistan     a proactive stance in identifying and reporting to
                                                                                                                                                               Central Bank by Deloitte.                  USAID fraud, waste, or abuse, (2) educate its
                                                                                                                                                                                                          personnel and embedded consultants on the unique
                                                                                                                                                                                                          operating culture and challenges of the Afghan
                                                                                                                                                                                                          financial sector, (3) engage the Afghan banking
                                                                                                                                                                                                          system to creatively address problems in light of
                                                                                                                                                                                                          these challenges, and (4) work with the Central Bank
                                                                                                                                                                                                          to develop policies on business ethics and train bank
                                                                                                                                                                                                          staff on these policies. This recommendation
                                                                                                                                                                                                          remains open.
                                                                                                                                                                                                          USAID/Afghanistan arrange for more robust
                                                                                                                                                                                                          assistance to the Afghanistan Central Bank in bank
                                                                                                                                                                                                          supervision and examination, the Office of
                                                                                                                                                                                                          Afghanistan and Pakistan Affairs stated that any
                                                             OIG/Afghanistan conducted this review to determine what
                                                                                                                                                                                                          continued assistance to the Central Bank will
                                                            opportunities USAID and contractor staff had to learn of fraudulent
                                                                                                                                                               (2) USAID/Afghanistan arrange for more     address a number of key concerns including
                                                            activities at Kabul Bank through USAID’s Economic Growth and
        Review of USAID/Afghanistan’s Bank                                                                                                                     robust assistance to the Afghanistan       commitment by the Central Bank to combating
                                                            Governance Initiative and its predecessor, the Economic Growth and
      Supervision Assistance Activities and the                                                                                                                Central Bank in bank supervision and       waste, fraud and abuse; commitment by the
                                                            Private Sector Strengthening Activity. Among other audit findings,
42               Kabul Bank Crisis                16-Mar-11                                                                               4            0       examination, including onsite examination Government of Afghanistan to Central Bank
                                                            BearingPoint and Deloitte advisers who were embedded at DAB
                  (F-306-11-003-S)                                                                                                                             assistance and fraud detection training.   independence; the ability of the Central Bank to
                                                            encountered fraud indications at Kabul Bank on a number of
                                                                                                                                                                                                          attract qualified staff; commitment to strengthened
                                                            occasions over a span of 2 years before depositors' run on Kabul
                                                                                                                                                                                                          bank supervision; and Government of Afghanistan
                                                            Bank in early September 2010. However, they did not aggressively
                                                                                                                                                                                                          support for a Central Bank decision to place Kabul
                                                            follow up on indications of serious problems at Kabul Bank.
                                                                                                                                                                                                          Bank in receivership. This recommendation remains
                                                                                                                                                                                                          open.
                                                                                                                                                                                                               The mission accepted the recommendation to work
                                                                                                                                                                                                               on providing a written policy clarifying the
                                                                                                                                                               (3) Implement a written policy clarifying the
                                                                                                                                                                                                               responsibilities of USAID contractors and grantees to
                                                                                                                                                               responsibilities of USAID contractors and
                                                                                                                                                                                                               report on indications of fraud in host-country
                                                                                                                                                               grantees to report on indications of fraud in
                                                                                                                                                                                                               institutions as well as on other matters that could
                                                                                                                                                               host-country institutions or other matters
                                                                                                                                                                                                               reasonably expected to be of foreign policy interest
                                                                                                                                                               that could reasonably be expected to be of
                                                                                                                                                                                                               to the U.S. Government as it applies to Afghanistan.
                                                                                                                                                               foreign policy interest to the U.S.
                                                                                                                                                                                                               This effort is being led by the Regional Legal Advisor
                                                                                                                                                               Government.
                                                                                                                                                                                                               (RLA) and other concerned offices in USAID. This
                                                                                                                                                                                                               recommendation remains open.

                                                                                                                                                                                                               The mission brought on board, as Director of the
                                                                                                                                                                                                               Office of Economic Growth, a senior financial sector
                                                                                                                                                                                                               expert to guide USAID's work in the financial sector.
                                                                                                                                                                                                               Another financial sector expert will be on board in
                                                                                                                                                               (4) Correct the deficiencies in its             March 2011, to serve as Chief of the Economic
                                                                                                                                                               management of its bank supervision and          Policy & Governance Division. A third senior
                                                                                                                                                               assistance activities.                          financial sector expert is being recruited to provide
                                                                                                                                                                                                               direct technical advice to GIRoA and DAB, as well as
                                                                                                                                                                                                               to manage a newly reformulated bank supervisory
                                                                                                                                                                                                               assistance activity on a day-to-day basis. This
                                                                                                                                                                                                               recommendation remains open.




                                                                                                                              85
                                                    Report                                                                             Total # of    Total #
No.                  Report Title                                                   Summary of Findings                                                                Open Recommendations                                   USAID Response
                                                     Date                                                                          Recommendations   Closed
                                                                                                                                                                                                             The mission has required IOM to redesign the
                                                                                                                                                                                                             women’s prayer room into two rooms including a
                                                                                                                                                                                                             visiting room and living room which is similar to the
                                                                                                                                                               (3) Review the eligibility of the cost of the
                                                                                                                                                                                                             layout at the men’s dormitory. The mission has also
                                                                                                                                                               prayer buildings and prayer rooms included
                                                                                                                                                                                                             halted construction on the mosque structures and
                                                                                                                                                               in the provincial teacher training centers
                                                                                                                                                                                                             advised that it plans to document the recovery of
                                                                                                                                                               and recover any costs found to be
                                                                                                                                                                                                             USAID funds disbursed to date for this structure.
                                                                                                                                                               unallowable.
                                                                                                                                                                                                             Action is set for completion by September 30, 2011.
                                                                                                                                                                                                             A management decision was reached and the
                                                                                                                                                                                                             recommendation remains open.
                                                                                                                                                                                                             The Mission agrees with this recommendation. The
                                                                                                                                                                                                             CHEF projects require IOM to provide the relevant
                                                           The objective of the audit was to determine whether                                                                                               ministries with an Operations and Maintenance
                                                           USAID/Afghanistan’s program was achieving its main goals of                                                                                       (O&M) Plan for each CHEF project prior to
                                                           strengthening the Government of Afghanistan’s ability to provide                                    (9) USAID/Afghanistan, after preparing an completing and handing over the facility. The O&M
      Audit of USAID/Afghanistan's Construction            health services to its citizens and train competent teachers by                                     analysis of the Government of                 Plan for each CHEF project includes: 1) O&M
43    of Health and Education Facilities program 27-Mar-11 constructing provincial hospitals, midwife training centers, and              15            12      Afghanistan's ability to fund maintenance     Manuals for equipment installed. 2) O&M training of
                                                           provincial teacher training colleges. While the mission has realized                                for the structures turned over under the      ministry representatives for equipment installed. 3)
                   (F-306-11-002-P)
                                                           some successes—for example, in strengthening the capacity of local                                  program, (1) determine the need for a         An Annual O&M Budget, detailing the cost for the
                                                           construction companies and adhering to the international building                                   separate operation and maintenance            operation and maintenance of the facility. The
                                                           code—the program was not on schedule to achieve its main goals.                                     program and (2) revise as appropriate the     Mission will obtain the Annual O&M Budgets for all
                                                                                                                                                               611 (e) certification previously prepared for CHEF projects from IOM, submit them to the relevant
                                                                                                                                                               the Construction of Health and Education      ministries, and verify that the ministries have
                                                                                                                                                               Facilities Program.                           adequate funding to operate and maintain the
                                                                                                                                                                                                             facilities. The Mission will then revise the 611(e) if
                                                                                                                                                                                                             necessary. This action is scheduled for completion
                                                                                                                                                                                                             by September 30, 2011. This recommendation
                                                                                                                                                                                                             remains open.
                                                                                                                                                                                                         The mission agrees to complete environmental
                                                                                                                                                               (10) Complete the necessary environmental assessments for the CHEF projects that are currently
                                                                                                                                                               assessments according to federal          under construction by September 30, 2011, to
                                                                                                                                                               regulations.                              determine if existing environmental mitigation plans
                                                                                                                                                                                                         are sufficient. This recommendation is open.




                                                                                                                              86
                                                 Report                                                                                    Total # of    Total #
No.                Report Title                                                     Summary of Findings                                                                    Open Recommendations                                     USAID Response
                                                  Date                                                                                 Recommendations   Closed
                                                                                                                                                                                                                  USAID/Afghanistan did not agree with
                                                                                                                                                                                                                  Recommendation 1 for two reasons: The mission
                                                                                                                                                                                                                  estimated that up to 50 percent of no-shows were
                                                                                                                                                                                                                  due to security restrictions and were largely beyond
                                                                                                                                                                                                                  the control of individual travelers. The mission
                                                                                                                                                                                                                  believed that imposing nominal charges on no-show
                                                                                                                                                                                                                  passengers would not be feasible, although the
                                                                                                                                                                                                                  mission did not identify any specific feasibility issues.
                                                                                                                                                                                                                  The mission also disagreed with our estimate of
                                                                                                                                                                   (1) USAID/Afghanistan implement a
                                                                                                                                                                                                                  funds that could be put to better use by reducing the
                                                                                                                                                                   nominal charge for no-show passengers.
                                                                                                                                                                                                                  number of no-show passengers. The mission noted
                                                                                                                                                                                                                  that there may be no significant difference in cost
                                                                                                                                                                                                                  between flying a plane that is fully loaded with
                                                                                                                                                                                                                  passengers and one with a number of empty seats.
                                                                                                                                                                                                                  A management decision for Recommendation 1 can
                                                                                                                                                                                                                  be recorded when USAID/Afghanistan and our office
                                                                                                                                                                                                                  agree on a firm plan of action, with time frames, for
                                                                                                                                                                                                                  implementing the recommendation. This
                                                                                                                                                                                                                  recommendation remains open.
                                                                                                                                                                                                                USAID/Afghanistan agreed with the
                                                                                                                                                                                                                recommendation. The contracting officer, in
                                                                                                                                                                                                                collaboration with the USAID/Afghanistan's
                                                                                                                                                                                                                environmental officer, will review the contract's
                                                                                                                                                                                                                environmental provisions to determine how they
                                                                                                                                                                   (2) USAID/Afghanistan clarify the contract's
                                                                                                                                                                                                                should be revised. In addition, the mission will
                                                                                                                                                                   environmental requirements and obtain
                                                                                                                                                                                                                ensure compliance with these provisions through
                                                                                                                                                                   evidence that the contractor is complying
                                                                                                                                                                                                                enhanced monitoring and evaluation of the
                                                                                                                                                                   with them.
                                                                                                                                                                                                                contractor's compliance with any environmental
                                                            The review found that USAID/Afghanistan's portion of the Embassy                                                                                    requirements set forth in the revised contract
                                                            Air program was providing safe and reliable air service in support of                                                                               provisions or modification. The mission anticipates
                                                            provincial reconstruction teams and other U.S. development                                                                                          completion of these actions by August 31, 2011.
                                                            assistance programs in Afghanistan. The review also found areas in                                                                                  This recommendation remains open.
                                                            which the Embassy Air program could be improved: no-show                                               (3) USAID/Afghanistan determine the
      Review of USAID/Afghanistan's Portion of
                                                            passengers increased costs to the government. The environmental                                        allowability of and recover, as appropriate,
44           the Embassy Air Program           9-Jun-2011                                                                                     8            3                                                      A management decision can be recorded when the
                                                            requirements in the contract with Aircraft Charter Solutions Inc. are                                  unsupported questioned costs of $525,467
                  (F-306-11-004-S)
                                                            ambiguous. Unapproved international travel led to questioned costs.                                                                                   allowability of the $525,467 in questioned costs is
                                                                                                                                                                   representing international travel (including
                                                            The contractor did not meet branding and marking requirements. The                                                                                    determined by the contracting officer. This
                                                                                                                                                                   premium-class travel of $31,902) by
                                                            contractor did not provide required terminal-to-aircraft transportation.                                                                              recommendation remains open.
                                                                                                                                                                   contractor officials that was not approved
                                                            The contractor did not report required performance information to                                      by USAID as required.
                                                            USAID.
                                                                                                                                                                                                                  The mission agreed and instructed the contractor to
                                                                                                                                                                                                                  submit a branding and marking plan for approval on
                                                                                                                                                                                                                  May 9, 2011. In addition, The mission provided the
                                                                                                                                                                   (4) USAID/Afghanistan verify that Aircraft     contractor with appropriate branding and marking
                                                                                                                                                                   Charter Solutions Inc. has implemented a       materials to initiate compliance with the
                                                                                                                                                                   branding and marking plan.                     requirements. Aircraft Charter Solutions Inc. installed
                                                                                                                                                                                                                  tags on various sections of the aircrafts and on
                                                                                                                                                                                                                  furniture and equipment inside the terminal buildings.
                                                                                                                                                                                                                  This recommendation remains open.
                                                                                                                                                                                                                 USAID/Afghanistan did not agree with the
                                                                                                                                                                                                                 recommendation. USAID/Afghanistan and the
                                                                                                                                                                                                                 contractor both understood the performance
                                                                                                                                                                                                                 standard "93% of missions completed as scheduled"
                                                                                                                                                                                                                 to mean that the contractor was obligated to
                                                                                                                                                                                                                 maintain a 93 percent on-time mission capability
                                                                                                                                                                                                                 rate, excluding factors outside the contractor's
                                                                                                                                                                                                                 control such as weather, security, and other
                                                                                                                                                                   (8) USAID/Afghanistan clarify its
                                                                                                                                                                                                                 extenuating circumstances. However, this
                                                                                                                                                                   performance standards to Aircraft Charter
                                                                                                                                                                                                                 understanding is contradicted by the wording of the
                                                                                                                                                                   Solutions Inc. so that realistic expectations
                                                                                                                                                                                                                 performance standard itself (Appendix III).
                                                                                                                                                                   and proper reporting and accountability can
                                                                                                                                                                                                                 USAID/Afghanistan did require the contractor to
                                                                                                                                                                   be obtained.
                                                                                                                                                                                                                 develop and submit a performance management
                                                                                                                                                                                                                 plan for approval. The mission planned to monitor
                                                                                                                                                                                                                 compliance with the performance standards and
                                                                                                                                                                                                                 indicators. A management decision can be recorded
                                                                                                                                                                                                                 for Recommendation 8 when we and the mission
                                                                                                                                                                                                                 agree on a firm plan of action, with time frames, for
                                                                                                                                                                                                                 implementing the recommendation. This
                                                                                                                                                                                                                 recommendation remains open.




                                                                                                                                  87
                                                   Report                                                                                    Total # of    Total #
No.                  Report Title                                                     Summary of Findings                                                                    Open Recommendations                                    USAID Response
                                                    Date                                                                                 Recommendations   Closed

                                                                                                                                                                                                                    USAID/Afghanistan undertake a technical evaluation
                                                                                                                                                                                                                    of the effectiveness of voter education and civic
                                                                                                                                                                                                                    education efforts it has supported, the mission
                                                                                                                                                                                                                    agreed and is working with implementing partners to
                                                                                                                                                                                                                    develop a national survey that includes questions
                                                                                                                                                                     (1) USAID/Afghanistan undertake a              that focus on voter awareness and participation.
                                                                                                                                                                     technical evaluation of the effectiveness of   These questions will gauge the effectiveness of
                                                                                                                                                                     voter education and civic education efforts    USAID-supported voter and civic education. In
                                                                                                                                                                     it has supported.                              addition to the survey instrument, the mission will
                                                                                                                                                                                                                    conduct an election program evaluation in June and
                                                                                                                                                                                                                    July 2011. This evaluation will examine the
                                                                                                                                                                                                                    effectiveness of USAID's support. These actions will
                                                                                                                                                                                                                    be completed by October 31, 2011. This
                                                                                                                                                                                                                    recommendation remains open.


                                                                                                                                                                                                                    The mission will prepare a more formal project
                                                                                                                                                                                                                    design document for the follow-on program after the
                                                                                                                                                                                                                    Support to the Electoral Process Program ends in
                                                                                                                                                                     (2) USAID/Afghanistan prepare a more           June 2011 that explicitly identifies the critical
                                                                                                                                                                     formal project design document for the         assumptions underlying the program design, the
                                                                                                                                                                     follow-on program after the Support to the     mission concurred. It will incorporate national
                                                                                                                                                                     Electoral Process Program ends in June         perspectives into the design of its future elections
                                                                                                                                                                     2011 that explicitly identifies the critical   support programs by engaging with the GIRoA and
                                                                                                                                                                     assumptions underlying the program             IEC counterparts. The mission also plans to invite
                                                               To help strengthen Afghanistan’s electoral system,                                                    design.                                        independent technical elections specialists to
                                                               USAID/Afghanistan has provided assistance mainly through the                                                                                         conduct strategic reviews of the elections portfolio.
                                                               Support to the Electoral Process (STEP) Program implemented under                                                                                    These actions will be completed by September 30,
                                                               a contract with the International Foundation for Electoral Systems                                                                                   2011. This recommendation remains open.
                                                               (IFES), the Increased Electoral Participation in Afghanistan (IEP)
       Audit of USAID/Afghanistan's Support to
                                                               Program implemented through a cooperative agreement with the
      The Electoral Process (STEP) and Support                                                                                                                                                                     The mission develop detailed plans for addressing
                                                               Consortium for Election and Political Process Strengthening (CEPPS),
45      for Increased Electoral Participation In   19-Jun-11                                                                                    9            0                                                     the legal reforms, financial and constitutional
                                                               As of December 31, 2010, USAID had obligated approximately $124.5
              Afghanistan (IEP) Programs                                                                                                                                                                           arrangements for elections, and voter registration
                                                               million and expended approximately $98.9 million. Despite
                   (F-306-11-003-P)                                                                                                                                                                                issues discussed in this finding in conjunction with
                                                               accomplishments in the areas of civic and voter education and
                                                                                                                                                                                                                   the Government of Afghanistan, other local
                                                               support in the operation of local electoral institutions, no persuasive
                                                                                                                                                                                                                   stakeholders, and international donors, the mission
                                                               evidence exists that these short-term results have produced increased
                                                                                                                                                                     (3) USAID/Afghanistan develop detailed        concurred. The mission has outlined a series of
                                                               citizen awareness of the electoral process or a stronger democratic
                                                                                                                                                                     plans for addressing the legal reforms,       activities undertaken and others planned to address
                                                               political party system.
                                                                                                                                                                     financial and constitutional arrangements     the legal reform, financial and constitutional
                                                                                                                                                                     for elections, and voter registration issues  arrangements for elections and voter registration.
                                                                                                                                                                     discussed in this finding in conjunction with However, the mission did not provide a date to
                                                                                                                                                                     the Government of Afghanistan, other local complete plans for addressing needed legal reforms,
                                                                                                                                                                     stakeholders, and international donors.       financial and constitutional arrangements for
                                                                                                                                                                                                                   elections, and voter registration issues discussed in
                                                                                                                                                                                                                   the finding because discussions on these issues are
                                                                                                                                                                                                                   on-going. While we agree that activities are on-going
                                                                                                                                                                                                                   plans need to be established to address the larger-
                                                                                                                                                                                                                   team issues discussed in the report. This
                                                                                                                                                                                                                   recommendation remains open.

                                                                                                                                                                                                                    The mission complete all required contractor
                                                                                                                                                                                                                    performance reviews under the Support to the
                                                                                                                                                                                                                    Electoral Process contract, the mission agreed. The
                                                                                                                                                                     (4) USAID/Afghanistan complete all             COTR and Alternate COTR will complete the
                                                                                                                                                                     required contractor performance reviews        contractor performance reviews in collaboration with
                                                                                                                                                                     under the Support to the Electoral Process     the Contracting Officer using the Contractor
                                                                                                                                                                     contract in accordance with Federal            Performance Assessment Reporting system. The
                                                                                                                                                                     Acquisitions Regulation and Agency for         contractor performance reviews for the first two
                                                                                                                                                                     International Development Acquisitions         project years will be completed by August 31, 2011.
                                                                                                                                                                     Regulation requirements.                       Year 3 reviews will be conducted after the end of the
                                                                                                                                                                                                                    period of performance on September 30, 2011. All
                                                                                                                                                                                                                    actions will be completed by November 1, 2011. This
                                                                                                                                                                                                                    recommendation remains open.




                                                                                                                                   88
                     Report                                  Total # of    Total #
No.   Report Title            Summary of Findings                                            Open Recommendations                                     USAID Response
                      Date                               Recommendations   Closed
                                                                                                                                  The mission prepare an implementation plan for use
                                                                                                                                  of the $1.4 million rural radio supplemental funding
                                                                                                                                  consistent with the goals of the program, or
                                                                                     (5) USAID/Afghanistan prepare an             reprogram these funds for other mission programs,
                                                                                     implementation plan for use of the $1.4      the mission concurred. The mission has directed IRI
                                                                                     million rural radio supplemental funding     to prepare an implementation plan for using the
                                                                                     consistent with the goals of the program, or funds, and IRI has submitted a concept paper that
                                                                                     reprogram these funds for other mission      envisions using the funds—originally for pre-election
                                                                                     programs.                                    voter education programs—for radio programs
                                                                                                                                  focusing on the performance of elected officials and
                                                                                                                                  discussion of political and social issues. This
                                                                                                                                  recommendation remains open.

                                                                                                                                    The mission determine the allowability of $6,350,319
                                                                                                                                    in security costs, the mission agreed and will conduct
                                                                                                                                    a review to determine the allowability of the
                                                                                                                                    questioned security costs. The mission will also
                                                                                     (6) USAID/Afghanistan determine the            request from IRI more detailed information on its
                                                                                     allowability of the $6,350,319 incurred by     security-related expenditures, specifying its efforts to
                                                                                     the International Republican Institute for     contain and control costs when and where feasible.
                                                                                     security expenses, and recover any costs       If costs are determined to be unallowable, the
                                                                                     determined to be unreasonable.                 mission will issue a bill of collection to recover the
                                                                                                                                    unallowable costs. These actions will be completed
                                                                                                                                    by August 31, 2011. Until allowability of the costs is
                                                                                                                                    determined, a management decision has not been
                                                                                                                                    reached. This recommendation remains open.

                                                                                                                                    The mission establish procedures and criteria for
                                                                                                                                    determining reasonableness of security costs, the
                                                                                                                                    mission asked the Office of Inspector General to
                                                                                                                                    reconsider its recommendation. The mission
                                                                                                                                    interpreted the recommendation as requiring a
                                                                                                                                    market price survey that could take 12 to 15 months,
                                                                                     (7) USAID/Afghanistan establish
45                                                                                                                                  and it wondered whether this would be worthwhile in
                                                                                     procedures and criteria for determining the
                                                                                                                                    light of recent developments affecting private
                                                                                     reasonableness of security costs charged
                                                                                                                                    security firms in Afghanistan. The mission noted that,
                                                                                     by implementing partners.
                                                                                                                                    once the Afghan Public Protection Force assumes
                                                                                                                                    responsibility for the security of USAID's partners,
                                                                                                                                    the partners will be expected to pay fixed prices for
                                                                                                                                    security services. Therefore, the mission considered
                                                                                                                                    that our recommendation was overtaken by events.
                                                                                                                                    This recommendation remains open.

                                                                                                                                 The mission follow-on program require members of
                                                                                                                                 the Consortium for Election and Political Process
                                                                                                                                 Strengthening to consolidate functions and facilities
                                                                                                                                 to the extent possible to reduce expenses, the
                                                                                                                                 mission partially concurred. The mission noted that a
                                                                                     (8) USAID/Afghanistan's follow-on program
                                                                                                                                 consolidation of functions and facilities of
                                                                                     require members of the Consortium for
                                                                                                                                 implementing partners' at the national level may
                                                                                     Election and Political Process
                                                                                                                                 prove less advisable. No management decision has
                                                                                     Strengthening to consolidate functions and
                                                                                                                                 been reached because the mission has not stated
                                                                                     facilities to the extent possible to reduce
                                                                                                                                 whether it will require the Consortium partners to
                                                                                     expenses.
                                                                                                                                 consolidate functions and facilities at the national or
                                                                                                                                 sub-national level should the mission select the
                                                                                                                                 Consortium for any follow-on implementation.
                                                                                                                                 Therefore, no management decision has been
                                                                                                                                 reached. This recommendation remains open.

                                                                                                                                    On April 18, 2011, the mission requested CEPPS to
                                                                                     (9) USAID/Afghanistan require the
                                                                                                                                    deliver a collective branding and marking plan. All
                                                                                     International Republican Institute, as the
                                                                                                                                    CEPPS partners have individually submitted
                                                                                     lead partner in the Consortium for Elections
                                                                                                                                    branding and marking plans as of May 4, 2011. The
                                                                                     and Political Process Strengthening, to
                                                                                                                                    mission will review the plans and verify
                                                                                     submit a Consortium marking and branding
                                                                                                                                    implementation through field visits during the
                                                                                     plan and verify that the plan has been
                                                                                                                                    remainder of the activity. Target Completion Date:
                                                                                     implemented.
                                                                                                                                    July 31, 2011. This recommendation remains open.




                                                    89
                                              Report                                                                                  Total # of    Total #
No.               Report Title                                                  Summary of Findings                                                                   Open Recommendations                                    USAID Response
                                               Date                                                                               Recommendations   Closed
                                                                                                                                                                                                           The mission intends to issue a bill of collection to
                                                                                                                                                              (2) USAID/Afghanistan determine the          recoup the costs. Its review of the list revealed items
                                                                                                                                                              allowability of and recover as appropriate   purchased from a prohibited source. The mission
                                                                                                                                                              from the International Organization for      intends to perform a financial audit of the program,
                                                                                                                                                              Migration the cost of stored food that is no which will include a review of items purchased from
                                                                                                                                                              longer fit for human consumption, which we prohibited sources. This recommendation remains
                                                                                                                                                              estimate at up to $2,660,924.                open until a bill to collect the money has been
                                                                                                                                                                                                           issued. This recommendation is open.
                                                                                                                                                                                                             According to the mission, the program was
                                                                                                                                                                                                             distributing assistance kits aggressively from
                                                                                                                                                                                                             February through July 2011 and, without the
                                                                                                                                                                                                             additional inventory on hand; the program might not
                                                                                                                                                                                                             have been able to assist all beneficiaries without
                                                                                                                                                                                                             interruption. The mission indicated that all the kits
                                                                                                                                                                                                             from Uranus Trading and Logistics Company
                                                                                                                                                              (3) USAID/Afghanistan determine the
                                                                                                                                                                                                             ultimately were distributed to beneficiaries. We
                                                                                                                                                              allowability of and recover as appropriate
                                                                                                                                                                                                             disagree with the mission’s analysis. As detailed in
                                                                                                                                                              from the International Organization for
                                                                                                                                                                                                             the audit finding, IOM had inventory records
                                                                                                                                                              Migration the $740,331 cost of Purchase
                                                                                                                                                                                                             supporting 4,821 kits stored at Uranus Trading and
                                                                                                                                                              Order 12, which was not needed to carry
                                                                                                                                                                                                             Logistics Company, and that total did not include kits
                                                                                                                                                              out program operations.
                                                                                                                                                                                                             stored in IOM warehouses, for which no inventory
                                                                                                                                                                                                             records were available. This order added 3,000 kits,
                                                                                                                                                                                                             which Uranus Trading and Logistics Company had to
                                                       The Afghan Civilian Assistance Program was designed to assist                                                                                         have stored. we recommend that the agreement
                                                       Afghan civilian families and communities that have suffered losses as                                                                                 officer determine the allowability of the kits
                                                       a result of military operations against insurgents and the Taliban. The                                                                               purchased under Purchase Order 12. This
                                                       program is implemented through a $76 million, 4½-year cooperative                                                                                     recommendation remains open.
                                                       agreement with the International Organization for
                                                       Migration (IOM) that runs from April 1, 2007, to September 30, 2011.                                                                                The mission asked IOM for a summary of the
                                                       As of March 2, 2011, according to USAID/Afghanistan records, $54                                                                                    assessment done by SHAL, a nongovernmental
                                                       million had been obligated and $52 million spent under the program.                                                                                 organization contracted by IOM, which will identify
                                                       Beneficiaries under the program are generally given in-kind or                                                                                      which individuals not entitled to assistance received
                                                       noncash assistance, often in the form of kits that include food,                                       (4) USAID/Afghanistan determine the          commodities or cash. IOM is expected to forward the
      Review of USAID/Afghanistan's Afghan             household items, school supplies, or tools and equipment for                                           allowability of and recover, as appropriate, summary report by mid-September 2011. The
46         Civilian Assistance Program       31-Aug-11 agriculture or small business activities. IOM did not adopt any specific          7            1       the $1,360,800 in shelter assistance grants mission will then review the report, and the
                  (F-306-11-005-S)                     criteria or guidelines for commodity management under the program.                                     in Helmand Province that could not be        agreement officer will make a final determination on
                                                       In the absence of specific criteria, we used Generally Accepted                                        verified.                                    the allowability of the questioned costs and initiate
                                                       Commodity Accountability Principles2 and the USAID Commodities                                                                                      recoupment of funds, as appropriate. The mission
                                                       Reference Guide                                                                                                                                     intends to communicate its determination to OIG by
                                                       (http://www.usaid.gov/our_work/humanitarian_assistance/ffp/crg/) as                                                                                 November 30, 2011. This recommendation remains
                                                       criteria. Our inspections of four warehouses—three IOM warehouses                                                                                   open.
                                                       and one warehouse belonging to Uranus Trading and
                                                       Logistics—disclosed rat and mouse infestation, poor storage                                            (5) USAID/Afghanistan arrange for a            A management decision can be reached upon report
                                                       practices, expired commodities, and a lack of inventory records.                                       financial audit of the Afghan Civilian         issuance. The mission's target completion date for
                                                       Further, the inspections led us to question the purchase of additional                                 Assistance Program to help ensure that the     the audit is January 31, 2012. On the basis of this
                                                       kits, space for which was lacking in IOM’s warehouse.                                                  costs charged to USAID are reasonable,         information, a management decision has been
                                                                                                                                                              allowable, and allocable.                      reached. This recommendation remains open.


                                                                                                                                                                                                             The mission partially agreed with the
                                                                                                                                                                                                             recommendation. The mission agreed to recover the
                                                                                                                                                                                                             funds that were reportedly embezzled, but did not
                                                                                                                                                                                                             agree with the amount embezzled. The mission is
                                                                                                                                                              (6) USAID/Afghanistan determine the            currently reviewing documentation provided by IOM
                                                                                                                                                              allowability of and recover, as appropriate,   to determine the actual amount of funds
                                                                                                                                                              $180,000 that was reportedly embezzled         misappropriated and will make a final determination
                                                                                                                                                              from the program.                              on the allowability of the questioned costs and
                                                                                                                                                                                                             initiate recoupment of funds, as appropriate. The
                                                                                                                                                                                                             mission intends to communicate its determination to
                                                                                                                                                                                                             OIG by November 30, 2011. This recommendation
                                                                                                                                                                                                             remains open.

                                                                                                                                                                                                             The agreement officer is reviewing the
                                                                                                                                                                                                             documentation provided by IOM to determine the
                                                                                                                                                              (7) USAID/Afghanistan determine the
                                                                                                                                                                                                             allowability of this cost. USAID/Afghanistan will
                                                                                                                                                              allowability of and recover, as appropriate,
                                                                                                                                                                                                             initiate recovery action, as appropriate, through the
                                                                                                                                                              the $3,437,000 that the International
                                                                                                                                                                                                             issuance of a bill for collection. The mission intends
                                                                                                                                                              Organization for Migration spent to buy
                                                                                                                                                                                                             to communicate its determination to OIG by
                                                                                                                                                              used vehicles without USAID approval.
                                                                                                                                                                                                             November 30, 2011. This recommendation remains
                                                                                                                                                                                                             open.




                                                                                                                            90
                                                   Report                                                                               Total # of    Total #
No.                 Report Title                                                    Summary of Findings                                                                  Open Recommendations                                       USAID Response
                                                    Date                                                                            Recommendations   Closed

                                                                                                                                                                                                                   USAID plans to work with Ministry of Public Health to
                                                                                                                                                                (1) USAID/Afghanistan, in collaboration            develop and implement a plan that identifies which
                                                                                                                                                                with the Ministry of Public Health, develop        elements the nongovernmental organization
                                                                                                                                                                and implement a plan that improves the             contractors should address. USAID/Afghanistan will
                                                                                                                                                                nongovernmental organization contractors'          also work with the Ministry of Public Health to ensure
                                                                                                                                                                supervision, monitoring, and problem               that nongovernmental organizations’ roles and
                                                                                                                                                                solving at their health facilities; and verifies   responsibilities related to quality assurance are
                                                                                                                                                                the successful implementation of a reliable        clearly defined and articulated and are in line with
                                                                                                                                                                quality assurance mechanism by the                 established guidance on quality assurance. The
                                                                                                                                                                nongovernmental organization contractors,          mission will also work to ensure that the Ministry of
                                                                                                                                                                including the establishment of quality             Public Health’s monitoring plans cover quality
                                                                                                                                                                assurance committees at each of he health          assurance issues. The mission intends to implement
                                                                                                                                                                facilities.                                        this plan by February 29, 2012. This
                                                                                                                                                                                                                   recommendation is open.

                                                                                                                                                                                                                   The mission will work with the Ministry of Public
                                                                                                                                                                                                                   Health to develop a plan to reinforce verification
                                                                                                                                                                (2) USAID/Afghanistan assist the Ministry of
                                                                                                                                                                                                                   guidelines and to incorporate monitoring of
                                                                                                                                                                Public Health in establishing and
                                                                                                                                                                                                                   implementation of the verification guidelines into the
                                                                                                                                                                implementing a plan to ensure that
                                                         The Partnership Contracts for Health Services (PCH) program has                                                                                           Ministry of Public Health’s facility monitoring plan.
                                                                                                                                                                nongovernmental organization contractors
                                                         contributed to the achievement of the MOPH health objectives. The                                                                                         The mission anticipates completion and
                                                                                                                                                                are verifying that the requirement of second-
                                                         majority of PCH health facilities visited were exceeding their patient                                                                                    implementation of the plan by March 31, 2012.
                                                                                                                                                                person verification is being effectively
                                                         capacity, demonstrating that communities, especially women and their                                                                                      Based on the proposed action, the mission has
                                                                                                                                                                implemented at health facilities.
                                                         children, were increasingly seeking out health services. PCH-funded                                                                                       reached a management decision. This
                                                         physicians interviewed attributed accomplishments in the reduction of                                                                                     recommendation remains open.
                                                         maternal and infant mortality in part to the PCH program’s community                                                                                      The mission anticipates working with the Ministry of
                                                         outreach program. The health education provided by the outreach                                        (3) USAID/Afghanistan, in collaboration
                                                                                                                                                                                                                   Public Health to develop a plan to identify and
                                                         program in remote areas has been emphasizing the benefits of                                           with the Ministry of Public Health, develop a
                                                                                                                                                                                                                   assign civil-service counterparts for training by PCH
                                                         delivering babies at health facilities rather than at home, and as a                                   plan to (1) identify a pool of qualified civil
                                                                                                                                                                                                                   long-term external advisers. The mission anticipates
                                                         result, physicians stated that the majority of women in their service                                  service employees who would benefit from
                                                                                                                                                                                                                   completing action on this recommendation by March
                                                         areas are now delivering at the health clinics and hospitals. Auditors                                 capacity building training in order to sustain
                                                                                                                                                                                                                   31, 2012. Based on the proposed action, a
    Audit of USAID/Afghanistan's On-budget               found that the process for completing the required Health                                              the ministry's capacity for managing the
                                                                                                                                                                                                                   management decision has been reached. This
     Funding Assistance to the Ministry of               Management Information System reports was inherently prone to                                          PCH program and (2) provide the training.
                                                                                                                                                                                                                   recommendation remains open.
47 Public Health in Support of the Partnership 29-Sep-11 errors because information was compiled manually on paper. Health                13            0
     Contracts for Health Services Program               facilities located in remote rural areas had no electricity and no                                                                                        Specifically, the mission will conduct an assessment
                (F-306-11-004-P)                         computers. Workers at most (73 percent) of the health facilities visited                               (4) USAID/Afghanistan work with the                of Ministry of Public Health systems, policies, and
                                                         did not double-check their figures before submitting the reports to                                    Ministry of Public Health and the Ministry of      procedures and use the results of the assessment to
                                                         MoPH. Having a second person double-check data is considered a                                         Finance to streamline the payment process          streamline the payment process. The mission
                                                         best practice to minimize errors. According to USAID officials, these                                  to accelerate payments to                          intends to complete this task by February 29, 2012.
                                                         error and submission rates were comparable to world benchmarks in                                      nongovernmental organization contractors           Based on the proposed actions, a management
                                                         developing counties, where data quality is usually below 50 percent.                                   and health workers.                                decision has been reached. This recommendation
                                                         Despite the limitations in data, HMIS provides useful data for                                                                                            remains open.
                                                         monitoring trends and identifying gaps and improvements in service.
                                                                                                                                                                (5) USAID/Afghanistan work with the
                                                         Because MoPH’s Afghanistan Mortality Survey 2010 is expected to
                                                                                                                                                                Ministry of Public Health and the Ministry of
                                                         provide current demographic health information, we did not make a
                                                                                                                                                                Finance to (1) implement written policies          The mission agreed with these 2 points and
                                                         recommendation regarding the lack of current population statistics,
                                                                                                                                                                and procedures that clearly define the             anticipates completing this work by February 29,
                                                         demographic information, or other national data to measure outcomes
                                                                                                                                                                roles, responsibilities, and approval              2012. Based on the proposed actions, a
                                                         from the ministry’s health-care activities.
                                                                                                                                                                authorities for the payment process and (2)        management decision has been reached. This
                                                                                                                                                                provide further training on the                    recommendation remains open.
                                                                                                                                                                advance/liquidation mode of payment
                                                                                                                                                                process.

                                                                                                                                                                                                                   The Mission will draw on the results of the
                                                                                                                                                                (6) USAID/Afghanistan work with the
                                                                                                                                                                                                                   assessment in working with Ministry of Public Health
                                                                                                                                                                Ministry of Public Health and the Ministry of
                                                                                                                                                                                                                   and Ministry of Finance to implement policies and
                                                                                                                                                                Finance to implement procedures limiting
                                                                                                                                                                                                                   procedures regarding changes in the payment
                                                                                                                                                                the frequency of changes made to the
                                                                                                                                                                                                                   process and issuance of instructions on such
                                                                                                                                                                payment process and providing sufficient
                                                                                                                                                                                                                   changes. The mission intends to complete these
                                                                                                                                                                notification and clear instructions to
                                                                                                                                                                                                                   tasks by February 29, 2012. Based on the proposed
                                                                                                                                                                nongovernmental organization contractors
                                                                                                                                                                                                                   actions, a management decision has been reached.
                                                                                                                                                                on any changes.
                                                                                                                                                                                                                   This recommendation remains open.

                                                                                                                                                                (7) USAID/Afghanistan review its internal
                                                                                                                                                                                                                   The mission anticipates completing this review and
                                                                                                                                                                administrative procedures, such as the
                                                                                                                                                                                                                   modifying its procedures by February 29, 2012.
                                                                                                                                                                processing of implementation letters, to
                                                                                                                                                                                                                   Based on these proposed actions, a management
                                                                                                                                                                ensure the smooth and timely flow of the
                                                                                                                                                                                                                   decision has been reached. This recommendation
                                                                                                                                                                payment process for on-budget assistance
                                                                                                                                                                                                                   remains open.
                                                                                                                                                                agreements.




                                                                                                                               91
                                  Report                                  Total # of    Total #
No.         Report Title                   Summary of Findings                                            Open Recommendations                                       USAID Response
                                   Date                               Recommendations   Closed
                                                                                                  (8) USAID/Afghanistan issue a mission
                                                                                                  order to provide an organizational               The mission intends to complete this task by
                                                                                                  framework with clearly defined roles and         February 29, 2012. Based on the proposed actions,
                                                                                                  responsibilities of all mission offices          a management decision has been reached. This
                                                                                                  responsible for managing on-budget               recommendation remains open.
                                                                                                  assistance activities.
                                                                                                                                                   The mission will include a provision related to the
                                                                                                                                                   designation of activity or project managers for
                                                                                                  (9) USAID/Afghanistan provide a formal
                                                                                                                                                   government-to-government assistance mechanisms
                                                                                                  designation letter similar to an officer's
                                                                                                                                                   in its revised mission order referred to in
                                                                                                  technical representative designation letter
                                                                                                                                                   Recommendation 8. The mission anticipates
                                                                                                  to staff members monitoring
                                                                                                                                                   completing this mission order by February 29, 2012.
                                                                                                  implementation of on-budget assistance
                                                                                                                                                   Based on the proposed action, a management
                                                                                                  agreements.
                                                                                                                                                   decision has been reached. This recommendation
                                                                                                                                                   remains open.
                                                                                                  (10) USAID/Afghanistan work with the
                                                                                                                                                   Work is under way, with a target completion date of
                                                                                                  Ministry of Public Health to prepare a
                                                                                                                                                   March 31, 2012. Based on the proposed action, a
                                                                                                  performance management plan for the
                                                                                                                                                   management decision has been reached. This
                                                                                                  Partnership Contracts for Health Services
                                                                                                                                                   recommendation remains open.
                                                                                                  program.

                                                                                                                                                   The mission will provide the Ministry of Public Health
47                                                                                                (11) USAID/Afghanistan provide the               with a list of Afghan Info performance indicators and
                                                                                                  Ministry of Public Health with clearly written   their associated definitions by February 29, 2012. A
                                                                                                  definitions of Afghan Info performance           management decision has been reached based on
                                                                                                  indicators.                                      this proposed action. This recommendation remains
                                                                                                                                                   open.

                                                                                                                                                   The mission plans to provide PCH consultants with
                                                                                                                                                   orientation to and training in utilizing the Afghan Info
                                                                                                  (12) USAID/Afghanistan implement                 database, with a target completion date of February
                                                                                                  procedures to review and verify the              29, 2012. However, while the training will address
                                                                                                  accuracy of data entered into Afghan Info        the needs of PCH, the mission’s actions do not
                                                                                                  and provide timely feedback to users.            address the verification aspect of the
                                                                                                                                                   recommendation. This recommendation remains
                                                                                                                                                   open.

                                                                                                                                                   The mission plans to request implementing partner
                                                                                                                                                   assistance in updating GPS coordinates for health
                                                                                                  (13) USAID/Afghanistan, in collaboration
                                                                                                                                                   facilities and in developing a plan for completion of
                                                                                                  with the Ministry of Public Health,
                                                                                                                                                   all GPS requirements. The plan is to be completed
                                                                                                  implement a plan to confirm and document
                                                                                                                                                   by February 29, 2012, and the updated GPS
                                                                                                  accurate GPS coordinates for the ministry's
                                                                                                                                                   coordinates by March 31, 2012. Based on the
                                                                                                  health facilities.
                                                                                                                                                   proposed actions, a management decision has been
                                                                                                                                                   reached. This recommendation remains open.
                                                                                                            Total Recommendations
                                                                                                                                                                             223
      Performance Audits Issued    47
                                                                                                        Total Closed Recommendations                                         171




                                                                 92
                                                        Afghanistan Financial Audit Findings
                                                                                                                                           Details for
                                                                                     Total Costs   Questioned Costs   Sustained Costs
No.                  Audit Title                     Report Number     Report Date                                                      Questioned Costs
                                                                                     Audited ($)          ($)                ($)
                                                                                                                                         over $1 Million

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 1    Facilities and Services Program,                5-306-04-001-N   23-Jan-2004    1,227,901         29,449             3,882
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from September
      30, 2002, to June 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 2    Facilities and Services Program,                5-306-04-003-N   26-Mar-2004     666,841          114,020            13,001
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2003, to September 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 3    Facilities and Services Program,                5-306-04-004-N   17-May-2004     863,610          115,136            44,738
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October 1,
      2003, to December 31, 2003


      Application of Agreed-Upon Procedures on
      Costs Incurred in the United States by the
      Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 4                                                    5-306-04-002-D   17-May-2004    23,096,297        92,983             90,022
      Facilities and Services Program,
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from September
      30 2002, to June 30, 2003


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 5    Facilities and Services Program,                5-306-04-005-N    9-Jul-2004    1,578,442         137,596            9,127
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January 1,
      2004, to March 31, 2004


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 6    Facilities and Services Program,                5-306-04-006-N   23-Aug-2004    2,039,979         14,112               0
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2004, to June 30, 2004


      Audit of Costs Incurred in the United States
      by The Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 7    Facilities and Services Program,                5-306-04-003-D   16-Sep-2004    40,486,450        109,186            91,678
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2003, to September 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 8    Facilities and Services Program,                5-306-05-002-N    9-Dec-2004    1,539,697          3,056              779
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2004, to September 30, 2004

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 9    Facilities and Services Program,                5-306-05-006-N   14-Mar-2005    1,525,711
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October 1,
      2004, to December 31, 2004




                                                                                     93
                                                                                                                                              Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                  Audit Title                     Report Number     Report Date                                                         Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                            over $1 Million
                                                                                                                                         OIG questioned $785,716
                                                                                                                                         in costs that were claimed
                                                                                                                                         by Louis Berger but were
                                                                                                                                         ineligible on the basis of its
      Audit of Costs Incurred in the United States
                                                                                                                                         contract with USAID.
      by the Louis Berger Group, Inc. to                                                                                                 These costs related to
      Implement the Rehabilitation of Economic                                                                                           direct labor,
10    Facilities and Services Program,                5-306-05-006-D    19-Apr-2005   185,440,813       1,049,881           98,146
                                                                                                                                         subcontractors, equipment
      USAID/Afghanistan Contract No. 306-C-00-
                                                                                                                                         and furniture, and
      02-00500-00, for the Period from October 1,
      2003, to June 30, 2004                                                                                                             consultants. Additionally,
                                                                                                                                         OIG questioned $264,165
                                                                                                                                         in costs that could not be
                                                                                                                                         supported by
                                                                                                                                         documentation.

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
      Facilities and Services Program,
11    USAID/Afghanistan Contract No. 306-C-00-        5-306-05-008-N    30-Jun-2005    1,606,343
      02-00500-00, for the Period from January 1,
      2005, to March 31, 2005, including Contract
      Line Item No. 2 costs for the period from
      April 1, 2004, to June 30, 2004



      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
      Facilities and Services Program,
12    USAID/Afghanistan Contract No. 306-C-00-        5-306-05-009-N   29-Aug-2005     2,944,192
      02-00500-00, for the Period from April 1,
      2005 to June 30, 2005, including Contract
      Line Item No. 2 costs for the period from
      July 1, 2004 to June 30, 2005


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
13    Facilities and Services Program,                5-306-06-002-N    8-Dec-2005     2,114,250
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2005, to September 30, 2005

      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
14    Facilities and Services Program,                5-306-06-002-D   19-Dec-2005    125,286,559        348,122            3,399
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2004, to March 31, 2005

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
15    Facilities and Services Program,                5-306-06-004-N   21-Mar-2006     2,144,967
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October 1,
      2005, to December 31, 2005

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
16    Facilities and Services Program,                5-306-06-005-N    28-Jun-2006    3,097,361
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January 1,
      2006 to March 31, 2006


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
17    Facilities and Services Program,                5-306-06-003-D    2-Aug-2006    181,086,841        528,239            36,248
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2005, to December 31, 2005




                                                                                      94
                                                                                                                                            Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                  Audit Title                     Report Number     Report Date                                                       Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                          over $1 Million

      Audit of Treatment of Specified Costs
      Incurred by Camp,
                      Dresser & McKee
      Constructors, Inc. Under the
18    Afghanistan Water and Sanitation Program,       5-306-06-004-D   10-Aug-2006      261,390          221,509            31,509
      USAID/Afghanistan Contract No. 306-C-00-
      04-00568-00 for the Period from September
      30, 2004, to February 25, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
19    Facilities and Services Program,                5-306-07-001-N    16-Oct-2006    2,121,214
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2006, to June 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
20    Facilities and Services Program,                5-306-07-004-N   11-Dec-2006     1,740,855
      USAID/Afghanistan Contract No. 306-C-00-
      00500-00, for the Period from July 1, 2006,
      to September 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
21    Facilities and Services Program,                5-306-07-006-N    18-Apr-2007    1,488,612
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October 1,
      2006, to December 31, 2006


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
22    Facilities and Services Program,                5-306-07-002-D   25-May-2007     53,702,753        581,418           124,108
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January 1,
      2006, to June 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
23    Facilities and Services Program,                5-306-07-008-N    27-Jun-2007    1,299,053
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January 1,
      2007, to March 31, 2007


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
24    Facilities and Services Program,                5-306-08-001-N   27-Nov-2007     1,262,209
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2007, to June 30, 2007

      Closeout Audit of the Project Titled
      "Business Advisory Services to Small and
      Medium-Sized Enterprises (SMEs) in
      Afghanistan," USAID/Afghanistan
25    Cooperative Agreement No. 306-A-00-04-          5-306-08-019-R    25-Apr-2008     925,459          695,374           695,374
      00570-00, Managed by Acap
      Management Limited, for the Period
      from September 30, 2004, to March 29,
      2007




                                                                                      95
                                                                                                                                               Details for
                                                                                       Total Costs   Questioned Costs   Sustained Costs
No.                  Audit Title                      Report Number     Report Date                                                         Questioned Costs
                                                                                       Audited ($)          ($)                ($)
                                                                                                                                             over $1 Million


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
26    Facilities and Services Program,                 5-306-08-003-D   16-May-2008     39,274,703        846,872            51,014
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2006, to December 31, 2006


                                                                                                                                          Questioned costs related to
      Audit of Costs Incurred in the United States
                                                                                                                                          overcharges on the
      by The Louis Berger Group, Inc. to                                                                                                  contract, charges incurred
      Implement the Rehabilitation of Economic                                                                                            that were inconsistent with
      Facilities and Services Program,
27                                                     5-306-09-001-D    18-Jun-2009    18,579,476       3,142,521          264,651       the dates of activity in the
      USAID/Afghanistan Contract No. 306-C-00-
                                                                                                                                          contract, charges not
      02-00500-00, for the Period from January 1,
      2007, to May 31, 2008; Audit Report No. 5-
                                                                                                                                          approved by USAID, and a
      306-09-001-D                                                                                                                        lack of purchase orders
                                                                                                                                          and invoices.


      Financial Audit of Local Costs Incurred by
   the Joint Venture Louis Berger
   Group, Inc./Black & Veatch
28 Special Projects Corp. to Implement                 5-306-09-005-N    25-Jun-2009    2,268,126         267,556           254,526
      the Afghanistan Infrastructure Rehabilitation
      Program, USAID/Afghanistan Contract No.
      306-I-00-06-00517-00, for the Period from
      August 25, 2006, to September 30, 2007


                                                                                                                                          DCAA reported that it had
                                                                                                                                          continuous problems in
                                                                                                                                          obtaining the required
                                                                                                                                          information from
                                                                                                                                          BearingPoint in order to
      Audit of Costs Incurred and Billed by                                                                                               render an opinion on the
      BearingPoint, Inc. ,                                                                                                                reliability of BearingPoint's
29    USAID/Afghanistan Contract No. 306-C-00-         5-306-09-002-D   19-Aug-2009     95,817,000       95,817,000        95,817,000     accounting systems.
      03-00001-00, for the Period from November                                                                                           BearingPoint had made
      1, 2002 to December 15, 2005                                                                                                        several manual
                                                                                                                                          adjustments that could not
                                                                                                                                          be explained and billed
                                                                                                                                          USAID for costs that did
                                                                                                                                          not reconcile with its
                                                                                                                                          computerized systems.


      Financial Audit of the Program
      “Regenerating Murad Khane, Restoring,
      Refurbishing and Revitalizing the Old City,”
      USAID/Afghanistan Cooperative Agreement
30    No. 306-A-00-09-00503-00, Managed by the         5-306-09-021-R   29-Sep-2009      421,310          17,781             17,781
      Turquoise Mountain Trust (TMT) ,
      for the Period from November 2, 2008 to
      December 31, 2008



      Financial Audit of Local Costs Incurred by
   the Joint Venture Louis Berger
   Group, Inc./Black & Veatch
31 Special Projects Corp. to Implement                 5-306-10-002-N   25-Feb-2010     5,594,190         46,912             4,200
      the Afghanistan Infrastructure Rehabilitation
      Program, USAID/Afghanistan Contract No.
      306-I-00-06-00517-00, for the Period from
      October 1, 2007 to September 30, 2008




                                                                                       96
                                                                                                                                             Details for
                                                                                       Total Costs   Questioned Costs   Sustained Costs
No.                  Audit Title                      Report Number     Report Date                                                       Questioned Costs
                                                                                       Audited ($)          ($)                ($)
                                                                                                                                           over $1 Million

      Financial Audit of the Afghanistan First Loss
      Reserve Fund, USAID/Afghanistan
      Cooperative Agreement No. 306-A-00-05-
      00512-00, Managed by the Deutsche
32    Investitions- und                                5-306-10-001-D   30-Mar-2010     1,281,561         56,974             1,952
      Entwicklungsgesellschaft mbh
      (DEG), for the Period from February 4,
      2005 to December 31, 2008


      Quality Control Review of the Financial
      Audit Conducted by KPMG Afghanistan
      Limited of the Local Costs Incurred by the
   Joint Venture Louis Berger
   Group, Inc./Black & Veatch
33 Special Projects Corp.                              5-306-10-001-Q   18-May-2010         0
   (LBGI/B&V) to Implement the
      Afghanistan Infrastructure Rehabilitation
      Program (AIRP), USAID/Afghanistan
      Contract No. 306-I-00-06-00517-00, for the
      Period from October 1, 2007 to September
      30, 2008


      Financial Audit of Cost Incurred and Billed
      for the Project "Human and Institutional
      Capacity Building for Afghanistan Energy
      and Natural Resources Sector" (Task Order
      No. DOT-I-04-04-00022-00),
34    USAID/Afghanistan Cooperative Agreement          5-306-10-002-D   28-Sep-2010     3,523,452         12,115             12,115
      No. 306-P-00-10-00514-00, Managed by the
      Advanced Engineering
      Associates International (AEAI),
      for the Period from July 3, 2008 to June 30,
      2009



      Financial Audit of the Program "
      Regenerating Murad Khane, Restoring
      Refurbishing and Revitalizing the Old City, "
      USAID/Afghanistan Cooperative Agreement
35    No. 306-A-09-00503-00, Managed by the            F-306-11-001-R    26-Oct-2010    2,501,824
      Turquoise Mountain Trust (TMT) ,
      for the Period from January 1, 2009 to
      December 31, 2009




      Financial Audit of Local Costs Incurred by
   the Joint Venture Louis Berger
   Group, Inc./Black & Veatch
36 Special Projects Corp. to Implement                 5-306-11-002-N   16-Nov-2010     10,773,130       2,097,429          1,915,451
      the Afghanistan Infrastructure Rehabilitation
      Program, USAID/Afghanistan Contract No.
      306-I-00-06-00517-00, for the Period from
      October 1, 2008 to September 30, 2009



      Financial Audit of Program " Fiduciary
      Support to the American University
      of Afghanistan (AUAF) " Subgrant
      Under the Asia Foundation Award No. 306-
37    G-00-05-00525-00 and " The USAID Direct          F-306-11-002-R   20-Dec-2010     9,539,090         685,643           116,273
      Support to AUAF " Cooperative Agreement
      No. 306-A-00-08-00525-00 for the period
      from July 1, 2008 to June 30, 2009




                                                                                       97
                                                                                                                                          Details for
                                                                                   Total Costs    Questioned Costs   Sustained Costs
No.                 Audit Title                   Report Number     Report Date                                                        Questioned Costs
                                                                                   Audited ($)           ($)                ($)
                                                                                                                                        over $1 Million


      Financial Audit of the Program "Civilian
      Technical Assistance Program (CTAP)"
      USAID/Afghanistan Grant Agreement No.
38    306-09-CTAP-0001, Managed by the             F-306-11-001-N    21-Jul-2011     5,500,000          2,045
      Ministry of Finance, for the Period
      from September 30, 2009, to September 30,
      2010



      Audit Report of Technologist Inc.
      Costs Incurred/Billed under USAID Task
      Order No. 306-O-00-04-00539-00, for
39                                                 F-306-11-001-D   23-Aug-2011     21,463,590        6,563,050
      Afghanistan Industrial Estate Development
      Program for the Period from May 24, 2004,
      through December 31, 2007


      Financial Audit of the Project " Policy
      Capacity Initiative Activity (PCIA) "
      USAID/Afghanistan Grant Agreement No.
      306-IL-09-12-0004.00, Managed by the
40    Ministry of Communication and                F-306-11-003-N   29-Sep-2011       450,138          118,478
      Information Technology, for the
      Period from Program Inception April 09,
      2009, through September 30, 2010

40    Financial Audits Issued                                                      $856,535,389     $113,714,457       $99,696,974
      Percentage of Costs Audited                                                                     13.28%             11.64%

      Alpha designation in report number

      N = Nonfederal audit
      D = Defense Contract Audit Agency Audit
      R = Recipient-contracted Audit
      Q= Quality control review




                                                                                   98
         Planned Performance Audits of
       USAID/Afghanistan-Funded Activities
                                   Fiscal Year 2012
            Audit of USAID/Afghanistan Design for Sustainability
                         in the Education Program
Improving access to quality education within Afghanistan remains a priority for
USAID/Afghanistan. Since 2002, USAID/Afghanistan has disbursed approximately $414 million
to expand access to basic education—primarily in grades one through six—by training teachers,
constructing and rehabilitating schools, supporting community-based education, and implementing
accelerated learning programs to those who missed the opportunity to attend school due to decades
of war and to girls and women who were denied education under Taliban rule.

The concept of sustainability or the continued benefits of foreign development assistance is embodied
in the Foreign Assistance Act and in USAID policy. This audit will determine whether
USAID/Afghanistan has built sustainability into selected education programs.

Status: Planned.


               Audit of USAID/Afghanistan’s Performance-Based
                              Governors’ Fund
The performance of provincial governments’ in delivering services and responding to the needs of
its constituencies is a critical factor in public perception of the legitimacy of the state and public
confidence in the Afghan Government's reform process. In October 2009, USAID/Afghanistan
awarded The Asia Foundation a $13 million cooperative agreement, subsequently increased to $16
million, to implement the Performance-Based Governors’ Fund through May 2011.
USAID/Afghanistan intends to add an additional $75 million and extend the period of
performance an additional 18 months. As of March 31, 2011, USAID/Afghanistan has obligated
$16 million and disbursed $13 million for program activities.

This audit will determine if the Performance-Based Governors’ Fund is meeting its primary goal of
providing financial and technical assistance to Governors and their teams so that they are better
able to meet community outreach needs, enhance their relationships with citizens, and improve
their overall management capacity.

Status: Planned.

                   Audit of Gender-Related Activities in Selected
                           USAID/Afghanistan Programs
Afghanistan is a diverse but traditional society where opportunities for women are limited by
poverty, low levels of literacy and education, conservative ideologies, and traditional forms of social
and political organization. USAID/Afghanistan plays a leading role in implementing the U.S.
Government’s civilian strategy for assistance to women in Afghanistan in the areas of (1) health, (2)


                                                  99
education, and (3) economic development, and it plays a supporting role in implementing the
strategy in the areas of (4) security and access to justice and (5) political empowerment.

This audit will determine:

•   How gender issues have been considered in designing, implementing, and measuring the
    performance of selected USAID/Afghanistan programs.

•   What impacts these programs have had on the health and educational status, economic
    development, and political empowerment of Afghan women and girls.

Status: Planned.



             Audit of USAID/Afghanistan’s Management Controls
                for Efficiently Managing Program Operations
Efficiency is an important U.S. Government objective, as reflected in the Government Performance
and Results Act, OMB Circular A-11, and the Federal Acquisition Regulation.

This audit will determine whether (1) USAID/Afghanistan has established performance indicators
for efficiency of program operations and used these indicators to manage its programs and (2)
USAID/Afghanistan’s monitoring of its cost-reimbursement contracts provides reasonable
assurance that efficient methods and effective cost controls are used.

Status: Planned.

         Review of USAID/Afghanistan Payroll Internal Controls
USAID/Afghanistan has 433 employees, and its estimated annual payroll is $76 million. There are
concerns over the approval and certification of overtime charges and timeliness over the payment
of certain benefits. This review will determine if USAID/Afghanistan has sufficient internal
controls in place to properly approve time charges and pay employees on time.

Status: Planned.


                   Audit of USAID/Afghanistan’s Transition Plans
The Government of Afghanistan depends on international forces to provide security and other
basic services to its citizens. However, fiscal pressures in the United States and other NATO
countries have helped focus attention on the need for the Government of Afghanistan to assume
responsibility for provision of basic services within the next 3 years.

NATO plans to transfer lead security responsibility for all provinces to the Government of
Afghanistan by the end of 2014. At that time, assistance levels are expected to fall significantly.




                                               100
This audit will determine if USAID/Afghanistan (1) has developed measurable performance targets
to be achieved by USAID programs by 2014 and (2) assessed the capability of the Government of
Afghanistan to sustain program accomplishments after 2014.

Status: Planned.

     Audit of USAID/Afghanistan’s Regional Afghan Municipalities
          Program for Urban Population (RAMP UP) – East
The governance structure in Afghanistan is highly centralized and sub-national governance
institutions, particularly at the municipal level, lack clarity on their roles and functions and are
often nonresponsive to community needs. Development Alternatives Inc. implements the Regional
Afghan Municipalities Program for Urban Population—East through a $52 million contract.

This audit will determine whether the Regional Afghan Municipalities Program for Urban
Population—East program is achieving its main goal of creating effective, responsive, democratic,
transparent, accountable, municipal governance in the eastern provinces by increasing the capacity
of the Afghanistan municipal officials to enable, support, and sustain economic growth.

Status: Planned.


      Audit of the Sustainability of USAID/Afghanistan’s Office of
          Infrastructure, Engineering, and Energy Programs
Afghanistan’s physical infrastructure reflects the effects of 30 years of war and the country’s poverty.
Since February 2004, USAID/Afghanistan has committed $2.6 billion to infrastructure programs.
USAID/Afghanistan has 21 active infrastructure awards totaling $1.2 billion and has completed
another 28 programs totaling $1.4 billion. Sustainability of these infrastructure programs is of great
concern because the Afghan government is heavily dependent on foreign donors: 41 percent of the
Afghan Government’s operating budget and 100 percent of the development budget comes from
foreign donors.

The audit will determine if roads, vertical structures, and water projects turned over to the
Government of Afghanistan are being maintained and used for their intended purposes and if the
Afghan Government earns enough revenue to maintain this infrastructure.

Status: Planned.


                    Review of USAID/Afghanistan’s Contracts
                         and Cooperative Agreements
USAID/Afghanistan manages the largest program in USAID’s 50-year history, with an FY 2011
budget of $2.1 billion. The mission manages one of the most complex development portfolios in
one of the most demanding environments in the world; a portfolio which includes a broad range of
programs in infrastructure, education, health, capacity building, agriculture, economic growth,
democracy and governance, and the empowerment of women. Since USAID/Afghanistan opened,
it has issued approximately 291 awards totaling approximately $11.7 billion.


                                                 101
This review will determine if USAID/Afghanistan’s open contracts and cooperative agreements
contain required clauses and if waivers were obtained for non-competitive awards.

Status: Planned.

        Audit of USAID/Afghanistan’s Kandahar Power Initiative

USAID/Afghanistan awarded Black & Veatch Special Projects Corporation a $266 million
contract to implement the Kandahar Power Initiative from December 4, 2010 to September 30,
2013. As of March 31, 2011 USAID/Afghanistan has obligated $20 million and disbursed $1
million. The program contains components for upgrading transmission systems, rebuilding
electrical substations, providing additional diesel generators, and installation of a third turbine at
the Kajaki Hydro Power Plant.

This audit will determine if the Kandahar Power Initiative is meeting its main goal of increasing the
supply and distribution of electrical power from Afghanistan's South East Power System with
particular emphasis given to the City of Kandahar in support of the U.S. Government’s
counterinsurgency strategy.

Status: Planned.

      Audit of the Financial Sustainability of USAID/Afghanistan’s
                       Energy Sector Programs
Since 2004, the mission has committed approximately $1 billion to help reconstruct Afghanistan’s
energy sector. USAID/Afghanistan has 12 active energy sector awards totaling $489 million and
has completed another 17 programs totaling $569 million. Programs implemented by
USAID/Afghanistan cover construction of new power plants and substations; refurbishment of
existing hydro electric power plants; upgrading or installing new transmission lines; providing
operations and maintenance support of diesel generators; installation of alternative sources of
power such as solar, wind and micro hydro; and assistance in commercializing the energy sector. In
addition, USAID/Afghanistan has purchased $121 million in fuel to operate diesel generators.
Last year, 41 percent of the Afghan Government’s operating budget came from foreign donors,
indicating a potential that facilities turned over to the Afghan Government may not be sustainable.

The audit will determine if the Government of Afghanistan earns enough revenue to operate and
maintain its electrical infrastructure, including the infrastructure financed by USAID/Afghanistan.

Status: Planned.




                                                 102
         Audit of USAID/Afghanistan’s Approaches to Providing
         Technical Assistance to the Government of Afghanistan

USAID/Afghanistan provides technical assistance to the Government of Afghanistan through at
least four different mechanisms: advisors embedded in host government ministries, institutional
contractors, grants, and the Civilian Technical Assistance Program administered by the World
Bank.

This audit will determine (1) the advantages and disadvantages of the different approaches that
USAID/Afghanistan uses to provide technical assistance to the Government of Afghanistan and
examine (2) how USAID/Afghanistan decides which technical assistance approach to use.

Status: Planned.



                      Review of USAID/Afghanistan’s Use of
                       Third Country National Employees
Third-country national employees are normally used when qualified persons are not available in the
host country; limitation of time or other conditions prevent the training of persons in the host
country for the job; or it is determined that program efficiency and policy objectives can be
achieved only by using third-country nationals as a temporary substitute for available, eligible and
qualified U.S. citizens and persons from the host country. In all cases, the establishment of a third-
country national position should be temporary in nature. In FY 2011 the mission had 14 third-
country national employees with an estimated annual payroll of $1.7 million.

This audit will determine if USAID/Afghanistan is efficiently using third-country national
employees appropriately while training Afghan staff to assume their responsibilities.

Status: Planned.

 Audit of Field Staff Monitoring of USAID/Afghanistan Programs
As of October 16, 2010, USAID/Afghanistan had 120 field-based staff. USAID/Afghanistan
issued Mission Order 103.2 on September 22, 2010, to formalize the responsibilities of its field
staff.

This review will determine if (1) USAID/Afghanistan is hiring qualified and experienced
individuals to serve in the field in support of its mission in Afghanistan and (2) field staff are
monitoring USAID programs in accordance with Mission Order 103.2 and other applicable
criteria.

Status: Planned.




                                                 103
                      Follow-up Audit on Selected OIG
                   Recommendations to USAID/Afghanistan

In USAID, recommendation follow-up is a shared responsibility between the OIG and other
agency components. In particular, per Automated Directives System 595.3.1.6, audit action
officers request determinations of final action from the Bureau of Management/Chief Financial
Officer/Audit, Performance, & Compliance, and the bureau decides if final action has been taken
on audit recommendations. As of the end of the third quarter of fiscal year 2011, the OIG had
made 203 audit recommendations concerning programs in Afghanistan, and the majority of them
have determinations of final action. The recommendations included $105.2 million in questioned
costs.

This audit will determine if USAID/Afghanistan’s actions on selected OIG recommendations
corrected the problems that led to the original recommendations.

Status: Planned.




                                             104
          Afghanistan Performance
                           
                                  Audits
                                Fiscal Year
                                            2011
Audit of USAID/Afghanistan’s On-Budget Funding Assistance to
  the Ministry of Public Health in Support of the Partnership
   Contracts for Health Services Program (F-306-11-003-P)

Date:                             September 29, 2011

Implementing Partner:             Government of the Islamic Republic of Afghanistan (Ministry of
                                  Public Health (MoPH)

Audit Period:                     April 17 through June 30, 2011

Funding:                          As of May 31, 2011, USAID had obligated $56 million, disbursed
                                  $47 million, and advanced $3 million for the PCH program.

Background—Summary of Findings

In 2008, USAID signed an implementation                 appears unlikely, while its ability to sustain
letter with the Government of the Islamic               the current level of coverage remains
Republic of Afghanistan to provide the                  uncertain. Unless the Afghan government is
mission’s first core–budget funding assistance          able to generate sufficient revenue to cover its
to the Ministry of Public Health (MoPH) in              healthcare costs, the health sector’s
support of the Partnership Contracts for                dependency on donor support will continue.
Health Services (PCH) Program. Under this
program, the mission planned to provide                 Although the program has contributed to
MoPH with up to $236 million in budget                  increasing access and use of health services,
assistance over 5 years to support the delivery         OIG noted deficiencies in quality at all
of standardized health services in more than            health facilities visited. Doctors and staff at
a dozen target provinces. In 2009, MoPH                 several facilities complained that the volume
awarded $80 million in contracts to ten                 of patients was up to double their capacity to
nongovernmental organizations (NGOs).                   handle. Patients would sometimes have to
These NGOs were responsible for providing               wait up to 5 hours before receiving medical
standardized health services in more than               services, and others would go home without
500 health facilities and 5,500 health posts            receiving treatment. Some of the health
throughout the target provinces.                        facilities had old equipment that needed
                                                        repair or replacement. One health facility
OIG’s audit found that sustainability of the            had a newly donated anesthesia machine, but
program was a concern. The government’s                 the responsible NGO ignored repeated staff
extremely low contribution to healthcare                requests for training on the equipment.
raises questions about the long–term viability          Several of the buildings were in poor
of health services. With shrinking donor                condition, requiring repairs, renovation, and
support in the foreseeable future, the Afghan           painting.
Government’s ability to increase healthcare
coverage to 90 percent of the population


                                                  105
Program management also needs to be                       complicated process, and OIG could not find
tightened. Confusion over who responds to                 anyone who could explain the process from
MoPH’s technical inquiries has led to                     start to finish. Staff attempted to explain the
delayed responses or inadequate feedback                  process within their own areas of
from USAID. In addition, the mission has                  responsibility, but they contradicted one
limited experience in managing on–budget                  another, and most were not sure what
assistance activities. In fact, when trying to            happened outside of their own areas.
resolve the problem of consistently late
payments to the NGOs, Ministry and USAID
staff had difficulty explaining the lengthy and

Recommendations—Management Decisions

The audit report made 13 recommendations:

1.      In collaboration with MoPH, develop and implement a plan that (1) improves the NGO
        contractors’ supervision, monitoring, and problem solving at their health facilities; and (2)
        verifies the successful implementation of a reliable quality assurance mechanism by the
        NGO contractors, including the establishment of quality assurance committees at each of
        the health facilities.

        USAID plans to work with Ministry of Public Health to develop and implement a plan that
        identifies which elements the nongovernmental organization contractors should address.
        USAID/Afghanistan will also work with the Ministry of Public Health to ensure that
        nongovernmental organizations’ roles and responsibilities related to quality assurance are clearly
        defined and articulated and are in line with established guidance on quality assurance. The mission
        will also work to ensure that the Ministry of Public Health’s monitoring plans cover quality assurance
        issues. The mission intends to implement this plan by February 29, 2012. This recommendation
        remains open.

2.      Assist MoPH in establishing and implementing a plan to ensure that NGO contractors are
        verifying that the requirement of second-person verification is being effectively
        implemented at health facilities.

        The mission agreed with the recommendation. The mission will work with the Ministry of Public
        Health to develop a plan to reinforce verification guidelines and to incorporate monitoring of
        implementation of the verification guidelines into the Ministry of Public Health’s facility monitoring
        plan. The mission anticipates completion and implementation of the plan by March 31, 2012. Based
        on the proposed action, the mission has reached a management decision. This recommendation
        remains open.

3.      In collaboration with MoPH, develop a plan to (1) identify a pool of qualified civil service
        employees who would benefit from capacity building training in order to sustain the
        ministry’s capacity for managing the PCH program and (2) provide the training.

        The mission agreed with the recommendation. The mission anticipates working with the Ministry of
        Public Health to develop a plan to identify and assign civil-service counterparts for training by PCH
        long-term external advisers. The mission anticipates completing action on this recommendation by



                                                    106
     March 31, 2012. Based on the proposed action, a management decision has been reached. This
     recommendation remains open.

4.   Work with MoPH and the Ministry of Finance (MoF) to streamline the payment process to
     accelerate payments to NGO contractors and health workers.

     The mission agreed with the recommendation. Specifically, the mission will conduct an assessment of
     Ministry of Public Health systems, policies, and procedures and use the results of the assessment to
     streamline the payment process. The mission intends to complete this task by February 29, 2012.
     Based on the proposed actions, a management decision has been reached. This recommendation
     remains open.

5.   Work with MoPH and MoF to (1) implement written policies and procedures that clearly
     define the roles, responsibilities, and approval authorities for the payment process; and (2)
     provide them with further training on the advance/liquidation mode of payment.

     The mission plans to work with the Ministry of Public Health and the Ministry of Finance to
     implement written policies and procedures covering the payment process. USAID/Afghanistan also
     plans to provide further training to ministry staff on the advance/liquidation mode of payment. The
     mission anticipates completing this work by February 29, 2012. Based on the proposed actions, a
     management decision has been reached. This recommendation remains open.

6.   Work with MoPH and MoF to implement procedures limiting the frequency of changes
     made to the payment process and providing sufficient notification and clear instructions to
     NGO contractors on any changes.

     As mentioned in the response to Recommendation 4, the mission will conduct an assessment of
     Ministry of Public Health systems, policies, and procedures. The Mission will draw on the results of
     the assessment in working with Ministry of Public Health and Ministry of Finance to implement
     policies and procedures regarding changes in the payment process and issuance of instructions on such
     changes. The mission intends to complete these tasks by February 29, 2012. Based on the proposed
     actions, a management decision has been reached. This recommendation remains open.

7.   Review its internal administrative procedures, such as the processing of implementation
     letters, to ensure the smooth and timely flow of the payment process for on-budget
     assistance agreements.

     The mission agreed with the recommendation. The mission anticipates completing this review and
     modifying its procedures by February 29, 2012. Based on these proposed actions, a management
     decision has been reached. This recommendation remains open.

8.   Issue a mission order to provide an organizational framework with clearly defined roles and
     responsibilities of all mission offices responsible for managing on-budget assistance
     activities.

     The mission agreed with the recommendation. The mission intends to complete this task by February
     29, 2012. Based on the proposed actions, a management decision has been reached. This
     recommendation remains open.



                                                107
9.    Provide a formal designation letter similar to the designation letter for an agreement
      officer’s technical representative (AOTR) to staff monitoring implementation of on-budget
      assistance agreements.

      The mission will include a provision related to the designation of activity or project managers for
      government-to-government assistance mechanisms in its revised mission order referred to in
      Recommendation 8. The mission anticipates completing this mission order by February 29, 2012.
      Based on the proposed action, a management decision has been reached. This recommendation
      remains open.

10.   Work with MoPH to prepare a performance management plan for the PCH program.

      The mission agreed with Recommendation 10. Work is under way, with a target completion date of
      March 31, 2012. Based on the proposed action, a management decision has been reached. This
      recommendation remains open.

11.   Provide MoPH with clearly written definitions of Afghan Info performance indicators.

      The mission will provide the Ministry of Public Health with a list of Afghan Info performance
      indicators and their associated definitions by February 29, 2012. A management decision has been
      reached based on this proposed action. This recommendation remains open.

12.   Implement procedures to review and verify the accuracy of data entered into Afghan Info
      and provide timely feedback to users.

      The mission plans to provide PCH consultants with orientation to and training in utilizing the
      Afghan Info database, with a target completion date of February 29, 2012. However, while the
      training will address the needs of PCH, the mission’s actions do not address the verification aspect of
      the recommendation. This recommendation remains open.

13.   In collaboration with MoPH, implement a plan to confirm and document accurate global
      positioning system (GPS) coordinates for the ministry’s health facilities.

      The mission plans to request implementing partner assistance in updating GPS coordinates for health
      facilities and in developing a plan for completion of all GPS requirements. The plan is to be
      completed by February 29, 2012, and the updated GPS coordinates by March 31, 2012. Based on
      the proposed actions, a management decision has been reached. This recommendation remains open.




                                                  108
                  Review of USAID/Afghanistan’s Afghanistan
                         Civilian Assistance Program
                                (F-306-11-005-S)

Date:                             August 31, 2011

Implementing Partner:             International Organization for Migration (IOM)

Audit Period:                     March 31, 2011, through June 16, 2011

Funding:                          As of March 2, 2011, according to USAID/Afghanistan records,
                                  $54 million had been obligated and $52 million spent under the
                                  program.

Background—Summary of Findings

The Afghan Civilian Assistance Program was               contaminated food items were not segregated
designed to assist Afghan families and                   from food that was fit for use. Other items
communities that have suffered losses as a               such as wheelbarrows and shovels were stored
result of military operations against                    in disorganized piles or even kept outside.
insurgents and the Taliban. The program is
implemented through a $76 million, 4½–                   In addition to problems with commodities,
year cooperative agreement with the                      there were also difficulties with verifying
International Organization for Migration                 beneficiaries. A report commissioned by
(IOM). Beneficiaries under the program are               IOM to confirm assistance concluded that at
generally given in–kind assistance, often in             least 34 percent of the beneficiaries in two
the form of kits that include food, household            districts could not be verified, most likely
items, school supplies, or tools and                     because of fraud. Moreover, the report’s
equipment for agriculture or small business              authors believed that program personnel
activities.                                              were actively working to undermine the
                                                         results of their investigation. Additionally,
IOM did not properly manage commodities                  other funds were misspent when IOM used
under the program. Inventory records                     more than $3.6 million in program funds to
revealed large quantities of flour, beans, rice,         purchase cars for beneficiaries without
tomato sauce, and cooking oil that had                   USAID’s approval. Furthermore, OIG
expired were found, some with dates as far               determined that $180,000 embezzled by field
back as 2004. Rats had gnawed open dozens                staff had not been properly been reimbursed
of food bags, and auditors noted feces inside            to USAID.
and around the bags. Further, expired and



Recommendations—Management Decisions

The audit report made seven recommendations:

1.      Instruct IOM to (1) dispose appropriately of food in its warehouses that is no longer fit for
        human consumption, (2) clean and sanitize all of its warehouses, and (3) place the


                                                   109
     warehouses under an appropriate management regime including staffing and supervision
     by qualified personnel, adequate sanitation and storage practices, and adequate record
     keeping.

     Specifically, the mission has instructed IOM to clean the warehouses and dispose of expired food
     items. As a result, IOM disposed of expired food items and implemented just-in-time delivery of food
     items to warehouses for distribution to beneficiaries. Under this system, food items spend a minimal
     amount of time in warehouses. IOM now orders kits to respond to confirmed beneficiary demand
     rather than for bulk storage. Finally, IOM has implemented written warehouse procedures for proper
     management of its warehouses. Based on these actions, final action has been taken. This
     recommendation is closed.

2.   Recover from IOM the cost of stored food that is no longer fit for human consumption,
     which we estimate at up to $2,660,924.

     The mission agreed with Recommendation 2. The mission intends to issues a bill of collection to
     recoup the costs. The mission’s review of the list also revealed items purchased from a prohibited
     source. The mission intends to perform a financial audit of the program, which will also include a
     review of items purchased from prohibited sources. This recommendation remains open.

3.   Recover from IOM the $740,331 cost of Purchase Order 12, which was not needed to
     carry out program operations.

     The mission disagreed with Recommendation 3. According to the mission, the program was
     distributing assistance kits aggressively from February through July 2011 and, without the additional
     inventory on hand; the program might not have been able to assist all beneficiaries without
     interruption. The mission stated that IOM did not base its decision to award the purchase order on
     “a numerical analysis of beneficiary demand, but, rather, on the potential refusal of the current
     vendor, Uranus [Trading and Logistics Company], to guarantee future kit procurements.” Such
     refusal, the mission stated, potentially would have left the program without a kit supplier and resulted
     in kit shortages and suspension of deliveries to beneficiaries. Finally, the mission indicated that all the
     kits from Uranus Trading and Logistics Company ultimately were distributed to beneficiaries.

     We disagree with the mission’s analysis. As detailed in the audit finding, IOM had inventory records
     supporting 4,821 kits stored at Uranus Trading and Logistics Company, and that total did not
     include kits stored in IOM warehouses, for which no inventory records were available. This order
     added 3,000 kits, which Uranus Trading and Logistics Company had to have stored.

     Furthermore, testimonial evidence provided by a program official indicates that IOM management
     was aware that Purchase Order 12 was not needed before it was placed. In addition, given the
     inability of IOM to store these kits properly and the volume of kits available at the time the order was
     placed, Purchase Order 12 appears unreasonable. In terms of the Uranus Trading and Logistics
     Company’s refusing future deliveries, the mission and IOM provided no evidence to substantiate this
     potentiality. Finally, no documentation was provided showing the distribution of all the Uranus
     Trading and Logistics Company kits during the audit or as part of the management response. Given
     the lack of inventory records available during the audit, it is incumbent on the mission to verify that
     there are supporting inventory records or other corroborating evidence that these kits were indeed
     distributed to legitimate recipients that were properly vetted through the ACAP grant approval


                                                   110
     process.. Therefore, a management decision has not been reached, and we still recommend that the
     agreement officer determine the allowability of the kits purchased under Purchase Order 12. This
     recommendation remains open.

4.   Determine the allowability of and recover, as appropriate, the $1,360,800 in shelter
     assistance grants in Helmand Province that could not be verified.

     The mission asked IOM for a summary of the assessment done by SHAL, a nongovernmental
     organization contracted by IOM, which will identify which individuals not entitled to assistance
     received commodities or cash. IOM is expected to forward the summary report by mid-September
     2011. The mission will then review the report, and the agreement officer will make a final
     determination on the allowability of the questioned costs and initiate recoupment of funds, as
     appropriate. The mission intends to communicate its determination to OIG by November 30, 2011.
     This recommendation remains open.

5.   Arrange for a financial audit of the Afghan Civilian Assistance Program to help ensure that
     the costs charged to USAID are reasonable, allowable, and allocable.

     The mission agreed with the recommendation, and included in its audit management plan a financial
     audit to begin on or about September 15, 2011. The mission’s target completion date for the audit is
     January 31, 2012. On the basis of this information, a management decision has been reached. This
     recommendation remains open.

6.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission partially agreed with the recommendation, that it determine the allowability of and
     recover, as appropriate, $180,000 that was reportedly embezzled from the program. The mission
     agreed to recover the funds that were reportedly embezzled, but did not agree with the amount
     embezzled. The mission is currently reviewing documentation provided by IOM to determine the
     actual amount of funds misappropriated and will make a final determination on the allowability of
     the questioned costs and initiate recoupment of funds, as appropriate. The mission intends to
     communicate its determination to OIG by November 30, 2011. This recommendation remains open.

7.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission agreed with the recommendation, that it determine the allowability of and recover, as
     appropriate, the $3,437,000 for the purchase of used vehicles. The agreement officer is reviewing the
     documentation provided by IOM to determine the allowability of this cost. USAID/Afghanistan will
     initiate recovery action, as appropriate, through the issuance of a bill for collection. The mission
     intends to communicate its determination to OIG by November 30, 2011. This recommendation
     remains open.




                                                 111
    Audit of USAID/Afghanistan’s Support to The Electoral Process
     (STEP) and Support for Increased Electoral Participation in
             Afghanistan (IEP) Programs (F-306-11-003-P)

Date:                             June 19, 2011

Implementing Partner:             International Foundation for Electoral Systems (IFES), the
                                  Consortium for Election and Political Process Strengthening
                                  (CEPPS)

Audit Period:                     December 9, 2010, to March 14, 2011

Funding:                          As of December 31, 2010, USAID had obligated
                                  approximately $124.5 million and expended approximately
                                  $98.9 million.


Background—Summary of Findings

To help strengthen Afghanistan’s electoral              voter education programs that reached
system, USAID/Afghanistan has provided                  hundreds of thousands of people.
assistance through the Support to the                   Despite these accomplishments, however, no
Electoral     Process     (STEP)     Program            persuasive evidence exists that these short-
implemented under a contract with the                   term results have produced increased citizen
International Foundation for Electoral                  awareness of the electoral process or a
Systems (IFES), and the Increased Electoral             stronger democratic political party system. In
Participation in Afghanistan (IEP) Program              fact, auditors reported on a number of
implemented       through     a   cooperative           longer-term issues that need to be addressed
agreement with the Consortium for Election              to better ensure credible elections, including
and Political Process Strengthening (CEPPS).            legal reforms to protect the independence of
                                                        the IEC and ECC, reform of the “single
The STEP program has achieved many short                nontransferable      vote”      system      of
term objectives—in particular, those dealing            representation in favor of a system in which
with civic education and outreach, training,            votes and electoral results have a more
and staffing of the Independent Election                predictable and proportional relationship,
Commission (IEC) and the Electoral                      actions to make Afghanistan’s electoral
Complaints Commission (ECC).                            system more sustainable, and a more reliable
                                                        voter registry.
The program has helped to increase the
capacity of both commissions to administer              Moreover, costs could have been reduced by
elections and has contributed to the                    consolidating       consortium       expenses.
credibility of elections themselves. The IEP            Specifically, each consortium participant had
program has also performed well, training               its own Kabul-based home office, living
tens of thousands of Afghans who                        quarters, and support functions such as
participated in elections as political party or         security, human resources, and information
coalition members and election observers.               technology. Combining these costs would
Furthermore, IEP implemented civil and                  have saved the mission a combined 15




                                                  112
percent to 20 percent, or $6 million to $8                 million.

Recommendations—Management Decisions

The audit report made 9 recommendations:

1.     Undertake a technical evaluation of the effectiveness of voter education and civic
       education efforts it has supported.

       The mission agreed and is working with implementing partners to develop a national survey that
       includes questions that focus on voter awareness and participation. These questions will gauge the
       effectiveness of USAID-supported voter and civic education. In addition to the survey instrument, the
       mission will conduct an election program evaluation in June and July 2011. This evaluation will
       examine the effectiveness of USAID's support to the election process and will include a review of the
       civic and voter education initiatives. The mission noted that it will be challenging to solicit
       meaningful data on the effectiveness of civic and voter education initiatives during a non-election
       period. These actions will be completed by October 31, 2011. This recommendation remains open.

2.     Prepare a more formal project design document for the follow-on program after the STEP
       program ends in June 2011 that explicitly identifies the critical assumptions underlying the
       program design.

       The mission plans to incorporate national perspectives into the design of its future elections support
       programs by engaging with the GIRoA and IEC counterparts. The mission also plans to invite
       independent technical elections specialists to conduct strategic reviews of the elections portfolio. These
       actions will be completed by September 30, 2011. This recommendation remains open.

3.     Develop detailed plans for addressing long-term legal reform, financial and constitutional
       arrangements for elections, and voter registration issues in conjunction with the
       Government of Afghanistan, other local stakeholders, and international donors.

       The mission has outlined a series of activities undertaken and others planned to address the legal
       reform, financial and constitutional arrangements for elections and voter registration. However, the
       mission did not provide a date to complete plans for addressing needed legal reforms, financial and
       constitutional arrangements for elections, and voter registration issues discussed in the finding because
       discussions on these issues are on-going. This recommendation remains open.

4.     Complete all required contractor performance reviews of IFES under the STEP contract.

       The mission agreed and the COTR and alternate COTR will complete the contractor performance
       reviews in collaboration with the Contracting Officer using the Contractor Performance Assessment
       Reporting system. The contractor performance reviews for the first two project years will be completed
       by August 31, 2011. Year 3 reviews will be conducted after the end of the period of performance on
       September 30, 2011. All actions will be completed by November 1, 2011. This recommendation
       remains open.

5.     Prepare an implementation plan for use of the $1.4 million rural radio supplemental
       funding consistent with the goals of the program, or reprogram these funds for other
       mission programs.


                                                    113
     The mission has directed IRI to prepare an implementation plan for using the funds, and IRI has
     submitted a concept paper that envisions using the funds—originally for pre-election voter education
     programs—for radio programs focusing on the performance of elected officials and discussion of
     political and social issues. This recommendation remains open.

6.   Determine the allowability of the $6,350,319 incurred by the International Republican
     Institute (IRI) for security expenses, and recover any costs determined to be unreasonable.

     The mission agreed and will conduct a review to determine the allowability of the questioned security
     costs. The mission will also request from IRI more detailed information on its security-related
     expenditures, specifying its efforts to contain and control costs when and where feasible. If costs are
     determined to be unallowable, the mission will issue a bill of collection to recover the unallowable
     costs. These actions will be completed by August 31, 2011. Until allowability of the costs is
     determined, a management decision has not been reached. This recommendation remains open.

7.   Establish procedures and criteria for determining the reasonableness of security costs
     charged by implementing partners.

     The mission asked the Office of Inspector General to reconsider its recommendation. The mission
     interpreted the recommendation as requiring a market price survey that could take 12 to 15 months,
     and it wondered whether this would be worthwhile in light of recent developments affecting private
     security firms in Afghanistan.

     The mission noted that, once the Afghan Public Protection Force assumes responsibility for the
     security of USAID’s partners, the partners will be expected to pay fixed prices for security services.
     Therefore, the mission considered that our recommendation was overtaken by events. This
     recommendation remains open.

8.   For the follow-on program, require members of the Consortium for Election and Political
     Process Strengthening to consolidate functions and facilities to the extent possible to
     reduce expenses.

     The mission partially concurred. The mission noted that a consolidation of functions and facilities of
     implementing partners' at the national level may prove less advisable. No management decision has
     been reached because the mission has not stated whether it will require the Consortium partners to
     consolidate functions and facilities at the national or sub-national level should the mission select the
     Consortium for any follow-on implementation. Therefore, no management decision has been reached.
     This recommendation remains open.

9.   Require IRI, as the lead partner in the Consortium, to submit a Consortium marking and
     branding plan, and verify that the plan has been implemented.

     The mission has received a Consortium branding and marking plan. The mission will review the plan
     and verify its implementation through field visits during the remainder of the activity. This action
     will be completed by July 31, 2011. Based on mission receipt of the Consortium branding and
     marking plan, a management decision has been reached. This recommendation remains open.




                                                  114
     Review of USAID/Afghanistan’s Portion of the Embassy Air
                   Program (F-306-11-004-S)
Date:                            June 9, 2011

Implementing Partner:            Aircraft Charter Solutions Inc.

Audit Period:                    January 26, 2011, to February 27, 2011 and February 1,
                                 2010, to January 31, 2011

Funding:                         As of March 29, 2011, USAID had obligated approximately
                                 $59 million and expended approximately $54 million.

Background—Summary of Findings

On January 4, 2010, USAID awarded                      for their flights but did not cancel 24 hours
Aircraft Charter Solutions Inc. a 2-year, $361         in advance as required. There was no penalty
million contract to supply air transportation          for these passengers, and with a cancellation
in Afghanistan. The contractor is providing            system in place, these seats could have been
aircraft, personnel, equipment, tools,                 offered to others. Additionally, unapproved
material, maintenance, spare parts, and                international travel by Aircraft Charter
supervision for transportation to and from             Solutions personnel led to more than
various locations in the country. The aircraft         $525,000 in questioned costs.
provided by the contractor includes seven 18-
passenger Beechcraft 1900s, three 8-passenger          Furthermore, Aircraft Charter Solutions did
Beechcraft Super King Air 200s, two Bell 412           not provide the mission with required work
helicopters, and four MI-8 helicopters.                plans, performance management plans, or
                                                       progress reports that would detail problems
OIG’s review found that the USAID-funded               encountered or resolved, best practices,
portion of the Embassy Air program is                  flights    or   activities completed,       or
providing safe and reliable air service in             performance standards. Without these
support of provincial reconstruction teams             reports, the mission was unable to effectively
and other U.S. Government development                  monitor the program.
assistance programs in Afghanistan; however,
the review identified many opportunities for           OIG also noted that USAID markings were
improvement. For instance, between                     missing from all of the aircraft and that
February 2010 and January 2011, 20 percent             environmental requirements for the contract
of passengers (almost 10,000 people) with              were ambiguous and needed to be updated.
reservations on Embassy Air did not appear


Recommendations—Management Decisions

The audit report made 8 recommendations:

1.      Implement a nominal charge for no-show passengers.




                                                 115
     The mission did not agree with recommendation 1 for two reasons: 1) the mission estimated that up
     to 50 percent of no-shows were due to security restrictions and were largely beyond the control of
     individual travelers. 2) The mission believed that imposing nominal charges on no-show passengers
     would not be feasible, although the mission did not identify any specific feasibility issues.

     The mission also disagreed with our estimate of funds that could be put to better use by reducing the
     number of no-show passengers. The mission noted that there may be no significant difference in cost
     between flying a plane that is fully loaded with passengers and one with a number of empty seats.

     In response to the mission’s first point, the Office of Inspector General/Afghanistan undertook an
     analysis of the reasons for no-shows and determined that only 6 percent of no-shows were due to
     security restrictions, while 94 percent of no-shows were unrelated to security. In response to the second
     point, without further details, we do not see any insurmountable obstacles to charging no-show
     passengers some nominal amount to encourage them to honor their reservations or cancel them as
     required. Federal travelers on commercial flights are of course already liable for any penalties or other
     costs that result if they negligently fail to appear for a scheduled flight; we see no reason why this
     should not be the case for Embassy Air flights as well. We also note that USAID already has
     collections systems in place to charge employees, contractors, and grantees for personal telephone
     charges, inadvertent overpayments, and other reasons. A management decision can be reached when
     the mission and OIG agree on a firm plan of action, with time frames, for implementing the
     recommendation. This recommendation remains open.

2.   Clarify the contract’s environmental requirements and obtain evidence that the contractor
     is complying with them.

     The mission agreed with the recommendation. The contracting officer, in collaboration with the
     mission’s environmental officer, will review the contract’s environmental provisions to determine how
     they should be revised. In addition, the mission will ensure compliance with these provisions through
     enhanced monitoring and evaluation of the contractor’s compliance with any environmental
     requirements set forth in the revised contract provisions or modification. The mission anticipates
     completion of these actions by August 31, 2011. This recommendation remains open.

3.   Determine the allowability of and recover, as appropriate, unsupported questioned costs of
     $525,467 representing international travel (including premium-class travel of $31,902) by
     contractor officials that was not approved by USAID as required.

     The mission is reviewing the circumstances surrounding the international travel to determine the
     allowability of the unsupported questioned costs of $525,467 representing international travel
     (including premium-class travel of $31,902). The contracting officer has made an initial
     determination that $16,302 of the $31,902 spent for premium-class travel is unallowable and will
     be recovered.

     Allowability of the questioned costs of $525,467 for unapproved international travel will be
     determined by the contracting officer. If the amount is determined to be unallowable, a bill of
     collection will be issued to the contractor, and recovery will be made through a deduction in the next
     invoice or another appropriate method. The contractor has been told to submit written requests for
     international travel to the COTR. The mission anticipated completion by June 15, 2011.




                                                  116
     A management decision can be recorded when the allowability of the $525,467 in questioned costs is
     determined by the contracting officer. This recommendation remains open.

4.   Verify that Aircraft Charter Solutions Inc. has implemented a branding and marking plan.

     The mission agreed and instructed the contractor to submit a branding and marking plan for approval
     on May 9, 2011. In addition, USAID/Afghanistan provided the contractor with appropriate
     branding and marking materials to initiate compliance with the requirements. Aircraft Charter
     Solutions Inc. installed tags on various sections of the aircrafts and on furniture and equipment inside
     the terminal buildings. This recommendation remains open.

5.   Verify that Aircraft Charter Solutions Inc. has provided clear instructions and signs in its
     terminal for passenger convenience and security.

     The mission agreed and required the contractor to provide clear instructions and make maps more
     easily available to customers to ensure passenger convenience and security. Appropriate signage was
     placed in the terminal building; the instructions and maps have been made available to all authorized
     persons through the Web-based booking system. This recommendation is closed.

6.   Instruct the contractor to provide transportation for passengers from passenger staging
     areas to the aircraft.

     The mission believed that vehicle traffic would bring foreign objects and debris onto the aircraft ramp,
     posing a hazard to the aircraft. In addition, the space available for vehicles at the Embassy Air
     terminal is very limited and the additional vehicles would compound the space situation.
     Management determined that transportation of passengers from the passenger staging area to the
     aircraft was not necessary and modified the contract in March 2011 to state: “The contractor will
     provide vehicles capable of transporting passengers as necessary.” This recommendation is closed.

7.   Obtain required reports from Aircraft Charter Solutions Inc.

     The mission concurred and reminded the contractor of its contractual obligations to submit all reports
     specified in the contract according to the timelines set forth therein. Reports have been submitted by
     the contractor and accepted by USAID. These reports include an annual program review for the first
     year of the contract, annual work plan for the second year of the contract, and monthly progress
     reports. This recommendation is closed.

8.   Clarify its performance standards to Aircraft Charter Solutions Inc. so that realistic
     expectations and proper reporting and accountability can be obtained.

     The mission did not agree with the recommendation. The mission and the contractor both understood
     the performance standard “93% of missions completed as scheduled” to mean that the contractor was
     obligated to maintain a 93 percent on-time mission capability rate, excluding factors outside the
     contractor’s control such as weather, security, and 15 other extenuating circumstances. However, this
     understanding is contradicted by the wording of the performance standard itself.

     The mission did require the contractor to develop and submit a performance management plan for
     approval. The mission planned to monitor compliance with the performance standards and indicators.
     Thus this recommendation remains open.


                                                  117
        Audit of USAID/Afghanistan’s Construction of Health and
             Education Facilities Program (F-306-11-002-P)

Date:                             March 27, 2011

Implementing Partner:             International Organization for Migration

Audit Period:                     September 14, 2010, to November 8, 2010

Funding:                          As of September 30, 2010, USAID had obligated
                                  approximately $57 million and expended approximately $10
                                  million.

Background—Summary of Findings

To help respond to unmet health and                     Achieving the original goals of the agreement
education       needs    in     Afghanistan,            was hindered by funding limitations. Federal
USAID/Afghanistan entered into a $57                    requirements also were violated when the
million cooperative agreement with the                  mission approved the building of religious
International Organization for Migration                structures. IOM’s technical proposal clearly
(IOM) in January 2008, effective through                indicated that these religious structures
January      2011,    to   implement     the            would be incorporated into the designs of the
Construction of Health and Education                    provincial teacher training colleges, but
Facilities (CHEF) Program. The agreement                USAID staff failed to recognize these
was subsequently extended through June                  structures as being ineligible for USAID
2012.                                                   funding.

The objective of the audit was to determine             The mission has not yet provided the
whether USAID/Afghanistan’s program was                 completed designs for two hospitals and four
achieving its main goals of strengthening the           provincial teacher training centers to the
Government of Afghanistan’s ability to                  Ministries of Education and Public Health.
provide health services to its citizens and             The completed designs are site specific and
train competent teachers by constructing                include drawings, specifications, design
provincial hospitals, midwife training centers,         analysis, design calculations, and bills of
and provincial teacher training colleges.               quantities    with    adherence     to   the
While the mission has realized some                     international building codes and compliance
successes—for example, in strengthening the             with seismic requirements.
capacity of local construction companies and
adhering to the international building code—            The audit disclosed several instances of
the program was not on schedule to achieve              noncompliance with IOM’s quality control
its main goals. Construction fell significantly         manual, which is incorporated into the
behind schedule. The program was                        cooperative agreement and approved by the
approximately 18 months behind schedule                 mission. The manual required specific tests
and was making slow progress toward                     of construction materials to be performed at
achieving its goals. Cost and security issues           specified intervals, but we noted instances
reduced the scope of new construction.


                                                  118
where there was no evidence that required                 Additionally, sustainability of facilities is
tests were performed.                                     questionable. The ability of the Ministries of
                                                          Education and Public Health to maintain the
For example, of 49 required seven-day                     completed structures is questionable because
concrete compression strength tests reviewed,             of competing priorities for ministry funds,
IOM could only provide evidence that 35                   which could further hinder achievement of
tests were performed.                                     the program’s main goals.


Recommendations—Management Decisions

The audit report made 15 recommendations:

1.      That USAID/Afghanistan obtain a revised implementation plan from IOM identifying
        revised completion dates for all structures, recovery actions to increase the speed of
        construction, potential barriers to timely completion of construction, and actions that
        could be taken to mitigate delays.

        The mission agrees with the recommendation and has directed International Organization for
        Migration (IOM) to prepare a revised implementation plan indicating completion dates for all
        structures and the recovery actions required to mitigate delays. IOM's implementation plan is revised
        and approved by the Mission annually. The most recent implementation plan revision has been
        received by the Mission and is currently in review. This action was scheduled for completion by May
        30, 2011. This recommendation is closed.

2.      That USAID/Afghanistan extend the agreement with IOM to ensure that the warranty
        period for all completed structures falls within the agreement period.

        The mission stated that it will extend the CHEF cooperative agreement from June 30, 2012, to June
        30, 2013, through the end of the last project warranty period of IOM for the completed structures.
        The action was scheduled for completion by May 30, 2011. This recommendation is closed.

3.      Review the eligibility of the cost of the prayer buildings and prayer rooms included in the
        provincial teacher training centers and recover any costs found to be unallowable.

        The mission has required IOM to redesign the women’s prayer room into two rooms including a
        visiting room and living room which is similar to the layout at the men’s dormitory. The mission has
        also halted construction on the mosque structures and advised that it plans to document the recovery
        of USAID funds disbursed to date for this structure. Action is scheduled for completion by September
        30, 2011. A management decision was reached and the recommendation remains open.

4.      Review the eligibility of the cost of the prayer buildings and prayer rooms included in the
        provincial teacher training centers and recover any costs found to be unallowable.

        The mission planned to issue a notice to all Contracting Officer’s Technical Representative
        (COTRs)/Agreement Officer’s Technical Representatives (AOTRs) regarding USAID’s policy on
        funding religious activities by May 30, 2011. This recommendation is now closed.




                                                   119
5.    Develop a process for releasing completed designs.

      In consultation with Regional Legal Advisor, the mission has developed Transfer Agreements for the
      release of completed CHEF designs to the relevant ministries and other; donors. The Transfer
      Agreements release USAID of all liability for construction of CHEF designs by others. This action
      was completed on March 09, 2011. This recommendation has been closed.

6.    Obtain evidence that IOM has standardized its quality control procedures at all
      construction sites.

      The mission agreed with the recommendation. IOM has demonstrated the use of standardized
      quality control procedures through continuous revisions that have been made to their Quality Control
      Manual (QCM) which is in its seventh revision. IOM’s Quality Control and Safety Manager makes
      regular visits to all construction sites to ensure compliance with the QCM revisions. The mission
      believes that appropriate actions have been taken to address this recommendation. A management
      decision was reached and the recommendation has been closed.

7.    Obtain evidence that IOM has updated its quality control manual to include all tests
      performed and acceptance criteria used for quality control.

      As stated above, IOM has revised its QCM to include all additional testing that is performed along
      with the acceptance criteria. This action was completed on November 22, 2010. The
      recommendation has been closed.

8.    Develop and implement a process whereby the agreement officer’s technical representatives
      verify and review quality control tests.

      The mission agreed with the recommendation that the AOTRs verify and review quality control tests.
      USAID/Afghanistan’s mission order dated July 7, 2010, mandates that USAID construction
      projects for schools and hospitals be continuously monitored by an independent Quality
      Assurance/Quality Control (QA/QC) firm reporting directly to the AOTR. The AOTR is
      responsible for review of QA/QC Reports and for follow up with IOM to resolve deficiencies. This
      action was completed in late November 2010 when IRD incorporated all quality control testing, test
      results, and identify deficiencies into the weekly QA/QC reports. This recommendation has been
      closed.

9.    After preparing an analysis of the Government of Afghanistan’s ability to fund
      maintenance for the structures turned over under the program, USAID/Afghanistan (1)
      make a determination of the need for a separate operation and maintenance program and
      (2) revise as appropriate the certification previously prepared for the Construction of
      Health and Education Facilities Program.

      The mission will obtain the Annual Operations and Maintenance Budgets for all CHEF projects
      from IOM, submit them to the relevant ministries, and verify that the ministries have adequate
      funding to operate and maintain the facilities. The mission stated that it will then revise the
      certification if necessary. This action is scheduled for completion by September 30, 2011. A
      management decision was reached and the recommendation remains open.

10.   Complete the necessary environmental assessments according to federal regulations.


                                                 120
      The mission agrees to complete environmental assessments for the CHEF projects that are currently
      under construction by September 30, 2011, in order to determine if existing environmental mitigation
      plans are sufficient. A management decision was reached and the recommendation remains open.

11.   Provide adequate supervision to reasonably ensure compliance with USAID’s
      environmental procedures.

      The mission agrees with the recommendation to provide adequate supervision to reasonably ensure
      compliance with USAID’s environmental procedures. On November 1, 2010, the mission added a
      second Mission Environmental Officer position to assist with supervision of USAID’s environmental
      procedures. A management decision was reached and the recommendation has been closed.

12.   Direct IOM to submit a formal marking plan as required by the agreement.

      IOM submitted a formal marking plan to the mission for approval on December 12, 2010. A
      management decision was reached and the recommendation has been closed.


13.   That USAID/Afghanistan determine the adequacy of IOM’s marketing plan.

      The mission is currently reviewing the marking plan and intends to issue a final determination of the
      acceptability of the plan by May 30, 2011. This recommendation is closed.

14.   Identify and recover the unallowable costs billed to the mission for the use of off-duty
      Afghan National Police officers.

      The mission stated that based on legal review of the situation that the security guard costs are
      allowable. The Acquisition Officer's (AO) decision of Oct 21, 2010 was a prudent response to new
      and misunderstood development in Afghan law. However, since the AO's Oct 21 decision, the
      mission's understanding of these matters has evolved. Decree 62, issued by President Hamid Karzai
      on Aug 17, 2010, banned Private Security Contractors (PSCs) and stated that henceforth the Afghan
      Ministry of the Interior would provide security services. The Regional Legal Advisor has concluded
      that IOMs Ghazni province arrangement was legal under Afghan law because while Decree 62
      prohibited the use of PSCs, the Afghan law on Firearms, Ammunition and Explosives nonetheless
      continues to permit an organization to use individuals licensed by the IOM to carry firearms to
      provide their security. Other arrangement in Faryab, while arguably unallowable, is within the AO's
      discretion to retroactively approve the agreement making the costs allowable. Since the arrangement in
      Faryab was in fact legal, the AO approved this arrangement as well. The AO will issue a revised
      ruling to IOM by May 30, 2011. This recommendation is closed.

15.   After identifying all clinics built under a previous USAID construction program that may
      have a design flaw that creates a fire hazard, we recommend that USAID/Afghanistan
      notify the Ministry of Public Health and provide a remedy for the design flaw.

      The mission agrees to officially notify the Ministry of Public Health about the potential hazard of the
      stove chimneys and provide a recommendation for proper installation by May 30, 2011. This
      recommendation is closed.



                                                  121
     Review of USAID/Afghanistan’s Bank Supervision Assistance
                Activities and the Kabul Bank Crisis
                          (F-306-11-003-S)

Date:                            March 16, 2011

Implementing Partner:            Deloitte, BearingPoint

Audit Period:                    September 2005, to January 2011

Funding:                         As of January 31, 2011, USAID had obligated approximately
                                 $47 million for the Economic Growth
                                 and Governance Initiative and expended approximately
                                 $112 million.

Background—Summary of Findings

Since 2003, USAID/Afghanistan has                      about Deloitte’s performance. Specifically,
supported a number of capacity-building                they were concerned that Deloitte staff did
activities at the Afghanistan Central Bank             not warn the U.S. Government about
(DAB) to help DAB regulate the banking                 looming problems at Kabul Bank before the
sector. Currently, Deloitte provided DAB               first news reports broke in February 2010.
technical assistance in bank supervision and           They also questioned Deloitte’s effectiveness
examination through a $92 million task                 and performance because Deloitte staff had
order for the Economic Growth and                      provided bank supervision assistance to DAB
Governance Initiative, which includes many             for 7 years, yet DAB supervisors were unable
activities in addition to bank supervision and         to prevent the near collapse of Afghanistan's
examination. The purpose of the task order             largest    bank.     In    January      2011,
was to increase Afghanistan's ability to               USAID/Afghanistan requested the assistance
develop and implement sound economic and               of the Office of Inspector General (OIG) in
regulatory policies that provide the                   determining whether USAID or Deloitte
foundation for private sector growth in a              staff members were negligent in failing to
market economy. According to Deloitte's                report the Kabul Bank fraud.
work plan, one of the main goals of the
assistance Deloitte provided to DAB was to             In response to USAID/Afghanistan’s
assist DAB in fulfilling its statutory                 request, OIG/Afghanistan conducted this
responsibilities―to promote the stability and          review to determine what opportunities
contribution to economic growth of the                 USAID and contractor staff had to learn of
financial sector and to prevent avoidable              fraudulent activities at Kabul Bank through
losses. Deloitte provided onsite technical             USAID’s Economic Growth and Governance
advisors at DAB’s Directorate for Financial            Initiative and its predecessor, the Economic
Supervision.                                           Growth and Private Sector Strengthening
                                                       Activity. The review also sought to determine
After depositors’ run on Kabul Bank, senior            how staff learned of the fraud and what
officials in the U.S. Embassy raised concerns


                                                 122
actions staff members took once they became              technical experts had been on staff at the
aware of the fraud.                                      mission, USAID would have had greater
                                                         capacity to detect deficiencies in Deloitte's
Audit findings included: BearingPoint and                technical assistance activities, to question
Deloitte advisers who were embedded at                   Deloitte advisers' written and oral reports,
DAB encountered fraud indications at Kabul               and to delve more deeply into those reports,
Bank on a number of occasions over a span                rather than accepting them at face value.
of 2 years before the run on Kabul Bank in
early September 2010. However, they did not              In hindsight, Deloitte’s lead adviser
aggressively follow up on indications of                 acknowledged that Deloitte should have
serious problems at Kabul Bank. Also,                    taken more aggressive actions in November
Deloitte advisers did not report fraud                   2009, such as resuming participation by
indicators at Kabul Bank to USAID, and the               Deloitte’s    advisers    in   onsite    bank
mission did not have a policy requiring                  examinations alongside the DAB examiners.
contractors and grantees to report indications           This practice was suspended in November
of fraud in host government institutions or              2008 because an adviser received death
possible problems that could reasonably be               threats.    The lead adviser said that if
considered to be of foreign policy interest to           Deloitte’s onsite assistance had restarted in
USAID and the U.S. Government. It was                    November 2009, the fraud could have been
also determined that USAID/Afghanistan’s                 detected earlier, and the magnitude of losses
management of its task order with Deloitte               would have been smaller.
was weak. If senior program managers and

Recommendations—Management Decisions

The audit report made four recommendations:

1.      Develop and implement an action plan to address the performance issues with the bank
        supervision and examination assistance provided to the Afghanistan Central Bank by
        Deloitte.

        In the plan, for any ongoing or future activities with the Central Bank, USAID/Afghanistan will
        strengthen and increase oversight of the contractor working with the Central Bank. Additionally,
        USAID/Afghanistan will ensure that USAID contractors working with the Central Bank will (1)
        adopt a proactive stance in identifying and reporting to USAID fraud, waste, or abuse encountered in
        the Central Bank, (2) educate its personnel and embedded consultants on the unique operating
        culture and challenges of the Afghan financial sector, (3) engage the Afghan banking system to
        creatively address problems in light of such unique challenges and culture, and (4) work with the
        Central Bank to develop policies on business ethics and train bank staff accordingly on implementing
        such policies. A management decision has been reached and this recommendation remains open.

2.      Arrange for more robust assistance to the Afghanistan Central Bank in bank supervision
        and examination, including on-site examination assistance and fraud detection training.

        Any continued USAID assistance to DAB bank supervision will be re-designed to focus on addressing
        the concerns below. These will be built in to a more robust program of advice and training in bank
        supervision policy, management and bank examination training. Key concerns to be addressed
        include: 1) a commitment by DAB to implement policies to strengthen ethics and combat fraud,
        waste and abuse, within the Central Bank and commercial banks; 2) the commitment of Government


                                                   123
     of the Islamic Republic of Afghanistan (GIRoA) to allow the DAB to operate independently, with
     proper bank supervisory powers, with full government funding and administrative support, and with
     minimal political interference; 3) the ability of DAB to recruit and retain sufficiently skilled staff to
     conduct its mission; 4) the willingness of DAB and GIRoA to support and execute an action plan
     whereby all commercial banks will be re-licensed and will be required to operate according to best
     practices; and, most importantly, 5) the support of GIRoA and its Presidential Administration for
     major reforms aimed at strengthening bank supervision in Afghanistan, such as passage of a Banking
     Law that will support a strong oversight role for DAB and a robust enforcement framework for
     addressing negligence, shareholder abuse, and criminality in the commercial banking system, and 6)
     GIRoA must support the DAB in its decision to put Kabul Bank into receivership, as required by
     both the International Monetary Fund (IMF) and the U.S. Government. A management decision
     has been reached and this recommendation remains open.

3.   Implement a written policy clarifying the responsibilities of USAID contractors and
     grantees to report on indications of fraud in host-country institutions or other matters that
     could reasonably be expected to be of foreign policy interest to the U.S. Government.

     USAID/Afghanistan accepts the recommendation to work on providing a written policy clarifying the
     responsibilities of USAID contractors and grantees to report on indications of fraud in host-country
     institutions as well as on other matters that could reasonably expected to be of foreign policy interest
     to the U.S. Government as it applies to Afghanistan. This effort is being led by the Regional Legal
     Advisor (RLA) and other concerned offices in USAID. Reporting responsibilities may vary depending
     on the nature of the project and the type of implementing partners involved. A management decision
     has been reached and this recommendation remains open.

4.   Correct the deficiencies in its management of its bank supervision and assistance activities.

      USAID/Kabul has been very sensitive to having the proper in-house expertise to manage highly
      technical activities, and is fully committed to making the extra effort needed to obtain such expertise.
      USAID/Afghanistan has already brought on board, as Director of the Office of Economic Growth,
      a senior financial sector expert to guide USAID's work in the financial sector. Another financial
      sector expert will be on board in March 2011, to serve as Chief of the Economic Policy &
      Governance Division. A third senior financial sector expert is being recruited to provide direct
      technical advice to GIRoA and DAB, as well as to manage a newly reformulated bank supervisory
      assistance activity on a day-to-day basis. A management decision has been reached and this
      recommendation remains open




                                                  124
    Review of Cash Disbursement Practices Employed by Selected
           USAID/Afghanistan Contractors and Grantees
                          (F-306-11-002-S)

Date:                           March 7, 2011

Implementing Partners: N/A

Audit Period:                   November 14, 2010, to December 15, 2010

Funding:                        About $1.43 billion in awards to contractors and
                                grantees in fiscal year 2010

Background—Summary of Findings

In late 2001, following decades of conflict,          OIG conducted this review to determine
the financial and banking systems of                  whether the cash disbursement practices of
Afghanistan were devastated. Afghanistan              the implementing partners ensured that
had six licensed, state-owned commercial              disbursements are reasonable, allocable, and
banks that were almost entirely based in              allowable under the agreements.
Kabul and, to a large extent, inactive.
Besides lacking connectivity and reliable             This review determined that cash
information on assets and liabilities, the            expenditures were reasonable, allocable, and
banks did not follow generally accepted               allowable.    However, no controls can
accounting standards. Vital functions of the          completely eliminate the risk of fraud, loss,
central bank were not defined or carried out,         and personal harm to staff associated with
and Afghanistan lacked a credible, formal             handling and transporting cash in a war
payment system. The lack of confidence in             zone.
the banking system and uncertainties and
difficulties faced by the population and the          Using an OIG risk assessment of
business sector led them to rely almost               USAID/Afghanistan’s U.S. contractors and
exclusively on the hawala money transfer              grantees, we evaluated internal controls over
system, an informal network of cash brokers           cash disbursements, performed a walk-
who operate based on trust and reputation.            through of the cash voucher payment
                                                      process, reviewed a judgmental sample of
The 10 selected U.S. contractors and                  cash vouchers and supporting documents,
grantees represented about 42 percent of              identified areas for improvement, and noted
USAID/Afghanistan’s total active awards               best practices employed.
($3.4 billion) and included six of the
mission’s program areas: infrastructure,              According to information provided to us by
democracy and governance, education,                  the selected implementing partners, they
health, economic growth, and stabilization in         made $13.5 million in cash payments in
support of the U.S. Government’s                      2010, representing 7 percent of the $181.1
counterinsurgency strategy.                           million in total costs they incurred in
                                                      Afghanistan. For individual implementing
                                                      partners, cash payments as a percentage of


                                                125
total costs incurred in Afghanistan ranged                After the review, five of the 10 selected
from 2 percent to 69 percent. Partners’ total             implementing partners took steps to
combined cash on hand was $270,000 at the                 significantly reduce their cash exposure risk
time of the review. The types of costs paid in            by proactively seeking ways to make payments
cash included office supplies, local travel,              through electronic funds transfer, check, or
prepaid phone cards, utilities, and                       hawala transfers. The selected implementing
maintenance. The implementing partners                    partners also implemented a number of best
that had a higher percentage of costs paid in             practices for managing cash disbursements
cash also used cash for programmatic                      that         other       USAID/Afghanistan
activities such as small grants, cash-for-work            implementing partners should consider
programs, and microfinance loans.                         adopting.


Recommendation—Management Decision

The audit report made one recommendation:

1.      Disseminate some best practice precautions to its implementing partners to minimize cash
        transactions to the extent possible.

        The mission agreed with the recommendation and the Office of Acquisition and Assistance issued a
        letter in February to all its implementing partners to make them aware of the best practices described
        in the report. In it, USAID strongly recommended that partner organizations review the best
        practices observed by the OIG and implement applicable procedures to ensure that USAID-funded
        cash resources are adequately safeguarded. This recommendation is closed.




                                                    126
          Audit of USAID/Afghanistan’s Agriculture, Water, and
            Technology Transfer Program (F-306-11-001-P)

Date:                             February 13, 2011

Implementing Partner:             New Mexico State University

Audit Period:                     March 3, 2008, to October 25, 2010

Funding:                          As of September 30, 2010, USAID had obligated
                                  approximately $16 million and expended
                                  approximately $9 million.

Background—Summary of Findings

According to USAID/Afghanistan, nearly 80               clearest example—but adoption        of   the
percent of Afghans earn their living from               technologies lies in the future.
agriculture. USAID/Afghanistan’s active
agriculture and alternative livelihoods                 Financial records for the program showed
programs, with reported obligations of $701             that about 61 percent of spending was in
million and disbursements of $494 million as            Afghanistan, while the other 39 percent was
of September 30, 2010, are intended to                  in the United States. Officials connected
create jobs and increase incomes in the                 with the program raised concerns that the
agricultural sector and increase Afghans’               high proportion of expenditures in the
confidence in their government, particularly            United States left fewer resources available
in the Ministry of Agriculture, Irrigation and          for activities in Afghanistan and raised other
Livestock (MAIL). One such program, the                 questions about the financial management of
Afghanistan Agriculture, Water, and                     the program. To address these issues, the
Technology       Transfer     Program,       is         OIG contracted with an audit firm to
implemented through a $20 million                       conduct financial audits of NMSU and its
cooperative agreement with New Mexico                   partner universities in the United States and
State University (NMSU).                                issued a separate report with audit results.

The objective of this audit was to determine            The March 2008 cooperative agreement with
whether the program was achieving its main              NMSU also established the following as a
goals, which dealt with irrigation water                program objective: “To develop an
management,        agricultural     technology          institutional framework for effective supply
transfer, and institution building. Two-and-a-          and demand management of the country’s
half years into the 3-year program, NMSU                limited water resources—from local watershed
had achieved a number of successes in                   management to trans-boundary basins.” The
introducing new agricultural and water                  revised program description, dated July 2010,
technologies, and many farmers were                     reduced the scope of the work that NMSU
participating in on-farm demonstrations of              was to undertake in water resource
these technologies. Auditors found some                 governance.
evidence of demand for these new                        NMSU demonstrated a number of water-
technologies—laser land leveling being the              conserving technologies and successfully
                                                        stimulated demand for some of them.



                                                  127
However, farmers have not adopted these                      noted that the water-conserving technologies
technologies for wider use, and NMSU                         they introduced could make more water
placed relatively little emphasis on improving               available for farmers at the tail of irrigation
distribution of irrigation water resources.                  canals. For this to occur, however, the
                                                             technologies must be widely adopted, and
NMSU’s efforts have not yet resulted in a                    evidence of adoption of these technologies
more equitable, community-based system for                   was lacking.
managing irrigation water. NMSU officials

Recommendations—Management Decisions

The audit report made six recommendations:

1.      Instruct NMSU to conduct appropriate follow-up activities to determine the effectiveness
        of its technical assistance and training activities with MAIL.

        On January 10, 2011, the mission instructed NMSU to conduct follow-up activities to determine the
        effectiveness of the technical assistance and training it provided to MAIL and instructed NMSU to
        include the progress of these activities in all future quarterly reports for the program. Final action is
        expected by April 30, 2011, pending review of the March 2011 quarterly report. This
        recommendation is open.

2.      Periodically verify the results reported by New Mexico State University for the Agriculture,
        Water, and Technology Transfer Program.

        The mission stated that the Office of Agriculture is in regular contact with USAID field program
        officers, who are the “eyes and ears” of the office and report regularly on program activities and
        accomplishments. The Office of Agriculture confirmed that it periodically sends Kabul staff members
        to verify reported results and that these visits are documented in trip reports. In addition, the Office of
        Agriculture officials stated they would ensure that site visits occur at least twice a year, taking into
        consideration security issues. Final action is expected to be completed by March 31, 2011 upon
        performance of the next site visit. This recommendation is closed.

3.      Provide New Mexico State University with written definitions of the performance
        indicators and discuss them with staff members periodically to ensure that the definitions
        are understood.

        The mission provided written definitions of the performance indicators to Office of Agriculture staff
        on November 9, 2010. The mission also delivered a PowerPoint presentation on the performance
        management plan and provided performance measure reference sheets with written measure
        definitions to Office of Agriculture staff members to ensure that they understood the definitions. A
        management decision was reached and that the recommendation is closed.

4.      Require New Mexico State University to document challenges and implementation
        shortfalls in its quarterly reports.

        The mission instructed NMSU to document the challenges and implementation shortfalls in its
        quarterly reports. In addition, the mission returned the latest draft of the annual report for October


                                                      128
     1, 2009, to September 30, 2010, to NMSU with specific instructions to include its challenges and
     implementation shortfalls. The mission will verify that all future quarterly reports reflect the
     program’s challenges and implementation shortfalls. The recommendation is closed.

5.   Determine the acceptability of the branding and marking plan submitted by New Mexico
     State University, and after approving some version of the plan, verify its implementation.

     The mission’s Development, Outreach, and Communications Office approved the NMSU branding
     and marking plan on January 4, 2011. The implementation of the branding and marking plan will
     be verified through field visits during the remainder of the program. Final action was pending on
     performance the March 2011 field visit. This recommendation is closed.

6.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission determined and the OIG/Afghanistan agreed that a management decision had been
     reached upon issuance of the audit report. Reference (c) indicates that USAID/Afghanistan
     submitted an Initial Environmental Examination (IEE) which was approved by the Bureau
     Environmental Officer on February 8, 2011. Based on the approved lEE, the lEE determined that
     Environmental Assessment is not required for AWATT activity. This recommendation is closed.




                                               129
     Review of USAID/Afghanistan’s Ministerial Assessment Process
                          (F-306-11-001-S)

Date:                             November 6, 2010

Implementing Partner:             Various GIRoA ministries

Audit Period:                     August 31, 2010, to September 16, 2010

Funding:                          As of August 31, 2010, USAID had distributed
                                  approximately $19.8 million and expects to deliver
                                  at least $509.4 million to GIRoA ministries.

Background—Summary of Findings

The U.S. Government expects to deliver 50                assets, and providing more detailed guidance
percent of its development aid to                        to reviewers on how to assess compliance
Afghanistan through the Government of the                with applicable laws and regulations.
Islamic Republic of Afghanistan (GIRoA)’s
core budget by the end of calendar year 2011.            The review found significant vulnerabilities
With this expectation, USAID/Afghanistan                 that could result in waste or misuse of U.S.
is conducting a series of pre-award                      Government resources. Clearer direction
assessments of GIRoA ministries to see                   and closer supervision would have helped
whether the ministries can responsibly                   ensure more thorough reviews.           The
manage U.S. Government resources.                        assessments performed to date did not
                                                         provide reasonable assurance of detecting
Our review focused on assessments already                significant vulnerabilities.
performed by USAID/Afghanistan as well as
on draft scopes of work for future                       The scope of the assessments varied from one
assessments.      Most of the assessments                ministry to another, but some of the
completed to date were based mainly on                   significant limitations on the assessments
reviews of written procedures, inquiries of              included the fact that, for three of the six
ministry officials, and inspections of a limited         assessed ministries, reviewers did not know
number of transactions.                                  what programs the ministries would be asked
                                                         to manage. The reviewers were asked to
This review was performed to determine                   assess the ministries’ management capacity,
whether USAID’s ministerial assessment                   but they had no answer to the question
process provides reasonable assurance of                 “capacity to manage what?” In our opinion,
identifying significant vulnerabilities that             it is difficult—perhaps impossible—to assess a
could result in waste or misuse of U.S.                  ministry’s ability to responsibly manage
Government resources. The draft scopes of                USAID programs without understanding the
work for future assessments can be                       types of USAID programs the ministry will
strengthened by telling reviewers what                   manage and their approximate magnitudes.
program ministries may be asked to manage,
assessing the control, expanding coverage of             Additionally, none of       the assessments
controls over human resources and fixed                  explicitly   considered       the    control


                                                   130
environment in Afghanistan or in individual                 A range of specific actions can be taken by
ministries.    The environment in which                     USAID/Afghanistan          so    that   future
ministries are embedded—as well as the                      assessments will provide greater assurance
environment within individual ministries—                   that ministries will be able to manage USAID
can significantly influence the effectiveness of            funds responsibly.
control procedures.

Recommendations—Management Decisions

The audit report made three recommendations:

1.      Develop and implement suitable policies, procedures, and practices so that ministerial
        assessments will provide reasonable assurance of identifying significant vulnerabilities that
        could result in waste or misuse of U.S. government funds.

        The mission indicated that it had prepared a new statement of work for ministerial assessments
        which, along with other tools that the mission is using for these assessments, incorporated all of the
        specific suggestions in our report. The mission has also provided training to responsible staff and has
        established a procedure that requires the Deputy Director of OFM or his/her designee to approve
        sampling and testing plans. We agree with these actions and, accordingly, a management decision
        has been made for Recommendation 1. This recommendation is closed.

2.      Make appropriate modifications to the scopes of work for future ministerial assessments as
        outlined in this report.

        The mission has developed a new statement of work and has made available additional tools for
        conducting ministerial assessments that incorporate the specific suggestions in our report. We agree
        with the mission's actions and, therefore, a management decision has been made for Recommendation
        No. 2. This recommendation is closed.

3.      Rely on joint donor assessments of host government ministries to the degree that they meet
        USAID’s needs.

        The mission instructed NMSU to conduct follow-up activities to determine the effectiveness of the
        technical assistance and training it provided to MAIL and instructed NMSU to include the progress
        of these activities in all future quarterly reports for the program. Final action is expected by April 30,
        2011, pending review of the March 2011 quarterly report. This recommendation is closed.




                                                     131
  Audit of USAID/Afghanistan’s Support to the American University
                  of Afghanistan (5-306-11-002-P)

Date:                            November 5, 2010

Implementing Partner:            The American University of Afghanistan

Audit Period:                    May 5, 2010, to June 1, 2010

Funding:                         As of April 30, 2010, USAID/Afghanistan had obligated
                                 approximately $13 million and expended approximately $11
                                 million.


Background—Summary of Findings

The American University of Afghanistan                 undergraduate curriculum or enhancing the
(AUAf) was officially chartered under the              university’s ability to become self-sustaining.
Afghan Constitution and Civil Code in July             AUAf is behind schedule in reforming its
2004 as a private institution of higher                undergraduate program.           While the
education. The university’s mission is to              university has developed additional courses
provide a high-quality education that meets            and a bachelor’s degree with concentrations
international standards and emphasizes a               in business, information technology, and
liberal arts curriculum and higher education           social sciences, it has not developed the
for the professions.      To assist in the             curricula for three individual bachelor’s
development of AUAf, USAID/Afghanistan                 degrees, as required under the agreement
entered into a $42 million cooperative
agreement with the university in August                The audit found other problems as well. The
2008.                                                  university was not in compliance with
                                                       agreement terms—as it had not submitted its
The objective of the audit was to determine            required Year 2 budget, Year 2 work plan,
whether USAID/Afghanistan’s support to                 and performance management plan—and as a
the American University of Afghanistan was             result, the mission was withholding
achieving its main goals of increasing student         incremental funding.
enrollment;      improving      the   school’s
infrastructure; increasing the number of               Additionally, the university’s Professional
qualified staff; reforming the undergraduate           Development Institute will not meet its
curriculum; and enhancing the university’s             financial contribution goal. The university
ability to become self-sustaining.                     may not meet its goal of increasing
                                                       enrollment of women to 30 percent. The
The audit found that the university       has          undergraduate preparatory program was not
already achieved its goal of increasing   the          preparing students adequately to become
number of qualified staff, thus meeting   the          undergraduates.
end-of-program target. However, AUAf      has
not made progress in reforming            the


                                                 132
University contracting was deficient and did             the U.S. taxpayer. Finally, environmental
not consistently document its competitive                procedures were not followed in construction
bidding process. Items funded by USAID                   of the new campus or in renovations of
were not marked as having been provided by               existing facilities.


Recommendations—Management Decisions


The audit report made 18 recommendations:

1.      Continue to withhold incremental funding until all required documents are submitted by
        the university.

        The mission agreed, and stated, however, that the required actions under the recommendation have
        been overtaken by developments subsequent to the audit field work and findings. A management
        decision has been reached and that that the recommendation remains open.

2.     Work with the university to establish procedures for timely submission of the annual
       budget.

        The terms of the cooperative agreement require AOTR approval of the AUAF budget on an annual
        basis and by October 30 of each year. However, the university’s fiscal year began on July 1 and the
        Board of Trustees reviewed the university’s proposed annual budget prior to July 1. This
        recommendation is closed.

3.      Work with the university to establish procedures for timely submission of the annual work
        plan and performance management plan.

        The mission stated that AUAF planned to submit its draft annual work plan and revised PMP (if
        necessary) by March 31, 2011, along with the discussion draft of its annual budget. The AUAF
        cooperative agreement was modified by December 15, 2010, to reflect this new budget, work plan,
        and PMP approval process. Thus, this recommendation is closed.

4.      Determine how excess funds, estimated at $6.4 million, will be put to use within the
        agreement or other mission programs.

        The mission has determined that the excess funds of $6.4 million from Year 1 and 2 will be
        reprogrammed into Years 3–5 to fund activities intended by the award. A management decision was
        reached and this recommendation was closed.

5.      Review whether to approve subcontracts entered into by the university that has not been
        approved by the mission.

        The mission’s Office of Acquisition Assistance (OAA), in consultation with the agreement officer’s
        technical representative, will provide consent to subcontract all firm fixed price contracts over
        $100,000 and all cost-reimbursement contracts, which are funded with mission funds. This
        recommendation is closed.



                                                  133
6.    We recommend that USAID/Afghanistan prepare a sustainability plan so that the
      university will not be dependent on mission funding after the end of the program.

      The university will undertake a five-year strategic planning process, which will include the issue of the
      university’s sustainability. The mission will review the five-year strategic plan and determine whether
      funding might be extended beyond the original agreement. This recommendation remains open.

7.    Work with the university in developing a construction implementation plan for its new
      campus.

      The AUAf administration has determined that USAID funds will not be used for the construction of
      its new facilities. Modification to the agreement to reflect that USAID will not be involved in the
      approval of any further new campus construction activities is expected to be completed by December
      15, 2010. This recommendation is closed.

8.    Work with the university to complete a four-year curriculum for the three undergraduate
      degrees identified in the agreement.

      The mission stated that the university has reformulated its degree programs to include a bachelor of
      arts in business administration, bachelor of science in computer science, and bachelor of arts in
      political science and public administration. Curricula have been developed for these degrees and
      incorporated into the 2010–11 university course catalog. This recommendation remains open.

9.    Require the university to develop a business plan for the Professional Development
      Institute Program.

      The mission stated that the university is in the process of preparing a strategic plan for 2011–16.
      This strategic plan includes a business plan for the Professional Development Institute. The university
      planned to submit a plan for mission review by January 31, 2011. This recommendation is open.

10.   Modify the agreement to add a business manager position for the Professional
      Development Institute.

      The mission stated that the university is preparing a business plan for the Professional Development
      Institute. Staffing qualification requirements are expected to be addressed in this plan. The mission
      and the university discussed the qualification requirements for senior-level institute staff. This
      recommendation is closed.

11.   Develop an implementation plan for the Professional Development Institute that will
      address deficiencies in program quality.

      The mission stated that the university will revise its performance management plan to include
      learning achievement measurements as well as other quality standards for the Professional
      Development Institute. This recommendation remains open.

12.   Require that the action plan developed to increase the proportion of women enrolled at
      the university be incorporated into key program planning documents.



                                                   134
      The mission stated that the university has prepared a draft work plan for
      2010–11, which incorporates plans for increased recruitment of female students. The mission
      anticipated that this work plan will be approved by October 31, 2010. This recommendation remains
      open.

13.   Develop a plan to improve the university’s undergraduate preparatory program.

      The mission stated that the university is finalizing the implementation of a new Foundation Studies
      Program curriculum, and additional quality standards have been put in place to measure the program
      graduates’ abilities to succeed in the undergraduate program. The university plans to have the
      redesign completed by November 15, 2010. This recommendation remains open.

14.   Review the university’s procurement system, as required by the agreement.

      The mission’s Office of Acquisition and Assistance has prepared a plan regarding the steps it will take
      in performing the review of the university’s procurement system. This recommendation remains open.

15.   Review procurement files before approving construction subcontracts in order to verify
      that adequate competition existed during the bidding process.

      The mission has proposed a process by which all subcontractor construction procurements will be
      reviewed and approved by the mission prior to the commencement of work. This plan includes the
      review of any procurements that are funded in whole or part with USAID funds totaling more than
      $100,000 as well as all cost-reimbursement contracts. The review is expected to take place by
      September 30, 2010. This recommendation remains open.

16.   Evaluate the university’s branding and marking plan and make a determination as to the
      acceptability of the plan.

      The mission has evaluated the university’s May 2010 revised branding and marking plan and
      determined that it was unacceptable. The university has provided an additional branding and
      marking plan, which the mission is reviewing. A management decision was reached and this
      recommendation was closed.

17.   Establish procedures for the submission of environmental mitigation and monitoring plans
      for new construction.

      The mission has established a process for the submission of Year 3 environmental mitigation and
      monitoring plans for renovation work to be done on existing university structures.

      Additionally, the university understands that after October 1, 2010, no construction or renovation
      projects using USAID funds can begin when the agreement officer’s technical representative approves
      the environmental mitigation and monitoring plan for the project. Previously, AUAf has completed
      six construction and renovations projects without submitting an environmental mitigation and
      monitoring plan as outlined by the agreement. This recommendation is closed.

18.   Obtain a written legal decision from the mission’s regional legal advisor on how to proceed
      for completed and in-process projects for which environmental procedures were not
      followed.


                                                  135
The mission has obtained a written legal decision from the regional legal advisor on how to proceed for
completed and in-process projects in which environmental procedures were not followed. This
recommendation is closed.




                                            136
        Audit of USAID/Afghanistan’s Partnership for Advancing
         Community-Based Education in Afghanistan (PACE-A)
                          (5-306-11-001-P)

Date:                            October 28, 2010

Implementing Partners: CARE International (CARE), Catholic Relief Services
                       (CRS), International Rescue Committee (IRC), and
                       the Aga Khan Foundation (AKF)

Audit Period:                    April 10, 2006, to March 31, 2010

Funding:                         As of March 31, 2010, USAID had obligated approximately
                                 $24.8 million and expended approximately $17.8 million.

Background—Summary of Findings

The Partnership for Advancing Community-               education. Results data reported on this and
Based Education in Afghanistan (PACE-A) is             other program areas also were not adequately
a 5-year program to expand quality learning            supported. In addition, efforts to integrate
and life opportunities for marginalized                the program’s primary classes into the MoE
communities and their children in                      system were not always implemented
Afghanistan. The program’s core objectives             effectively. Through its community-based
are:                                                   activities, PACE-A has provided educational
to expand access to community-based                    opportunities to children living in rural
schools, strengthen community structures               villages in different regions of Afghanistan.
and processes that support basic education,
and improve the quality of community-based             According to PACE-A’s progress report for
education.      Under this agreement, the              the quarter ending March 31, 2010, program
program’s activities were expected to directly         activities to date had resulted in the
benefit a total of 93,240 students─of whom             establishment of 3,695 classes attended by
at least 60 percent were to be girls or                98,212 students―the majority of whom were
women─in over 1,000 communities in 90                  girls―in a total of 1,672 communities
districts and 20 provinces.                            located in 97 districts and 19 provinces,
                                                       meeting or exceeding at least some of the
Although the majority of these activities              program’s targets. The program has also
involve primary education classes covering             made progress in facilitating the integration
grades 1 through 6, the program also offers            of many of its classes into the MoE system,
other types of classes, including early                with 51 percent of the program’s primary
childhood development and adult literacy,              classes integrated into the MoE school system
for learners younger or older than primary             to date.
school age (7 to 12 years old).
                                                       PACE-A has not been fully achieving all of its
The audit determined that the program was              core objectives, however. One area in which
partially achieving its goals but was not              program efforts have fallen short has been
offering its teachers the basic training to            teacher training, which is the primary means
ensure that their students received a quality


                                                 137
of ensuring that PACE-A supported students                  under several performance measures relating
receive a quality education.                                to teacher training and other activities were
                                                            not adequately supported, partly because of
An examination of the records for four tested               recordkeeping deficiencies.
provinces also disclosed that data reported


Recommendations—Management Decisions

The audit report made four recommendations:

1.      That USAID/Afghanistan direct CARE International to (1) develop clear standards on
        teacher training, to be followed by all four partners, which define the requisite training
        workshops that each teacher must receive to be considered fully prepared to teach his or
        her students; and (2) develop and implement a plan to ensure that all supported teachers
        receive the requisite training in its entirety.

        The mission directed CARE International to develop and produce a standard teaching package. To
        accomplish this, the program will incorporate the five core modules into a PACE-A training package
        with a teacher trainers’ guide by June 2011. The program will also update the PACE-A monitoring
        and evaluation database management system, by December 2010, to effectively capture each
        teacher’s progress toward completion of the entire package. A management decision was reached and
        the recommendation remains open.

2.      That USAID/Afghanistan direct CARE International to carry out the data quality
        assurance procedures specified in its performance monitoring plan, which include random
        field visits at least quarterly to verify the quality of the data furnished by field staff and
        reported to USAID.

        In response on July 28, 2010, CARE agreed to conduct data quality assurance procedures regularly
        as specified in its performance monitoring plan (PMP). This includes conducting spot checks on a
        quarterly basis to verify the quality of the data reported against source documentation at field offices.
        Final action was taken and the recommendation was closed.

3.      That USAID/Afghanistan conduct a data quality assessment in accordance with USAID’s
        Automated Directives System to provide assurance on the quality and reliability of the
        program’s reported results data.

        The mission stated that the Agreement Officer’s Technical Representative (AOTR) will organize and
        participate in a data quality assessment by August 31, 2011. Additionally for future visits, the
        AOTR will conduct limited testing on reported results by observing the computation of figures from
        supporting records. A management decision was reached and the recommendation remains open.

4.      That USAID/Afghanistan direct CARE International to (1) develop a formal class
        integration strategy and a process that allows for the effective integration of the program’s
        primary education classes into the Ministry of Education’s school system and provide a
        viable alternative that allows children to continue their learning without having to travel
        long distances; and (2) implement this integration strategy for all new and, if possible,
        formerly integrated classes by the program’s completion date.


                                                     138
The mission directed CARE International to develop a formal integration strategy and a process that
allows for integrating community-based education classes into the Ministry of Education’s primary
school system. Thus, this recommendation is closed.




                                          139
 i




140
             Afghanistan Performance Audits
                                 Fiscal Year 2010
[START]   Review of Security Costs Charged to USAID Projects in
                     Afghanistan (No. 5-306-10-002-S)

Date:                           September 29, 2010

Implementing Partner:           Development Alternatives, Inc.

Review Period:                  March through May 13, 2010

Funding:                        $11.3 million

Background—Summary of Findings

USAID/Afghanistan relies on private security           Other news reports said that PSCs were
contractors (PSCs) to supply an array of               involved in the negotiations with insurgents.
security services for contractors and grantees         Office of Inspector General (OIG) staff met
that implement USAID-funded projects in                with one of the reporters involved to obtain
Afghanistan. PSCs free up military forces for          additional details.
their core missions and provide protection to
USAID’s implementing partners in hostile               OIG conducted a review of Edinburgh
environments.             USAID/Afghanistan’s          International’s security costs charged to the
practice has been to delegate responsibility           following three USAID-funded projects in
and oversight for security to its implementing         Afghanistan implemented by Development
partners and factor the cost of security into          Alternatives, Inc. (DAI):
their program budgets. These implementing
partners typically subcontract their security              •   Afghanistan Small and Medium
services to PSCs. USAID indirectly pays for                    Enterprises Development
PSCs when the implementing partners submit                 •   Incentives     Driving     Economic
their invoices, which include the cost of                      Alternatives for the North, East, and
security services, for payment.                                West
                                                           •   Local Governance and Community
In the past year, news reports have said that                  Development (LGCD)
U.S. Government funds paid to contractors
for reconstruction projects were being                 The review found no indication that
siphoned off to Taliban insurgents in                  Edinburgh International had misused USAID
exchange for “protection” to prevent attacks.          funds to pay the Taliban or others in
For example, one news article reported that            exchange for protection. However, there were
USAID funds were ending up in the hands of             indications that Afghan subcontractors
the Taliban through a protection racket for            working on the LGCD project had paid
contractors. Another article said that in              insurgents for protection in remote and
southern Afghanistan, no contract can be               insecure areas of Afghanistan. The payments
implemented without the Taliban taking a               were allegedly made as part of a security
cut, sometimes at various steps along the way.         arrangement with local communities that very


                                                 141
likely included the Taliban or groups that                   Force, including the Special Inspector
support them. OIG also found indications of                  General for Afghanistan Reconstruction and
pervasive fraud in DAI’s LGCD office in                      the Federal Bureau of Investigation, as well as
Jalalabad and indications of endemic                         the local Afghanistan prosecutor’s office and
corruption in Nangarhar Province, where                      the Afghanistan Major Crimes Task Force. In
Jalalabad is located. It is conducting an                    June 2010, DAI terminated ten LGCD
investigation with members of the                            employees who were involved in the fraud
International Contract Corruption Task                       scheme.

Recommendations—Management Decisions

The review report made four recommendations to help USAID/Afghanistan reduce the likelihood
that subcontractors will misuse USAID funds to pay off Taliban insurgents or other criminal
elements and to mitigate the risk of fraud within its LGCD project.

1. That USAID/Afghanistan conduct appropriate risk and impact assessments of current and
   proposed locations that are targeted for Local Governance and Community Development
   subprojects to determine whether the security environment in those locations is permissive
   enough to allow civilian implementation and monitoring efforts to proceed without interference
   from insurgent groups.

   The mission stated that we had reported indications of pervasive fraud in DAI’s LGCD Jalalabad office, as
   provided by interviewed sources, but did not list supporting documentation for the alleged fraud. Nonetheless,
   the mission indicated that the contracting officer has directed DAI to conduct an internal audit of all offices
   under the LGCD Project.

   It is OIG policy not to provide information in its published reports that would compromise investigations of
   suspected fraud. Instead, this information is provided to OIG/Investigations for further investigation. As
   indicated in the draft report, we referred the specific indications of pervasive fraud in LGCD’s Jalalabad
   office to OIG/Investigations, which expanded an ongoing investigation of the LGCD fraud and worked with
   members of the International Contract Corruption Task Force, including the Special Inspector General for
   Afghanistan Reconstruction and the Federal Bureau of Investigation, as well as the local Afghanistan
   Prosecutor's Office and the Afghanistan Major Crimes Task Force. In June 2010, DAI terminated ten
   LGCD employees who allegedly had been involved in the fraud scheme. Because USAID/Afghanistan has
   directed DAI to conduct an internal audit of the offices implementing the LGCD project, final action has
   been taken on Recommendation 2. This recommendation is closed.

2. That USAID/Afghanistan direct Development Alternatives, Inc., to conduct an internal audit of
   all offices under the Local Governance and Community Development Project to evaluate
   internal controls and take appropriate corrective actions on any material weaknesses identified
   and fraud uncovered. A copy of the report is to be provided to the USAID/Afghanistan
   Controller and the USAID Office of Inspector General.

    The Contracting Officer has directed DAI to conduct an internal audit of all offices under the LGCD
    Project to evaluate internal controls and take appropriate corrective actions on material weaknesses
    identified and fraud uncovered. DAI is in daily contact with the RIG Office at the USAID Mission in
    Kabul on alleged improprieties and information is passed rapidly – currently between 24-72 hours of
    notification between both USAID Activity Managers and DAI directly to the RIG. USAID expatriate and
    national staff have reinforced their efforts to report alleged cases of improprieties reported either by local

                                                      142
     communities, or from GIRoA directly to the COTR for immediate investigation. The COTR has sent
     guidance to all Activity Managers to meet with their local DAI implementers at least on a weekly basis.
     The COTR and Alternate COTR in these respects are playing a crucial role in immediately moving
     information received either from USAID/LGCD Activity Managers, or from DAI to the RIG for review
     and preliminary guidance. Therefore, this recommendation is closed.

3. That USAID/Afghanistan direct Development Alternatives, Inc., to implement policies and
   procedures to perform adequate cost analysis of fair market prices and to detect and prevent
   inflated costs and possible fraudulent activity as part of its subcontracting process for the Local
   Governance and Community Development Project.

    USAID agrees with the recommendation and suggests a modified approach. It stated that DAI adheres to
    federal regulations in awarding and managing procurements, including subcontracts, under the LGCD
    Project, and has project procurement policies and procedures in place. USAID’s contracting officer has
    directed DAI to review its existing procurement policies and procedures, modify them accordingly, and
    implement them to ensure that it performs adequate cost analysis of fair market prices and to detect and
    prevent inflated costs and possible fraudulent activity as part of its subcontracting process for the LGCD
    Project. This recommendation is closed.

4. That USAID/Afghanistan develop an action plan to maintain a sufficient level of oversight of
   subcontracting and purchasing systems by Development Alternatives, Inc., for the Local
   Governance and Community Development Project.

    USAID requested that DAI conduct a contractor purchasing system review no later than October 31,
    2010, to establish a baseline for DAI’s proficiency in performing its responsibilities in subcontracting in
    accordance with FAR 44.3. The assessment provides a baseline of DAI’s capacity and document
    weaknesses for further action by the contracting officer or his or her field support team. In addition,
    USAID plans to conduct periodic surveys of DAI’s purchasing system. This recommendation is closed.




                                                       143
  Audit of USAID/Afghanistan's Alternative Development Program
             Expansion–South West (5-306-10-011-P)
Date:                             July 29, 2010

Implementing Partner:             Associates in Rural Development, Inc.

Audit Period:                     March 5, 2008, to December 31, 2009

Funding:                          As of December 31, 2009, USAID/Afghanistan had obligated
                                  $30 million and disbursed $25 million for program activities

Background—Summary of Findings

The production and trafficking of illicit                districts within each province.           The
narcotics in Afghanistan breeds corruption               implementer put in place 45 cash-for-work
and provides resources to the Taliban, drug              projects that included road, canal, and market
lords, and other terrorist groups. The U.S.              rehabilitations.    One project provided
Government has supported the Afghan                      employment to 220 workers, while another
Government’s counternarcotics strategy of                project targeted 30 disadvantaged women,
providing incentives to stop growing opium               mainly widows. The program also assisted
poppy through alternative development                    local farmers with sales of produce totaling
projects, supporting strong disincentives in             nearly $3.8 million. Further, it helped the
the form of provincial governor–led                      Farah Farmer’s Union, a cooperative of 8,700
eradication,    interdiction,    and     law             growers, identify business opportunities and
enforcement, and spreading the antinarcotics             develop the Farah Agricultural Center, which
message.                                                 will provide an all-inclusive hub for market
                                                         expansion and business development.
USAID is implementing a 3-year, $75 million
program (through Associates in Rural                     Despite the program’s progress, issues need to
Development) to counter illicit poppy                    be addressed. First, continued reductions in
cultivation    by    providing     alternative           poppy cultivation may not be sustainable
development programs, improved economic                  because no follow-on alternative development
opportunities, and diverse regional economic             program has been approved beyond March
growth.                                                  2011, and a critical southern province is not
                                                         included in the current program. Second, the
The program has made progress. A 32                      program has experienced delays in
percent decrease in poppy production                     implementation, partly because of security
between 2008 and 2009 has been attributed                issues. Also, a new embassy-led annual
to strong antipoppy messages from provincial             program review process, the restructuring of
governors, increased interdiction activities, an         the regional commands, and the mission’s
overproduction of poppy in prior years that              plan to implement regional platforms present
suppressed market prices, and provision of               future challenges that could hamper program
alternative economic opportunities in targeted           implementation if not properly managed.




                                                   144
Recommendations—Management Decisions

The audit report made three recommendations:

1. That USAID/Afghanistan develop an implementation plan for follow-on activities to cover
   critical southern and western provinces.

    In January 2010, the Office of Agriculture began developing follow-on agriculture programs that will deliver
    alternative development activities in the southern and western provinces. Thus this recommendation is
    closed.

2. That USAID/Afghanistan officially designate a specific position within each technical office to
   handle the preparation and coordination of embassy program approval requests.

    USAID has undertaken three steps to further improve the project review process. First, it has designated one
    officer in the Office of Program and Project Development (OPPD) to be responsible for preparing and
    coordinating all project reviews. Second, the OPPD officer in charge of the project review process will
    directly coordinate upcoming reviews with the technical office director, who will be accountable for ensuring
    that the office’s relevant contracting officer’s or agreement officer’s technical representative completes the
    review sheet promptly. Third, in June 2010, the designated officer in OPPD conducted an extensive
    inventory of all mission programs to determine which programs are due for a 1-year review and, on the basis
    of this inventory, established a specific schedule for upcoming reviews. This recommendation is closed.

3. That USAID/Afghanistan require an activity manager designation letter for all activity managers,
   outlining responsibilities and relevant mission orders related to making unauthorized
   commitments and funds control violations.

    USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
    reached. On September 22, 2010, USAID/Afghanistan issued a Mission Order which outlined the roles
    and responsibilities of activity managers in USAID/Afghanistan’s project monitoring and includes a sample
    activity manager designation letter. Therefore, this recommendation is closed.




                                                      145
                                                               



   Review of School and Health Clinic Buildings Completed Under
  the Schools and Clinics Construction and Refurbishment Program
                        (No. 5-306-10-002-O)

Date:                                             June 24, 2010

Implementing Partner:                             KPMG Afghanistan

Audit Period:                                     2002 to 2009

Funding:                                          Disbursements under the program amounted to more
                                                  than $105 million

Background—Summary of Findings

In September 2002, USAID/Afghanistan                              and clinics completed across Afghanistan
began to build and reconstruct schools and                        under the program. The review had two
health clinics throughout Afghanistan under                       objectives: (1) to determine whether schools
the Schools and Clinics Construction and                          and clinics constructed under the program
Refurbishment Program.         During the                         were being used for their intended purposes
following 4 years, the mission increased the                      and (2) to measure the impact of the program
number of structures subject to the program                       on the provision of education and health
from fewer than 100 to 776. Similarly, the                        services to the people of Afghanistan.
number of implementing partners grew to
more than a half dozen, and disbursements                         KPMG visited and inspected 50 buildings to
under the program amounted to more than                           verify their physical existence and observe how
$105 million.                                                     they were being used. Overall, KPMG found
                                                                  that 48 of the 50 facilities were being used for
In October 2004, the office of the Regional                       their intended purposes. The two exceptions
Inspector General/Manila (RIG/Manila)                             were due to security concerns in the
audited the school and health clinic                              surrounding area and one building’s inability
reconstruction activities.1 The audit found                       to accommodate area students.
that the program was behind schedule, and it
recommended that the mission develop a new                        KPMG noted numerous physical deficiencies
implementation plan.                                              in the condition of the school and health
                                                                  clinic buildings. These deficiencies included
RIG/Manila        contracted  with    KPMG                        structural problems, poor hardware, lack of
Afghanistan—whose staff could travel more                         electrical supply (because buildings were
easily within Afghanistan—to conduct site                         located in areas where electrical service is
visits for this review. RIG/Manila provided                       unavailable), deficient water service and
KPMG a statistical sample of 50 buildings—30                      plumbing (or none), and toilet problems.
schools and 20 clinics—from the 776 schools                       However, KPMG could not determine
                                                                  whether the deficiencies were attributable to
                                                                  work performed under the program or to a
1
   “Audit of USAID/Afghanistan’s School and Clinic                subsequent lack of maintenance.
Reconstruction Program,” Audit Report No. 5-306-05-003-P,
issued March 14, 2005.


                                                            146
KPMG noted that the deficiencies created an                   its field visits when the schools and clinics
environment that was not conducive to                         would be in use and reviewed records and
quality education and health services and                     documentation maintained at each location.
might expose the students, patients, and staff                KPMG found that the 30 schools visited were
working in those buildings to unhealthy and                   staffed with 1,385 teachers providing
even dangerous conditions. In addition, the                   instruction to 57,744 students. The 20 health
report noted operational problems in the                      clinics visited employed 109 clinical staff and
schools and clinics. These problems included                  provided medical treatment to approximately
poor maintenance, inadequate personnel, and                   39,500 patients a month. KPMG concluded,
lack of furniture and equipment. These                        however, that these figures do not provide a
conditions, however, were the responsibility                  meaningful indication of the completed
of the Government of Afghanistan.                             buildings’ impact on the provision of
                                                              education and health services in Afghanistan
To measure the impact of the program on                       because baseline information was not
providing educational and health services to                  available for comparison.
the people of Afghanistan, KPMG scheduled

Recommendations—Management Decisions
The report made two recommendations:

1.    That USAID/Afghanistan consider requesting from the Ministry of Education and the
      Ministry of Health a list of schools and clinic buildings completed under the Schools and
      Clinics Construction and Refurbishment Program that are not being used for intended
      purposes and make a determination in coordination with these ministries whether adjustments
      in the use of these facilities can or should be made.

      Ninety-six percent (48 of 50) of the buildings inspected under this RIG/Manila review were found to be
      used for the original intended purpose. These results are consistent with the results of post occupancy
      evaluations conducted by International Relief and Development (IRD) at the mission’s request in 2007.
      These evaluations determined that most of the buildings sampled were being used for their original intent.
      This recommendation is closed.

2.    That USAID/Afghanistan evaluate the physical and construction deficiencies identified in
      annexures C and D of the KPMG report and develop an action plan to correct those
      deficiencies.
      The mission agreed that deficiencies that are the result of defects in construction, and in particular those
      defects that could impact life or safety, need to be corrected. The mission is inspecting all buildings funded
      and constructed under the program between 2002 and 2009 for seismic structural safety. As the
      inspection of each building is completed, an action plan will be developed for remedial reconstruction for
      earthquake safety. This recommendation is closed.




                                                       147
    Audit of USAID/Afghanistan’s Oversight of Private Security
                   Contractors in Afghanistan
                       (5-306-10-009-P)
Date:                            May 21, 2010
Implementing Partner:            Not applicable
Audit Period:                    October 1, 2006, through June 30, 2009
Funding:                         $167 million for subcontracted private security services

Background—Summary of Findings

USAID program implementers rely on private              statutory requirements been issued. The
security contractors (PSCs) to protect their            mission-wide instructions would have also
operations in hostile environments. However,            incorporated statutorily-mandated procedures
the murder of 4 PSCs in Iraq in 2004 and the            to ensure PSCs in Afghanistan are qualified
killing of 17 Iraqi civilians by PSCs in 2007           and responsible. The report found such
raised concerns about failures to supervise             procedures were not in place.
PSCs adequately and to properly investigate
alleged killings by security contractors. In            USAID/Afghanistan has provided only
January 2008, Congress enacted detailed                 limited oversight and direction relative to
oversight requirements for PSCs in combat               standards and requirements for security and
operation areas, to be implemented by                   cannot ensure that responsible security firms
Department of Defense (DOD) regulation                  are employed. The audit found that two PSCs
and the Federal Acquisition Regulation.                 were not licensed with the Afghan
                                                        Government and that USAID/Afghanistan
OIG examined the reporting of serious                   did not provide subcontracting consent for 17
security     incidents,    whether      USAID           private security firms or include in its
implementing partners had subcontracted                 contracts a clause to require various security
with responsible firms, the costs of these              measures. Moreover, USAID/Afghanistan
services, and the oversight of those costs. We          has no standard grant award provision related
found that detailed statutory oversight                 to security, so about one-third of its awards
requirements intended to cover both non-                with subcontracted PSCs have no standard
DOD and DOD PSCs in Afghanistan had not                 security requirements.      With respect to
been implemented by USAID because the                   security costs, prime implementing partners
Chief of Mission had not issued mission-wide            reported that they had charged about $167
instructions in accordance with DOD                     million for subcontracted PSC services during
implementing regulation. As a result, USAID             the review period. On average, these services
PSCs did not report certain serious security            accounted for 8.3 percent of award
incidents (e.g., persons killed or injured as a         disbursements. The audit found no specific
result of PSC conduct) that they otherwise              requirements applicable to this category of
would have been required to report had                  costs and few requirements relative to the
mission-wide instructions implementing the              audit of subcontractor costs.




                                                  148
Recommendations—Management Decisions

OIG made eight recommendations:

1.   That, in the absence of Mission-wide instructions, USAID/Afghanistan’s Director of
     Acquisition and Assistance include a clause or provision in all acquisition and assistance
     agreements to require the implementing partner to report information on casualties as well as
     serious incidents.

     USAID/Afghanistan’s Office of Acquisition and Assistance is coordinating additional reporting
     requirements with USAID/Washington’s Management Bureau's Office of Acquisition and Assistance.
     The additional standard provisions or clauses in agreements are subject to the Paperwork Reduction Act
     and require approval by OMB. Upon approval of the standard provisions or clauses, USAID will modify
     the acquisition and assistance agreements accordingly. This recommendation is closed.

2.   That, in the absence of Mission-wide instructions, USAID/Afghanistan devise and implement
     a formal process, consistent with standards specified in 39 CFR 159.6, for its employees to
     forward reports of serious incidents and casualties to a designated office that will collect and
     coordinate the reports.

     In July 2009, the mission established an in-house Office of Safety and Security to, among other duties,
     coordinate the reporting of serious incidents and casualties. Serious incident reporting has increased, as has
     general cooperation on security issues with the implementing partners. The mission will formalize the
     process through a mission order for employees to forward reports of serious incidents and casualties to the
     designated office. This recommendation is closed.

3.   That USAID/Afghanistan’s Director of Acquisition and Assistance provide written
     notification to the implementing partners responsible for the two awards directing them to use
     only private security contractors licensed by the Government of the Islamic Republic of
     Afghanistan.

     USAID Afghanistan determined and the RIG/Manila agreed that a management decision had been
     reached. USAID/Afghanistan indicated that one of the awards has since ended. The Contracting
     Officer for the other award has provided written instructions to the Implementing Partners and
     Contracting Officers Technical Representatives, directing them to use only licensed private security
     companies that are legally registered with the Government of the Islamic Republic of Afghanistan. This
     recommendation is closed.

4.   That USAID/Afghanistan’s Director of Acquisition and Assistance require that the
     implementing partners—to which the 17 private security companies (identified in the audit
     report) have been subcontracted—provide what would customarily be advance notification to
     USAID/Afghanistan so that consent to subcontract may be considered and granted or refused.

     USAID Afghanistan determined and the RIG/Manila agreed that a management decision had been
     reached. USAID/Afghanistan indicated that one of the awards has since ended. The Contracting
     Officer for the other award has provided written instructions to the Implementing Partners and
     Contracting Officers Technical Representatives, directing them to use only licensed private security
     companies that are legally registered with the Government of the Islamic Republic of Afghanistan. On


                                                      149
     April 25, 2010, the Supervisory Contracting Officer, Afghanistan sent a written notice to the
     Implementing Partners stating that they are required to provide the customary advance notification to
     USAID/Afghanistan, so that the cognizant contracting officer can provide consent to subcontract.
     Therefore, this recommendation is closed.

5.   That USAID/Afghanistan’s Director of Acquisition and Assistance issue written guidance to
     existing implementing partners and the office’s contracting officers, reminding them of the
     requirements of Federal Acquisition Regulation Part 44.2.

     On April 25, 2010, USAID/Afghanistan’s Director of the Office of Acquisition and Assistance issued
     written guidance to the existing implementing partners and the office’s contracting officers reminding them
     of Federal Acquisition Regulation Part 44.2 requirements. This recommendation is closed.

6.   That USAID/Afghanistan’s contracting officer add Federal Acquisition Regulation Clause
     52.225-19, “Contractor Personnel in a Designated Operational Area or Supporting a
     Diplomatic or Consular Mission Outside the United States,” to all its existing acquisition
     awards and issue guidance to include the clause in future awards.

     USAID/Afghanistan’s Office of Acquisition and Assistance will review its active acquisition awards and
     ensure that the required clause is included in the awards. Additionally, the Director will issue guidance to
     the contracting officers, directing them to include the clause in all future awards. This recommendation is
     closed.

7.   That USAID/Afghanistan’s contracting officer request in writing that the Chief of Mission
     issue Mission-wide instructions for non-DOD PSCs and their personnel, as required by
     Interim Final Rule 32 CFR 159.4(c), to either (1) implement standards set forth by the
     geographic combatant commander or (2) instruct non-DOD PSCs and their personnel to
     follow the guidance and procedures developed by the geographic combatant commander or
     subordinate commander.

     The Chief of Mission is aware of this issue and guidance on the use of PSCs has been prepared by the
     U.S. Embassy/Kabul Regional Security Office. The guidance has been reviewed by the Department of
     State Legal Office in Washington, DC. The USAID/Afghanistan mission director wrote to the
     Ambassador to communicate the findings of this audit report. This recommendation is closed.

8.   That, in the absence of Mission-wide instructions, USAID/Afghanistan’s contracting officer
     request in writing that the Office of Acquisition and Assistance provide acquisition and
     assistance award language to regulate subcontracted private security services.

     USAID/Afghanistan’s Office of Acquisition and Assistance is coordinating additional reporting
     requirements with USAID/Washington’s Management Bureau’s Office of Acquisition and Assistance.
     The additional standard provisions or clauses in agreements are subject to the Paperwork Reduction Act
     and require approval by OMB. Upon approval of the standard provisions or clauses, USAID will modify
     the acquisition and assistance agreements accordingly. This recommendation is closed.




                                                     150
Audit of USAID/Afghanistan's Afghanistan Vouchers for Increased
           Productive Agriculture (AVIPA) Program
                     (No. 5-306-10-008-P)

Date:                              April 20, 2010
Implementing Partner:              International Relief and Development
Audit Period:                      September 2008 to December 2009
Funding:                           As of December 31, 2009, cumulative obligations under the
                                   program totaled approximately $185.2 million, and
                                   expenditures were about $93.4 million.

Background—Summary of Findings

The AVIPA Program was initially designed to                 The audit identified several other problems:
provide wheat seed and fertilizer to drought-              In addition to the lack of reliable data to
affected subsistence farmers to help them                  measure program results, the program
increase wheat production in targeted areas of             suffered from insufficient oversight. The
the country.                                               implementer could not retain staff, in part
                                                           because of death threats, and project staff
The audit found that the program had                       members were overburdened by requests for
contributed to the country’s increase in wheat             information and briefings from non-USAID
production; however, the extent of the                     Government officials.       In some cases,
program’s role in this increase was unclear,               materials did not reach beneficiaries (a finding
since the audit determined that some of the                that has been referred to OIG’s Office of
reported results were not reliable.           In           Investigations). Moreover, the audit noted
addition, the program’s stabilization activities           that up to $50 million in unspent program
in the country’s southern region were not                  funds could be reprogrammed for other
being implemented as widely as originally                  activities.
planned.

Recommendations—Management Decisions

OIG made three recommendations:

1.    That USAID/Afghanistan require its implementer to establish appropriate procedures and
      controls to strengthen its monitoring of AVIPA program activities to ensure that intended
      beneficiaries receive program inputs and irregularities, such as those identified by this audit,
      are detected and addressed in a timely manner.

      USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
      reached. USAID/Afghanistan confirmed that the implementer had established a “most robust”
      monitoring system to more effectively monitor program activities which included: 1) an independent
      Quality Assurance/Quality Control (QA/QC) team which samples selected activities for testing; 2)
      programmatic QA/QC teams that are dedicated to a specific program component (e.g., cash for work)
      and responsible for monitoring and ensuring that prescribed procedures are adhered to; and 3) a telephone



                                                    151
     “hotline” that allows the general public to express any concerns they may have regarding AVIPA activities.
     This recommendation is closed.

2.   That USAID/Afghanistan require its implementer to reassess the impact of its 2008–2009
     wheat seed distributions using a justifiable methodology and report the results to the mission
     along with supporting calculations that clearly show the basis for the assessed impact.

     A management decision was reached. USAID/Afghanistan discussed the concerns regarding the
     assessment and the methodology with International Research & Development (IRD), and required them to
     undertake a new assessment of the 2008-2009 wheat seed distribution. On August 21, 2010, IRD
     presented the Mission with a report entitled "Note on the Effects of the AVIPA Plus Voucher Distribution
     Program on Wheat Yields in Northern Afghanistan". According to this document, IRD reviewed and
     adjusted data sets in order to capture the effects of the voucher packages. This recommendation is closed.

3.   That USAID/Afghanistan determine the amount of projected surplus funds under the
     program and reprogram these funds to make them available for other activities under this or
     other programs.

     A management decision was reached. USAID/Afghanistan determined the amount of unexpended funds
     projected to be available in June 2010 to be $131 million. The projected surplus funds were
     reprogrammed through a no-cost extension to AVIPA for the period September 1, 2010 through March
     31, 2011. This recommendation is closed.




                                                    152
           Audit of USAID/Afghanistan’s Human Resources and
                       Logistical Support Program
                          (No. 5-306-10-007-P)

Date:                           March 31, 2010
Implementing Partner:           International Relief and Development, Inc.
Audit Period:                   March 1, 2006, to October 29, 2009
Funding:                        As of September 30, 2009, $47 million had been obligated,
                                and $36 million had been spent for project activities

Background—Summary of Findings

USAID/Afghanistan launched its Human                  efficient means of managing and maintaining
Resources and Logistical Support Program in           roads in the future. At the Ministry of Energy
February 2007 to help design, monitor, and            and Water, the program contractor provided a
support the activities of USAID-funded                transboundary water-rights adviser to help the
contractors. The program intended to (1)              ministry develop water policies for
enhance capacity at selected ministries, (2)          negotiations with neighbors in other
identify USAID-constructed buildings that do          countries.
not meet seismic standards, and (3) provide
quality assurance and engineering oversight           With regard to the second goal—evaluating
for mission construction projects. USAID              and identifying USAID-built structures that
awarded a 5-year, $72 million contract to             did not meet seismic standards—the program
International Relief and Development, Inc.,           was successful in establishing a process for
to implement the program.                             identifying structures that are not earthquake
                                                      resistant. The mission has a database of 1,474
The audit found that the program had made             USAID-built structures, but the database is
progress in capacity building within selected         not complete. As of October 2009, the
Afghan ministries, identified defective               program      had     completed      preliminary
USAID-built structures, and provided                  assessments of 468 of these structures and
engineering     oversight     for    mission          detailed structural seismic evaluations of 35.
construction projects.                                So far, the program has found 15 structures to
                                                      be unsafe for occupancy.
In support of its first goal, the program
provided the Afghan Government with                   With regard to the third goal, of providing
additional capacity. Technical consultants            quality assurance and engineering oversight
hired under the program assisted Ministry of          on USAID construction projects, the program
Mines personnel in preparing a proposal for           has succeeded in providing these services for
the rehabilitation of gas fields to generate          projects initiated by the mission’s Office of
electrical power for the country. Meanwhile,          Infrastructure, Engineering and Energy.
at the Ministry of Public Works, program              However, the mission has not been so
advisers initiated the development of a pilot         successful in providing quality-assurance
program to teach ministry staff how to                services for construction projects initiated by
implement and monitor road construction               other program offices within the mission.
projects and provide them with a more


                                                153
Despite the program’s progress in addressing                contract. In addition, significant defects in
its three main goals, it has serious issues that            five buildings reported in a prior Office of
need to be addressed. The most critical issue               Inspector General audit report (“Audit of
is to identify the many defective structures                USAID/Afghanistan’s Accelerating
that likely remain among the estimated 1,474                Sustainable Agriculture Program,” Audit
mission-built structures. The total number of               Report No. 5-306-08-009-P, August 8, 2008)
defective structures will be determined when                have yet to be corrected.
the remainder of the preliminary assessments
and any subsequent detailed seismic                          If all defective structures are not identified,
evaluations are completed. The mission                      and if those already identified are not repaired
anticipates that the contractor will complete               or rebuilt, a catastrophic earthquake could
200 seismic evaluations by the end of the                   cause many injuries and deaths.

Recommendations—Management Decisions

This report makes 12 recommendations to improve mission implementation of its construction
programs:

1.    That USAID/Afghanistan establish a separate reconstruction program that will provide
      prompt implementation of reconstruction action plans for defective structures and ensure
      that all defective USAID-built structures are reconstructed.

      The mission will implement the required changes using an alternative implementation strategy than
      that proposed in the recommendation. Rather than establishing a separate reconstruction program,
      the mission will use existing contracting mechanisms. A structural engineer will manage the
      assessment of buildings while a new construction manager will supervise the reconstruction of
      defective buildings. This recommendation is closed.

2.    That USAID/Afghanistan take immediate action to secure and vacate the two currently
      occupied defective buildings constructed under the Accelerating Sustainable Agriculture
      Program.

       USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
       reached. In May 2010, USAID/Afghanistan completely demolished the Agricultural Network
       (AgNet) building in Parwan Province. The demolition was monitored and documented by the
       International Relief and Development, the contractor for the Human Resource and Logistical Support
       (HRLS) Program. However, USAID/Afghanistan stated that the AgNet building in Kunduz
       Province has not been demolished because it is occupied by a unit of Afghanistan's National Police
       (ANP), which commenced occupancy without the knowledge or consent of the Ministry of Agriculture,
       Irrigation and Livestock (MAIL), USAID, or Chemonics. According to the USAID/Afghanistan, all
       attempts to have ANP vacate the building have been unsuccessful and as result, MAIL and the
       Ministry of Interior (MOl), which has authority over ANP, jointly executed a full waiver of liability
       releasing USAID and Chemonics from any current or future liability for the Kunduz AgNet Building.
       Therefore, this recommendation is closed.

3.    That USAID/Afghanistan complete an implementation plan for the demolition and
      retrofitting of the five buildings constructed under the Accelerating Sustainable
      Agriculture Program either by compelling Chemonics to perform or by using a third party.


                                                     154
     If a third party is used, the implementation plan should include requirements to reduce
     Chemonics’ future billings in accordance with Federal Acquisition Regulation 52.246–5(e)
     for the cost of demolishing or retrofitting the structures.

     USAID/Afghanistan completed an implementation plan for the demolition and reconstruction of the
     five AgNet buildings, which was conveyed by the contracting officer in an email dated December 14,
     2009. All demolition work was being conducted by Chemonics. To carry out the demolition,
     Chemonics awarded four subcontracts to local firms, and was processing a subcontract for the
     demolition of the fifth building. According to the schedule submitted, demolition of all five buildings
     will be completed by the third week of May 2010. In accordance with the implementation plan,
     Chemonics submitted two documents that comprise the demolition plan. Thus, this recommendation
     is closed.

4.   That USAID/Afghanistan revise and reissue the November 2008 Office of Acquisition
     and Assistance notice on quality assurance to include requirements for quality assurance of
     construction performed under subcontracts and subagreements.

     On December 7, 2009, USAID issued a notice to revise previous guidelines pertaining to
     construction requirements in subcontracts and subagreements. This recommendation is closed.

5.   That USAID/Afghanistan revise its contracting officer’s technical representative (COTR)
     designation letter to communicate the need to comply with construction oversight and
     quality-assurance requirements.

     USAID/Afghanistan’s Office of Acquisition and Assistance (OAA) issued an internal notice on
     December 30, 2010. The notice includes requirements that any award containing a construction
     and/or Architecture and Engineering component as defined by Mission Order No. 302-03 must
     include the requirements for construction monitoring and quality assurance services. Therefore, this
     recommendation is closed.

6.   That USAID/Afghanistan develop written procedures covering the types of roads that
     require mandatory engineering oversight and quality assurance.

     USAID/Afghanistan’s has drafted procedures for providing the appropriate engineering oversight and
     quality-assurance services to specific types of roads. This recommendation is closed.

7.   That USAID/Afghanistan take appropriate action during each portfolio review to require
     that all in-process and completed construction projects during the review cycle are
     documented and shared with the Office of Infrastructure, Engineering and Energy as a
     means for it to ensure the existing database of constructions projects is complete and
     provide engineering quality-assurance oversight for those projects lacking it.

     USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had
     been reached.. USAID/Afghanistan determined that using portfolio reviews as a vehicle would not
     adequately address the underlying problem that led to the recommendation. Accordingly,
     USAID/Afghanistan instituted a more systemic and comprehensive approach and modified project
     and activity approval and review to require OIEE review and clear on activity planning documents
     that include construction or infrastructure development components. With this systemic and


                                                    155
      comprehensive approach, USAID/Afghanistan believes that Quality Assurance & Quality Control
      and data management for the Mission infrastructure projects will vastly improve, helping to ensure
      the protection and sustainment of the United States Government's investments in infrastructure and
      the safety of Afghans who utilize structures funded by USAID. This recommendation is closed.

8.    That USAID/Afghanistan establish procedures to grant the mission engineers or their
      designated representatives the right to communicate directly with the construction
      contractors or subcontractors on deviations from approved engineering designs.

      USAID/Afghanistan’s Office of Acquisition and Assistance (OAA) issued an internal notice on
      December 30, 2010. The notice included language that allows Mission engineers or their designated
      representatives to directly communicate to construction contractors and assistance providers any
      observed deviations from approved engineering designs. Such communications should be limited to
      observed deviations and should not include instructions to construction contractors or assistance
      providers that could result in constructive changes to the construction agreement. This
      recommendation is closed.


9.    That USAID/Afghanistan require that the final subcontract requirements for the design
      of the new campus for the American University of Afghanistan be reviewed for adherence
      to appropriate engineering standards.

      On December 7, 2009, USAID issued a notice requiring that subcontract requirements for
      construction and architectural and engineering services be reviewed and approved by the Office of
      Infrastructure, Engineering, and Energy (OIEE) before the Office of Acquisition and Assistance
      accepts them for processing.

      To ensure that the design of the American University of Afghanistan (AUAF) campus adheres to
      engineering standards and USAID requirements, USAID decided to implement the design activity
      through a separate mechanism managed by OIEE. This was conveyed to the AUAF president in a
      letter from the agreement officer dated March 2, 2010. Because of AUAF’s reticence about
      USAID’s determination, discussions are ongoing to determine the best option for proceeding with the
      design, including whether the design should be funded by USAID. Should AUAF and its Board of
      Trustees opt to use USAID funds for the design activity, the procurement requirements will have to
      be reviewed for adherence to appropriate engineering standards. This recommendation is closed.

10.   That USAID/Afghanistan require that all engineering drawings related to the American
      University of Afghanistan Campus be reviewed for compliance with specified standards
      before the mission accepts delivery of the drawings.

      In order to ensure compliance with specified standards, USAID has determined and conveyed to
      AUAF that, if USAID funds are used for the design of the new campus, OIEE would implement the
      activity under a separate mechanism that it manages. USAID plans to present AUAF with several
      options for proceeding with design activities, with or without funding. This recommendation is
      closed.

11.   That USAID/Afghanistan require that the final statement of work clearly identifies the
      continuation of the Afghan Infrastructure Data Center as a core aspect of the follow-on


                                                    156
      contract, to include training of Afghan Ministries in the maintenance and use of the data
      center.

      The statement of work for the Engineering Quality Assurance and Logistical Support Program, the
      follow-on activity, has been revised to include training of Afghan Ministries. Meanwhile, the
      ongoing Human Resource and Logistical Support Program has completed an assessment of the
      Ministry of Public Works’ requirements to enable them to operate and maintain the roads database.
      A presentation is also scheduled at the Ministry of Energy and Water to inform the staff about the
      roll-out of the infrastructure database—Afghanistan Infrastructure and Security Cartography System—
      and to discuss their involvement in a user needs assessment and training. This recommendation is
      closed.

12.   That USAID/Afghanistan complete all required contractor performance reviews of
      International Relief and Development, Inc., in accordance with Agency procedures.


      Contractor performance reviews for the contract have been completed and submitted to the
      Contractor Performance System of the National Institutes of Health. This recommendation is closed.




                                                    157
        Audit of USAID/Afghanistan’s Building Education Support
                     Systems for Teachers Project
                         (No. 5-306-10-006-P)
Date:                             January 29, 2010
Implementing Partner:             Creative Associates International, Inc.
Audit Period:                     May 20 through June 10, 2009
Funding:                          As of September 30, 2009, $56 million had been obligated, and $48
                                  million had been spent for project activities

Background—Summary of Findings


Almost 4 years into a $94 million, 5-year                5-year National Education Strategic Plan
contract      with     Creative     Associates           (2006–10).
International, Inc., to implement USAID’s
Building Education Support Systems for                   The audit found that much of the training of
Teachers project, OIG’s audit concluded that             teachers had been completed. For example,
the project is making progress in helping to             50,600 of the target of 54,000 teachers in the
improve the quality of education in                      11 provinces had received inservice training
Afghanistan but has not achieved its two main            for teachers already working for the Ministry
goals: improving teaching through teacher                of Education. Although the project has not
training, and institutionalizing ministry                attempted to measure the extent to which
structures and systems that support high-                teaching has actually been improved, teachers
quality teaching.                                        we spoke with expressed satisfaction with the
                                                         training they had received. And much of the
Afghanistan has one of the highest illiteracy            technical assistance to the Ministry of
rates in the world. More than 11 million                 Education had been completed. For example,
Afghans over the age of 15 cannot read or                Creative Associates had assisted in recruiting
write. In rural areas, where three-fourths of            and selecting most of the 444 candidates who
all Afghans live, 90 percent of the women and            were expected to help the Ministry of
over 60 percent of the men are illiterate.               Education develop its capacity to improve the
Under the Taliban, girls were not allowed to             quality of teaching.
go to school, fewer than 900,000 boys were
enrolled, and many received religious                    In addition, the audit found that district
education in lieu of academics.            The           teacher training teams had been established to
implications of this lack of education can be            help conduct training in all 11 provinces.
felt in all domains of life. Afghans have little          This approach used a cascading process of
access to information about good health                  training existing teachers as instructors who in
practices, and most of the country’s judges              turn would train other teachers. The project
and civil servants do not have more than a               teamed with subcontractors to select and hire
high school diploma. Today more than 5.7                 181 team leaders, 1,361 team members, and
million students attend school. However, the             8 provincial project monitoring officers, all by
Afghan Government is striving to improve                 December 2007. Moreover, the project
education for its people, and the Ministry of            developed (1) an action plan for the Ministry
Education is working with USAID and                      of Education’s 5-year strategic plan, (2) a
other       donors     to     implement        a         human resources policy manual, (3) a training

                                                   158
curriculum for management skills, and (4) an                specific subject/grade level, as planned under
action plan for the integration of the Human                component 1 of the project. The project also
Resources Department and the Reform                         did not complete some activities planned
Implementation and Management Unit at the                   under component 2—for example, technical
Ministry of Education.                                      assistance intended for the Ministry of
                                                            Education’s Human Resources Department,
Notwithstanding these accomplishments, the                  such as development of a curriculum and staff
audit found that some significant tasks and                 training on a human resource database;
activities included in the project’s contract               creation of a training manual for the payroll
and work plan had not been completed. For                   database for budget staff; and preparation of
example, the project had not completed the                  at least one workshop on pedagogical methods
curriculum development and related inservice                for faculty at each provincial teacher training
teacher training or the accelerated program                 college. The contractor hoped to complete
for teachers who did not meet Ministry of                   these efforts by the contract’s end.
Education teaching qualifications for their

Recommendations—Management Decisions

The audit made four recommendations to help the mission properly oversee implementation and
evaluation of the project:

1. That USAID/Afghanistan negotiate a new memorandum of agreement with the Afghan Ministry
    of Education to formalize a working relationship between the mission, Creative Associates
    International, Inc., and the Ministry of Education to be used for accomplishing tasks and
    activities for the remaining period of the Building Education Support Systems for Teachers
    Project (BESST).

    USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
    reached to implement the recommendation. A new memorandum of agreement (MOA) between the
    Ministry of Education, Creative Associates International and USAID was signed on January 25, 2011.
    The revised MOA formalizes the relationship between the Mission, Creative Associates International, and
    the Ministry of Education by defining roles and responsibilities of the partners and the activities to be
    implemented during the remaining period of the BESST project. Activities include the accelerated learning
    program for teachers, building the capacity of the Human Resources Department of the MoE, and delivery
    of radio-based long-distance education. This recommendation is closed.

2. That USAID/Afghanistan require Creative Associates International, Inc., to submit all pertinent
    information related to all Building Education Support Systems for Teachers Project subcontract
    modifications for which the mission has not been notified. After receipt of the pertinent
    information from Creative Associates International, Inc., the mission should determine and
    document the acceptability of the subcontract modifications.

    Since contract inception, Creative Associates International, Inc. (CAII), has sought initial consent from the
    contract office for all subcontracts with individual organizations. After receiving approval from USAID for
    subcontractor budget estimates, documents on administrative actions between CAII and the subcontractors,
    such as funding modifications, were not submitted to USAID for approval. CAII has now provided USAID
    with all subcontract modifications. Each subcontract modification will be reviewed by the contracting
    officer for acceptability and approval. This recommendation is closed.


                                                      159
3. That USAID/Afghanistan require a closeout audit of the subcontract between Creative
   Associates International, Inc., and JBS International, Inc.-Aquirre Division related to the
   Building Education Support Systems for Teachers Project and take all corrective actions detailed
   in the closeout audit report.

   USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
   reached to implement the recommendation. USAID/Afghanistan verified that Creative Associates
   procured an audit of their subcontract with JBS International, Inc. - Aguirre Division (JBS). According to
   Creative Associates, all cost samples were tested as to their compliance with the Federal Acquisition
   Regulations (FAR) and USAID regulations and allowability to be billed to USAID. Also, JBS Aguirre
   termination costs were determined by Creative as being within reason. This recommendation is closed.

4. That USAID/Afghanistan require Creative Associates International, Inc., and its subcontractors
   to provide documented proof of compliance with the requirements of USAID Automated
   Directive System Chapter 320, “Branding and Marking,” or submit a written request to the
   mission for a waiver from the requirements.

   The mission has formally advised the contractor of its responsibility to be compliant with the approved
   branding and marking plan and has received the contractor's plan.
   This recommendation is closed.




                                                   160
      Audit of USAID/Afghanistan’s Civilian Assistance Program
                       (No. 5-306-10-004-P)
Date:                            December 15, 2009
Implementing Partner:            International Organization for Migration
Audit Period:                    April 2007 to February 2009
Funding:                         As of December 31, 2008, $18.5 million had been obligated
                                 and about $6.4 million had been spent for program activities

Background—Summary of Findings

The Civilian Assistance Program is being                information about its progress. Officials had
implemented through a $27 million, 3-year               not followed up regularly on the status of the
cooperative agreement (April 2007 to April              implementer’s      implementation        plan,
2010) with the International Organization for           monitoring and evaluation plan, or quarterly
Migration. OIG’s audit found that the                   program reports. The mission also had not
program—which is intended to provide help to            made sufficient site visits to adequately
Afghan families and communities that have               evaluate the program’s progress and had not
suffered losses because of military operations—         properly monitored the staffing of positions
is not on target to assist eligible program             for the implementing organization.
beneficiaries.
                                                        Security concerns contributed to the
Assistance under the program is generally               program’s understaffing, which continued to
provided in the form of goods and services to           be a challenge at the time of the audit. As of
those who have suffered losses—a farmer                 January 2009, a subcontractor for the
might receive a tractor or livestock and a              implementer had hired only 56 of the 86
grocer might receive merchandise to restock             employees that it believed necessary to meet
his store. At the midpoint of the program,              program targets. At the time of the audit, the
just over 800 of the more than 6,000 eligible           implementer’s documents indicated that its
families in the program were receiving                  subcontractor was still in the process of hiring
assistance, about 13 percent. As of January             30 staff members for the 6 regional offices
22, 2009, the implementer reported that it              where the program was being implemented.
had assisted only about 40 percent of families          In addition, the implementer had not taken
included in its revised recovery plan, which            advantage of opportunities to improve the
had been submitted just after the                       effectiveness and efficiency of the program,
implementation midpoint.                                such as limiting the program’s eligibility
                                                        period and requiring beneficiaries to present
In addition, until the program was halfway              Afghan national identification cards.
through, USAID officials had very limited
involvement in the program and little




                                                  161
Recommendations—Management Decisions

The audit made seven recommendations that were deemed necessary to help the mission properly
oversee implementation and evaluation of the program.

1. That USAID/Afghanistan develop a plan that will provide sufficient work time for the
   agreement officer’s technical representative assigned to the Afghan Civilian Assistance Program
   to properly monitor and evaluate the programmatic needs for the program so that it can be
   implemented effectively and on schedule.

   USAID dedicated a full-time technical representative to the program in July 2009 and ensured that the
   incumbent had a limited scope of work to enable them to better manage the program. The incumbent is
   assigned to the Provincial Reconstruction Team Office and reports directly to the office director, ensuring
   that the individual’s duties will not be divided between oversight of the program and other outside duties.
   USAID also arranged for a four-member monitoring team, using an existing support services contract, to
   conduct site visits at four locations throughout Afghanistan in January 2010. This recommendation is
   closed.

2. That USAID/Afghanistan require the International Organization for Migration to adhere to a
   schedule in preparing and submitting the required planning and program reporting documents,
   such as implementation plans, monitoring and evaluation plans, and program reports to help the
   mission monitor and evaluate the implementation of the Afghan Civilian Assistance Program.

   Consistent with the requirements of the cooperative agreement between USAID and the International
   Organization for Migration, USAID stated that the implementer has been adhering to specified reporting
   requirements for the past 3 quarters. With the establishment of a dedicated technical representative to
   provide oversight, USAID believes that the implementer will continue to meet its reporting requirements
   throughout the remainder of the program. This recommendation is closed.

3. That USAID/Afghanistan require the International Organization for Migration to take
   appropriate action to adequately staff the Afghan Civilian Assistance Program at a level sufficient
   to provide timely and effective assistance to eligible beneficiaries.

   Following the audit, the implementer reassessed its staffing needs on the basis of the number of new incidents
   occurring in 2009, as well as the number of eligible families still requiring program assistance. The
   International Organization for Migration (IOM) has increased its staff to 161 as agreed upon in the
   management decision. With the hiring of this additional staff, IOM increased by 78.7 percent the total
   program number of families receiving assistance to 3,653 families as of December 31, 2009. This
   recommendation is closed.

4. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on the eligibility period for which applicants under the Afghan Civilian Assistance
   Program can apply and receive benefits to determine whether a more appropriate eligibility
   period should be used.

   The technical representative instructed the implementer to modify the targeting of program assistance to
   newly occurring incidents. The implementer will prioritize newly occurring cases over those that occurred



                                                     162
   previously and will focus efforts primarily on those incidents occurring within the life of the current award
   (April 2007 through November 2010).

   For incidents prior to April 2007 that have been entered into the database and have yet to receive program
   assistance, the implementer will determine which ones it can realistically access and respond to with
   available resources and which ones will need to be removed from the database. In eliminating selected past
   incidents from the database, the implementer’s staff will be able to more readily focus the majority of their
   efforts and resources on newly occurring incidents and those that have occurred within the life of the project.
   This recommendation is closed.

5. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on completed and closed-out grants to determine whether the policy should be revised
   and, if appropriate, revise the policy so that completed grants can be closed out more rapidly.

   The technical representative and the implementer’s management staff met to review standing program
   policies and discuss steps to expedite the delivery of program assistance. The performance period of
   assistance grants was reduced, and as of September 2009, all program assistance grants were set at a
   maximum of 6 months. The implementer conducts a final monitoring visit at the end of the grant and aims
   to close out the grant 30 days thereafter. This will enable the implementer to close out assistance grants in
   half the time it had previously spent completing grants. This recommendation is closed.

6. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on the acceptance of identification from applicants under the Afghan Civilian Assistance
   Program to determine whether the policy should be revised, and, if appropriate, revise the policy
   to require that national identity cards be used for identification.

   The technical representative instructed the implementer to report to USAID on the costs, benefits, and
   feasibility of requiring recipients of program assistance to possess a national identification (ID) card, and the
   implementer responded with its revised policy on identification cards. In addition, it has taken the following
   steps to ensure that assistance is not provided to the same beneficiaries more than once:

   All program beneficiaries are asked to present their national ID card when the implementer’s staff conducts
   the family assessment. The national ID card number is recorded in the program’s grants database following
   the interview. If beneficiaries do not possess a national ID card, implementing staff members ask them to
   obtain one as soon as possible and request that the beneficiaries to produce another form of identification.

   Program staff search the implementing database by ID number, name (including father’s name), and
   location (village) before issuing new grants to avoid any duplication. This recommendation is closed.


7. That USAID/Afghanistan require that the International Organization for Migration review its
   procedures on the distribution of education and tailoring kits to program beneficiaries, under
   the Afghan Civilian Assistance Program, to determine whether the kits are being distributed
   expeditiously and, if not, initiate actions to remedy the distribution.

   The technical representative instructed the implementer to develop a plan for preordering and prepositioning
   standard forms of assistance, including education and tailoring kits. Following this instruction, the
   implementer reviewed its procedures and determined that the procurement process was the primary cause of
   its inability to expeditiously distribute assistance kits. The implementer provided a revised policy on

                                                      163
preordering and prepositioning standard forms of assistance and signed long-term agreements with various
local vendors. To attract possible bidders, implementers provide an estimate for the total value of the
business.

The long-term agreements are valid for 6 months. After 6 months, depending on the performance of the
vendors, the implementer will conduct another bid or negotiate with existing vendors to renew the agreements
under the same prices, terms, and conditions. This recommendation is closed.




                                                 164
  Audit of USAID/Afghanistan’s Power Sector Activities Under Its
        Afghanistan Infrastructure Rehabilitation Program
                       (No. 5-306-10-002-P)

Date:                               November 10, 2009

Implementing Partner:               Louis Berger Inc./Black and Veatch Special Projects Corp.
                                    Joint Venture

Audit Period:                       January 2007 through April 2009

Funding:                            As of April 30, 2009, the combined ceiling price for these two
                                    task orders was $305.5 million, and USAID/Afghanistan had
                                    obligated $290.8 million and expended $249.6 million for the
                                    two projects

Background—Summary of Findings

Providing electrical power to the Afghan                    statement of work resulting in poor planning
population is crucial to Afghanistan’s                      and       implementation,       subcontractor
development. As a key to political stability,               performance problems, a lack of onsite quality
sufficient, reliable electrical power is especially         assurance, and problems clearing equipment
important for both the capital city of Kabul                and material through customs. For the
and the southern agricultural provinces of                  Kajakai Dam project, deteriorating security in
Helmand and Kandahar. To improve the                        southern Afghanistan and inconsistent
availability of electricity in these areas,                 contractor performance contributed to the
USAID/Afghanistan awarded two major task                    delay.
orders under its Afghanistan Infrastructure
Rehabilitation Program to the Louis Berger                  By May 2009, the USAID-funded projects had
Inc./Black and Veatch Special Projects Corp.                completed construction of generators with the
Joint Venture.                                              ability to produce only 12 megawatts of power
                                                            out of the original goal of 140 megawatts—and
OIG’s audit report highlighted problems                     this increase in power had not actually been
faced by two power projects in Afghanistan—                 delivered to the Afghan population. As a
building a 105-megawatt plant in Kabul and                  result, the economic benefits anticipated for
making improvements in the Kajakai Dam—                     Kabul and the southern provinces of
which were intended to supply power to key                  Helmand and Kandahar were not being
cities and provinces.                                       realized.      Additionally, the contractor
                                                            estimated that cost overruns attributable to
The audit concluded that, because of                        the delays would amount to $39 million in
construction delays, USAID had not                          order to complete the Kabul power plant by
increased reliable power supplies to these two              December.
areas within the planned timeframes. For the
Kabul power plant, the delays were caused by                The audit also found that the host
an initial inability to obtain adequate title to            government may not be able to afford to
land for the power plant, an ambiguous                      operate the Kabul power plant because of the


                                                      165
rising cost of diesel fuel and the government’s              for these questionable costs (including
inability to collect revenue for the generated               contractor overhead, fixed fees, and imputed
electricity. Further complicating operation of               interest) amounted to an overbilling of
the power plant is the configuration of the                  USAID by $2.1 million.
Kabul transmission system, which does not
allow for the use of other power sources at                  As for the Kajakai Dam project, the original
times of year when those power sources are                   subcontractor left after its personnel received
more competitive.                                            kidnapping threats, and the project cannot be
                                                             completed until a new subcontractor is
With regard to subcontractor performance on                  selected. USAID will have to continue paying
the Kabul power plant, the audit found that                  the fixed costs of securing and maintaining
the contractor had charged USAID for                         the facility until work on the plant can be
subcontractor costs that the contractor had                  resumed. These fixed costs amount to an
not paid. The contractor had not paid these                  estimated $1 million per month, even though
costs because of disputes and questionable                   none of the 35 extra megawatts of power has
claims in subcontractor invoices. The total                  been delivered.
amount the contractor received from USAID

Recommendations—Management Decisions

The Office of Inspector General audit report made eight recommendations:

1. That USAID/Afghanistan require that its training on statement-of-work preparation be provided
    to all new COTRs.

    USAID established the appropriate contractual mechanisms for COTRs to receive statement of work
    training. This course was intended to improve the COTRs' capacity in both technical writing and the
    review of statements of work, and it will be provided to all new COTRs. This recommendation is closed.

2. That USAID/Afghanistan develop procedures, such as the use of quality control checklists, to
    ensure that statements of work include such critical elements as clear deliverables with specified
    due dates.

    The contracting officer for the Office of Infrastructure, Engineering and Energy (OIEE) issued a statement
    of work template to all OIEE COTRs in June 2009. The template serves as a quality control checklist that
    describes the required elements for the statement of work and provides detailed instruction for preparing each
    section. This recommendation is closed.

3. That USAID/Afghanistan establish procedures requiring that a labor skills assessment be
    performed by a contractor, either upon award of a construction contract or upon the award of a
    task order under the contract. The assessment would include, as appropriate but not limited to,
    the availability of qualified local labor, vocational training needed to cultivate local labor, and
    plans to coordinate with the mission to obtain appropriate visas for non-Afghan labor.

    Workforce capacity in designing infrastructure projects is being assessed, and new mission staff will be hired
    to perform preaward surveys of potential contractors and their proposed personnel. However, the mission
    does not agree that a blanket procedure should be put in place that requires contractors to perform a labor
    skills assessment. Meaningful labor assessments are difficult to maintain in Afghanistan, given the fluidity


                                                      166
    of the workforce and the high demand for skilled labor. Instead, the mission expects to use preaward
    personnel surveys to help verify the availability of qualified staff proposed by the contractor. This
    recommendation is closed.

4. That USAID/Afghanistan establish written procedures to ensure that all significant construction
    projects have onsite quality-assurance engineers.

    On November 22, 2008, the Office of Acquisition and Assistance (OAA) issued a notice requiring all
    offices to ensure that a quality-assurance surveillance program is included during the construction of vertical
    structures. To cover the road and power construction activities, OAA will issue a similar notice that will
    define the technical standards to be observed and require quality-assurance monitoring during construction.
    This recommendation is closed.

5. That the mission develop an overall implementation plan for the Kabul power plant project that
    incorporates updated construction schedules for the contractor and subcontractor, identifies
    delays in critical tasks, and establishes steps to keep the project on track.

    At the October 4, 2009, management meeting for the Infrastructure Rehabilitation Program, the contractor
    presented a detailed construction schedule and discussed how progress on each of the project components is
    being tracked against the schedule, on the basis of staff utilization. To provide an independent assessment of
    the progress of work, the mission has tasked the Human Resource and Support Program to monitor work
    progress and to bring to the mission’s attention possible constraints in meeting the schedule. In addition, the
    COTR conducts weekly visits to the project to review the existing construction schedule, identify delays in
    critical tasks, and determine next steps. The contractor provides daily reports on the project status. This
    recommendation is closed.


6. That USAID/Afghanistan develop a comprehensive sustainability plan that includes
    considerations for anticipated fuel purchases as well as the impact and timing of future mission
    projects affecting the 105-megawatt plant.

    A plan to improve long-term plant performance and to implement a training program to develop local skills
    and expertise in plant operation and maintenance is being developed. The Afghan Government has
    provided 50,343 liters of fuel to operate the plant and has established the new national electricity
    corporation, Da Afghanistan Breshna Sherkat (DABS), which lays the foundation for commercializing the
    country’s energy sector and improving services for the Afghan people. USAID is implementing the Kabul
    Electricity Directorate (KED) commercialization contract to improve the commercial performance of the
    KED so that it can operate on a full-cost recovery basis assuming that by 2012, this contract results in a
    reduction in system losses and increase in collections and revenues to be directed toward fuel purchases. This
    recommendation is closed.




                                                      167
7. That USAID/Afghanistan prepare a detailed implementation plan that documents the current
   status of the Kajakai project and explains how the mission intends to proceed with installation of
   turbine 2, including potential barriers to successful installation of the turbine and contingency
   plans to overcome these barriers.

   USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
   reached. USAID/Afghanistan prepared a detailed implementation plan that documents the current status
   of the Kajakai project. The Mission also indicated that the installation of Turbine 2 continues to be
   delayed due to the ongoing volatile and dangerous security environment, which is preventing ground
   transportation of necessary equipment and material to the site. The Mission Continues to coordinate with
   the International Security Assistance Force (ISAF) assessing the security situation to determine when it
   might be feasible to proceed with the installation of Turbine 2. Additionally, USAID is taking action to be
   ready to install Turbine 2 if the security environment changes quickly. USAID is also contracting to finish
   installation design of Turbine 2 and obtain detailed convoy size and frequency information for equipment
   and material that will require ground transportation to the site. Therefore, this recommendation is closed.

8. That USAID/Afghanistan recover at least $2.1 million (including interest imputed through May
   13, 2009) from the contractor.

   USAID/Afghanistan has recovered the amount owed from the contractor. This includes $2,042,680 that
   was billed for collection and $35,746 in accrued interest. This recommendation is closed.




                                                    168
            Afghanistan Performance Audits
                                  Fiscal Year 2009
               Audit of USAID/Afghanistan’s Land Titling and
               Economic Restructuring in Afghanistan Project
                           (No. 5-306-09-004-P)
Date:                             June 8, 2009
Implementing Partner:             Emerging Markets Group, Limited
Audit Period:                     September 2004 to September 2008
Funding:                          As of September 30, 2008, $45.9 million had been obligated and
                                  $37.7 million disbursed

Background—Summary of Findings

In September 2004, USAID awarded a 3-year,               components. Under the first component, the
$29.2 million task order contract to Emerging            project laid a foundation that could benefit
Markets Group, Limited (EMG), under the                  the Government of Afghanistan’s land
Support for Economic Growth and                          administration system. Under the second
Institutional    Reform       Privatization   II         component, in the first 3 years, the project
Indefinite Quantity Contract. In October                 provided      technical   assistance    toward
2007, after the initial project implementation,          liquidating 23 state-owned enterprises, 3 state-
USAID extended the task order for an                     owned banks, and 1 state-owned corporation.
additional 2 years to 2009 and increased the             As a result, state-owned assets valued at $10.6
estimated costs to $56.3 million to further              million have been auctioned to successful
expand the project activities in 22 provinces.           bidders.
The project has two components. The first
focuses on land titling and registration to help         The audit also found that the liquidation
the Government of Afghanistan improve land               process had taken longer than expected and
tenure security in urban areas, with the                 that the State-Owned Enterprise Department
ultimate goal of introducing a consolidated              had lacked the capacity to manage the
land administration system in Afghanistan.               liquidation process. Furthermore, OIG found
The second focuses on privatizing state-owned            that USAID’s investment in privatization had
enterprises.                                             not always been successful and that more
                                                         collaboration was needed to strengthen the
The audit found that, as a whole, the project            project’s impact.
had achieved positive results under both




                                                   169
Recommendations—Management Decisions

The audit report made four recommendations:

1. That USAID, in collaboration with EMG and the Ministry of Finance, develop a plan to redirect
   remaining resources toward achieving the best results by the end of the contract. The plan
   should take into account the complexity of the outstanding issues that are barring final
   resolution and include a realistic assessment of what tasks can be completed by the end of the
   contract.

    The Land Titling and Economic Restructuring in Afghanistan Project (LTERA) developed a work plan
    from March to September 2009, which was reviewed by the Minister of Finance and endorsed by the
    Deputy Minister of Finance. The COTR will oversee LTERA’s continued implementation of the work and
    training plan until project completion. This recommendation is closed.

2. That USAID, in collaboration with EMG and the Ministry of Finance, develop and implement a
   training strategy to provide a core group of State-Owned Enterprise Department employees with
   the expertise to help them carry out their roles and responsibilities on the project team.

    A work and training plan was formulated and endorsed by Afghanistan's Deputy Minister of Finance. This
    recommendation is closed.

3. That USAID assess the feasibility of coordinating with other donors to improve the
   infrastructure and quality of life within the informal settlements.

    Since November 2008, LTERA has intensified its contacts with other donor-funded projects and agencies.
    LTERA helped establish the Informal Settlements Upgrading Steering Committee, chaired by the Minister
    of Urban Development, which is intended to coordinate and harmonize strategies of urban regularization
    and upgrading throughout the country. LTERA has met with representatives of major donors funding the
    reconstruction of Afghanistan along with USAID—the Australian Government Overseas Aid Program, the
    United Kingdom’s Department for International Development, the World Bank, and the Japan
    International Cooperation Agency. The mission has agreed to the feasibility of coordination with other
    donors to improve the infrastructure and quality of life within the informal settlements. Specific actions
    have been taken and an action plan is being implemented. This recommendation is closed.

4. That USAID determine whether these unfinished tasks will have a negative impact on the
   project if left undone. If the mission believes that the tasks should be completed according to
   the original agreement, the Contracting Office should direct EMG to complete the tasks;
   otherwise, USAID and EMG should formally modify the contract.

    At the beginning of the project, mission and project personnel mutually decided that some activities outlined
    in the scope of work were not going to have a significant impact on the overall outcomes and that resources
    could be better directed. This recommendation is closed.




                                                      170
                        Audit of USAID/Afghanistan’s
                     Local Governance and Community
                           Development Project in
                 Southern and Eastern Regions of Afghanistan
                            (No. 5-306-09-003-P)

Date:                              May 11, 2009
Implementing Partner:              Development Alternatives, Inc.
Audit Period:                      October 2006 to August 2008
Funding:                           As of August 31, 2008, $119 million had been obligated and
                                   $41 million disbursed

Background—Summary of Findings

USAID awarded a $95 million contract                      audit determined that the contractor needed
(subsequently increased to $164 million) to               to improve its monitoring and evaluation
Development Alternatives, Inc. (DAI), to                  system and the mission needed to refine its
implement the Local Governance and                        operational plan indicators and promptly
Community Development (LGCD) Project in                   approve annual contractor work plans.
the southern and eastern provinces. This                  Furthermore, the contractor did not properly
project was intended to assist the provincial             establish performance targets for the 14 key
governments and improve stability within the              indicators in its performance monitoring plan
provinces. The project had four main                      for FY 2008.
components: (1) supporting local public
administration and governance, (2) promoting              The project achieved some planned results,
community mobilization and development,                   such as on-the-job training for government
(3) aiding local stability initiatives, and (4)           staff, assistance to ministries in preparing
providing expertise to support the provincial             solicitations    for donor      funds,  and
reconstruction teams’ (PRTs’) mandate.                    construction of a school in the Nangarhar
                                                          Province that brought two competing tribes
The audit disclosed that the project had                  together for a common project.
experienced severe delays. In addition, the

Recommendations—Management Decisions

The audit report made 12 recommendations:

1. That USAID, in order to prevent additional delays, develop contingency plans on how it intends
   to complete construction of buildings before the end of the contract.

    In November 2008, USAID instructed DAI to stop the work on construction of all new government
    buildings and limit construction to renovations of existing buildings. The LGCD contract was extended 60
    days to allow adequate time for all projects to be completed. This recommendation is closed.




                                                   171
2. That USAID develop a detailed implementation plan that identifies the activities it can
   successfully complete by the end of the project and explains how it intends to use unexpended
   funds.

   The COTR initiated a two-step project development process that requires more planning before a project is
   approved. The new process ensures that projects have local support and can be implemented quickly and
   safely once approved. USAID is confident that all funds will be spent by December 2009. However, if any
   funds remain, they will be deobligated from LGCD and used to fund a new, follow-on project that USAID
   is designing in the same province. This recommendation is closed.

3. That USAID develop procedures to provide training to all new and existing field program
   officers as to their roles and responsibilities.

   All existing field program officers (FPOs) attend USAID COTR training during their tours. The LGCD
   COTR is working with the contracting officer to draft specific “activity manager” memorandums that
   outline each FPO’s roles and responsibilities as they relate to the project. The COTR has designed an
   LGCD orientation session for each new FPO. USAID is developing a U.S.-based orientation course to
   familiarize incoming FPOs with USAID culture, rules, and regulations. This recommendation is closed.

4. That USAID develop procedures requiring technical review of statements of work for specificity
   to assist in project implementation.

   USAID/Afghanistan issued a mission notice requiring technical review of all statements of work. The
   review will occur either at the time of the activity approval or at the time of the modified acquisition and
   assistance request document. This recommendation is closed.

5. That USAID establish procedures for subproject development and approval of component 3
   activities and communicate these to DAI and the mission’s development adviser.

   The COTR has worked with DAI to develop a “toolkit” and action plan for the development and approval
   of component 3 activities (local stability initiatives). This toolkit specifies intervention criteria for
   subprojects, gives examples of interventions, and describes mechanisms for implementing these interventions.
   This recommendation is closed.

6. That USAID develop procedures for providing training to existing and new development
   advisers on their roles and responsibilities as they relate to program implementation.

   USAID is developing a U.S.-based orientation course to address the roles of FPOs and development advisers
   in program implementation and their relationship with the COTRs. Development advisers are not activity
   managers for the LGCD program and no longer have responsibilities related to program implementation.
   However, they will attend all the training that has been instituted for the FPOs. This recommendation is
   closed.

7. That USAID review DAI’s draft performance monitoring plan for compliance with contract
   terms and approve the performance monitoring plan once all terms have been met.




                                                    172
      The draft performance monitoring plan was approved by the COTR in November 2008 and is fully
      operational. DAI’s internal systems and data collection procedures have been updated, and all current and
      past subprojects are now measured against this new plan. This recommendation is closed.

 8. That USAID’s COTR direct DAI to develop standardized procedures for data collection and
    retention.

      The COTR for LGCD has been working with DAI to develop standardized procedures for data collection
      and retention, and these procedures are now in place. This recommendation is closed.

 9. That USAID’s COTR obtain an implementation plan from DAI that requires completion of the
    reprogramming of its automated system by April 30, 2009.

      DAI’s automated system was fully reprogrammed as of February 2009. This system now includes indicator
      data for all subprojects as well as data source documents (e.g., training attendance sheets and handover
      documents), and monitoring reports are now attached to more than 90 percent of all subprojects. This
      recommendation is closed.

10.   That USAID establish procedures to review operational plan indicators to ensure that targets
      with input from multiple implementers are developed by each implementer and then
      consolidated.

      The mission has issued a mission directive that sets forth the responsibilities for review and approval of
      performance monitoring plans and the establishment of indicators. This recommendation is closed.

11.   That USAID/Afghanistan develop procedures to ensure that operational plan indicators
      represent how funds are being expended.

      The mission has issued a mission directive that sets forth the responsibilities for review and approval of
      performance monitoring plans and the establishment of indicators. This recommendation is closed.

12.   That USAID review the operational plan indicators for the LGCD project and either develop
      customized indicators or select additional common indicators to reflect more accurately the
      project’s expenditure of funds.

      The PRT Office is working with USAID/Washington’s Conflict Mitigation and Management Office to
      develop customized indicators that more accurately reflect the goals of the project. This recommendation
      remains open.




                                                      173
                             Audit of USAID/Afghanistan’s
                              Higher Education Project
                                 (No. 5-306-09-002-P)

Date:                              December 4, 2008
Implementing Partner:              Academy for Educational Development
Audit Period:                      January 2006 to June 2008
Funding:                           As of June 30, 2008, the mission had obligated $23 million and
                                   disbursed $14 million in support of this project

Background—Summary of Findings

USAID/Afghanistan’s Higher Education                      education, along with workshops and
Project involves a 5-year agreement between               seminars on institutional and leadership
USAID and the Government of Afghanistan                   development. The project initiated a master’s
to develop a better educated population in                degree program and trained several candidates
that country. A $38 million cooperative                   in the United States. Faculty members who
agreement was awarded to the Academy for                  participated in the project’s activities were
Educational     Development     (AED)    to               exposed to new and more effective teaching
implement the project.                                    methodologies in their classes, and they
                                                          advanced their English-language skills.
Specifically, the project set out to transform            Moreover, they had greater access to training
instructional methods in 16 postsecondary                 and educational materials not available in
institutions and to institutionalize structures           their local language.
and systems to sustain high-quality instruction
and professionalism. At the end of the                    Despite these accomplishments, the audit
project in 2014, the institutions will be                 identified three areas that, if not addressed
expected to take full responsibility for the              during the second half of the project, will
reform systems and teacher training.                      threaten the sustainability of the project’s
                                                          results. In addition, the audit identified that
Thus far, the project has achieved some of the            the mission’s technical oversight of the project
intended results. Training was provided in                has fallen short of what is required by the
teaching    methods,      basic    information            agreement and USAID’s policies.
technology     skills,   and     graduate-level

Recommendations—Management Decisions

The audit report made four recommendations:

1. That USAID/Afghanistan determine the key indicators to measure and report results and revise
    the indicators at the implementer level, the mission level, or both to more accurately link the
    activity data to the mission’s planned results.

    The mission stated that USAID reached an agreement with the Academy for Educational Development to
    jointly define critical performance indicators, incorporate data collection directly into the acquisition
    mechanism, and put in place a revised monitoring and evaluation (M&E) plan that would more accurately
    link activity data to the mission’s planned results. A revised M&E plan was submitted to USAID on
    January 22, 2009, and formally approved on April 6, 2009. This recommendation is closed.



                                                    174
2. That USAID/Afghanistan intervene with the Ministry of Education and Ministry of Higher
   Education to reach an agreement on appropriate collaborative actions to further the higher
   education project.

   The mission stated that initial efforts to establish cooperation between the Afghan Ministries of Education
   and Higher Education took place during the project-sponsored Teacher Standards Conference held November
   17 and 18, 2008. Representatives from both ministries attended, as well as rectors from the 16 pedagogical
   universities and Kabul Education University. A memorandum of understanding among the Ministries of
   Education and Higher Education, the implementer, and USAID confirming the adoption of secondary and
   higher education standards of teacher education has been completed. This recommendation is closed.

3. That USAID/Afghanistan collaborate with AED and applicable Afghan universities to develop
   an exit strategy so that key services of professional development centers will continue after
   project completion.

   AED and USAID/Afghanistan have begun a series of meetings designed to devise a mechanism for ensuring
   the sustainability of each of the 16 professional development centers. The centers are expected to be
   operational by January 31, 2011.

   A consortium meeting involving program partners was held from November 12 to November 13, 2008, to
   discuss development of a comprehensive sustainability plan. The draft exit strategy was submitted to the
   mission on December 28, 2008. This recommendation is closed.

4. That USAID/Afghanistan implement appropriate procedures to strengthen (1) project
   monitoring, (2) review and approval of project documents, and (3) maintenance of the cognizant
   technical officer (CTO) project file for the Higher Education Project.

   The mission stated that the short-term staff assignments prevalent in Afghanistan prevent a CTO’s term of
   more than 1 year. The mission also acknowledges that CTO turnover for the project has been unacceptably
   high, and it will make every effort to curtail turnover. The mission anticipates that the current CTO will
   remain in place until August 2009. It is expected that a longer-term CTO will alleviate the project
   management issues cited by the audit. This recommendation is closed.




                                                    175
176
             Afghanistan Performance Audits
                                   Fiscal Year 2008

                            Audit of USAID/Afghanistan’s
                           Capacity Development Program
                                (No. 5-306-08-012-P)

Date:                             September 30, 2008
Implementing Partner:             BearingPoint, Inc.
Audit Period:                     February 2, 2007, to March 31, 2008
Funding:                          As of March 31, 2008, USAID had obligated $49.6 million and
                                  disbursed $24.4 million

Background—Summary of Findings

Capacity building is needed in almost every              year, OIG was unable to assess the program’s
sector in Afghanistan in order to rebuild and            impact.
promote economic expansion. In February
2007, USAID/Afghanistan awarded a                        Moreover, the contractor and the mission
$218.6 million contract to BearingPoint, Inc.,           spent an inordinate amount of time
to implement the Capacity Development                    attempting to define the program’s activities
Program with an expected end date of 2012.               and priorities and implementing tasks that
USAID intended the program to be a broad,                did not always appear to contribute directly to
crosscutting capacity-building initiative to             the overall program.         For example, the
support all of the mission’s objectives. The             contractor, at the direction of USAID, was
program aims to strengthen Afghan capacity-              paying the salaries for approximately 460
building institutions; build near-term capacity          employees of Afghanistan’s Ministry of
with target institutions in the public, private,         Education, which would amount to $11.1
and educational sectors; and develop a critical          million over a 2-year period. Because the
mass of Afghans trained in management and                contractor did not have a detailed work plan
other basic skills. These goals are expected to          identifying the specific activities it intended to
be accomplished through a combination of                 implement for the program’s participant
training and technical assistance.                       training component, OIG questioned whether
                                                         the program would achieve its intended
The audit found insufficient evidence to                 objectives under this component, which
demonstrate that the program was on track to             according to the contract was to constitute
achieve planned results. Specifically, the               almost two-thirds of the program’s funding.
program lacked key deliverables necessary for
effective implementation, monitoring, and                In addition, the audit report addresses the
reporting of program activities and results,             contractor’s lack of the required approved
such as work plans and results monitoring                branding implementation and marking plan.
plans with performance indicators and targets.           USAID policy requires that contractors
Given these shortcomings and the fact that               develop a plan to describe how the program
the contract had been in place for just over 1           will be promoted to beneficiaries and host-
                                                         country citizens.

                                                   177
The branding implementation plan requires                  activities, public  communications,     or
key milestones or opportunities anticipated to             commodities implemented or delivered under
generate awareness that the program, project,              contracts and subcontracts funded only by
or activity is from the American people.                   USAID are marked exclusively with the
                                                           USAID identity. These requirements were
Further, contractors are to develop a marking              included in the Capacity Development
plan to ensure that programs, projects,                    Program contract.

Recommendations—Management Decisions

The audit includes four recommendations:

1. That USAID direct the contractor to develop a detailed work plan to align with expected results
    for FY 2009 and require the contractor to submit the work plan 15 days prior to the start of the
    fiscal year, as required by the contract.

    The mission stated that on September 1, 2008, it had directed the contractor to submit the draft work plan
    15 days prior to the start date of FY 2009, as required by the contract. The draft work plan for FY 2009
    was submitted by the contractor on September 14, 2008. This recommendation is closed.

2. That USAID direct the contractor to put in place an approved results monitoring plan to
    measure the progress and results of the activities detailed in the work plan addressed in the
    previous recommendation.

    The mission approved the performance management plan (2008–12) on September 6, 2008, and the
    mission has put in place an approved results monitoring plan for FY 2009 to measure the progress. This
    recommendation is closed.

3. That USAID reevaluate the appropriateness of funding salaries for approximately 460 of
    Afghanistan’s Ministry of Education employees through the Capacity Development Program.

    In the short term, USAID believes that supporting these technical advisers in the Ministry of Education in
    combination with an intensive training component does have merit and does contribute to the core capacity-
    building objective of this contract. The mission and contractor are taking various steps to evaluate,
    implement, and improve training. This recommendation was closed upon the report’s issuance.

4. That USAID/Afghanistan take immediate action to approve and ensure implementation of a
    branding implementation and marking plan under its Capacity Development Program.

    The mission approved the branding implementation and marking plan under its Capacity Development
    Program on September 17, 2008. Therefore, this recommendation was closed upon report issuance.




                                                    178
                      Audit of USAID/Afghanistan’s
               Accelerating Sustainable Agriculture Program
                           (No. 5-306-08-009-P)

Date:                            August 8, 2008
Implementing Partner:            Chemonics International, Inc.
Audit Period:                    November 2006 to December 2007
Funding:                         As of November 2007, the contract ceiling was increased to $102
                                 million. As of December 31, 2007, USAID had obligated $77
                                 million and disbursed $16 million.

Background—Summary of Findings

Afghanistan, a country that once had a strong           issues that affected the mission’s management
agricultural sector, has become dependent on            of the program during the first year:
international food aid. To deal with ongoing
political instability and economic hardship,                •   The Mazar Foods Initiative—a key
farmers turned to the cultivation of opium                      agricultural        activity—experienced
poppies to provide necessary income. In an                      significant delays.
effort to respond to this agricultural crisis,              •   Environmental        evaluations     and
USAID/Afghanistan            launched       its                 assessments were not conducted in
Accelerating Sustainable Agriculture Program                    accordance with regulations.
in the northern, northwestern, and western                  •   Significant defects in constructed
provinces. The intent of the program was to                     buildings have delayed handover to
accelerate broad-based, market-led agricultural                 the Government of Afghanistan.
development that is capable of responding                   •   The contractor did not comply with
and adapting to market forces and, in the                       USAID’s branding and marking
process, provide new economic opportunities                     requirements, have adequate support
for rural Afghans.                                              for reported results, receive prior
                                                                written     approval       to   purchase
OIG conducted an audit of USAID’s efforts                       restricted    commodities,       provide
in August 2008. Because the program had                         performance reports that were in
begun on November 22, 2006, it was too early                    accordance with contract terms, or
to judge whether it was succeeding in                           properly account for program income.
accelerating    broad-based,     market-led                 •   The USAID mission approved an
agricultural development in areas of                            incomplete performance management
Afghanistan where it is being implemented.                      plan.
However, the audit identified the following




                                                  179
Recommendations—Management Decisions

OIG issued 15 recommendations:

1. The USAID/Afghanistan CTO should prepare an implementation plan identifying the critical
   tasks needed to implement the Mazar Foods Initiative. This implementation plan should
   identify all tasks that are behind schedule and show how the mission is going to address the
   delay.    Further, the mission should develop a process for periodically updating the
   implementation plan.

   The mission agreed with the recommendation. Prior to the issuance of the audit, the Mazar Foods Initiative
   had an implementation plan in place. The mission stated that any outstanding delays were associated with
   obtaining an Overseas Private Investment Corporation loan and that it would direct Chemonics to resubmit
   an updated implementation plan when program plans change. This recommendation is closed.

2. USAID/Afghanistan should require its environmental officer to provide annual training to
   CTOs and require mission personnel to comply with the environmental regulations outlined in
   Mission Order 04-14 and USAID’s Automated Directives System 204.

   The mission agreed with the recommendation and has completed written procedures. This recommendation
   is closed.

3. USAID/Afghanistan should revise its mission order to be consistent with USAID’s Automated
   Directives System 204 defining CTO responsibilities for monitoring compliance with
   environmental regulations.

   The mission has issued written procedures. This recommendation is closed.

4. USAID/Afghanistan should obtain a written legal decision from its general counsel on how to
   proceed for completed and in-process projects in which environmental regulations were not
   followed.

   The mission consulted with the USAID/Afghanistan Legal Advisor, the USAID Office of the General
   Counsel, and the USAID Agency Environmental Coordinator. In accordance with 22 CFR 216.3(a)(7),
   USAID stated that it would require the contractor to conduct the environmental review of the ongoing or
   completed subprojects or aspects thereof, as required by the Initial Environmental Evaluation for the SOAG.
   USAID would also require the contractor to take any mitigating measures developed as a result of the
   review. This recommendation is closed.

5. USAID/Afghanistan should prepare procedures requiring review of construction design plans
   and provide quality assurance oversight by the Office of Infrastructure, Engineering and Energy.

   The mission has completed the written procedures. This recommendation is closed.

6. USAID/Afghanistan should require engineers from the Office of Infrastructure, Engineering
   and Energy to work with Chemonics to take corrective action on each of the construction defects
   and to require these engineers to be part of the final inspection.




                                                    180
      USAID instructed Chemonics International to demolish/reconstruct the Parwan, Panjshir, and Kunduz
      buildings and to demolish/rehabilitate the Mazar and Heart buildings, and Chemonics agreed to comply
      with the contracting officer’s instructions. Chemonics International will collaborate with USAID in the
      reconstruction and rehabilitation of the buildings. USAID has issued a mission directive to ensure that
      engineers are involved so that the projects meet all building requirements. This recommendation is closed.

 7. USAID/Afghanistan should reevaluate Chemonics’ March 2008 revised marking and branding
      plan and make a determination whether to approve any exceptions to marking requirements
      included in the plan.

      The mission agreed with the recommendation. A revised marking and branding plan was approved by the
      contracting officer, and the contract was modified on October 13, 2008. This recommendation is closed.

 8. USAID/Afghanistan should develop procedures requiring CTOs to verify and document, as part
      of their site visits, that items purchased or built with USAID funds are properly marked.

      The mission agreed with the recommendation and issued a May 12, 2008, mission order that addresses
      CTO certification of contractor/recipient compliance with delivery requirements under their respective
      awards. Marking of the items purchased or built with USAID funds is part of the delivery requirement.
      This recommendation is closed.

 9. USAID/Afghanistan’s CTO should issue a technical directive that requires Chemonics to define
      the roles and responsibilities of the monitoring and evaluation staff, to include a system to
      ensure that the program’s data is accurate and easily accessible.

      The mission agreed with the recommendation and had Chemonics submit a revised performance
      management plan. The revision was sent to the CTO on July 17, 2008. The mission did not believe that
      an additional technical directive was necessary, since the response to the recommendation was included in
      the July 17, 2008, performance management plan. This recommendation is closed.

10.   USAID/Afghanistan’s CTO should require Chemonics to perform a data quality assessment
      before the issuance of the next annual report.

      A data quality assessment was completed by the Alternative Development and Agriculture (ADAG)
      Monitoring and Evaluation Staff of the Accelerating Sustainable Agriculture Program, jointly undertaken
      with Chemonics. The data quality assessment checklists for the program's 21 performance indicators were
      approved by the mission in November 2008. The mission has determined that, in order to increase the level
      of monitoring and evaluation of all ADAG programs, an annual program statement will be issued. An
      independent third party will be made available to provide monitoring, evaluation, and DQAs for various
      projects, which will include random sampling for onsite, field verifications of activity data indicators, and
      reported outcomes. This recommendation is closed.

11.   USAID/Afghanistan should determine the allowability and collect as appropriate $37,573 for
      commodities purchased by Chemonics without prior written approval from the mission.

      The mission agreed with the recommendation. It obtained a letter from Chemonics dated May 31, 2008,
      stating that the contractor would credit all program income, including the questioned amount, to the
      contract. The mission stated that it would evaluate new invoices to ensure Chemonics’ compliance. In


                                                        181
      addition, Chemonics has established a separate bank account and separate expense books to account for
      program income. This recommendation is closed.

12.   USAID/Afghanistan’s CTO should issue a technical directive to require Chemonics to identify
      in its invoices costs associated with restricted commodities.

      The mission agreed with the recommendation. In a CTO meeting with ASAP on
      July 11, 2008, ASAP agreed to begin identifying restricted commodity purchases in its monthly invoices.
      USAID stated that it would verify compliance with the requirement in Chemonics’ July 2008 invoice. Since
      ASAP agreed to the monthly invoice changes as recommended, the mission felt that a separate technical
      directive was not necessary. This recommendation is closed.

13.   USAID/Afghanistan should direct Chemonics to reduce future billings to USAID by $129,731
      for program income collected as of March 31, 2008, and comply with the terms of the contract
      for any income received after March 31, 2008.

      USAID sustained the total $129,731 in questioned program income and has recovered the costs from
      Chemonics. This recommendation is closed.

14.   USAID/Afghanistan should develop procedures requiring the Program and Project
      Development Office to review performance management plans of contractors and grantees for
      compliance with USAID’s Automated Directives System 203 prior to approval by the CTO.

      The mission has completed written procedures. This recommendation is closed.

15.   USAID/Afghanistan should determine the nature, format, and timing of the reports required to
      monitor contract performance effectively and align the contract reporting requirements to these
      expectations.

      The mission agreed with the recommendation. The contracting officer and CTO have already addressed
      these concerns in a draft modification to the ASAP contract. Thus, a management decision was made in
      August 2008. This recommendation is closed.




                                                      182
                     Audit of USAID/Afghanistan’s
           Small and Medium Enterprise Development Activity
                         (No. 5-306-08-006-P)

Date:                              June 23, 2008
Implementing Partner:              Development Alternatives, Inc.
Audit Period:                      January to December 2007
Funding:                           As of December 31, 2007, $20.4 million had been obligated and
                                   $13.2 million disbursed.

Background—Summary of Findings

USAID awarded a $36.8 million contract to                 sector to stimulate investment and business
Development Alternatives, Inc., to implement              opportunities.
the Afghanistan Small and Medium
Enterprise Development Activity.          This            One of the problems that the audit disclosed
project was intended to support the rapid                 was the unreliability of the contractor’s
transition of Afghanistan to a more stable and            performance data. Auditors were unable to
productive state by promoting sustainable                 determine whether the majority of
economic and social development.           The            performance indicators (11 out of 18) were
project had several goals:      promoting a               showing results because of a lack of proper
thriving licit economy led by the private                 management controls, which in turn
sector, working with the Government of                    produced       overstated    project results.
Afghanistan to develop sound economic                     Moreover, the audit documented a need for a
governance, and partnering with the private               Web-based management information system
                                                          and realistic project goals.

Recommendations—Management Decisions

The audit report made four recommendations:

1. That USAID require its CTO to work with the contractor to refine the project database and
    eliminate duplicate records, as well as to ensure that the data in the project database are reliable.

    On May 21, 2008, a mission-hired expert determined that the contractor had effectively corrected the
    duplication errors and developed a productive and comprehensive method of reducing duplications and
    identifying those that occur. This recommendation is closed.

2. That USAID require the contractor to develop a plan of action to implement a Web-based
    information system.

    The mission and contractor worked together to develop the recommended plan of action, which included
    training for monitoring and evaluation staff, creation of a user’s manual, and planned visits to regional
    offices for data verification and oversight. This recommendation is closed.



                                                    183
3. That USAID require the CTO to provide technical direction to the contractor in updating the
   performance management plan, redefining performance indicators and targets, and redirecting
   resources to areas where more of an impact can be made.

   The mission has developed the recommended plan of action to modify the contract to better align the scope of
   work with the current situation in Afghanistan and to develop a new performance monitoring plan. The
   new plan will be discussed with the Office of Program and Project Development to ensure consistent
   monitoring and evaluation of the activity. This recommendation is closed.

4. That the CTO formally approve the revised performance management plan.

   The mission’s CTO formally approved the updated performance monitoring plan, and the recommendation
   was closed in October 2008. This recommendation is closed.




                                                    184
                      Audit of USAID/Afghanistan’s
          Alternative Development Program—Southern Region
                          (No. 5-306-08-003-P)
Date:                              March 17, 2008
Implementing Partner:              Chemonics International, Inc.
Audit Period:                      February 2005 to September 2007
Funding:                           As of September 30, 2007, USAID/Afghanistan had obligated
                                   $76 million and disbursed $60 million for the Alternative
                                   Development Program—South.

Background—Summary of Findings

In February 2005, USAID awarded a 4-year,                 efforts have had little impact on the overall
$120 million contract to Chemonics                        U.S. strategy for reducing poppy production
International, Inc., to implement Alternative             in Afghanistan.
Development        Program—South      in    the
Helmand, Kandahar, and Uruzgan Provinces.                 The program could have been more successful
In May 2007, supplemental funding raised the              had it started when originally planned.
contract ceiling to $166 million.          The            Chemonics evacuated in May 2005 because of
program has two objectives: (1) to help                   security issues and did not return until
accelerate licit economic growth and business             September 2005.        The mission did not
activity in selected provinces in which poppy             approve the Chemonics work plan until
cultivation is thriving and (2) to help provide           February 2006, focusing on long-term
an immediate alternative source of income to              planning rather than rolling out program
poor households whose livelihoods depend,                 activities.  Chemonics and the mission
directly or indirectly, on the opium economy.             experienced turnover in critical program
                                                          positions. As a result, the program missed the
The mission exceeded its planned targets for              opportunity to induce more Afghans not to
six of the indicators, partially achieved its             plant poppies in the fall of 2005 by providing
target for eight indicators, and did not achieve          them with immediate alternative sources of
its target for one indicator. The mission’s               income.

Recommendations—Management Decisions

OIG recommended that the mission develop procedures setting requirements to ensure the timely
review and approval of work plans.

On March 12, 2009, a mission notice was issued, providing the necessary guidelines to ensure CTOs’ adherence
to annual work plan submittal and approval requirements. This recommendation is closed.




                                                    185
                         Audit of USAID/Afghanistan’s
                 Agriculture, Rural Investment, and Enterprise
                            Strengthening Program
                              (No. 5-306-08-001-P)

Date:                               January 22, 2008
Implementing Partners:              Academy for Educational Development, et al.
Audit Period:                       September 16, 2006, to September 30, 2007
Funding:                            As of September 2006, the Academy for Educational Development
                                    was awarded a 3-year, $80 million cooperative agreement. As of
                                    September 30, 2007, $54 million had been obligated and $30
                                    million had been disbursed for program activities.

Background—Summary of Findings

In September 2006, USAID awarded a 3-year                   under the program because of contract
contract to the Academy for Educational                     restrictions, which prevented issuing grants to
Development (AED) to implement the                          fund such activities.
Agriculture, Rural Investment and Enterprise
Strengthening (ARIES) Program. The overall                  The audit found that in its first year the
purpose of the program was to provide                       ARIES Program had achieved or exceeded
expanded access to rural financial services,                most of its goals and had helped make a
primarily in alternative development program                significant impact in expanding Afghanistan’s
regions’ key poppy-growing provinces, and to                licit rural economy by creating nearly 63,000
create a strong private sector foundation to                jobs. Despite these achievements, OIG found
provide a spectrum of substantial financial                 that the ARIES Program could have been
services. USAID/Afghanistan’s Alternative                   more successful with implementing small and
Development Program (ADP) was to have                       medium enterprise program loan segment
included activities to accelerate legitimate                activities and investment and finance
economic growth in key poppy-growing                        cooperatives (IFCs). OIG also found several
provinces by creating or strengthening credit               areas in which the implementation and
and financing institutions. However, credit                 management of the program could be
and financing activities were not implemented               improved.

Recommendations—Management Decisions

This report made six recommendations to help USAID/Afghanistan improve its oversight of the
ARIES Program in the remaining 2 years of the cooperative agreement:

1. AED is required to make clear to its partners that the ARIES Program is to be implemented
   primarily in ADP regions and to dovetail with regional ADP priorities.

    The mission informed AED that it should emphasize to its partners the importance of reports and
    publications that accurately reflect the priority given to ADP regions and document how they are dovetailing
    with the ADP as required by the cooperative agreement. This recommendation is closed.


                                                     186
2. Work with AED to establish formal goals in its work plan for implementing ARIES activities in
   ADP regions.

    The ARIES second-year work plan submitted to and subsequently approved by the mission clearly describes
    the provinces where the program creates new financial service outlets, supports existing outlets, and disburses
    micro- and SME loans. All of the provinces referenced in the work plan are considered part of the ARIES
    target regions, as described in the cooperative agreement, and fall within the ADP priority areas. This
    recommendation is closed.

3. Direct AED to communicate success stories related to shifting opium-poppy workers into licit
   livelihoods as a result of ARIES loans in ADP regions.

    The mission directed AED to submit a minimum of two articles per month to ensure effective
    communication of success stories. This recommendation is closed.

4. Direct AED to revise its ARIES performance monitoring plan to include appropriate
   performance indicators and targets and provide quarterly reports of those results to USAID.

    The revised performance monitoring plan for FY 2008, which has been submitted for approval to the
    mission, includes specific targets in ADP regions for activities in the remaining 2 years of the cooperative
    agreement and will measure SME and micro-finance activities. These results will also be submitted on a
    quarterly basis. This recommendation is closed.

5. Direct AED to ensure that one of its partners, the World Council of Credit Unions (WOCCU),
   establishes and maintains appropriate systems and processes for recording, reporting, and
   internal monitoring of the operating activities of its IFCs as required by the ARIES work plan.

    A strategic decision was made in November 2006 to begin installing Micro Banker, an integrated
    accounting software program, in each IFC 6 months after the startup of operations in order to increase the
    efficiency and accuracy of WOCCU’s monitoring and reporting as well as to consolidate information more
    easily across different IFCs. This strategy is based on WOCCU’s previous experience in Uzbekistan, which
    shows that training IFC staff on a manual accounting system is a necessary prerequisite to introducing an
    integrated accounting software program. This recommendation is closed.

6. Direct AED to ensure that WOCCU implements an integrated accounting system at each of its
   IFCs as required by its subagreement.

    In accordance with mission suggestions, WOCCU planned to adopt the International Financial Reporting
    Standard for the IFCs and install Micro Banker, an integrated accounting software program, in each IFC 6
    months after the startup of operations. This recommendation is closed.




                                                       187
188
            Afghanistan Performance Audits
                                 Fiscal Year 2007
                                                    
                  Audit of Selected Follow-on Activities
              Under USAID/Afghanistan’s Economic Program
                           (No. 5-306-07-009-P)
Date:                            August 31, 2007
Implementing Partner:            BearingPoint, Inc.
Audit Period:                    September 2005 to May 2007
Funding:                         As of May 2007, obligations and expenditures totaled $33 million
                                 and $19 million respectively for a 3-year, $46 million contract.

Background—Summary of Findings

The Economic Governance and Private Sector              organizations   in   support   of   the   three
Strengthening Program’s central goal is to              objectives.
assist the Government of Afghanistan (GoA)
in establishing an environment that will                The audit found that some results had been
promote rapid economic development and                  achieved. This finding was based on a
sustained high rates of economic growth led             selected review of technical services provided
by the private sector. Under the contract,              by BearingPoint over a 20-month period
USAID signed six agreements with the GoA                (September 2005 to May 2007). For instance,
for BearingPoint, Inc., to provide technical            advisers developed diagnostic reports that
assistance and support for capacity building to         analyzed the deficiencies in two state-owned
six ministries and organizations: (1) Da                banks, made recommendations needed to
Afghanistan Bank; (2) the Ministry of                   revitalize the banks, contributed to the
Commerce and Industry; (3) the Ministry of              establishment       of    the      Afghanistan
Communications          and        Information          Telecommunications Regulatory Authority,
Technology; (4) the Ministry of Finance                 helped improve accounting functions in a
Customs, Human Resources, and Secretariat;              bank to ensure international standards,
(5) the Ministry of Finance state-owned banks;          assisted in drafting 10 commercial laws, and
and (6) the Office of the President/Office of           assisted in automating the Ministry of Finance
the Senior Economic Adviser to the President.           customs      functions   to    comply     with
                                                        international standards.
USAID and the GoA agreed to work plans
and activities with which BearingPoint would            The audit also found instances in which
be engaged. Technical advisory services were            results had not been achieved. BearingPoint
intended to contribute to aspects of one or             did not assist the Ministry of Finance in
more of the following objects: (1)                      promoting a modern human resources
restructuring of the governmental ministries            management system because the GoA did not
and organizations, (2) legal and regulatory             have a counterpart with which it could work.
reform, and (3) capacity building. As of May            As a result, progress had not been realized
2007, BearingPoint had 37 advisers providing            toward accomplishing agreed-upon activities
assistance to the above ministries and                  established in the work plan for the Ministry



                                                  189
of Finance, and the ministry had difficulty                There were three CTOs for the contract, and
acquiring trained staff.                                   each had a different opinion as to what the
                                                           indicators should be. While the contractor
The audit also found that USAID and                        did provide monthly reports that described
BearingPoint did not have agreed-upon                      activities accomplished, there were no set
performance indicators, contrary to USAID’s                indicators to report how the accomplishments
written   policy,    which    requires    the              compared to planned targets at any given
establishment of set performance targets that              time, thus compromising the effective
can be achieved within a specific timeframe.               management of the contract.

Recommendations—Management Decisions

Two recommendations were made by the audit:

1. That USAID/Afghanistan reevaluate the work plan for one particular project implementation
   letter and decide whether to allow BearingPoint to continue with the planned activities to
   provide a human resources adviser to the Ministry of Finance for the duration of the contract or
   to revise the plan.

    The mission decided to assign a human resources adviser to the Ministry of Finance, and that person started
    in June 2007. This recommendation is closed.

2. That USAID/Afghanistan require BearingPoint to review, reassess, and update the work plans
   for the six project implementation letters issued under the program, and to include agreed-upon
   performance indicators and set targets that will be used to measure the program’s intended
   results.

    The mission and BearingPoint developed a combined work plan for all implementation letters, which
    included indicators and targets. This recommendation is closed.




                                                     190
                          Audit of USAID/Afghanistan’s
                       Urban Water and Sanitation Program
                              (No. 5-306-07-006-P)
  
Date:                             June 7, 2007
Implementing Partner:             Camp Dresser and McKee, Inc.
Audit Period:                     September 2004 to December 2006
Funding:                          As of December 20, 2006, USAID had obligated
                                  $37.3 million and disbursed $36.2 million.

Background—Summary of Findings

OIG conducted this audit to determine                    recognizing the need for operator training for
whether selected activities under USAID’s                the newly built water distribution systems, the
Urban Water and Sanitation Program were                  mission did not properly assess the training
on schedule to achieve planned results                   provided to proposed operators or the Afghan
(contract deliverables). Although planned                Government’s plans to ensure the financial
contract deliverables were generally being               and operational sustainability of the newly
achieved under the mission’s Afghanistan                 built systems.
Urban Water and Sanitation Program, OIG
concluded that the long-term program was                 In       addition,     substantive   contract
questionable and that contract administration            administration problems were identified with
problems existed between the mission and                 the implementation of program activities.
Camp Dresser and McKee, Inc. (CDM), the                  First, the mission’s CTO requested that CDM
implementing contractor.                                 make unauthorized changes in its work efforts
                                                         in Kandahar. Second, the mission did not
Under the program, CDM was contracted to                 require CDM to comply with all contract
design and construct or improve water                    work requirements or to meet reporting
distribution systems, prepare water system               requirements needed to assist the mission in
feasibility studies, deliver capacity-building           evaluating the program. Third, the mission
assistance, and provide water and sanitation             did not require CDM to provide it with
technical advisory services. CDM was able to             necessary financial information to help
achieve several of the program objectives (e.g.,         monitor contract costs. As a result, the
completing water distribution systems in                 mission’s system for controlling, projecting,
Gardez, Ghazni, and Chil Duktharan and                   and monitoring the contract costs did not
extending the water distribution system in               provide for the necessary information to
Karte Se). However, OIG noted concerns                   foresee the contractor’s requests for
about the sustainability of the newly                    $1.6 million in additional funds a month
constructed and extended water distribution              prior to the end of the contract.
systems that could affect the program’s future
benefits or impact.       For example, after




                                                   191
Recommendations—Management Decisions

The audit report made five recommendations to help correct the identified problems:

1. That USAID/Afghanistan assess particular sites and provide any necessary training.

    The mission agreed with the recommendation. USAID/Afghanistan's monitoring contractor, International
    Relief & Development, Inc., conducted an assessment of the operators' training needs and provided the
    necessary practical and in-class training to 10 operators and 16 operator trainees of the water supply
    projects in Ghazni, Gardez, and Chil Dukhtaran from November 10 to 30, 2007. This recommendation is
    closed.

2. That USAID/Afghanistan assist the relevant Government of Afghanistan ministries in
    determining the appropriate user fees to be charged to water system clients and how to increase
    usage of water system services by potential clients.

    The mission planned to have an assessment conducted and then provide technical assistance to the ministries
    as needed by the end of April 2008. This recommendation is closed.

3. That USAID/Afghanistan require briefings for all incoming CTOs to reinforce the knowledge of
    applicable contractual delegated authorities and limitations for the duration of their stay in
    Afghanistan.

    The mission institutionalized a practice and developed new procedures to brief all incoming cognizant
    technical officers. This recommendation is closed.

4. That USAID/Afghanistan require that CTOs fulfill their contract administration responsibilities
    at least quarterly, as applicable, by confirming and documenting that contractors are complying
    with specific contract reporting requirements.

    The mission planned to develop a new mission order by May 2008 to provide for quarterly reporting and
    certifications by CTOs that applicable monitoring duties were performed. This recommendation is closed.

5. That USAID/Afghanistan strengthen its system for controlling, projecting, and monitoring
    contract costs.

    The mission developed new procedures for controlling, projecting, and monitoring contractor costs. This
    recommendation is closed.




                                                     192
        Audit of Critical Power Sector Activities Under
   USAID/Afghanistan’s Rehabilitation of Economic Facilities and
                   Services (REFS) Program
                      (No. 5-306-07-004-P)
Date:                            May 21, 2007
Implementing Partner:            Louis Berger Group, International (LBGI)
Audit Period:                    January to December 2006
Funding:                         The critical power sector activities audited under the REFS program
                                 were estimated to cost $25 million. As of December 31, 2006,
                                 $15.6 million had been spent.

Background—Summary of Findings

The Rehabilitation of Economic Facilities and           because of security problems at the dam.
Services (REFS) Program was one of the                  Although the refurbished turbine delivered
largest    and    most      visible programs            16.5 megawatts of reliable hydroelectric
implemented by USAID/Afghanistan. Its                   power, delays in the other two activities
purpose was to promote economic recovery                postponed the delivery of 35 megawatts of
and     political  stability     by repairing           reliable hydroelectric power to about 2
infrastructure.                                         million people in southern Afghanistan.

Providing electrical power to Afghans was               After numerous attacks around the dam and
considered important to the development of              the subsequent evacuation of LBGI
Afghanistan and key to its political stability.         personnel, USAID/Afghanistan, the U.S.
To this end, the country’s power and energy             Embassy, and LBGI took action in response.
sector was targeted for rehabilitation under            LBGI prepared a security plan to upgrade its
the REFS Program. LBGI concentrated on                  own security at the dam, while USAID and
activities that provided electrical power to            the Embassy lobbied the International
Kabul and the southern provinces of                     Security Assistance Force, which had replaced
Helmand and Kandahar—the agricultural                   U.S. forces in the area, to provide more
breadbasket of the country. The most critical           military protection.       The International
activities involved the rehabilitation of the           Security Assistance Force increased its
Kajakai Dam power plant through the                     presence around the Kajakai Dam.
refurbishing of two turbines and the                    Nonetheless, LBGI was unable to return to
manufacturing and installing of a third.                the dam to resume its rehabilitation work as
                                                        of January 29, 2007.
The audit found that one turbine had been
refurbished as planned, but work on the other
two turbines was significantly behind schedule




                                                  193
Recommendations—Management Decisions

Because the mission could not control the security situation around the dam, and because its actions
as of the time of the audit seemed appropriate, OIG did not make any recommendations.




                                                194
                            Audit of USAID/Afghanistan’s
Because the mission could not control the security situation around the dam, and because its actions
              Alternative Livelihoods Program—Eastern Region
as of the time of the audit seemed appropriate, OIG did not make any recommendations.
                                   (No. 5-306-07-002-P)

Date:                            February 13, 2007
Implementing Partner:            Development Alternatives, Inc.
Audit Period:                    February 2005 to September 2006
Funding:                         As of September 30, 2006, USAID had obligated
                                 $54 million and disbursed $24 million.

Background—Summary of Findings

In February 2005, USAID awarded a 4-year,               Achievements that supported ALP/E’s
$108 million contract to Development                    objective of providing an immediate
Alternatives, Inc. (DAI), to implement the              alternative source of income to those who
Alternative Livelihoods Program—Eastern                 depend on the opium economy included
Region (ALP/E) in the provinces of Kunar,               $4,209,670 paid to 19,698 Afghans through
Laghman, and Nangarhar. ALP/E’s goal is to              cash-for-work projects.    Two performance
accelerate broad-based, sustainable regional            indicators could not be evaluated because
economic development to provide new                     sufficient     information       on     actual
opportunities for Afghans to seek livelihoods           accomplishments was not available or the
in the licit economy in the eastern region of           related program activities were not fully
Afghanistan. The program has two objectives:            implemented.
(1) to help accelerate licit economic growth
and business activity and (2) to help provide           Despite its achievements, ALP/E could have
an immediate alternative source of income to            been more successful had the program started
poor households whose livelihoods depend,               when originally planned and had contracting
directly or indirectly, on the opium economy.           snags been quickly resolved. For example,
                                                        ALP/E missed the opportunity to induce
In FY 2006, ALP/E achieved significant                  more Afghans not to plant opium poppies in
results for 13 of 15 performance indicators             the winter of 2005 because the implementing
used by USAID to measure whether the                    contractor did not roll out the program as
program was achieving planned results.                  quickly as had been expected. Further,
Achievements that supported ALP/E’s                     ALP/E did not deliver the anticipated $1.6
objective of accelerating licit economic growth         million in microfinance loans intended to
and business activity included 27,534 hectares          provide about 8,000 Afghans with alternatives
devoted to licit agricultural production and            to growing opium poppies because USAID
98,154 farmers trained in agricultural                  had used a contracting mechanism that
practices.                                              impaired its contractor’s ability to fully
                                                        implement credit and finance activities.




                                                  195
Recommendations—Management Decisions

The audit made four recommendations:

1. USAID should require DAI to replace the performance indicator on the number of Afghans
   receiving agricultural credit through ALP/E with a performance indicator that reflects the
   program’s shift from funding microfinance loans to facilitating the issuance of such loans.

    On January 30, 2007, the mission issued a technical directive to DAI directing that the indicator “Afghans
    receiving credit through ALP” be removed from the performance management plan and replaced by “number
    of loan agreements facilitated.” This recommendation is closed.

2. USAID should update its performance target for kilometers of rural roads repaired in poppy
   regions to a realistic level that reflects the additional $11 million of funding for this activity.

    DAI updated its FY 2006 target for kilometers of rural roads repaired in poppy regions.               This
    recommendation is closed.

3. USAID should develop a plan of action to ensure that performance targets are updated for
   future significant program changes.

    On January 30, 2007, the mission issued a technical directive to DAI indicating that all required
    performance targets will be reviewed with the CTO on a monthly basis, with revisions made as appropriate.
    This recommendation is closed.

4. USAID should develop mission-specific procedures requiring that site visits of program activities
   be documented and maintained in CTO files.

    On December 17, 2006, the mission issued Mission Notice No. 2006-106, Roles and Responsibilities of
    CTOs. This notice was issued to (1) require all CTOs to document and keep files of site visit reports; (2)
    remind COs/agreement officers, CTOs, and the supervisors of CTOs, about the interrelated nature of CTO
    performance and the monitoring thereof in the context of how designated CTOs perform their CTO duties
    and responsibilities as stated in their CTO designation letter; and (3) encourage joint site visits by CTOs
    and representatives from other offices who are involved in monitoring the performance and financial status
    of USAID/Afghanistan projects. This recommendation is closed.




                                                     196
            Afghanistan Performance Audits
                                   Fiscal Year 2006
                       Audit of USAID/Afghanistan’s
             School and Health Clinic Reconstruction Activities
                           (No. 5-306-06-008-P)
Date:                              August 18, 2006
Implementing Partners:             Cooperative Housing Foundation International
                                   International Organization for Migration
                                   Louis Berger Group, Inc.
                                   Shelter for Life International
                                   United Methodist Committee on Relief
                                   United Nations Office for Project Services
                                   U.S. Army Corps of Engineers
Audit Period:                      September 2002 to April 2006
Funding:                           As of April 2006, the mission had recorded obligations of about
                                   $92 million and disbursements of about $81 million for program
                                   activities.

Background—Summary of Findings

USAID’s      school     and    health   clinic            Although it was on schedule to achieve 91
reconstruction activities were on schedule to             percent of its planned results, USAID had
achieve planned results. Specifically, as of              taken much longer than anticipated to reach
April 19, 2006, USAID and its implementing                this point. Factors such as deteriorating
partners were on schedule to complete 705 of              security and weather restrictions were often
the 776 school and health clinic buildings (91            responsible for the delay in completion dates
percent) planned to be constructed or                     and changes to the number of buildings to be
refurbished under the Schools and Clinics                 reconstructed under the program. Although
Construction and Refurbishment Program.                   some factors were beyond its control, the
Further, 511 of the 705 buildings had already             mission contributed to delays in getting 71
been completed and turned over to the                     buildings completed.
Government of Afghanistan.

Recommendations—Management Decisions

The audit made two recommendations:

1. USAID should make a final decision on what to do with the 13 buildings that the Louis Berger
   Group, Inc., did not complete and take any actions necessary to carry out its decision.

    USAID/Afghanistan management concluded that security conditions still prevented reconstruction of the
    13 schools and health clinics that the Louis Berger Group, Inc. (LBGI), could not complete. Consequently,



                                                    197
   the mission director signed an action memorandum formally canceling work on the 13 buildings. This
   recommendation is closed.

2. USAID should immediately modify the scope of work in its agreement with the International
   Organization for Migration to add the 51 buildings not completed by Cooperative Housing
   Foundation International and the 2 buildings not completed by the United Methodist
   Committee on Relief.




                                                198
                               Audit of
    USAID/Afghanistan management            USAID/Afghanistan’s
                                         modified  its agreement with the International Organization for
    Migration to add the 51 buildings not completed by Cooperative Housing Foundation International and the
                            Rural Expansion of Afghanistan’s
    2 buildings not completed by United Methodist Committee on Relief. This recommendation is closed.
             Community-Based Healthcare (REACH) Program
                        (No. 5-306-06-007-P)

Date:                             August 16, 2006
Implementing Partner:             Management Sciences for Health
Audit Period:                     April 2003 to March 2006
Funding:                          Estimated costs at the time of audit totaled $88 million.

Background—Summary of Findings

Afghanistan’s health care system is among the             to September 30, 2006.         The Regional
worst in the developing world, and access to              Inspector General/Manila conducted this
care is extremely limited after two decades of            audit       to       determine       whether
war and neglect. Development indicators                   USAID/Afghanistan’s school and health
published by the World Bank and the United                clinic reconstruction activities were on
Nations rank Afghanistan at the bottom of                 schedule to achieve planned results.
virtually every category, including nutrition,
life expectancy, literacy, and infant, child, and         The audit concluded that selected activities
maternal mortality. The health status of                  under USAID’s REACH program achieved
Afghans is among the worst in the world. The              their planned results. Specifically, 19 of 20
average life expectancy is approximately 43               selected activities (95 percent) achieved their
years. About one out of every six Afghan                  planned outputs, and one partly achieved its
children dies before the age of 5. The majority           planned result as of March 31, 2006. For
of Afghans in more than one-third of rural                example, the REACH program awarded $56.2
districts have no access to health care.                  million to 28 grantees to provide basic health
                                                          care to Afghans, and the grantees were
In May 2003, USAID awarded a 3-year, $100                 providing such health care at 329 sites in 14
million contract to Management Sciences for               Afghan provinces.         The program also
Health to implement the REACH Program in                  distributed $4.7 million of essential drugs to
order to improve access to basic health                   its health care providers and trained 568
services for Afghans and to strengthen                    midwives to provide reproductive health care
Afghanistan’s health systems. The focus of                services. Additionally, the program completed
this program is to provide access by moving               some activities aimed at improving the
health care closer to women of reproductive               management and leadership capacity of
age and children under age 5 living in rural              Afghanistan’s Ministry of Public Health.
communities. The contract was subsequently
increased to about $139 million and extended

Recommendations—Management Decisions

No recommendations were made by the audit.




                                                    199
                   Audit of USAID/Afghanistan’s
      Reconstruction of the Kandahar–Herat Highway Under the
              Rehabilitation of Economic Facilities and
                      Services (REFS) Program
                         (No. 5-306-06-005-P)

Date:                            May 18, 2006
Implementing Partner:            Louis Berger Group, Inc. (LBGI)
Audit Period:                    June 2004 to October 2005
Funding:                         As of October 1, 2005, reconstruction of the Kandahar–Herat
                                 Highway was estimated to cost $162 million.

Background—Summary of Findings

The Rehabilitation of Economic Facilities and           2, respectively, which have a combined length
Services (REFS) Program is the largest and              of about 231 kilometers; and the United
most visible program being implemented by               States, through USAID, is funding the
USAID in Afghanistan. Its purpose is to                 reconstruction of sections 3, 4, and 5, which
promote economic recovery and political                 have a combined length of about 326
stability by repairing infrastructure.       In         kilometers.
September 2002, LBGI was awarded a
contract to implement the program with the              USAID’s goal was to have all 326 kilometers
contract base period ending December 2005.              of the highway paved with three layers of
USAID submitted a request to extend the                 asphalt by December 31, 2005. As of the time
contract to July 31, 2007, and to increase its          of audit fieldwork (September 26 to October
cost to $730 million. Reconstruction of the             19, 2005), reconstruction activities were on
Kandahar–Herat portion of the east–west                 schedule to have 302 of 326 kilometers (92.6
highway is a multinational effort.         The          percent) paved with three layers of asphalt.
Kandahar–Herat Highway, about 557                       Although the remaining 24 kilometers were
kilometers long, was divided into five sections         also to have been completed by December 31,
for     reconstruction   purposes.         The          2005, they were not finished on time because
Governments of Japan and Saudi Arabia are               of funding shortages, which the mission could
funding the reconstruction of sections 1 and            have addressed sooner.

Recommendations—Management Decisions

OIG recommended that USAID develop and implement procedures with milestones to document,
track, and promptly resolve significant issues uncovered in its own monitoring efforts that could
affect the progress of its reconstruction activities. USAID implemented the recommendation, and it
was closed at the time the audit report was issued.




                                                  200
                          Audit of USAID/Afghanistan’s
                     Rebuilding Agricultural Markets Program
                               (No. 5-306-06-002-P)

Date:                            March 28, 2006
Implementing Partners:           Chemonics International, Inc.
Audit Period:                    July 2003 to September 2005
Funding:                         As of December 2005, USAID had approved 51 job orders with a
                                 total value of $114 million.

Background—Summary of Findings

USAID’s Rebuilding Agricultural Markets                 Of the six activities reviewed, five achieved
Program (RAMP) aimed to help Afghanistan                their selected planned results and one did not.
rehabilitate its rural sector, focusing                 The five that achieved the planned results
specifically on enhancing food security and             were the rehabilitation of irrigation canals,
increasing rural incomes. In July 2003,                 agricultural microloans disbursed, livestock
USAID awarded Chemonics a 3-year, cost-                 vaccinated or treated, farmers served by
plus, fixed-fee contract for $153.4 million to          extension, and women trained in poultry
implement the activities under this program.            management as of September 30, 2005.
As prime contractor, Chemonics was                      Efforts on irrigation canals resulted in 415
responsible for providing effective leadership,         kilometers rehabilitated. Additionally, more
management, and coordination of program                 than 20,000 women were trained in poultry
activities, which ranged from assessments,              management, and more than 16 million
program design and planning, procurement of             livestock      vaccination/treatments     were
services in support of the core program                 performed. The one activity that did not meet
activities, activity monitoring, and reporting.         the planned output was the rehabilitation of
                                                        farm-to-market roads.

Recommendations—Management Decisions

The audit made three recommendations:

1. USAID should obtain updated work plans from the contractor as required by the contract.

    USAID/Afghanistan obtained an updated FY 2006 work plan and an updated
    life-of-project work plan from the contractor implementing RAMP. Additionally, the mission had
    incorporated these updated plans into its RAMP contract through a contract modification. This
    recommendation is closed.


2. USAID should determine whether the added work under the original contract should have been
   approved and modified within the original contract prior to implementation, in accordance with
   Federal Acquisition Regulation, part 43, on contract modifications. If necessary, USAID’s
   contracting officer should modify the contract accordingly.



                                                  201
   USAID/Afghanistan determined that, for three principal reasons, a modification to the RAMP contract
   was not required to approve activities subsequently added to the activities listed in the original contract.
   First, since RAMP implementation is accomplished through work orders, the activities that were added were
   also done through work orders. Second, the mission asserted that the added activities fell within or were
   consistent with the objectives of the RAMP contract. Third, the mission noted that updated work plans
   (obtained and incorporated into the RAMP contract as discussed in the proceeding paragraph) included the
   added activities. This recommendation is closed.

3. USAID should implement an action plan to require staff to complete and issue contractor
   performance reports to comply with Automated Directives System 302.5.9.

   USAID/Afghanistan issued Mission Notice 2006-05, which established procedures and timelines to ensure
   that contractor performance reports are continually updated and current. Additionally, the mission
   completed a performance evaluation of the RAMP contractor. This recommendation is closed.




                                                    202
                             Audit of USAID/Afghanistan’s
                                Cashiering Operations
                                 (No. 5-306-06-001-P)

Date:                             January 10, 2006
Implementing Partners:            None
Audit Period:                     September 26–28, 2006
Funding:                          N/A

Background—Summary of Findings

USAID/Afghanistan managed its cashiering                 •   Established authorities for cashiers
operations in accordance with established                        commensurate with size of the
regulations, policies, and procedures.                           imprest fund.
                                                         •   Provided training to its cashiers.
The principal requirements to be followed by             •   Issued its own policies and procedures to
missions in managing their cashiering                            provide supplemental guidance.
operations are established in title 31 of the            •   Implemented adequate segregation of
Code of Federal Regulations, part 208; U.S.                      duties.
Department of Treasury’s Manual of                       •   Periodically performed and documented
Procedures and Instructions for Cashiers;                        unannounced cash counts.
U.S. Department of State’s Foreign Affairs               •   Periodically reviewed and adjusted the
Handbook; and USAID’s published guidance                         level of its imprest fund.
such as the Automated Directives System,
chapter 630. These requirements address                  In addition to the measures noted above,
such issues as making cash payments when a               USAID/Afghanistan         installed   physical
country’s infrastructure does not support                safeguards that were commensurate with the
payment by a noncash mechanism,                          size of its imprest fund. For example, the
establishing imprest funds at appropriate                cashiers’ office was segregated from other
levels, designating cashiers, establishing roles         mission offices. Additionally, the principal
and responsibilities for cashiers and their              and the alternate cashiers each had a U.S.
supervisors, and installing adequate physical            Government-approved safe for storing cash,
security and separation of duties.                       paid vouchers, checks, and other cashiering
                                                         documentation. The two safes had different
USAID/Afghanistan provided guidance to                   combinations that were appropriately
cashiers and implemented other internal                  safeguarded. The mission also installed a
controls to carry out its cashiering operations          security camera to monitor the cashiers’ office
according to established requirements. For               24 hours a day, 7 days a week. Moreover, the
example, the mission took the following steps:           mission routinely requested that the regional
                                                         security officer provide armed escorts when
•   Followed appropriate procedures          in          mission cashiers went to the bank to replenish
    establishing its imprest fund.                       the imprest fund.
•   Formally designated its cashiers.
                                                         OIG performed an unannounced cash count
                                                         of the imprest fund maintained by the


                                                   203
principal and alternate cashiers. Specifically,         subcashiers, and accommodation exchange
OIG verified the accuracy of the cashiers’              transactions—was accounted for and properly
reconciliation statement to account for the             documented except for an immaterial
imprest fund total of $230,587. The cash                shortage of $22. Additionally, our testing
count found that the $230,587—consisting of             found that the size of the imprest fund was
cash and other cashiering documentation                 not excessive but in line with the mission’s
such as paid vouchers, cash advances to                 needs.

Recommendations⎯Management Decisions

The audit made no recommendations.




                                                  204
              Audit of Funds Earmarked by Congress to
        Provide Assistance for Displaced Persons in Afghanistan
                         (No. 9-306-06-004-P)

Date:                             December 21, 2005
Implementing Partners:            U.S. Army Corps of Engineers, the Government of Afghanistan,
                                  and local contractors
Audit Period:                     FY 2004 and 2005 earmarked funds—fieldwork occurred in
                                  October 2005
Funding:                          Earmarked funds totaled $15 million.

Background—Summary of Findings

Congress        appropriated      emergency
supplemental funds to assist in meeting the              As of September 30, 2005, only $600,000 of
urgent humanitarian and housing needs of                 the $10 million appropriated for FY 2004 had
displaced Afghans. The United Nations                    been used to provide shelter materials and
estimated that        1 million Afghans had              basic necessities for displaced persons in
unmet shelter and basic necessity needs for              Kabul. Additionally, as of September 30,
the winter of 2005–2006 and that there were              2005, although Congress had been notified
more than 3 million Afghan refugees in                   that the funds would be transferred to the
Pakistan and more in Iran, many of whom                  Department of State’s Bureau of Population,
would be forced to return to Afghanistan. It             Refugees, and Migration, none of the $5
was estimated that approximately 80 percent              million appropriated for FY 2005 had been
of these returnees did not own land and                  transferred or spent by the mission.
would require shelter and other basic
necessities.

Recommendations—Management Decisions

The audit made three recommendations:

1. USAID should, for the $9.4 million obligated under the limited-scope grant agreement (and to
   fund specifically identified assistance activities for displaced Afghans in and around Kabul),
   reprogram the balance of approximately $4.97 million that was subobligated under the
   participating agency program agreement and subobligate the $4.4 million not yet subobligated.

    USAID deobligated all unexpended funds, totaling $4.9 million, and reprogrammed the funds to an Office
    of Foreign Disaster Assistance contract with CARE to provide shelter to displaced Afghans. USAID also
    subobligated the remaining $4.5 million into a participating agency program agreement with the
    Department of State's Bureau of Population, Refugees, and Migration. This recommendation is closed.

2. In coordination with the Department of State’s Bureau of Population, Refugees, and Migration,
   develop a plan to use the balance of approximately $9.37 million to meet the basic necessities of
   displaced Afghans in and around Kabul.



                                                   205
   USAID and the Department of State's Bureau of Population, Refugees, and Migration developed a plan to
   use the $9.4 million for shelter related needs and other emergency activities for displaced Afghans in Kabul
   and other provinces. This recommendation is closed.

3. Inform Congress, as appropriate, of its plans to use the $5 million earmarked in FY 2005 for
   assistance to displaced Afghans and use these funds for this assistance, as Congress intended.

   Through a revised December 2005 report, dated May 15, 2006, USAID notified Congress of its plans to
   use the $5 million. This recommendation is closed.




                                                    206
            Afghanistan Performance Audits
                                   Fiscal Year 2005

                              Audit of USAID/Afghanistan’s
                                Primary Education Program
                                  (No. 5-306-05-005-P)

Date:                              April 14, 2005
Implementing Partner:              Creative Associates International, Inc. (CAII)
Audit Period:                      January 2004 to December 2004
Funding:                           Estimated costs at the time of audit totaled $88 million.

Background—Summary of Findings

USAID designed the Afghanistan Primary                     assistance to the Ministries of Education and
Education Program (APEP) using a two-phase                 Higher Education.
strategy. Phase 1 included reproducing and
distributing 10.2 million textbooks, training              As of December 31, 2004, 3 of 10 APEP
600 teachers, developing and broadcasting                  activities audited had not achieved their
radio-based teacher training programs, and                 planned results, although significant progress
providing accelerated-learning classes to                  had been made. Specifically, both textbook
15,706 students. Phase 2 included expanding                distribution and grade equivalents for
APEP activities to 17 provinces, distributing a            accelerated-learning students were delayed,
second round of 16.2 million textbooks,                    and the female student enrollment target was
enhancing the quality of teaching by                       not achieved. These activities did not achieve
providing training to 6,800 teachers,                      their planned results for a number of reasons,
expanding accelerated-learning classes to reach            including a delay in receiving funding for
170,000 students, and providing technical                  APEP.

Recommendations—Management Decisions

Four recommendations were made:

1. Obtain from CAII a distribution plan identifying the specific dates and locations for delivering
   the remaining textbooks in storage to ensure that the correct quantity, grade level, and language
   of textbooks are distributed to schools.

    CAII sent USAID a distribution plan identifying the grade level and language of textbooks and the specific
    dates and locations for delivering the remaining textbooks in storage. This recommendation is closed.


2. Define the method to compute grade equivalents to be achieved. If change is needed to meet the
   planned results, the mission should obtain a detailed action plan from CAII showing how the
   grade-equivalent shortfalls will be achieved.



                                                    207
   USAID changed the language for the planned results so that computing grade equivalents is clearly
   understood as grades “in process.” This recommendation is closed.

3. Reassess the female enrollment target to ensure that performance can be managed toward an
   obtainable target.

   USAID revised the female enrollment to “52.2 percent of girls participate in learning activities.” This
   recommendation is closed.

4. Conduct a current performance evaluation of the contractor and prepare a report documenting
   the results.

   The CTO completed and submitted a contractor performance report for the Afghanistan Primary Education
   Program on March 27, 2005. This recommendation is closed.




                                                  208
                         Audit of USAID/Afghanistan’s
                    School and Clinic Reconstruction Program
                              (No. 5-306-05-003-P)

Date:                        March 14, 2005
Implementing
Partners and                Cooperative Housing Foundation International (CHF) $11.7 million
Estimated Costs to          International Organization for Migration (IOM)            18.6 million
Complete:                   Louis Berger Group, Inc. (LBGI)                           23.8 million
                            Shelter for Life International (SFL)                       7.6 million
                            United Methodist Committee on Relief (UMCOR)                4.6 million
                            United Nations Office for Project Services (UNOPS)         6.9 million
                            Total costs                                              $73.2 million
Audit Period:               September 2002 to October 2004
Funding:                    At the time of audit, USAID had obligated $73 million for the six
                            implementing partners.

Background—Summary of Findings

As of October 31, 2004, program activities were well behind schedule. For example, at the
conclusion of audit fieldwork, only 91 of the 300 schools and clinics (30 percent) were completed.
Additionally, no more than 328 of the 533 (62 percent) were anticipated to be completed by the end
of the calendar year. Further, mission officials estimated that not all 533 schools and clinics would
be completed until August 2005, at the earliest. Accomplishments as of October 31, 2004, were as
follows:

                                                         On Schedule        Total       Percentage
                   Buildings To Be      Completed at
 Implementing                                               To Be        Completed      Completed
                    Completed by          Time of
   Partner                                               Completed          or on          or on
                      12/31/04             Audit
                                                         by 12/31/04      Schedule       Schedule
 CHF                       59                 3                0              3              5
 IOM                      215                 54               64            118            55
 LBGI                     105                 15               74             89            85
 SFL                      57                  0               46             46             81
 UMCOR                     24                  0               15             15            63
 UNOPS                     73                 19              38             57             78
 Total                    533                 91              237            328            62


Recommendations—Management Decisions

The audit made three recommendations:

1. USAID should finalize an alternative implementation plan with timeframes for the uncompleted
   portion of its school and clinic reconstruction program. The plan should include measures to
   strengthen the capabilities of the Transitional Islamic State of Afghanistan’s Ministries of
   Education and Health to contract for and manage construction projects.




                                                   209
    The recommendation was closed on January 17, 2006, after USAID finalized an acceptable plan.

2. USAID should require that all of its school and clinic implementing partners and their
   subcontractors use the IRD method for calculating the percentage of completion for a school or
   clinic.

    USAID notified implementing partners and contractors at a biweekly meeting of the requirement to use the
    IRD method of calculating the percentage of completion. This IRD method was used during the period July
    2004 through February 2005. Subsequently, the IRD method was revised and received concurrence by the
    implementing partners and contractors. This recommendation is closed.

3. USAID should regularly merge the percent of completion data for each school and clinic from
   IRD’s database into its own database to use as a tool for assessing the accuracy of the percent of
   completion data reported by implementing partners.

    Although it was not possible to merge the two systems because of information technology security reasons,
    each partner and ministry provide data biweekly to USAID that is selectively entered into the USAID
    master list archives for schools and clinics. This recommendation is closed.




                                                    210
            Afghanistan Performance Audits
                                   Fiscal Year 2004
         Audit of the Kabul to Kandahar Highway Reconstruction
               Activities Financed by USAID/Afghanistan’s
        Rehabilitation of Economic Facilities and Services Program
                            (No. 5-306-04-006-P)
Date:                              September 21, 2004
Implementing Partner:              Louis Berger Group, Inc. (LBGI)
Audit Period:                      August 2003 to June 2004
Funding:                           At the time of audit, the reconstruction of the Kabul–Kandahar
                                   Highway was estimated to cost $269 million.

Background—Summary of Findings

The purpose of the Rehabilitation of                    kilometers from Kabul to Herat. In April
Economic Facilities and Services (REFS)                 2003, the U.S. Government assumed
Program was to promote economic recovery                responsibility for 389 kilometers of the
and     political   stability  by    repairing          Kabul–Kandahar Highway, starting 43
infrastructure. In September 2002, LBGI was             kilometers outside of Kabul and ending 50
awarded a contract to implement the                     kilometers before Kandahar.
program, including road reconstruction and
other infrastructure activities, with the               OIG found that the mission (1) generally had
contract base period ending December 2005.              checked the timeliness of reconstruction
At the time of audit, contract modifications            activities but had not fully monitored the
had increased estimated costs to $665 million.          quality of the road reconstruction, in part
Reconstruction of the Kabul–Kandahar                    because of security restrictions, and (2) had
segment of Afghanistan’s major east–west                not verified whether the contractor’s
highway was the largest activity being                  performance conformed to its contract.
implemented under the REFS Program. The                 According to LBGI, the following outputs had
east–west highway runs approximately 1,200              been achieved as of June 22, 2004.

 Reconstruction Outputs as of June 22, 2004                       Planned           Completed
 Paving a first layer of asphalt (Phase 1)                        389 km              359 km

 Paving a second layer of asphalt (Phase 2)                       389 km              310 km

 Paving a third layer of asphalt (Phase 2)                        389 km              117 km
 Completing six bridges (Phase 2)                                    6                   0




                                                  211
Recommendations—Management Decisions

The audit made two recommendations:

1. Develop a comprehensive monitoring plan to ensure quality, timeliness, and compliance with
   contract terms, including requiring the contractor to submit a comprehensive quality control
   and assurance program for USAID approval.

   The mission developed the recommended plan, which required site inspection teams to be present onsite on
   each section of road. The teams were also tasked with monitoring the quality control program of the
   contractor and preparing daily and weekly reports. In addition, the mission's project manager and quality
   assurance manager were to make semimonthly visits to the site. This recommendation is closed.

2. Perform an analysis of contractor claims to ensure that USAID does not pay for the defective
   roadwork.

   The mission identified deficiencies in the work of the contractor and had the contractor replace the defective
   work at the contractor's expense. This recommendation is closed.




                                                     212
                                                        
                 Audit of the Sustainable Economic Policy and
               Institutional Reform Support (SEPIRS) Program
                             at USAID/Afghanistan
                              (No. 5-306-04-005-P)

Date:                             August 17, 2004
Implementing Partner:             BearingPoint, Inc.
Audit Period:                     January 2003 to April 2004
Funding:                          As of April 30, 2004, the 3-year, $96 million contract had
                                  expenditures that totaled $28 million.

Background—Summary of Findings

In December 2002, USAID/Afghanistan                        consultants provided technical assistance to
awarded a contract to BearingPoint to carry                the Ministry of Commerce on activities such
out the SEPIRS Program. BearingPoint used                  as entering the World Trade Organization,
expatriate and local consultants to provide                developing exports, and organizing women
technical assistance to various ministries of              entrepreneurs.
the Transitional Afghan Authority.          For
example, under “fiscal reform,” consultants                OIG could not determine whether the
worked with the Ministry of Finance on                     SEPIRS Program was on schedule to achieve
activities such as establishing an efficient tax           planned results because the program had no
administration system and a budget planning                current work plan that contained expected
and reporting system. “Banking reform”                     accomplishments and milestones against
included not only strengthening the Central                which to measure progress. USAID had not
Bank but also working with it on activities                required the contractor implementing the
such as licensing and regulating banks and                 program to prepare quarterly work plans, even
maintaining        a       stable      currency.           though such work plans were required under
“Legal/regulatory reform” included activities              the contract. However, OIG found that
such as the drafting and passing of laws                   progress was being made and that USAID had
governing banking, taxation, property, and                 monitored the program in other ways.
natural resources. Under “trade reform,”

Recommendations—Management Decisions

The audit made one recommendation: USAID/Afghanistan should require BearingPoint to comply
with the SEPIRS contract by submitting quarterly work plans to USAID that include expected
accomplishments and milestones.

In July 2004, the contractor put in place a monitoring system that included updated work plans.
Further, USAID/Afghanistan provided a schedule of due dates for the quarterly work plans required
under the contract. USAID/Afghanistan submitted the most recent contractor work plan it had
approved in July 2004, as well as other detailed supporting documentation that illustrated additional
corrective actions to enforce contract requirements.

This recommendation was closed prior to the issuance of the audit report.




                                                   213
             Second Review of the Road Project Financed by
                  USAID/Afghanistan’s Rehabilitation of
            Economic Facilities and Services (REFS) Program
        (Regional Inspector General/Manila Memorandum 04-003)

Date:                           March 31, 2004
Implementing Partner:           Louis Berger Group, Inc. (LBGI)
Audit Period:                   Not applicable
Funding:                        $500 million

Background—Summary of Findings

The Rehabilitation of Economic Facilities and          December 31, 2003. Phase 2 envisioned
Services (REFS) Program was intended to                completing the road by widening it to 12
promote economic recovery and political                meters (including two 2.5-meter wide
stability by repairing infrastructure.      In         shoulders), and adding three additional layers
September 2002, LBGI was awarded a $143                of asphalt for a total of four layers, 31
million contract to implement the REFS                 centimeters thick, by October 2004.
Program, including road reconstruction and             However, LBGI’s implementation plan dated
other infrastructure activities, with the              January 30, 2004, revised the road design of
contract base period ending December 31,               the completed road to only three layers of
2005. At the time of the audit, contract               asphalt, totaling 25 centimeters. LBGI made
modifications had increased estimated costs to         this change because load-bearing tests
$500 million. In April 2003, the U.S.                  indicated that 6 centimeters of asphalt could
Government assumed responsibility for 389              be eliminated without compromising road
kilometers of the road project, starting 43            durability. As a result of this change and the
kilometers outside of Kabul and ending 50              elimination of certain contingency costs, the
kilometers before Kandahar. After assuming             road, although estimated in May 2003 to cost
responsibility for the Kabul–Kandahar                  as much as $273 million, was later estimated
segment, the U.S. Government tasked USAID              to cost $229 million.
with reconstructing the 389-kilometer
highway. In response, LBGI developed and               OIG conducted fieldwork to report on the
USAID approved a two-phased strategy.                  progress of the road project during January
                                                       2004. The results are described below.
Phase 1 of the Kabul–Kandahar Highway was
to be completed by December 31, 2003.                  USAID/Afghanistan reported that LBGI met
USAID reported that, for all 389 kilometers            the phase 1 goal of paving 328 kilometers of
of the Kabul–Kandahar Highway, either the              the 389-kilometer road project with at least
surface had been paved with a single layer of          one layer of new asphalt and repairing the
new asphalt up to 10 centimeters thick or              remaining 61 kilometers by December 31,
existing asphalt had been repaired.                    2003, as planned. However, reconstruction of
                                                       six bridges along the Kabul–Kandahar
The phase 1 goal under the strategy included           Highway, also included in phase 1, was not
completing a 9-meter-wide road (including              completed by the end of December 2003 as
two 1-meter wide shoulders) that had at least          planned. LBGI estimated at the time that the
one layer of asphalt, 10 centimeters thick, on         bridges were over 50 percent complete and
the driving surface for all 389 kilometers by          cited security incidents and logistical problems


                                                 214
for the delays in their completion. Although            At the time of this review, although winter
most phase 2 reconstruction was not                     weather had prevented most phase 2
scheduled to begin until the spring of 2004,            operations from beginning, LBGI reported
some work was already under way. For                    that 93 kilometers of the Kabul–Kandahar
example, timeframes for completing phase 2              Highway had already been paved with a
had been developed, and subcontractors had              second layer of asphalt as of February 23,
begun paving a second layer of asphalt. In              2004. Additionally, subcontractors were able
addition, 93 of the 389 kilometers had                  to do some work on widening highway
reportedly already been paved with a second             shoulders,     building    culverts,    and
layer of asphalt. USAID and LBGI officials              reconstructing bridges.
stated they were on schedule to complete the
Kabul–Kandahar Highway by October 2004.

Recommendations—Management Decisions

Mission officials stated that the contents of this memorandum were generally consistent with their
knowledge of the project and mission files. However, they commented that the road design had not
been changed to reduce the number of layers of asphalt from four to three as the OIG reports. The
officials claimed that the road design still requires four layers of asphalt: two base layers, one binder
course, and one wearing course. However, as noted on page 3 of this memorandum, LBGI’s
implementation plan dated January 30, 2004, revised the road design to delete the binder course.
This reduction in the number of layers was confirmed by LBGI’s project manager, who stated that
the current road design calls for two base layers and one wearing course layer. Consequently, OIG
did not change the number of layers in this report from three to four, as suggested by the mission,
since both the January 2004 implementation plan and project manager’s comments seem to support
three layers. There was, however, no disagreement as to the total thickness of asphalt required.
Nevertheless, OIG recommended that the mission discuss with LBGI this apparent inconsistency in
the required number of layers.




                                                  215
                 Review of the Road Project Financed by
                          USAID/Afghanistan’s
                Rehabilitation of Economic Facilities and
                        Services (REFS) Program
        (Regional Inspector General/Manila Memorandum 04-002)
Date:                             November 13, 2003
Implementing Partner:             Louis Berger Group, Inc. (LBGI)
Audit Period:                     August and October 2003
Funding:                          $284 million

Background—Summary of Findings

The Rehabilitation of Economic Facilities and
Services (REFS) Program was intended to                      • Hired four subcontractors from India
promote economic recovery and political                      and Turkey.
stability by repairing infrastructure, including             • Mobilized heavy equipment, rock-
a major road reconstruction project.                         crushing plants, and asphalt-mixing
                                                             plants.
After assuming responsibility for the Kabul–                 • Deployed security teams to patrol
Kandahar segment of the road project, the                    construction zones and camps.
U.S. Government tasked USAID with                            • Located, imported, and processed
reconstructing the 389-kilometer highway. In                 supplies.
response, LBGI developed and USAID                           • Collaborated with the United
approved a two-phased strategy to accelerate                 Nations to expedite the clearing of mines.
the reconstruction. The strategy set a first-
phase goal of completing a 9-meter-wide road             Nevertheless, in September 2003, USAID
(including two 1-meter-wide shoulders) that              officials said that asphalt-paving activities were
had at least one layer of asphalt 15                     about 4 weeks behind the schedule set in
centimeters thick on the driving surface for all         April 2003, due in part to demining security
389 kilometers by December 31, 2003.                     incidents. As of November 1, 2003, LBGI
Because of the accelerated reconstruction                reports showed that 222 kilometers of road
schedule, the estimated cost to complete all             had been paved to a 10-centimeter depth.
phases of the Kabul–Kandahar Highway
                                                         Barring unforeseen problems, USAID officials
reconstruction had risen to nearly $284
                                                         stated that they planned to have the 389
million (including, according to the mission,
                                                         kilometers paved to this depth by the end of
$40 million for contingencies).
                                                         December 2003, excluding 68 kilometers of
                                                         existing pavement that only needed repair, as
To report on the progress of the road project,
OIG traveled to Afghanistan in August and                USAID stated in its management comment.
October      2003.       Officials    reviewed
documentation from the mission and LBGI,                 Problems had delayed the project’s progress:
interviewed      officials,     and     visited
reconstruction sites. Despite the complexity                 •   Security incidents increased.
of    the    road     project,     LBGI    and               •   The area had to be demined.
USAID/Afghanistan had accomplished the
following:


                                                   216
    •   Almost none of the equipment and                 •   The onset of winter weather might
        materials needed to construct a road                 affect LBGI’s ability to achieve the
        were available locally.                              accelerated goals.
    •   Some equipment and materials being
        brought into the country had been
        detained by neighboring country
        customs authorities.

Recommendations—Management Decisions

OIG recommended that LBGI maintain a detailed, updated implementation plan for its REFS
activities. According to its contract, LBGI was to prepare an implementation plan within 30 days of
arrival in Afghanistan and updated plans by the end of every January to ensure that all REFS
activities—including the road project—would be completed on time and within budget. The contract
required that the plan be flexible to respond to changes in the number, type, and location of REFS
activities. LBGI prepared an initial plan in December 2002. However, LBGI did not update its
December 2002 implementation plan to reflect changes made to the road reconstruction schedule
through December 2003 or beyond.

LBGI issued an updated implementation plan for its REFS activities on January 30, 2004.        This
recommendation is closed.




                                               217
218
            Afghanistan Performance Audits
                                  Fiscal Year 2003

                        Risk Assessment of Major Activities
                         Managed by USAID/Afghanistan
                               (No. 5-306-03-001-S)

Date:                             March 11, 2003
Implementing Partner:             N/A
Audit Period:                     N/A
Funding:                          N/A

Background—Summary of Findings

The Afghanistan Freedom Support Act of                   personnel.        USAID/Afghanistan’s own
2002 authorized $1.7 billion over 4 fiscal               assessment      identified      three   material
years (beginning with FY 2003) for economic,             weaknesses in its system of management
humanitarian, and development assistance to              controls, all of which are related to the
Afghanistan.                                             country’s difficult security situation:

To prioritize OIG workload and determine                 1. Unsuitable working and living conditions.
what type of audit coverage would be                     2. Inability to readily travel to project sites.
appropriate for each individual activity being           3. Retention of personnel and delays in the
funded and managed by the mission, OIG                   assignment of personnel.
performed         risk     assessments      of
USAID/Afghanistan’s operations as a whole                In assessing overall risk, OIG reviewed the
and of activities planned.                               mission’s own candid assessment of risk,
                                                         which it had undertaken to meet the annual
OIG assessed the overall risk related to                 certification requirement of the Federal
USAID/Afghanistan’s ability to manage                    Managers’ Financial Integrity Act of 1982.
assistance activities. The overriding constraint         OIG—and the mission’s own assessment—
to managing assistance activities in                     concluded that, overall, the risks were high for
Afghanistan was the tenuous security situation           program      goals   not     being     attained,
in the country. Because of security concerns,            noncompliance with laws and regulations,
travel within and particularly outside of Kabul          inaccurate reporting, and illegal or
was heavily restricted. Most U.S. direct hires           inappropriate use of assets or resources.
were required to live and work in the U.S.
Embassy compound, and approval was                       Generally, the risks associated with the three
required for all trips outside its walls. For            material weaknesses were amplified by (1) the
trips outside of Kabul, approval was                     magnitude of the funding being provided to
contingent upon taking along at least two                Afghanistan, (2) the pressure to implement
vehicles and two armed U.S. military                     activities in extremely short timeframes, (3)
                                                         the lack of stable host government


                                                   219
institutions, and (4) the pervasiveness of               ability to achieve objectives was significantly
corruption and lawlessness in the country—               impaired—as well as its ability to obtain,
not to mention the presence in-country of                report, and use reliable and timely
some 5 to 7 million mines.                               information for decision making.            The
                                                         mission also reported that, as a result of these
The mission reported that because of the                 weaknesses,      statutory    or     regulatory
three material weaknesses it had identified, its         requirements could be violated.

Recommendations—Management Decisions

While USAID/Afghanistan proposed a number of corrective actions for the material weaknesses it
had identified, most of these proposals were not entirely within its control. Many were under the
control of the U.S. Embassy in Kabul—especially those relating to working and living arrangements.
However, USAID/Afghanistan was exploring the possibility of obtaining its own building and its
own employee residences.

OIG agreed that each of these weaknesses presented a challenge for the mission and for the achievement of
program objectives. Although the mission had proposed corrective actions for the material weaknesses it
identified, most of the proposals would require the support of the U.S. Embassy in Kabul.




                                                   220
                                  Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                            Program Integrity (PI)
 Case                                                                                                                      Savings and     Department of Justice
         Law Enforcement          Source                      Allegation                Status   or Employee Integrity                                                                  Results
Number                                                                                                                    Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                  (EI)

                                                      Improper use/diversion of
A03101                       USAID employee                                             Closed             EI                                                                     Employee reprimand
                                                    government property/personnel

A04031                           Contractor                   False claim               Closed             PI
A04083                       USAID employee            Bribery/gratuity/kickback        Closed             PI                                                                Contract employee termination

A04144                           Contractor               Conflict of interest          Closed             EI

                                                    Reciprocal fraud/procurement                                                                1 civil referral,
A04147                       USAID employee                                             Closed             EI              $11,275,000                                          Savings, declinations (2)
                                                            investments                                                                       1 criminal referral

A05041                             Other             Theft of government property       Closed             PI                 $4,000                                            Administrative recovery

A05042                             Other                      False claim               Closed             PI                $46,670                                            Administrative recovery

A05052                       USAID employee          Theft of government property       Closed             PI

A05083                             Other                      False claim               Closed             PI

A06002                       USAID employee              Intimidation/extortion         Closed             PI

A06003                           Unknown                      False claim               Closed             PI

                                                                                                                                                                       Arrests (6), indictments (8), convictions (5),
                                                        Conspiracy; false claim;
                                                                                                                                               1 civil referral,    debarments (5), contract termination with savings
L05046   LA-MA-08-0005-I         Contractor         obstruction of justice; wire/mail   Open               PI              $27,057,074
                                                                                                                                             5 criminal referrals     of $24,055,074, restitution of $3,000,000 and
                                                                 fraud
                                                                                                                                                                                      fines of $2,000

L07023                       USAID employee           Pay and allowance matters         Closed             EI                                                                    Employee resignation

                                                                                                                                                                        Savings, bills of collection: $612,870;
                                                                                                                                                1 civil referral,
L07089   LA-MA-08-0004-I        Anonymous                     False claim               Closed             PI              $22,155,361                                $11,500,000; $2 million; $22,392; $40,053;
                                                                                                                                              1 criminal referral
                                                                                                                                                                                $7,480,046; $500,000

L07090                           Unknown               Bribery/gratuity/kickback        Closed             EI

L07093                            Walk-in                  Collusive bidding            Closed             PI                                                                    Employee termination

L08002                             Other                      False claim               Closed             PI

O03007                           Proactive                     Proactive                Closed             PI

          LA-KA-09-0197-I        Contractor                Collusive bidding            Open               PI                                 1 criminal referral

         LA-H0-08-0175-R    Congressional inquiry           Program fraud               Closed             PI

         LA-H0-09-0034-G        Anonymous                   Program fraud               Closed             PI

          LA-H0-09-0177-I       Case spinoff           Bribery/gratuity/kickback        Open               PI                                 1 criminal referral      Arrest, indictment, conviction, debarment




                                                                                                  221
                                 Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                   Program Integrity (PI)
 Case                                                                                                             Savings and     Department of Justice
         Law Enforcement         Source                  Allegation            Status   or Employee Integrity                                                               Results
Number                                                                                                           Recoveries ($)   Civil/Criminal Actions
         Records System                                                                         (EI)
         LA-KA-09-0201-I      Private citizen           Program fraud          Closed             PI                                   1 civil referral

         LA-KA-10-0005-I      Private citizen           Program fraud          Closed             PI

         LA-KA-10-0006-I      Private citizen           Program fraud          Closed             PI

         LA-KA-10-0011-G    USAID employee         Bribery/gratuity/kickback   Closed             PI

         LA-KA-10-0032-G    USAID employee         Bribery/gratuity/kickback   Closed             PI

         LA-KA-10-0035-I        Contractor         Bribery/gratuity/kickback   Closed             PI

         LA-KA-10-0039-I    Former contractor           Program fraud          Closed             PI

         LA-KA-10-0057-G      Private citizen      Bribery/gratuity/kickback   Closed             PI

                                                                                                                                                           Contract employee terminations (22), savings
         LA-KA-10-0062-I    Former contractor      Bribery/gratuity/kickback   Open               PI                $200,598
                                                                                                                                                           $81,524, debarments (22), recovery $119,074

         LA-KA-10-0071-I         IG/Audit                    Theft             Open               PI                                 1 criminal referral

         LA-KA-10-0074-G       Anonymous                Program fraud          Closed             PI

         LA-KA-10-0078-R      Private citizen         Conflict of interest     Closed             PI

         LA-KA-10-0079-R   Contractor employee          Program fraud          Closed             PI

         LA-MA-08-0097-G    USAID employee          Procurement integrity      Closed             EI

         LA-MA-08-0106-G    USAID employee                 Extortion           Closed             PI

         LA-MA-08-0107-G   Other agency referral       False statement         Closed             PI

         LA-MA-08-0159-I    USAID employee            Collusive bidding        Closed             PI

         LA-MA-08-0169-R      Private citizen           Program fraud          Closed             PI

         LA-MA-08-0178-I    USAID employee              Program fraud          Closed             PI

                                                                                                                                                            Resignation, contract terminations (4) with
         LA-MA-08-0179-I       Anonymous           Bribery/gratuity/kickback   Closed             PI                $509,554                               savings of: $51,551; $14,533; $433,270; and
                                                                                                                                                                   $10,200; Afghan declination

         LA-MA-09-0021-R   Confidential source          Program fraud          Closed             PI




                                                                                         222
                                   Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                           Program Integrity (PI)
 Case                                                                                                                     Savings and     Department of Justice
         Law Enforcement           Source                      Allegation              Status   or Employee Integrity                                                                   Results
Number                                                                                                                   Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                 (EI)

         LA-MA-09-0024-G        Private citizen               Program fraud            Closed             PI


         LA-MA-09-0031-I         Case spinoff                     Theft                Closed             PI

                                                                                                                                             1 criminal referral,   Contract employee removed, contract terminated
         LA-MA-09-0065-I         Anonymous              Bribery/gratuity/kickback      Closed             PI              $29,300,000
                                                                                                                                               1 civil referral      with savings, declination, savings $29,300,000

         LA-MA-09-0073-I          Contractor            Bribery/gratuity/kickback      Closed             PI                                                                 Contract employee termination

                                                                                                                                                                    Personnel suspension, bill of collection, recovery,
         LA-MA-09-0078-I     Self-initiated; spinoff         False statement           Closed             PI                 $1,217
                                                                                                                                                                              systemic change; $671; $546

         LA-MA-09-0079-G         Anonymous              Bribery/gratuity/kickback      Closed             PI

         LA-MA-09-0104-I     Self-initiated; spinoff           Conspiracy              Closed             PI

                                                                                                                                                                      Arrests (2), indictments (2), convictions (2),
         LA-MA-09-0121-I          Contractor            Bribery/gratuity/kickback      Closed             PI              $62,030,589        2 criminal referrals    debarments (2), employee termination, contract
                                                                                                                                                                           cancellation, savings $62,030,589

         LA-MA-09-0124-I        Private citizen            Conflict of interest        Open               PI

                                                                                                                                                                       Arrest, debarment, indictment, conviction;
         LA-MA-09-0136-I         Anonymous                    Program fraud            Closed             PI                $78,926          1 criminal referral
                                                                                                                                                                                   restitution $78,926

         LA-MA-09-0161-G     Other agency referral            Program fraud            Closed             PI

         LA-MA-09-0164-I          Contractor                  Program fraud            Open               PI

                                                                                                                                             1 criminal referral,
         LA-MA-09-0166-I      USAID employee                   False claim             Open               PI                                                                           Declination
                                                                                                                                               1 civil referral

         LA-MA-09-0168-I     Other agency referral                Theft                Closed             PI                                 1 criminal referral                       Declination

         LA-MA-09-0140-G        Private citizen                Conspiracy              Open               PI

         LA-MA-10-0013-I      USAID employee               Conflict of interest        Open               PI

         LA-MA-10-0063-G      USAID employee               Conflict of interest        Closed             PI

          LA-KA-10-0093-I        Anonymous                     False claim             Closed             PI

          LA-KA-10-0100-I   Outside agency referral    Bribery/gratuities/ kickbacks   Closed             PI

          LA-KA-10-0105-I     USAID employee           Bribery/gratuities/ kickbacks   Closed             PI

          LA-KA-10-0130-I          OIG audit                  Program fraud            Closed             PI




                                                                                                 223
                                     Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                             Program Integrity (PI)
 Case                                                                                                                       Savings and     Department of Justice
         Law Enforcement             Source                      Allegation              Status   or Employee Integrity                                                                  Results
Number                                                                                                                     Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                   (EI)
         LA-KA-10-0142-I    Former contractor employee            False claim            Closed             PI
         LA-KA-10-0156-I        USAID employee                Conflict of interest       Closed             PI

         LA-KA-10-0189-I       Confidential source       Bribery/gratuities/ kickbacks   Closed             PI                                 2 criminal referrals

          LA-H0-10-0125-I      Other agency referral            Program fraud            Open               PI
         LA-KA-10-0099-G        USAID employee                  Program fraud            Closed             PI

         LA-KA-10-0103-G          Private citizen        Bribery/gratuities/ kickbacks   Closed             PI

         LA-KA-10-0109-G          Private citizen              False statement           Closed             PI

         LA-KA-10-0124-G       Other agency referral     Bribery/gratuities/ kickbacks   Closed             PI

         LA-KA-10-0132-I       Other agency referral     Bribery/gratuities/ kickbacks   Closed             EI


         LA-KA-10-0140-G       Contractor employee       Bribery/gratuities/ kickbacks   Closed             PI


         LA-KA-10-0141-G          Private citizen               Program fraud            Closed             PI

         LA-KA-10-0153-G       Other agency referral           False statement           Closed             PI

         LA-KA-10-0162-R          Private citizen               Program fraud            Closed             PI

         LA-KA-10-0164-G          Private citizen               Program fraud            Closed             PI

         LA-KA-10-0193-R          Private citizen               Program fraud            Closed             PI

         LA-KA-10-0203-I        USAID employee            Conflict of interest/ethics    Closed             EI

         LA-KA-10-0209-I        Confidential source       Bribery/gratuity/kickback      Open               EI                                 1 criminal referral    Employee termination (1), suspension, indictment

         LA-KA-10-0214-R       Contractor employee            Computer crimes            Open               EI

         LA-KA-10-0225-G       Contractor employee                 Extortion             Closed             PI

         LA-KA-10-0242-I       Contractor employee          Theft/wire/mail fraud        Open               EI                $20,000

         LA-KA-10-0275-I      Other agency employee      Collusive bidding/false claim   Closed             PI




                                                                                                   224
                                      Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                               Program Integrity (PI)
 Case                                                                                                                         Savings and     Department of Justice
         Law Enforcement              Source                        Allegation             Status   or Employee Integrity                                                    Results
Number                                                                                                                       Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                     (EI)
         LA-KA-10-0285-G    Confidential source/Informant    Conflict of interest/ethics   Closed             EI
         LA-KA-10-0297-I        Contractor employee               Program fraud            Open               PI               $9,900,000                               Savings $9,900,000

         LA-H0-10-0118-G           Private citizen          Bribery/gratuities/ kickback   Closed             PI

         LA-H0-10-0126-G        Other agency referral             Program fraud            Closed             PI
         LA-H0-10-0151-R           Private citizen                Program fraud            Closed             PI
         LA-H0-10-0155-R           Private citizen           Conflict of interest/ethics   Closed             PI
         LA-H0-10-0160-G           Private citizen              Conflict of interest       Closed             PI
         LA-H0-10-0186-G           Private citizen                Program fraud            Closed             PI
         LA-H0-10-0201-R           Private citizen              Conflict of interest       Closed             PI
         LA-H0-10-0261-I           Private citizen                False statement          Closed             EI
         LA-KA-10-0319-R               GAO                        Program fraud            Closed             PI                                                          Debarment (2)
         LA-KA-10-0291-R           Private citizen                Program fraud            Closed             PI
         LA-KA-11-0015-I               Audit                       False claim             Closed             EI                                                            Reprimand
         LA-H0-11-0008-I             Contractor                       Theft                Closed             PI
         LA-KA-11-0018-I           Private citizen                Program fraud            Open               PI
          LA-H0-11-0045-I          Private citizen                Program fraud            Open               PI
          LA-H0-11-0043-I         USAID employee                  False statement          Open               PI                                                            Debarment
         LA-KA-11-0055-I            Anonymous                       False claim            Closed             PI
                                                                                                                                                 1 criminal referral,
          LA-H0-11-0056-I       Self-initiated; spinoff           Program fraud            Open               PI                                                            Declination
                                                                                                                                                   2 civil referrals
         LA-KA-11-0024-G           Private citizen                Program fraud            Closed             PI
         LA-KA-11-0030-I             Contractor              Bribery/gratuity/kickback     Closed             PI
          LA-H0-11-0040-I          Private citizen                Program fraud            Open               PI
         LA-H0-11-0068-G             Contractor                   Program fraud            Closed             PI
         LA-H0-11-0072-G           Private citizen                Program fraud            Closed             EI
         LA-KA-11-0089-I          USAID employee                  Program fraud            Open               EI
         LA-KA-11-0090-G             Contractor                   Program fraud            Open               PI
         LA-KA-11-0074-R             Contractor                   Program fraud            Open               PI
          LA-H0-11-0009-I             Proactive                   Program fraud            Open               PI
                                                            Bribery/gratuity/kickback,
         LA-KA-11-0079-I           Private citizen                                         Closed             PI                                                        Removal/termination
                                                                conflict of interest
         LA-KA-11-0138-R             Contractor                  False statement           Open               PI                                                        Removal/termination
         LA-KA-10-0296-G             Contractor                 Conflict of interest       Closed             PI
         LA-KA-10-0312-I            Anonymous                     Program fraud            Open               EI
         LA-KA-11-0022-G           Private citizen               Program fraud             Closed             PI
                                                            Bribery/gratuity/kickback,
         LA-KA-11-0114-G            Anonymous                                              Closed             EI
                                                            conflict of interest/ethics
         LA-KA-10-0287-G                Audit                      False claim             Closed             EI
          LA-H0-10-265-R           Private citizen                Program fraud            Closed             PI




                                                                                                     225
                                     Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                                Program Integrity (PI)
 Case                                                                                                                          Savings and     Department of Justice
         Law Enforcement             Source                         Allegation              Status   or Employee Integrity                                                              Results
Number                                                                                                                        Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                      (EI)
          LA-H0-10-293-R          Private citizen                 Program fraud             Closed            PI
         LA-KA-11-0140-I          Private citizen            Bribery/gratuity/kickback      Open               PI
         LA-KA-11-0152-I          Private citizen                 Program fraud             Open               PI
                                                           False claim, false statement,
         LA-KA-11-0166-I        USAID employee                                              Open               PI
                                                               program fraud, theft
         LA-KA-11-0129-I   Confidential source/informant    Bribery/gratuity/kickback       Open               PI
         LA-KA-10-0262-I        USAID employee               Conflict of interest/ethics    Closed             PI
         LA-KA-11-0189-I          Private citizen                      Theft                Open               PI                                                                 Removal/termination
         LA-KA-11-0195-I       Contractor employee                Program fraud             Open               PI
                                                            Bribery/gratuity/kickback;
         LA-KA-11-0182-I       Contractor employee                                          Open               PI
                                                            conflict of interest/ethics
                                                            Bribery/gratuity/kickback;
         LA-KA-11-0183-I       Contractor employee                                          Open               PI
                                                                   conspiracy
                                                             Bribery/gratuity/kickback,
                                                             conflict of interest/ethics,
         LA-KA-11-0185-I       Contractor employee                                          Open               PI
                                                            conspiracy, false statement,
                                                             Procurement Integrity Act
         LA-KA-11-0174-I       Contractor employee           Bribery/gratuity/kickback      Open               PI

         LA-KA-11-0210-G       Contractor employee           Conflict of interest/ethics    Closed             EI
         LA-KA-11-0211-I        USAID employee               Conflict of interest/ethics    Open               EI

         LA-KA-11-0212-R   Former contractor employee        Conflict of interest/ethics    Closed             PI

         LA-KA-11-0215-G           Anonymous                 Conflict of interest/ethics    Closed             EI
                                                            Bribery/gratuity/kickback,
                                                                                                                                                                        Savings $105,000;termination of contract,
         LA-KA-11-0197-I       Contractor employee          conflict of interest/ethics,    Open               PI                $105,000
                                                                                                                                                                                  removal/termination
                                                                    conspiracy
                                                            Bribery/gratuity/kickback;
         LA-KA-11-0179-1       Contractor employee                                          Open               PI
                                                            conflict of interest/ethics

                                                             Bribery/gratuity/kickback,
                                                             conflict of interest/ethics,
         LA-KA-11-0176-I       Contractor employee                                          Open               PI
                                                           conspiracy, collusive bidding,
                                                             program fraud, extortion

         LA-KA-11-0115-I   Former contractor employee                  Theft                Open               PI
         LA-KA-11-0225-I       Other agency referral              Program fraud             Open               PI
                                                            Bribery/gratuity/kickback;
         LA-KA-11-0240-I       Contractor employee          conflict of interest/ethics,    Open               PI                $40,005                                Recovery $40,005; Removal/termination
                                                                  program fraud

                                                            Bribery/gratuity/kickback;
         LA-KA-11-0267-I          Private citizen                                           Open               PI
                                                           collusive bidding;conspiracy

         LA-KA-11-0275-I           Case spinoff                   False statement           Open               PI




                                                                                                      226
                                      Afghanistan Investigative Case Work and Fraud Prevention Briefings
             Criminal                                                                                        Program Integrity (PI)
 Case                                                                                                                                    Savings and     Department of Justice
         Law Enforcement              Source                              Allegation                Status   or Employee Integrity                                                 Results
Number                                                                                                                                  Recoveries ($)   Civil/Criminal Actions
         Records System                                                                                              (EI)
                                                                Conflict of interest; conspiracy;
         LA-KA-11-0274-I            Contractor                  false statement; program fraud;     Open               PI
                                                                      theft; wire/mail fraud
                                                                 False claim; false statement;
         LA-KA-11-0281-I            Contractor                                                      Open               PI
                                                                        program fraud
         LA-KA-11-0284-P           Private citizen                      False statement             Open               PI

         LA-KA-11-0286-G           Private citizen                      Program fraud               Open               PI
         LA-KA-11-0264-I           Private citizen                      Program fraud               Open               PI
                                                                    False claim; conflict of
         LA-KA-11-0280-I         USAID employee                                                     Open               PI                   $842                                  Savings $842
                                                                        interest/ethics
         LA-KA-11-0306-I            Contractor                               Theft                  Open               PI
         LA-KA-11-0319-G           Private citizen                      Program fraud               Open               PI
         LA-KA-11-0328-I            Contractor                          Program fraud               Open               PI
         LA-KA-11-0330-P           Private citizen                      Program fraud               Open               PI
         LA-KA-11-0342-G         USAID employee                   False claim; Program fraud        Open               PI
                                                                                                                                        $162,724,836

                                              FY 2011 Fourth Quarter Results                                            Cumulative Results*
                                           Cases opened                    14                                                   155
                                            Cases closed                   10                                                   93
                                           Cases pending                    4                                                   62
                                   Department of Justice
                                                                            0                                                    35
                                                 referrals
                                                   Arrests                  0                                                    10
                                     Indictments/criminal
                                      complaints/criminal                   0                                                    13
                                              Information
                                        Convictions/pleas                   0                                                      9
                                   Administrative actions                   1                                                     87
                              Fraud awareness briefings                     6                                                     90
                  Attendees at fraud awareness briefings                  147                                                   1,779
                                 *2003 through September 2011




                                                                                                              227
 




    228
 
                           Afghanistan
                    Investigative Summaries
                          Fiscal Years 2004–11
 Suspension of Afghan Construction Company with Connections
                   to Terrorist Organizations
Allegation

On September 30, 2010, International Relief and Development Incorporated (IRD) and USAID
OIG received information from the U.S. Army that it had detained and arrested the president of
Ashan Aman Construction Company (AACC) for supporting and facilitating Taliban attacks in
Kandahar, Afghanistan. After confirming AACC was a subcontractor on the USAID-funded
Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) program, USAID OIG worked
with the U.S. Army and the USAID Office of Security to confirm the company’s president was a
known insurgent sympathizer and material supporter.

Status

Based on the referral from USAID OIG, the company’s president and AACC were subsequently
debarred from any involvement with U.S. Government programs, effective May 25, 2011.


              Investigation Leads to $105,000 in Savings and
                   Termination of Subcontract by DAI

Allegation

A DAI procurement officer instructed his subordinate to contact companies bidding on
subcontracts under the RAMP UP EAST program in Afghanistan and request that they increase
their bids in order to cover the cost of a kickback to the DAI employees for awarding the
subcontract. Farid Construction Professional Company (FCPC) subsequently entered into an
agreement with the DAI employee to increase its bid to cover the cost of the kickback. In exchange
for this payment, FCPC would be awarded the contract.

Status

DAI terminated the employee on April 20, 2011. Because of these findings, DAI did not award the
contract to FCPC, resulting in a savings of $105,000.




                                               229
     Afghan Sentenced to Prison on Child Pornography Charges

Allegation

In April, 2011, an employee of DAI, (formerly known as Development Alternative Initiatives)
working on a project funded by the U.S. Agency for International Development (USAID), was
found guilty of child pornography and sentenced by an Afghan court to 1 ½ years in prison. DAI, a
U.S.-based corporation has a $36 million contract with USAID to implement the Afghanistan Small
and Medium Size Development program which is designed to promote small and medium size
businesses in Afghanistan. USAID OIG obtained and executed a U.S. Federal search warrant on
the employee’s computer which revealed clips of child pornography.

Status

The employee was terminated and arrested by Afghan authorities in January, 2011. The case was
prosecuted locally in Herat Province.


  Civil Settlement Related to Fraud in USAID-Funded Programs
                   in Afghanistan and Pakistan
Allegation

In June 2011, the Academy for Educational Development (AED) agreed to settle allegations that the
company submitted false claims to USAID in connection with two cooperative agreements under
which AED provided foreign assistance in Afghanistan and Pakistan.

Status

 Although certain terms of the settlement with the Department of Justice are contingent on future
events, AED has already paid $5,635,000 towards these claims and could potentially pay up to an
additional $15 million over the next three years. In the settlement agreement, the government
alleged that AED failed to ensure that its actions under these two cooperative agreements complied
with applicable regulations concerning competition in procurements, adherence to contract
specifications, and supervision of its subcontractors. The government further alleged that AED
failed to inform USAID that it had discovered defects in its internal control systems and that certain
AED subcontractors may have been involved in corruption and wrongful activities.


   USAID Contractor Debarred in Connection with Principal’s
   Misconduct and Lack of Adherence to Federal Regulations

Allegation

As the result of an OIG investigation, SERVCOR, a provider of security services, has been debarred
from contracting with the U.S. Government for 3 years. The debarment is based on the company’s


                                                 230
affiliation with United States Protection and Investigations (USPI), whose principals were
prohibited in 2008 from working with U.S. Government agencies for 3 years. The former
executives of USPI were convicted of conspiracy, major fraud, and wire fraud in connection with
USPI’s subcontract with the Louis Berger Group, Inc. (LBG), in the performance of USAID-funded
rebuilding efforts in Afghanistan.

In 2009, SERVCOR signed a $2.3 million contract with a company doing business with the U.S.
Army Corps of Engineers. The principals, through their management and control of the company,
continued to subcontract with organizations that had been barred from doing business with the
U.S. Government.

Status

During the period of debarment—in the absence of compelling reasons otherwise—federal agencies
may not award or renew contracts with SERVCOR nor may other Government contractors award
subcontracts to the company that exceed $30,000. SERVCOR will also be excluded from certain
federal assistance and benefits programs during the period of debarment.



           Australian Arrested for Accepting Bribe Related to
                 Construction Program in Afghanistan
Allegation

A senior construction manager working for an intergovernmental organization implementing a
$260 million project to build health and education facilities in Afghanistan was arrested by Indian
authorities and ultimately extradited to the United States to stand trial on bribery charges. The
contractor allegedly solicited a $190,000 bribe to allow an Afghan company to continue working on
USAID-funded subcontracts.

Status

The subsequent arrest was the culmination of an investigation and undercover operation conducted
by OIG and members of the International Contract Corruption Task Force.


     Two Louis Berger Group Employees Plead Guilty to Fraud
Allegation

LBG is a corporation that focuses on infrastructure engineering, environmental science and
economic development. USAID awarded large, multiyear, multi-million-dollar contracts to LBG,
most of which involved reconstruction efforts in Afghanistan.

An investigation spanning several years substantiated that, during the life of these contracts, high-
ranking employees of LBG manipulated overhead rates, submission of incurred costs, and corporate
salaries to overcharge the U.S. Government.



                                                231
Status

On November 5, 2010, two high-ranking LBG employees pleaded guilty to conspiracy to defraud
the U.S. Government. As part of the plea agreement, LBG agreed to a settlement, which resulted in
a reimbursement to the U.S. Government of $69 million. Sentencing for the two LBG employees is
pending.

                 Afghan Sentenced to Prison and Debarred
                         for Fraud against USAID

Status

A former finance coordinator for Associates for Rural Development (ARD) was found guilty of
embezzlement and falsification of tax records in connection with the theft of approximately
$200,000 from ARD. The company is the implementer of an $80 million contract under USAID’s
Local Governance and Community Development (LGCD) Program in Afghanistan.

The individual was sentenced to 7½ years in an Afghan prison, fined $160,000, and is now
prohibited from participating in procurement transactions with any federal government agency.
The individual’s 3-year debarment took effect January 2011.


         Ongoing Investigation Results in Multiple Debarments,
                Terminations, Savings, and Recoveries

Allegation

As a follow-up to OIG’s previous semiannual report, Development Alternatives Inc., a USAID
contractor managing a $349 million governance and community development project in
Afghanistan, has terminated 12 additional employees because of information revealed by ongoing
internal investigations being conducted in conjunction with OIG. USAID also debarred 22 former
employees of the implementing partner who were implicated in misconduct, including the
solicitation of kickbacks and conflicts of interest.

Status

To date, the investigations have resulted in the recovery of $119,074 and $81,524 in savings.




                                                232
                  Contractor Terminates 22 Employees for
                            Soliciting Kickbacks

Allegation

Employees of a USAID contractor allegedly approached owners of various companies bidding for
subcontracts and offered to help them win awards in exchange for a percentage of the total dollar
value of the project.

Status

Our investigation resulted in the termination of 22 of the contractor’s Afghan employees, including
several engineers and other staff members. OIG secured evidence that the employees were engaged
in schemes to defraud the U.S. Government and demanded kickbacks from local subcontractors.
After OIG brought the information to the contractor’s attention, the contractor terminated the
employees and prohibited them from future employment with the company.

OIG will recommend that the terminated employees be debarred from future U.S. Government
contracts. In addition, OIG has provided evidence to local authorities for prosecutorial
consideration.


         Afghan Citizen Arrested in Scheme to Defraud USAID

Allegation

An Afghan citizen was accused of embezzling nearly $193,000 while working as a finance
coordinator on a $229 million local governance program financed by USAID and implemented by
an American contractor.

Status

The individual was arrested by Afghan law enforcement authorities in May 2010. The defendant
was responsible for depositing into a local bank account the contractor’s monthly tax payments to
Afghanistan’s Ministry of Finance. When the Ministry reported that it had not received the
payments, an investigation was initiated. Law enforcement officials found that the bank deposit
slips the defendant had submitted to the contractor as proof of payment were fraudulent.


   Arrests Made and $62 Million Solicitation Canceled Following
          Investigation of Conspiracy to Solicit Kickbacks
Allegation

OIG initiated an investigation into an alleged conspiracy to sell privileged information in
connection with the award of a private security services subcontract to protect U.S. Government
personnel and contractors in Afghanistan. The subcontract was valued at more than $60 million.


                                               233
Status

The investigation identified three subjects who were involved in a conspiracy to solicit kickbacks
from private security vendors in return for favorable consideration for the awarding of subcontracts
in connection with USAID’s Afghanistan Infrastructure Rehabilitation Program. USAID, upon
learning of the full nature of the conspiracy, canceled the subcontract.

One of the co-conspirators, an Australian, voluntarily surrendered and was arrested upon entry into
the United States. The subject subsequently pleaded guilty on November 16, 2009, to one count of
conspiracy to solicit a kickback and received a 9-month prison sentence. The subject will be
deported after the conclusion of the sentence.

Another of the co-conspirators, an American, pleaded guilty on January 26, 2010, to one count of
aiding and abetting the solicitation of a kickback. The subject is free on bail awaiting sentencing,
scheduled for later this year.

A third coconspirator, an American, was sentenced on December 19, 2009, to 12 months and 1
day. The subject has reported to the Bureau of Prisons to commence the sentence.




Allegation   Savings Mount to $22 Million in OIG Investigation

Allegation

In August 2007, OIG initiated an investigation on the basis of an anonymous complaint that a
grantee linked to the United Nations Development Fund may have improperly drawn funds from a
USAID agreement. The organization, the UN Office for Project Services (UNOPS), reportedly
withdrew millions of dollars from its letter of credit after being notified that it could bill only
nominal closeout costs for projects it was implementing. The projects were alleged not to have been
completed as claimed, and others had defects and warranty issues that the organization would not
address.

Status

OIG uncovered many performance and financial control problems and potential violations of law.
Relying on a USAID letter of credit, UNOPS had transferred funds to and from a USAID project
systematically without USAID’s knowledge or consent. When asked to explain the transfers, the
organization refused to justify the use of the questioned funds. The investigation further cited poor
design and poor performance on construction projects and false reporting on projects. Some
projects were not completed, and others had defects and warranty issues, including some life-
threatening oversights. Projects had numerous design errors, repairs left undone, and equipment
and materials never installed that had been billed as completed. Savings and recoveries from this
investigation total more than $22 million thus far.




                                                234
                 Criminal Investigation Yields $24 Million in
                           Savings and Recoveries
Allegation

OIG received complaints of widespread fraud, waste, and abuse on the part of a primary USAID
contractor in Iraq and Afghanistan, United States Protection and Investigations (USPI), LLC.
Among the allegations were billing of the same labor costs to multiple contracts, inflation of rental
car receipts, and kickbacks to local officials. The security contracts were intended to support
USAID’s Rehabilitation of Economic Facilities and Services Program in Afghanistan.

Status

Following an investigation, a seven-count indictment was returned on September 30, 2008,
involving four individuals charged with conspiracy, major fraud, and wire fraud arising from a
scheme to defraud the United States in connection with the war and reconstruction efforts in
Afghanistan. The subcontractors defrauded USAID by obtaining reimbursement for inflated
expenses purportedly incurred for rental vehicles, fuel, and security personnel. These false invoices
inflated the amounts the contractor actually had paid for rental vehicles and fuel.

The co-owners of the security company pleaded guilty on September 9, 2009, to conspiracy, major
fraud, and wire fraud.               Their plea agreements require them to forfeit
$3 million in proceeds that can be traced to the fraud. Further, USAID realized additional savings
after the contract with USPI was canceled in March 2009.

The company and the other individuals charged have been suspended indefinitely from doing
business with the U.S. Government. One is serving a 2-year sentence in Kabul. The second
individual was placed on trial on March 20, 2010. A mistrial was declared, and the Department of
Justice is considering whether to retry the individual.

This case was investigated jointly by USAID/OIG, the Federal Bureau of Investigation, and the
National Procurement Fraud Task Force.

                     Employee Resigns When Investigation
                        Uncovers Conflicts of Interest

Allegation

OIG received an allegation that USAID employees were committing fraud in connection with the
purchase of supplies and services. One employee reportedly demanded kickbacks from a vendor
and conspired with a third-country national to inflate costs for bulletproof vests and helmets and
then share the profits. The allegation also claimed that two employees working for the first suspect
were paying him shares of money they had received fraudulently, and one was given unfair
advantage in the hiring process by being provided interview questions in advance.




                                                235
Status

A USAID employee responsible for purchasing equipment and supplies for the mission in
Afghanistan resigned after an investigation uncovered conflicts of interest and fraud. The employee
was found to be conducting business with people to whom he was personally connected, and he
produced false records from a nonexistent business as proof of various business transactions. Some
transactions were cancelled as a result of the investigation, saving USAID more than $500,000.


                         Inflated Claims for Medical Costs
                                Result in Resignation

Allegation

OIG received an allegation that a USAID employee was committing fraud by submitting vouchers
and being paid for the reimbursement of medicine and medical treatment that cost less than the
employee claimed. The allegation claimed that the employee had self-audited one such voucher, in
violation of USAID’s internal controls.

Status

The investigation substantiated the claims of the allegation, and the employee voluntarily resigned
after being suspended by USAID.



                 Employee Fired for Promoting Corruption

Allegation

OIG received allegations that a company responsible for building industrial parks in Afghanistan
was undertaking unfair and illegal procedures to award generator contracts, in collusion with a
USAID Foreign Service National (FSN) employee who was reportedly soliciting kickbacks in
exchange for future contracts.

Status

Investigators were unable to produce sufficient evidence to substantiate the allegations; however,
they did uncover other abuses in which the employee had been engaging, such as instructing friends
to lie on their applications to USAID and advising them that he would obtain the questions to be
asked in their interviews ahead of time. The FSN was subsequently fired.




                                               236
                      Subgrantee Bills Inappropriate Costs
                              to USAID Grantee
Allegation

Allegations were received that a subgrantee of a USAID prime grantee billed unallowable costs in
connection with a $128 million cooperative agreement to provide basic health care services,
including family planning and immunizations, throughout Afghanistan.

Status

The OIG investigation identified $80,000 in questioned costs given as vouchers to the grantee by its
subgrantee, more than $46,000 of which was determined unallowable and inappropriately billed to
USAID. As a result of the investigation, USAID issued a demand letter to the grantee to repay the
funds. The grantee then issued a credit to USAID for the amount in question.



                Investigation Results in Savings of $11 Million

Allegation

OIG received an allegation that a grantee, in order to win an award, had made misrepresentations
in its proposal pertaining to the status of an agreement with a subgrantee.

Status

The investigation verified that the representations were false, but because there was insufficient
evidence to prove intent, OIG could not secure prosecution. However, USAID terminated the
cooperative agreement for material noncompliance with the terms and conditions of the award,
leading to $11.2 million in savings for USAID.




                                                237
